SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                         SIGAR                  Special Inspector General for   OCT 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCT 30, 2011
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 4                                                                       QUARTERLY REPORT TO THE UNITED STATES CONGRESS
Cover Captions (clockwise from the left):
An Afghan police officer reads aloud from a
Pashtu-English dictionary as part of a literacy
program funded by U.S. reconstruction funds.
The goal of the Afghan National Police is for
all personnel to be literate by 2016.
(ISAF photo)

A medical team fixes a broken leg at the ANA
Regional Military Hospital at Camp Shaheen
in Balkh province. Members of Regional
Support Command–North and a Swedish
anesthesiologist provided operating room
support alongside Afghan medical personnel.
(U.S. Navy photo, Chief MC Michael Ard)

The governor of Kandahar stands in a
marijuana field on September 5 just before
it was destroyed. This quarter, interdiction
operations continued throughout the country,
including the largest-ever seizure of opium
and other narcotics by Afghan and coalition
forces on September 26 in Helmand
province. (ISAF photo)

Children cross a river on a newly constructed
bridge in Paktiya province on August 28.
Built by the Afghan government and the
Paktiya PRT, the 50-meter suspension bridge
gives neighboring villagers safe access to
                                                    An Afghan bread maker prepares to throw a slab of dough into an oven in Nawa,
the district center, clinic, religious school,
                                                  Helmand province. Bread makers work more than 10 hours a day to serve local police
and bazaar in Waze Zadran. (U.S. Air Force
                                                   precincts and patrol bases. They buy the flour from area farmers, who have greatly
photo, 1st Lt. Cammie Quinn)
                                                    benefited from the wheat seed distribution program run by the local government.
                                                                     (U.S. Marine Corps photo, Cpl Marco Mancha)
SIGAR                                      Special Inspector General for
                                           Afghanistan Reconstruction
                                                                                     OCT 30
                                                                                      2011




The National Defense Authorization Act for FY 2008 (P.L. 110-181)
established the Special Inspector General for Afghanistan
Reconstruction (SIGAR).

SIGAR’s oversight mission, as defined by the legislation, is to provide for the indepen-
dent and objective
• conduct and supervision of audits and investigations relating to the programs and
   operations funded with amounts appropriated or otherwise made available for the
   reconstruction of Afghanistan.
• leadership and coordination of, and recommendations on, policies designed to pro-
   mote economy, efficiency, and effectiveness in the administration of the programs
   and operations, and to prevent and detect waste, fraud, and abuse in such programs
   and operations.
• means of keeping the Secretary of State and the Secretary of Defense fully and
   currently informed about problems and deficiencies relating to the administration of
   such programs and operation and the necessity for and progress on corrective action.
Afghanistan reconstruction includes any major contract, grant, agreement, or other
funding mechanism entered into by any department or agency of the U.S. government
that involves the use of amounts appropriated or otherwise made available for the
reconstruction of Afghanistan.

Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.
      SIGAR RESULTS TO DATE
      AUDITS
     • 49 reports published, 11 audits ongoing
     • 149 recommendations made
     • Up to $67.9 million identified during FY 2011 in funds that should be returned to the U.S. government
     • 3 forensic audits under way of $39 billion in reconstruction funds managed by DoD, DoS, and USAID
JULY 30
 2011
      INVESTIGATIONS
       • $51 million recovered in FY 2011
       • 111 ongoing investigations, 68 involving procurement and contract fraud
       • 7 convictions, 9 indictments, 14 arrests
       • 54 referrals for suspension or debarment that have resulted in 3 finalized debarments, 6 suspensions, and
         45 proposals for debarments by the Army and USAID
       • 675 Hotline complaints received; 293 referred to SIGAR and other agency investigators




                                                    JOWZJAN                      KUNDUZ              BADAKHSHAN
                                                                  BALKH                    TAKHAR


                                                                    SAMANGAN
                                        FARYAB                                     BAGHLAN
                                                    SAR-E PUL                          PANJSHIR
                              BADGHIS                                                       NURISTAN
                                                                            PARWAN   KAPISA      KUNAR
                                                                  BAMYAN                 LAGHMAN
                                                                                  KABUL
                 HERAT                                                   WARDAK
                                                                                           NANGARHAR
                                        GHOR                                    LOGAR
                                                     DAYKUNDI
                                                                                           PAKTIYA
                                                                        GHAZNI                 KHOWST

                                                  URUZGAN
                   FARAH
                                                                                 PAKTIKA
                                                                ZABUL




                  NIMROZ                                                                                    Current SIGAR offices
                              HELMAND
                                               KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                                            audit and investigation work
                                            SPECIAL INSPECTOR GENERAL             FOR

                                            AFGHANISTAN RECONSTRUCTION


October 30, 2011

   I am pleased to submit SIGAR’s quarterly report to the Congress on the U.S. reconstruction effort in Afghanistan.
This report details SIGAR’s oversight activities and provides an update on the status of reconstruction programs
since our July 30, 2011 report.
   SIGAR investigators and auditors had a productive quarter. A SIGAR-initiated investigation resulted in the
successful prosecution of the largest bribery case from Afghanistan since the reconstruction effort began in
2002. SIGAR-supported investigations also led to two guilty pleas and five indictments and arrests of individuals
charged with bribery related to reconstruction contracts. In addition, SIGAR made 18 referrals to suspend and
debar individuals and companies working on U.S.-funded reconstruction projects. These referrals resulted in
6 suspensions and 12 proposals for debarment. SIGAR’s suspension and debarment program seeks to combat
procurement fraud and corruption in Afghanistan’s unique contracting environment.
   Since our last report to the Congress, SIGAR completed five audits, including assessments of the U.S. civilian
uplift, efforts to build Afghan capacity in the agricultural sector, and two large infrastructure projects for the Afghan
National Army. SIGAR made 13 recommendations to address problems we identified related to cost, capacity
building, program coordination, contract management, schedule delays, and sustainability.
   This quarter, Benjamin Piccolo joined SIGAR as the Assistant Inspector General of the Audit Directorate. Formerly
the Principal Deputy at the Army Audit Agency, Mr. Piccolo brings extensive audit and strategic planning experience
to SIGAR. He has already made a significant impact, identifying audits for FY 2012 that will address major areas of
concern, including private security contractors, capacity building, program evaluation, and contracting.
   This quarter ends a fiscal year of substantial change and growth for our agency. During the year, we published
17 audits containing 66 recommendations to improve the effectiveness and efficiency of U.S.-funded reconstruction
programs. Our auditors identified up to $67.9 million in funds that should be returned to the U.S. government,
and SIGAR supported investigations that recovered approximately $51 million. Next quarter, SIGAR will begin a
number of new initiatives, including conducting inspections of completed infrastructure projects to assess their
sustainability. We will also expand our investigative presence in Afghanistan, stationing Special Agents at regional
contracting centers across the country.
   None of this work would be possible without our dedicated staff, who often work under dangerous conditions.
This quarter, two of our audit teams received prestigious awards from the Council of Inspectors General on Integrity
and Efficiency for their excellent work in Afghanistan under difficult conditions this past year. Since January 2011,
we have brought 57 new employees on board, adding skills and expertise that will enable SIGAR to build on its
FY 2011 accomplishments. Together we have become a stronger agency, focused on detecting and deterring waste,
fraud, and abuse and ensuring the efficiency and effectiveness of the U.S. reconstruction effort.
   I look forward to working with the Congress as we enter this pivotal transition phase of the reconstruction effort
in Afghanistan.

Very respectfully,




Steven J Trent
Acting Special Inspector General for Afghanistan Reconstruction



                                     400 ARMY NAVY DRIVE   ARLINGTON, VIRGINIA 22202
                                   EXECUTIVE SUMMARY




SIGAR ACTIVITIES Q4, FY 2011
This quarter, a SIGAR-initiated investigation of the single largest bribery case in Afghanistan since
the war began 10 years ago resulted in a former U.S. Army reserve captain being sentenced to prison
and fined $315,000 for soliciting $1.3 million in bribes from contractors working on reconstruction
projects. In addition, SIGAR received two awards for excellence from the Council of the Inspectors
General on Integrity and Efficiency (CIGIE) for excellence in audit work.


Other SIGAR accomplishments during this reporting          MAIL Capacity
period included the following:                             SIGAR’s audit of U.S. programs to improve the
• completed 5 audits; initiated 2 audits, bringing the     institutional capacity of Afghanistan’s Ministry of
   number of ongoing audits to 11                          Agriculture, Irrigation, and Livestock (MAIL) found
• supported investigations that resulted in two            that because the U.S. government does not currently
   guilty pleas, and five indictments and arrests on       have the ability to assess and report on progress
   bribery charges                                         made toward building the MAIL’s capacity, it cannot
• referred 18 firms and individuals for suspension         evaluate whether the U.S. strategy for the ministry is
   and debarment                                           working and U.S. resources are properly aligned at
• opened 31 investigations, bringing the number of         the ministry. The report highlighted other problems,
   ongoing investigations to 111                           including insufficient integration and coordination
                                                           among programs at the national and provincial levels.
COMPLETED AUDITS                                           Developing the institutional capacity of the MAIL is
The five audits SIGAR completed this quarter               essential to better serve Afghan farmers and promote
assessed the civilian uplift in support of the U.S.        private-sector development in the agriculture sector.
reconstruction effort, capacity-building programs in
a key Afghan ministry, two infrastructure projects for     ANSF Infrastructure
the Afghan National Army, and a U.S. agency’s con-         Two of this quarter’s audits focused on the task orders
tract for private security services. At the request of     to build the Kabul Military Training Center (KMTC) and
that agency, which considered certain information in       the Afghan National Security University (ANSU). The
the audit report particularly sensitive, SIGAR did not     audits found that both of these projects, which are criti-
publicly release it.                                       cal to the development of the Afghan National Army,
                                                           cost more and took longer to complete than planned.
Civilian Uplift                                            The first two phases of the KMTC cost about $12.5 million
A joint audit conducted by SIGAR and the Department        more and took nearly two years longer than originally
of State Office of Inspector General found that the        planned. The ANSU cost about $21.3 million more
U.S. civilian uplift—a key element of the U.S. recon-      and is taking about 15 months longer than originally
struction strategy in Afghanistan—has cost nearly          planned. These audits underscored the challenge of
$2 billion to deploy about 720 additional civilian per-    sustaining completed infrastructure projects.
sonnel since 2009. The uplift faces serious challenges        In the four audits published this quarter, SIGAR
because of budget uncertainty and a lack of clarity        made 13 recommendations to address issues related
about the ultimate size of the U.S. civilian presence in   to cost, capacity building, program coordination, con-
Afghanistan going forward.                                 tract management, schedule delays, and sustainability.




                                      iv
                                   EXECUTIVE SUMMARY




INVESTIGATIONS                                              charged with bribery, fraud, and theft of government
During this reporting period, SIGAR investigators pro-      funds in connection with the award of a contract to
vided critical support in investigations that resulted in   provide services to the Provincial Reconstruction
one sentencing, two guilty pleas, and five indictments      Team in Farah. Two co-conspirators were indicted on
and arrests.                                                charges of mail fraud, wire fraud, conspiracy, bribery,
                                                            and theft of government property.
U.S. Military Reserve Officer Sentenced and
Ordered To Pay $315,000 in Restitution                      U.S. Army Warrant Officer Indicted for Bribery
On September 23, 2011, a U.S. District Court judge sen-     On August 4, 2011, a U.S. Army Special Forces
tenced Sidharth Handa to two concurrent sentences           warrant officer was indicted for soliciting $60,000
for soliciting more than $1.3 million in bribes and         in bribes for his assistance in finalizing a $500,000
conspiracy to distribute heroin. The judge also ordered     Department of Defense (DoD) reconstruction
Handa to pay a fine of $315,000, the amount that he and     contract. SIGAR conducted the investigation in coop-
his interpreter had received. SIGAR initiated the inves-    eration with other law enforcement agencies that
tigation of Handa, a former U.S. military reserve officer   belong to the International Contract Corruption Task
who served as a liaison between the engineers on the        Force (ICCTF).
Provincial Reconstruction Team in Kunar and the local
governor. Handa assisted in the award of U.S.-funded        DoD Employee Charged with Bribery
reconstruction projects to local contractors and admit-     On August 24, 2011, the FBI arrested a DoD employee
ted to soliciting bribes that usually amounted to 10%       accused of soliciting nearly $100,000 in kickbacks
of the value of a contract. After he left Afghanistan,      from a DoD contractor involved in reconstruction
Handa attempted to collect more than $1 million that        projects. SIGAR supported the ICCTF investigation
contractors had pledged to pay him.                         that led to the arrest.


U.S. Army Sergeants Plead Guilty to Bribery and             Suspensions and Debarments
Criminal Conspiracy                                         This quarter, SIGAR made 18 referrals for the suspen-
In August 2011, two U.S. Army sergeants pled guilty         sion and debarment of individuals and companies
to federal bribery and criminal charges for accepting       working on U.S.-funded reconstruction projects.
more than $200,000 in bribes from an Afghan trucking        These referrals resulted in 6 suspensions and 12
company. The company had received more than $20             proposals for debarment. SIGAR is aggressively
million for transportation services, which included         implementing its suspension and debarment program
delivering reconstruction materials.                        to improve contractor accountability and to ensure
                                                            that only reliable, responsible companies are eligible
Former Army Contracting Officials and a Defense             to receive U.S. government contracts.
Contractor Charged with Nine Counts of Bribery,
Fraud, Conspiracy, and Theft of Government Funds
On September 22, SIGAR special agents and other
U.S. law enforcement officials arrested a former mem-
ber of the U.S. Army employed by a private security
company working in Afghanistan. The individual was




                                                                            v
TABLE OF CONTENTS




     SECTION 1
     SIGAR OVERSIGHT
      4    Audits
     18    Investigations
     25    SIGAR Budget
     25    SIGAR Staff




     SECTION 2
     AFGHANISTAN OVERVIEW
     29    Security
     34    Economic Development
     36    Governance
     37    Looking Forward




     SECTION 3
     RECONSTRUCTION UPDATE
      41   Overview
      45   Status of Funds
      59   Security
      81   Governance
     101   Economic and Social Development
TABLE OF CONTENTS




   SECTION 4
   OTHER AGENCY OVERSIGHT
   117 Completed Oversight Activities
   128 Ongoing Oversight Activities
   137 Ongoing Investigations




   APPENDICES & ENDNOTES
   140 Appendix A: Cross-Reference of Report
                   to Statutory Requirements
   146 Appendix B: U.S. Government Appropriated Funds
   148 Appendix C: SIGAR Audits
   150 Appendix D: SIGAR Investigations and Hotline
   151 Appendix E: Abbreviations and Acronyms
   154 Endnotes
                 Building the ANP
                 An Afghan police officer salutes Lt. Gen. William Caldwell,
                 commander of NATO Training Mission Afghanistan, during an
                 inspection of the ANP regional training center in Laghman
                 on August 15, 2011. This quarter, CENTCOM reported that
                 8,911 ANP personnel graduated from 27 training programs.
                 (ISAF photo)




viii   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
1   SIGAR
    OVERSIGHT




        1
        SIGAR OVERSIGHT




  “…we will not be deterred from
 creating a path whereby Afghans
can live in freedom and safety and
     security and prosperity.”
               —U.S. President Barack Obama




        Source: U.S. President Barack Obama, “Remarks by the President Before Bilateral Meeting with President Karzai,” 9/20/2011.




             2                         SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




                                                                                     COMPLETED AUDITS
                                                                                     •   Audit 11-17: U.S. Civilian Uplift Costs in
                                                                                         Afghanistan

SIGAR OVERSIGHT                                                                      •   Audit 12-1: Agriculture Sector
                                                                                         Development
                                                                                     •   Audit 12-2: Construction at Kabul
                                                                                         Military Training Center
The U.S. Congress established SIGAR to provide independent and objective
                                                                                     •   Audit 12-3: Construction at the Afghan
oversight of U.S. funds appropriated or otherwise made available for the recon-
                                                                                         National Security University
struction of Afghanistan. In accordance with its legislative mandate, SIGAR
                                                                                     •   Audit 11-16S: Private Security Contract
conducts audits and investigations to (1) promote economy, efficiency, and effec-
tiveness in the administration of programs and operations using reconstruction       NEW AUDITS
funds, and (2) prevent and detect waste, fraud, and abuse in these programs and      •   USAID’s Costs for Private Security
operations. The enabling legislation also requires SIGAR to keep the Secretary           Support Services
of State and the Secretary of Defense fully informed about problems relating             Outcomes of DoS Public Diplomacy
                                                                                     •
to the administration of reconstruction programs and to submit a report to the           Grants
Congress on SIGAR’s oversight work and on the status of the U.S. reconstruction
effort no later than 30 days after the end of each fiscal quarter.                   ONGOING AUDITS
   This section summarizes SIGAR’s activities this quarter. Sections 2 and 3         •   USAID Contracts for LGCD Projects
provide an update on the U.S. effort to rebuild Afghanistan. SIGAR highlights this   •   Private Security Services Contract
quarter include the following:                                                       •   USAID’s Contracts in Support of
• prosecution of the largest bribery case to date from Afghanistan, concluding           Afghanistan Stabilization Initiative
    with the sentencing of a former U.S. Army Reserve officer for soliciting more    •   USAID’s Cooperative Agreement in
    than $1.3 million in bribes                                                          Support of an Agriculture Program
• two guilty pleas, and five indictments and arrests on bribery charges as a         •   USACE O&M Contracts for ANSF
    result of investigations                                                             Facilities
• completion of five audits, including one with restricted distribution              •   USAID Financial Audit Coverage of
• referrals of 18 firms and individuals for suspension and debarment                     Incurred Costs
• announcements of two new audits                                                    •   Reliability of Data on Prime
• opening of 31 new investigations                                                       Reconstruction Vendors
Also this quarter, SIGAR received two awards from the Council of the Inspectors      •   Accountability of ANSF Vehicles
General on Integrity and Efficiency (CIGIE) for excellence in conducting audit       •   Implementation of the Afghan First
work. CIGIE gave the 2011 Sentner Award for Dedication and Courage to one                Initiative
SIGAR team for its “exemplary performance while working in a harsh and
unsafe environment” to audit projects funded by the Commander’s Emergency
                                                                                     FORENSIC AUDITS
                                                                                     •   DoD Transaction Data Related to
Response Program in Laghman province. The award, which recognizes uncom-                 Reconstruction
mon dedication and courage in the face of adversity, was named for William
                                                                                     •   USAID Transaction Data Related to
“Buddy” Sentner III, a special agent at the Department of Justice Office of the          Reconstruction
Inspector General who was killed in the line of duty in 2006.                            DoS Transaction Data Related to
                                                                                     •
   CIGIE also gave SIGAR an award “for excellence in conducting audit work to            Reconstruction
ensure effective use of resources and minimize potential waste of $11.4 billion
of funds for construction of nearly 900 Afghanistan National Security Forces



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011          3
                                                 SIGAR OVERSIGHT




                                                 facilities.” SIGAR received the awards on October 18, 2011, at CIGIE’s 14th
                                                 annual awards ceremony.

                                                 AUDITS
                                                 This quarter, SIGAR published five audits that reviewed reconstruction contracts
                                                 and programs in each of the three reconstruction sectors—security, governance,
                                                 and development. SIGAR also began work on 2 new audits, bringing the number
                                                 of ongoing audits to 11. In addition, SIGAR auditors continued to analyze foren-
                                                 sic data from three major reconstruction funds.
                                                    During this reporting period, SIGAR worked on finalizing the FY 2012 audit
Deputy AIG for Audits Al Huntington              plan, focusing on U.S. programs to house and sustain the Afghan National
accepts two awards for SIGAR from the            Security Forces (ANSF) and to build Afghan institutional capacity to develop and
Council of Inspectors General for Integrity      manage programs. The plan includes audits that examine U.S. agencies’ financial
and Efficiency on October 18. CIGIE recog-       management of funds appropriated for reconstruction. In addition, SIGAR began
nized SIGAR for its audits of CERP-funded
                                                 a program of infrastructure inspections to determine whether completed proj-
projects and of U.S. planning for nearly 900
ANSF facilities. CIGIE chair Jeffrey Zeints      ects are being sustained.
(left) presented the awards with Attorney
General Eric Holder (right), who delivered       Completed Audit Reports
the keynote speech. (SIGAR photo)
                                                 The five audit reports that SIGAR published this quarter examined the U.S. civil-
                                                 ian uplift, a capacity-building program, two infrastructure projects for the Afghan
                                                 National Army, and a U.S. agency’s contract for private security services. At the
                                                 request of that agency, which considered certain information in the audit report
                                                 particularly sensitive, SIGAR did not publicly release it. These audits identified a
  COMPLETED AUDITS                               number of reconstruction challenges and made 13 recommendations to address
  •   Audit 11-17: The U.S. Civilian Uplift in   issues related to cost, capacity building, program coordination, contract manage-
      Afghanistan Has Cost Nearly $2 Billion,    ment, project delays, and sustainability.
      and State Should Continue To Strengthen       SIGAR and the Department of State Office of Inspector General (DoS OIG)
      Its Management and Oversight of the
      Funds Transferred to Other Agencies
                                                 jointly conducted the audit of the U.S. civilian uplift. The audit found that the
                                                 uplift has cost U.S. taxpayers nearly $2 billion since 2009. The audit also found
  •   Audit 12-1: Actions Needed To Better
      Assess and Coordinate Capacity-Building    that the uplift faces significant challenges going forward as a result of budget
      Efforts at the Ministry of Agriculture,    uncertainty and an absence of details about how large a civilian presence the
      Irrigation, and Livestock                  United States intends to maintain in Afghanistan.
  •   Audit 12-2: Better Planning and               SIGAR’s audit of U.S. efforts to build the capacity of the Ministry of Agriculture,
      Oversight Could Have Reduced               Irrigation, and Livestock highlighted the difficulties that U.S. implementing
      Construction Delays and Costs at the       agencies continue to face in integrating and coordinating efforts to build Afghan
      Kabul Military Training Center
                                                 capacity to manage programs.
  •   Audit 12-3: Afghan National Security          Since FY 2005, Congress has appropriated more than $39 billion to train,
      University Experienced Cost Growth and
      Schedule Delays, and Contract              equip, house, and sustain Afghan forces that will be capable of assuming respon-
      Administration Needs Improvement           sibility for providing Afghanistan’s security by 2014. Two of this quarter’s audits
  •   Audit 11-16S: Audit of a U.S. Agency’s     examined key infrastructure projects to support the Afghan National Army
      Private Security Contract (no public       (ANA). SIGAR’s audits of task orders to support construction of the Kabul
      release/for official use only)             Military Training Center (valued at $140 million) and for the Afghan National
                                                 Security University ($170 million) found that both projects cost more and took
                                                 longer to complete than planned.




                                                    4                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                SIGAR OVERSIGHT




Audit 11-17: Civilian Uplift
The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and State Should Continue
To Strengthen Its Management and Oversight of the Funds Transferred to Other Agencies
The U.S. reconstruction strategy in Afghanistan depends on an expanded civilian-
led effort to build governing capacity at all levels, improve the rule of law, and
support sustainable economic growth. Since early 2009, when President Obama
announced a new strategy for Afghanistan, U.S. agencies have nearly tripled the
number of civilians deployed in-country. Although the Congress provides direct
funding for uplift positions only to DoS and the U.S. Agency for International
Development (USAID), it has authorized DoS to transfer funds to other civil-
ian agencies to support operations and assistance for reconstruction. Under
this authority, DoS transfers funds to seven civilian departments and agencies,
including the departments of Agriculture, Justice, and Homeland Security.

OBJECTIVES
SIGAR and DoS OIG jointly conducted this audit because the civilian uplift is a
critical component of the U.S. reconstruction strategy, and no agency had yet
comprehensively assessed the costs of establishing and sustaining an expanded
civilian presence in Afghanistan. This audit had three objectives:
• Determine the number of personnel and associated costs of the civilian
    uplift.
• Evaluate DoS mechanisms to transfer funds to other agencies to support
    civilian uplift personnel.
• Assess the costs of sustaining and supporting the civilian presence and DoS’s
    plans to address these costs.

FINDINGS
1. From January 2009 through June 2011, U.S. agencies more than tripled the
   number of civilians deployed to Afghanistan, from 320 to 1,040—at a cost
   of nearly $2 billion. DoS and USAID accounted for about 74% of the civilian
   uplift. Seven other agencies, including the Department of Justice and the U.S.
   Department of Agriculture, accounted for the remaining 26%. It costs taxpay-
   ers $410,000$570,000 to deploy one civilian employee to Afghanistan for
   one year. The U.S. government has obligated nearly $1.7 billion from FY 2009
   through FY 2011 to fund the civilian uplift, as well as to provide facilities
   and services that support the civilian presence in Afghanistan. The $1.7 bil-
   lion does not include additional costs for security in Afghanistan, which the
   DoS Bureau of Diplomatic Security estimated at $491 million from FY 2009
   through FY 2011.
2. Although DoS funds uplift positions for seven other agencies, it has not
   developed formal agreements to transfer funds and has not established
   mechanisms to monitor the use of these funds. Consequently, SIGAR and
   DoS OIG identified an increased risk that funds would not be spent for
   their intended purpose. In one instance, the Department of Transportation




         REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2011                5
SIGAR OVERSIGHT




   cancelled plans to use DoS funding because it could not determine whether
   the DoS transfers were authorized for training or for other purposes.
3. The cost of supporting and sustaining the civilian presence in Afghanistan
   will likely increase, and DoS faces significant challenges in planning for
   these cost increases. First, the U.S. military drawdown will likely force
   DoS to assume additional responsibility for providing security for civilians.
   Second, a legislative proposal to standardize pay and benefits for all civilians
   deployed to Afghanistan could result in increased costs for civilian agencies.
   Third, opening two consulates in Afghanistan could increase costs because
   of security and housing requirements. Budget uncertainty and the absence
   of policy decisions about the ultimate size and length of the civilian uplift
   further complicate DoS efforts to determine future costs.

RECOMMENDATIONS
To improve the management and planning of the U.S. civilian uplift in
Afghanistan, SIGAR and DoS OIG recommended that the DoS Assistant
Secretary of State for South and Central Asian Affairs take the following actions:
1. Implement formal agreements, such as memoranda of understanding, with
   all agencies that receive DoS transfers to fund their uplift personnel to
   ensure that funds are used for their intended purposes. These agreements
   should clearly detail the approved use of funds and provide for the monitor-
   ing and oversight of the expenditure of funds.
2. Ensure that the Department of Transportation returns $3.5 million in unused
   funds to DoS or the U.S. Treasury.

AGENCY COMMENTS
DoS and the Department of Homeland Security (DHS) provided comments on
this report. Five other civilian agencies provided technical comments, which
SIGAR incorporated as appropriate. The Office of the Special Representative for
Afghanistan and Pakistan (SRAP) at DoS concurred with all of the recommenda-
tions and identified steps it was taking to implement them.
   Although the DoS Bureau of Resource Management did not object to SIGAR’s
recommendation to establish formal agreements with agencies receiving trans-
ferred funds, it noted that the legislation originally appropriating the funds for
the civilian uplift was expressly intended to avoid binding and formal agreements
with recipient agencies. The Bureau also stated that DoS did not request or
seek an oversight role in how other civilian agencies budgeted for their staffing
efforts. SIGAR and DoS OIG disagreed with this characterization of the legisla-
tion and stated that it is a government-wide best practice to institute written
agreements when transferring funds.
   DHS did not comment on the recommendations but noted that it remains
committed to continuing its work in Afghanistan to minimize terrorist threats,
build governing capacity, improve the rule of law, and initiate sustainable eco-
nomic growth.




   6               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                               SIGAR OVERSIGHT




Audit 12-1: Governance and Economic Development
Actions Needed To Better Assess and Coordinate Capacity-Building Efforts at the Ministry of
Agriculture, Irrigation, and Livestock
The United States has made rebuilding Afghanistan’s agriculture sector one of its
highest development priorities because this sector accounts for more than a third
of the country’s gross domestic product (excluding the illicit opium economy),
and 6580% of Afghans depend on agriculture for their livelihood. From FY 2002
through FY 2010, the United States invested more than $1 billion in agriculture
programs and plans to continue to fund projects in this sector. In October 2009,
the U.S. Embassy in Kabul issued the “U.S. Government Agriculture Assistance
Strategy for Afghanistan” to bring greater coherence to U.S. efforts to rebuild
Afghanistan’s agriculture sector.
   A primary goal of the U.S. strategy is to increase the ability of the Ministry of
Agriculture, Irrigation, and Livestock (MAIL) to deliver services to rural farmers
and herders, promote the private sector, and encourage the formation of farmer
associations. To ensure the long-term sustainability of U.S.-funded agriculture
projects, U.S. agencies have provided $77 million for FY 2010 and FY 2011 to
help build the capacity of the MAIL to better serve farmers and promote private
sector development. The MAIL has a presence in all of Afghanistan’s 34 prov-
inces through its provincial directorates of Agriculture, Irrigation, and Livestock
(DAILs). As part of the U.S capacity-building effort, three agencies—the U.S.
Department of Agriculture (USDA), USAID, and the Department of Defense
(DoD)—have deployed agriculture advisors and Agribusiness Development
Teams (ADTs) throughout Afghanistan.

OBJECTIVES
Building the MAIL’s capacity has become a high priority for several reasons. First,
some of the considerable U.S. investment in Afghanistan’s agriculture sector is
at risk of being wasted if development projects cannot be sustained. Second, the
United States is focused on building Afghan government institutions capable of
performing core functions before the 2014 transition to Afghan responsibility for
security. Third, the United States and other donors have committed to channel-
ing at least 50% of development assistance through Afghan institutions, and the
MAIL is expected to be one of the primary institutions benefiting from this com-
mitment. This audit had two objectives:
 • Determine the extent to which U.S. capacity-building programs and activities
    in agriculture are coordinated and integrated.
 • Assess the progress made in building the MAIL’s capacity in Kabul and the
    provincial offices.

FINDINGS
1. The U.S. Embassy Kabul has taken steps to better coordinate and integrate
   U.S. agriculture assistance and capacity-building efforts, but coordina-
   tion and integration problems among the national, provincial, and district




         REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011               7
SIGAR OVERSIGHT




   levels continue to limit the effectiveness of the U.S effort. For example, U.S.
   personnel in the field were unaware of capacity-building activities at the
   ministry in Kabul and therefore could not ensure that they were building the
   same capabilities in provinces and districts as those in Kabul. Several factors
   contribute to these coordination challenges, such as insufficient guidance to
   those implementing capacity-building activities, ineffective use of existing
   coordination mechanisms, and incomplete devolution of administrative and
   programmatic authority to USAID field program officers.
2. The U.S. Embassy Kabul has not been able to determine how much prog-
   ress has been made in building the MAIL’s capacity because it does not have
   sufficient or complete data. The Embassy first began reporting on U.S. capac-
   ity-building efforts in the September 2010 Agriculture Campaign Assessment.
   Although this assessment measured the performance of capacity-building
   efforts in a number of areas—such as training, technology transfer, and infra-
   structure development—it did not include any of the activities undertaken
   by the USDA agriculture advisors and the ADTs. Moreover, the performance
   data that agencies do collect is not consistent. A further complication is
   that the Agriculture Campaign Assessment lacks performance baselines and
   targets for all of its performance indicators; it largely measures the products
   of capacity-building efforts, rather than the results achieved. The U.S. gov-
   ernment needs a mechanism that can reliably assess and report on progress
   made toward building the MAIL’s capacity in order to evaluate whether the
   U.S. strategy is working and U.S. resources are properly aligned.

RECOMMENDATIONS
SIGAR made five recommendations to improve the management and integration
of U.S. efforts to build the MAIL’s capacity throughout Afghanistan.
   To improve the integration and coordination of U.S. capacity-building efforts,
SIGAR recommended that the U.S. Ambassador to Afghanistan, in coordination
with the MAIL, take the following action:
1. Develop a MAIL capacity-building implementation plan to provide guid-
   ance for programs with MAIL and DAIL capacity-building components that
   defines and articulates an end-state for MAIL capacity building, identifies
   core competencies and their standards, and establishes priorities and critical
   milestones. This plan should include regular progress reporting.
    To more closely integrate ADT capacity-building activities with those of civil-
ian agencies, SIGAR recommended that the U.S. Ambassador to Afghanistan take
the following action:
 2. Improve coordination and integration mechanisms with ADTs by disseminat-
    ing information and guidance to ADTs through a designated military liaison
    to implement coordinated civilian-military capacity-building activities. The
    dissemination of this information and guidance should be done formally and
    systematically.




   8               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                            SIGAR OVERSIGHT




    To more accurately and consistently measure civilian-military progress
made in building the MAIL’s capacity in Kabul and the provinces, SIGAR recom-
mended that the U.S. Ambassador to Afghanistan, in conjunction with the USAID
Mission Director, the USDA, the Office of Inter-agency Provincial Affairs, and the
International Security Assistance Force (ISAF) Joint Command, take the follow-
ing actions:
 3. Establish common indicators and standard definitions for assessing capacity-
    building efforts throughout the MAIL and direct U.S. agencies to collect and
    report on those indicators to U.S. Embassy Kabul.
 4. Establish performance baselines and targets for all performance indica-
    tors in the Agriculture Campaign Assessment and the Mission Performance
    Management Plan.
 5. Include capacity-building activities from USDA agricultural advisors, ADTs,
    and relevant USAID programs in the Agriculture Campaign Assessment.

AGENCY COMMENTS
The U.S. Embassy Kabul concurred with SIGAR’s recommendations and said
it was taking steps to address them. The Embassy said it is defining MAIL
capacity-building implementation plans and identifying core competencies of
DAIL extension agents and DAIL directors. The Embassy also noted it plans
to hold a Field Agriculture Advisors Conference in October where actions in
response to several recommendations will be addressed, including assisting in
the establishment of common definitions for indicator data and identifying core
competencies. The Embassy said that the Embassy Agriculture Team includes
a Civilian-Military Coordination Team and that two DoD officers are embedded
among its Inter-agency Provincial Affairs staff. It also noted that the Embassy
Agriculture Team intended to hold a conference in October focusing on capacity
building. In addition, the Embassy said it is revising the Agriculture Performance
Management Plan to include ADT and USDA advisor efforts. It is also addressing
the data collection issues and the use of common indicators. The October confer-
ence would establish common indicators.

Audit 12-2: Contractor Performance and Oversight/Security
Better Planning and Oversight Could Have Reduced Construction Delays and Costs at the
Kabul Military Training Center
From FY 2006 through FY 2010, the Combined Security Transition Command -
Afghanistan (CSTC-A), which manages funding for the development of the ANSF,
provided about $140 million to the Air Force Center for Engineering and the
Environment (AFCEE) for construction at the Kabul Military Training Center
(KMTC). The KMTC is Afghanistan’s primary training base for new recruits into
the ANA. It is a critical component of CSTC-A’s training mission and the over-
all strategy to transition responsibility for security to the ANSF. AFCEE has
awarded three task orders, one for each of the three phases of the project. The
task orders for Phases I and II went to AMEC Earth and Environmental, Inc.
(AMEC). The task order for Phase III was awarded to ECC International (ECC).



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011             9
SIGAR OVERSIGHT




OBJECTIVES
SIGAR conducted this audit because of the significant resources that the United
States has invested in building the KMTC and because of the center’s importance
to the overall U.S. mission. This audit had three objectives:
• Examine construction at the KMTC, including changes in cost and sched-
    ule, the reasons for changes, and whether construction met contract
    requirements.
• Assess construction oversight and completeness of contract files.
• Evaluate plans for sustaining KMTC facilities once constructed.

FINDINGS
1. Construction at the KMTC has cost more and taken longer than planned.
   Costs for phases I and II of the project increased by $12.5 million. Phase 1,
   originally scheduled to be finished on March 11, 2008, was not completed
   until August 31, 2009—an 18-month delay. Phase II, which ran concurrently
   with Phase I, was delayed by nearly two years. Phase III had a scheduled
   completion date of May 22, 2011, but is now scheduled to be finished on
   January 29, 2012, a delay of eight months. A number of factors contributed to
   the cost increases and delays—including additional work under the contract,
   poor contractor performance, and inaccurate site information. A SIGAR
   review of AFCEE data showed that delays were not unique to the KMTC;
   from 2006 through 2010, 80% of AFCEE construction projects for CSTC-A
   were not completed on schedule. CSTC-A and AFCEE officials told SIGAR
   that schedules are purposely aggressive to push contractors to complete
   construction projects as quickly as possible to meet mission objectives.
2. Inadequate quality assurance during Phase I and Phase II contributed to elec-
   trical problems, but oversight has improved in Phase III. Although AFCEE’s
   quality assurance contractor identified electrical problems as early as June
   2008, AFCEE did not address them until after five electrical fires broke out in
   four separate buildings at the KMTC during November and December of that
   year. Electrical repairs increased the project’s cost and delayed construction.
   Moreover, AFCEE paid as much as $4.3 million for electrical repairs that
   AMEC should have covered from its own funds. Two factors contributed to
   the electrical problems—an acceleration of the construction schedule with-
   out a corresponding increase in oversight, and the use of substandard and
   counterfeit electrical supplies. SIGAR’s review of KMTC contract files found
   that although they were largely complete, they did not clearly document the
   reasons for modifying a contract.
3. The KMTC is not sustainable without continued U.S. assistance. CSTC-A has
   operations and maintenance contracts to sustain the KMTC and other ANSF
   facilities through 2015, but the funding for these contracts is being expended
   faster than anticipated. The U.S. Army Corps of Engineers (USACE), which
   is managing the operations and maintenance contracts, told SIGAR that it
   will have to begin an acquisition process in 2012 to award new contracts to
   sustain ANSF facilities.



  10               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




RECOMMENDATIONS
To strengthen construction planning for ANSF facilities, ensure appropriate use
of government funds, and strengthen contractor oversight, SIGAR recommended
that the Commanding General, CSTC-A, in coordination with AFCEE, take the
following actions:
1. Direct that site surveys done in conjunction with the KMTC conceptual
    master plan be more detailed, including topography and location of existing
    utilities, so that a more complete picture of additional construction projects
    can be provided to bidders, thus allowing contract proposals to more accu-
    rately reflect reality. SIGAR supports CSTC-A’s efforts to develop the organic
    capability to do this and in the interim recommends that CSTC-A, in concert
    with AFCEE, use existing planning contracts to provide the integration
    function.
2. Ensure that conceptual master plans for future construction projects in sup-
    port of the ANSF contain more detailed information—including topography
    and the location of existing utilities—to facilitate the preparation of more
    accurate contract proposals.
   To ensure the appropriate use of government funds and to strengthen contrac-
tor oversight, SIGAR made two recommendations to the Director of AFCEE to
take the following actions:
1. Ensure that, in the future, KMTC contract and task order files contain com-
     plete and consistent information regarding reasons for modifications to the
     contract and task orders.
2. Seek reimbursement from the Phase I and II contractor, AMEC, for the
     cost of electrical repairs related to poor performance by its Afghan
     subcontractors.

AGENCY COMMENTS
CSTC-A concurred with SIGAR’s recommendations and said detailed master
planning for the KMTC is in progress. AFCEE stated that the KMTC task order
file has been updated and that the file will be reviewed after each modification
to ensure that it is complete and accurate. AFCEE said it will not seek reim-
bursement from AMEC because this was not a case where the prime contractor
was willfully avoiding its responsibility or acting in bad faith. AFCEE further
stated that several other contractors were experiencing the same issue with
counterfeit parts and that it would be fruitless for AMEC to go after the sub-
contractors, because there is no bonding of work in Afghanistan. As a result of
AFCEE’s decision, the contractor will not be held financially accountable for
poor contract performance, and the U.S. government will pay the bill. SIGAR
disagrees with this decision. AFCEE is not required to pay for the same work
more than once, even under a cost-plus-fixed-fee contract. It is AMEC’s respon-
sibility to ensure that all work performed under the contract, including the
work of its subcontractors, meets the terms of the contract. Therefore, SIGAR is
retaining the recommendation.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         11
SIGAR OVERSIGHT




Audit 12-3: Contractor Performance and Oversight/Security
Afghan National Security University Experienced Cost Growth and Schedule Delays, and
Contract Administration Needs Improvement
CSTC-A provided $170 million to AFCEE for the construction of facilities at the
Afghan National Security University (ANSU), Afghanistan’s premier officer train-
ing facility. In September 2008, AFCEE awarded a task order for the first phase
of construction to AMEC. In February 2011, AFCEE awarded a task order for the
second phase of construction to Lakeshore Engineering. SIGAR did not look at
the second-phase task order because the work had just begun.

OBJECTIVES
SIGAR conducted this audit because of the significant resources that the United
States has invested in building the ANSU and because of this university’s impor-
tance to the overall U.S. mission. This audit had three objectives:
• Examine construction at the ANSU during Phase I, including cost, schedule,
   and outcomes.
• Assess contract oversight and administration by AFCEE.
• Review efforts to obtain security services for ANSU construction activity.

FINDINGS
1. The construction of Phase I at the ANSU has experienced cost increases
   and schedule delays as a result of added work, time spent for de-mining
   and design changes, and increased construction costs. SIGAR found that
   AFCEE has paid $21.3 million more for 18 fewer facilities and 8 fewer
   projects than originally planned. The task order ceiling price has climbed
   from $70.2 million to $91.5 million, and the schedule has been delayed by
   15 months, from the original completion date of June 2010 to October 2011.
   At the time AFCEE awarded the task order, the site for the ANSU had not
   been de-mined; AMEC had to wait for USACE to de-mine the area. Additional
   costs and delays occurred because CSTC-A made changes to facility designs.
   Although AFCEE de-scoped $12 million in work from the task order, it also
   added a total of $33.4 million in work, which included $14.8 million for new
   work and changes to planned facilities, $5.7 million to cover the costs while
   AMEC awaited completion of site de-mining and CSTC-A consideration of
   design changes, and $12.9 million to pay for the higher construction costs
   and increased labor costs associated with the longer construction period.
2. AFCEE provided active contract oversight at the ANSU, but SIGAR identified
   some weaknesses in contract administration. Although contract files were
   generally complete, the task order files contained incomplete and sometimes
   inconsistent information justifying modifications. For the most part, the task
   order files did not include notices to proceed, which are called for in the
   Federal Acquisition Regulation. AFCEE also awarded two modifications—
   including $60,000 for security—that were outside the scope of the ANSU task
   order without following DoD policy and acquisition requirements. Finally,




  12                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




   AFCEE paid AMEC about $53,500 for the cost of de-mining activities that
   should have been paid for under a separate contract with USACE.
3. Issues in providing security almost shut down construction at the ANSU.
   In December 2010, AMEC’s security provider informed AMEC that it would
   have to stop providing security because the Afghan government had not
   renewed visas for the company’s non-Afghan staff. AMEC was eventually
   able to transition security to another PSC.

RECOMMENDATIONS
To strengthen contract administration at the ANSU and ensure the appropriate
use of government funds, SIGAR made two recommendations to the Director of
AFCEE to take the following actions:
1. Ensure that, in the future, the ANSU task order file is complete, includ-
   ing that the file contains (1) complete and consistent documentation as to
   the reasons for the task order modifications and (2) all notices to proceed.
   AFCEE should consider expanding this practice to all task orders funded by
   CSTC-A.
2. Ensure that out-of-scope modifications are properly justified, approved, and
   documented.

AGENCY COMMENTS
AFCEE stated that the ANSU task order file has been updated and that the file
will be reviewed after each modification to ensure that it is complete and accu-
rate. AFCEE described the process it uses to justify modifications and noted that
the contracting officer makes the determination to ensure that the modification
is within the scope of the active task order. AFCEE also stated that all docu-
mentation is placed in the file and reviewed during every modification action.
However, SIGAR’s review found that, despite the described process, AFCEE did
not follow DoD or FAR requirements in awarding almost $60,000 in out-of-scope
work. As the contracting entity, AFCEE’s responsibility is to ensure that modifi-
cations are properly justified and approved. Therefore, AFCEE still needs to take
corrective action to address this recommendation.

New Audits Announced This Quarter
This quarter SIGAR began two new audits—one of the costs of PSCs associated
with USAID reconstruction programs in Afghanistan, and one of DoS public
diplomacy grants with a total value of at least $78 million.                        NEW AUDITS
                                                                                    •   Costs of Private Security Contractors
Costs of Private Security Contractors (PSCs) Utilized by U.S.                           (PSCs) Utilized by U.S. Agency for Inter-
Agency for International Development (USAID) Contractors for                            national Development (USAID) Contrac-
Reconstruction in Afghanistan                                                           tors for Reconstruction in Afghanistan
The U.S. government has relied on PSCs to provide security for reconstruction       •   Outcomes of Department of State’s
programs in Afghanistan, but information about their costs is limited. This audit       Public Diplomacy Grants in Support of
                                                                                        Reconstruction in Afghanistan
will identify the PSCs used by USAID’s implementing partners and determine




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         13
                                                 SIGAR OVERSIGHT




                                                 their costs and their status in light of the Afghan government’s intention to trans-
                                                 fer PSC security functions to an Afghan protection force in March 2012.

                                                 Outcomes of Department of State’s Public Diplomacy Grants in
                                                 Support of Reconstruction in Afghanistan
                                                 SIGAR has identified 21 DoS public diplomacy grants totaling $78 million in
                                                 reconstruction funding and may identify additional public diplomacy grants for
                                                 reconstruction during field work. This audit will review the cost, schedule, and
                                                 outcomes, as well as the administration and oversight of the grants.

                                                 Ongoing Audits
                                                 SIGAR has nine ongoing audits. Seven involve contracts, grants, and cooperative
                                                 agreements. In addition to examining specific contracts to improve governance,
ONGOING AUDITS                                   foster economic development, and provide security services, SIGAR is assess-
                                                 ing (1) the reliability of funding and contract data maintained by the U.S. Central
• USAID Contracts for Local Governance           Command Joint Theater Support Contracting Command (C-JTSCC) on prime
    and Community Development Projects
                                                 vendors for reconstruction contracts in Afghanistan; and (2) USAID’s finan-
•   Private Security Services Contract
                                                 cial audit coverage of its contracts, cooperative agreements, and grants for
•   USAID’s Contracts in Support of the
    Afghanistan Stabilization Initiative         Afghanistan’s reconstruction. SIGAR’s other two ongoing audits are reviewing
    USAID’s Cooperative Agreement in
                                                 programs that are critical to the U.S. reconstruction effort to build account-
•
    Support of an Agriculture Program            able Afghan security forces, promote economic growth, and support capacity
    U.S Army Corps of Engineers Operations       development.
•
    and Maintenance Contracts with ITT
    Corporation for ANSF Facilities              USAID Contracts for Local Governance and Community
•   USAID’s Financial Audit Coverage of          Development Projects
    Contracts, Cooperative Agreements, and       SIGAR is examining the performance, costs, and outcomes of USAID’s contracts
    Grants for Afghanistan Reconstruction        in support of its Local Governance and Community Development project.
•   Reliability of Funding and Contract Data
    Maintained by the U.S. Central Com-
    mand Joint Theater Support Contracting
                                                 Private Security Services Contract
    Command (C-JTSCC) on Prime Vendors           SIGAR is conducting an audit of a PSC that provides services for one of USAID’s
    for Major Reconstruction Contracts in        largest contractors. This audit is focused on cost, schedule, and outcomes of the
    Afghanistan                                  contract, as well as on contract oversight.
•   Accountability of ANSF Vehicles
•   Implementation of the Afghan First Initia-   USAID’s Contracts in Support of the Afghanistan
    tive for Contracting                         Stabilization Initiative
                                                 In July 2009, USAID’s Office of Transition Initiatives awarded two three-year
                                                 contracts, with a combined value of more than $300 million, to Chemonics
                                                 International and Development Alternatives, Inc., to support the U.S. govern-
                                                 ment’s Afghanistan Stabilization Initiative in the southern and eastern regions
                                                 of the country. In close cooperation with ISAF, the initiative seeks to improve
                                                 the economic and social environment in Afghanistan through small community-
                                                 enhancement projects.




                                                   14                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




USAID’s Cooperative Agreement in Support of an
Agriculture Program
In September 2008, USAID entered into a cooperative agreement with International
Relief and Development to support the Afghanistan Vouchers for Increased
Production in Agriculture (AVIPA) Plus program. USAID has extended this
program until June 2011, for a total cost of $450 million. Key components include
seed and fertilizer distribution, cash-for-work projects to stimulate local econo-
mies, small grant programs to provide farming equipment, and training and
capacity development programs.

U.S. Army Corps of Engineers Operations and Maintenance
Contracts with ITT Corporation for Afghanistan National Security
Forces Facilities
In July 2010, USACE awarded two firm-fixed-price contracts, valued at a total of
$800 million, to ITT Systems Corporation to provide operations and maintenance
for ANSF facilities. These contracts cover Afghan army and police facilities in
northern and southern Afghanistan. The contracts consist of one base year plus
four option years. According to the program manager, these contracts may cover
more than 660 sites. These contracts also require that the contractor train Afghan
workers in all aspects of operations and maintenance. Currently, DoD OIG is
conducting a separate audit on the training aspect of the contracts.

USAID’s Financial Audit Coverage of Contracts, Cooperative
Agreements, and Grants for Afghanistan Reconstruction
USAID’s obligations for reconstruction in Afghanistan totaled approximately
$11.7 billion for FY 2002–2010, according to USAID OIG. USAID provided most
of these funds to contractors and nonprofit organizations through contracts,
cooperative agreements, and grants. Financial audits of costs incurred under
these financial mechanisms provide valuable oversight of appropriated funds by
determining the appropriateness of direct and indirect costs, as well as identify-
ing weaknesses in internal controls and compliance with applicable laws and
regulations. This audit will assess USAID’s efforts to conduct required financial
audits of its project awards.

Reliability of Funding and Contract Data Maintained by the U.S.
Central Command Joint Theater Support Contracting Command
(C-JTSCC) on Prime Vendors for Major Reconstruction Contracts
in Afghanistan
This audit will follow up on certain data provided by the C-JTSCC, which iden-
tified the contractors it contracts with using the Afghanistan Security Forces
Fund (ASFF). Specifically, the C-JTSCC may have reported obligations that
differed significantly from total contract values. In June, the Senate Committee
on Homeland Security and Governmental Affairs, Subcommittee on Contracting
Oversight cited specific concerns about the accuracy and reliability of the




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011          15
                                              SIGAR OVERSIGHT




                                              C-JTSCC data provided to SIGAR. This audit will determine the cause of the
                                              discrepancies, the measures that the C-JTSCC has taken to address the discrep-
                                              ancies, and any additional steps that the C-JTSCC needs to take to ensure the
                                              accuracy and reliability of its contract data.

                                              Accountability of ANSF Vehicles
                                              The United States has provided tens of thousands of vehicles to the ANSF and
                                              plans to provide thousands more through at least 2012. Most of these vehicles
                                              have been purchased through the Foreign Military Sales (FMS) program, which
                                              is administered by the Defense Security Cooperation Agency. This audit, which
                                              is focused on vehicles, will provide insight into the overall ability of CSTC-A and
                                              the ANSF to account for and ensure the maintenance of vehicles.

                                              Implementation of the Afghan First Initiative for Contracting
                                              U.S. Forces - Afghanistan (USFOR-A) and the U.S. Embassy Kabul have adopted
                                              an Afghan First approach to contracting, which encourages the use of Afghan
                                              firms, where appropriate, to meet U.S. requirements for supplies and services in
                                              order to promote Afghan economic growth, capacity development, and related
                                              counter-insurgency objectives. Specifically, SIGAR will examine the systems and
                                              controls in place to identify capable Afghan contractors; evaluate efforts by U.S.
                                              and coalition partners to identify and address vulnerabilities of the Afghan First
                                              initiative to fraud, waste, and abuse; and determine what key challenges, if any,
                                              have been experienced in implementing the Afghan First initiative and associated
                                              strategies.

                                              Forensic Audits
                                              Public Law 110-181, as amended, requires that before SIGAR is terminated, it
                                              must prepare and submit to the appropriate congressional committees a final
FORENSIC AUDITS                               forensic audit report on programs and operations funded with amounts appro-
    Forensic Review of DoD Transaction Data   priated or otherwise made available for the reconstruction of Afghanistan. To
•
    Related to Afghanistan                    identify waste, fraud, and abuse of taxpayer dollars, SIGAR is conducting foren-
    Reconstruction                            sic reviews of three major reconstruction funds:
•   Forensic Review of USAID Transaction       • the Afghanistan Security Forces Fund (ASFF), managed by DoD
    Data Related to Afghanistan                • the Economic Support Fund (ESF), managed by USAID
    Reconstruction                             • the International Narcotics Control and Law Enforcement (INCLE) account,
•   Forensic Review of DoS Transaction Data       managed by DoS
    Related to Afghanistan
    Reconstruction
                                              Forensic Review of DoD Transaction Data Related to Afghanistan
                                              Reconstruction
                                              In March 2010, SIGAR initiated a review of DoD appropriation, obligation, and
                                              expenditure transaction data related to the ASFF. Congress has appropriated
                                              more than $39.45 billion to the ASFF since the fund was created in FY 2005.
                                              Approximately $12.9 billion had been disbursed as of FY 2010.
                                                 Obtaining data to perform testing has been a challenge because once
                                              DoD obligates ASFF funds, it transfers a significant amount of these funds



                                                16                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




immediately to a Foreign Military Sales (FMS) trust-fund account to await
disbursement. As of September 30, 2011, the Defense Finance and Accounting
Service had provided SIGAR with files covering approximately $9.2 billion in dis-
bursements processed through the FMS account. These files allow only a limited
forensic review because they do not include a number of data fields. However,
SIGAR has been receiving weekly data feeds; once this process is completed,
SIGAR will perform a duplicate payment review and several vendor-related tests.
Meanwhile, SIGAR’s forensic team continues to scrub the available data sets
to isolate unique vendor IDs and create a master vendor list that will identify
vendors across all agencies. SIGAR will use this list to perform cross-agency
forensic testing.
   SIGAR has conducted a forensic review of $1.7 billion of direct ASFF-related
disbursements (non-FMS) from USACE for FY 2005 through FY 2009. Tests were
performed to isolate anomalies, such as duplicate payments and vendors on the
excluded-party lists. SIGAR will combine these results with the results of the
tests described above to identify high-risk transactions that warrant additional
review.

Forensic Review of USAID Transaction Data Related to
Afghanistan Reconstruction
SIGAR has asked USAID for additional source documentation for exceptions
identified during its initial review of more than 73,000 transactions, amounting
to $7.4 billion in disbursements, from 2002 through July 2010. SIGAR is await-
ing final documentation; much of this documentation is housed in the field,
which accounts for the delay. SIGAR has also obtained updated transaction data
through June 2011 and has been working with USAID to ensure accurate and
complete data feeds. SIGAR is awaiting a revised transactional data set through
September 30, 2011. Once SIGAR obtains the data, the forensic team will perform
another round of testing. SIGAR is obtaining data updates on a quarterly basis
and will perform continuous monitoring of USAID transactions.

Forensic Review of DoS Transaction Data Related to Afghanistan
Reconstruction
In June 2010, SIGAR launched its forensic review of transaction data related to
the INCLE account. Congress had provided $3.25 billion for INCLE through June
30, 2011. SIGAR has obtained a transactional data set and is working with DoS to
receive the data definitions necessary to perform an accurate forensic review.

Audit Plan for FY 2012
During this reporting period, SIGAR identified audits for FY 2012 and worked
with the Southwest Asia Joint Planning Group to develop the Comprehensive
Oversight Plan for Southwest Asia, to prevent duplication of effort and ensure
maximum oversight of the U.S. reconstruction effort. The plan incorporates the
ongoing and planned audits of eight oversight agencies in addition to SIGAR:
DoD OIG, DoS OIG, USAID OIG, the Government Accountability Office, the



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011        17
SIGAR OVERSIGHT




Army Audit Agency; Naval Audit Services, the Air Force Audit Agency, and the
Special Inspector General for Iraq Reconstruction.
  In FY 2012, SIGAR’s audit work will focus on five major areas of concern:
• PSCs
• Afghan governance capacity and sustainability
• program results and evaluation
• contracting
• fraud detection and mitigation

INVESTIGATIONS
During this reporting period, SIGAR’s participation in criminal investigations
resulted in one sentencing, two guilty pleas and five indictments and arrests of
individuals charged with soliciting more than $2 million in bribes and kickbacks
from contractors involved in the U.S. reconstruction effort. On September 23,
2011, a SIGAR-initiated investigation led to the successful prosecution of the
largest bribery case in Afghanistan since the war began 10 years ago. A former
U.S. Army Reserve captain was sentenced to prison and fined $315,000 for solicit-
ing $1.3 million in bribes from contractors working on reconstruction projects
and for his role in a conspiracy to distribute heroin.
   From June 30 to September 30, 2011, SIGAR opened 31 cases and closed 10
cases, bringing the total of open investigations to 111. In addition, SIGAR made
18 referrals for the suspension and debarment of individuals and companies for
fraud, other illegal activity, or poor performance. SIGAR’s aggressive suspension
and debarment program is focused on making all contractors more account-
able—U.S., Afghan, and third-country nationals. In addition, SIGAR received 38
complaints through its Hotline.

U.S. Military Reserve Officer Sentenced and Ordered To Pay
$315,000 in Restitution
On September 23, 2011, U.S. District Judge Anthony Trenga in the Eastern
District of Virginia sentenced Sidharth (“Tony”) Handa to two concurrent sen-
tences for bribery and conspiracy to distribute a controlled substance. Handa,
a U.S. military reserve officer, received a seven-year sentence followed by three
years of supervised release for soliciting more than $1.3 million in bribes from
contractors involved in Afghanistan reconstruction. He received an additional
10-year sentence to be followed by 5 years of supervised release for also partici-
pating in a conspiracy to distribute heroin from southwest Asia. The judge also
ordered Handa to make restitution of $315,000—the amount of bribe money that
Handa and his interpreter had collected—and levied a special assessment fee of
$100 for each count of his conviction.
   U.S. Attorney Neil H. MacBride of the Eastern District of Virginia and
Assistant Attorney General Lanny A. Breuer of the Justice Department’s Criminal
Division announced the sentencing, noting that it was the largest bribery pros-
ecution to date from the U.S. mission in Afghanistan.




  18               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




   The court records detail Handa’s scheme to secure bribes from contractors.         “From the day he stepped
Handa, who was stationed in Afghanistan from March through November 2008,
served as the liaison between the local governor and engineers on the Provincial
                                                                                          foot in Afghanistan,
Reconstruction Team in Kunar. He assisted in the award of U.S.-funded recon-            Mr. Handa negotiated a
struction projects to local contractors. Handa admitted to soliciting bribes that          staggering amount
were typically equal to 10% of a contract’s overall value, although the figure was    of bribes from contractors
negotiable depending on the contractor’s ability to pay. Handa was assisted by
                                                                                         in a blatant breach of
Afghan interpreters. Of the $1.3 million in bribes that contractors had agreed to
pay, Handa and his interpreter collected $315,000, which they split evenly.              the trust our military
   After he left Afghanistan, Handa attempted to collect more than $1 million           put in him. His actions
that contractors had pledged to pay him. A cooperating witness offered to help          brought shame to our
Handa collect this bribe money. Through 2010 and early 2011, Handa provided               mission, harmed our
the cooperating witness with details about the outstanding bribes. During his
conversations with the cooperating witness, Handa also indicated that he knew
                                                                                        reconstruction efforts,
people in the drug business. He and the cooperating witness developed plans to         and defrauded American
sell kilogram quantities of heroin to Handa’s contacts.                               taxpayers who funded the
   On April 7, 2011, Handa met with the cooperating witness and an undercover            contracts he looted.”
officer in a Northern Virginia hotel, where Handa collected what he believed to
be $500,000 in bribe payments. When the undercover officer also showed Handa            —U.S. Attorney Neil H. MacBride,
a kilogram of heroin, Handa said he knew the right people to receive it. Handa               Eastern District of Virginia
expected to receive $10,000 for that heroin and a percentage on all future drug
                                                                                     Source: DoJ, “Former Army Reserve Captain Sentenced to
deals. Special Agents from SIGAR and other agencies arrested Handa as he left        120 Months in Prison for Soliciting $1.3 Million in Bribes and
                                                                                     Conspiring to Traffic Heroin,” 9/23/2011.
the hotel with the bribe money. Handa was also in possession of a loaded hand-
gun and a spreadsheet detailing the specific bribe amounts paid and outstanding.
   In addition to SIGAR, the Federal Bureau of Investigation’s (FBI) Washington
Field Office, the Defense Criminal Investigative Service (DCIS), and the Drug
Enforcement Administration participated in the joint investigation that led to
Handa’s arrest. Assistant U.S. Attorneys Kosta Stojilkovic and Dennis Fitzpatrick
of the Eastern District of Virginia and Senior Trial Attorney David Bybee of the
Department of Justice Criminal Division’s Fraud Section prosecuted the case.
   In its July 2011 quarterly report, SIGAR reported on Handa’s arrest and his
guilty plea. At the time, SIGAR did not reveal Handa’s name because of an ongo-
ing investigation.

Former Army Contracting Officials and a Defense Contractor
Charged with Nine Counts of Bribery, Fraud, Conspiracy, and
Theft of Government Funds
On September 22, 2011, a SIGAR Special Agent and other U.S. law enforcement
officials arrested Raul Borcuta—a former member of the U.S. Army employed by
a PSC working in Afghanistan—on charges of bribery, fraud, and theft of govern-
ment funds. The arrest took place at Miami International Airport, where Borcuta
entered the United States from Europe. Upon his arrest, the U.S. District Court
for the Northern District of Illinois unsealed a nine-count indictment charging




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         19
SIGAR OVERSIGHT




Borcuta and two co-conspirators—Zachary Taylor and Jared Close—with mail
fraud, wire fraud, conspiracy, bribery, and theft of government funds in con-
nection with the award of a contract to provide services to a U.S. government
Provincial Reconstruction Team in Farah. SIGAR—together with the DCIS,
the U.S. Army Criminal Investigation Command, and the FBI—conducted the
11-month investigation that led to the charges.
   According to the indictment, Borcuta, 32, defrauded the U.S. government
in connection with a contract to provide two up-armored sport-utility vehicles
for an Afghan provincial official who had received death threats from insurgent
groups. The indictment alleges that Borcuta paid $10,000 each to Taylor and
Close to (1) award him the contract to provide the vehicles, and (2) provide full
payment for the vehicles before they were delivered. Taylor and Close, formerly
U.S. Army staff sergeants assigned to the Provincial Reconstruction Team in
Farah, allegedly authorized a payment to Borcuta of approximately $200,000 in
U.S. government funds. According to the indictment, Borcuta received the money
but never delivered the vehicles required by the contract.
   The defendants face a maximum penalty of 20 years in prison for each mail
fraud count, 20 years for each wire fraud count, 30 years for each conspiracy
count, 15 years for each bribery count, and 10 years for each theft of government
funds count.

U.S. Army Sergeants Plead Guilty to Bribery and
Criminal Conspiracy
In August 2011, two U.S. Army sergeants—Gary M. Canteen and Charles O.
Finch—pleaded guilty in the U.S. District Court for the District of Hawaii to
federal bribery and criminal charges for accepting more than $200,000 in bribes
from an Afghan trucking company that received more than $20 million under a
lucrative contract for trucking and transportation services (“line-haul services”)
in Afghanistan. Sentencing is scheduled for January 2012. Finch, who was the
noncommissioned officer in charge of Operations Support at Bagram Airfield
from January 2004 to January 2005, faces up to 15 years in prison and a $250,000
fine. Canteen, who was a first sergeant in the U.S. Army’s 725th Logistical Task
Force, deployed to Bagram from February 2004 to February 2005, faces up to five
years in prison and a $250,000 fine. SIGAR provided administrative personnel and
support to the trial team.
   At Bagram Airfield, Canteen supervised approximately 40 enlisted soldiers,
including Finch, who was responsible for arranging line-haul services from
Bagram to forward operating bases. Finch’s job was to gather requests for the
transportation of supplies from the Bagram area to U.S. and coalition soldiers
at numerous forward operating bases and assign private contractors that held
line-haul blanket purchase agreements (BPAs) to deliver the supplies. DoD uses
BPAs to pay contractors for services such as transportation. As the noncommis-
sioned officer in charge of Operations Support, Finch not only participated in
evaluating and recommending the award of line-haul services at Bagram, but also




  20               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




was the contracting officer’s representative on each BPA. As such, he had the
authority to order trucking services against the BPAs, verify the trucking contrac-
tors’ invoices, and facilitate DoD payments to the contractors.
   Canteen and Finch conspired with each other and the owners of AZ Corporation,
a military contractor that provided line-haul transportation services under a BPA
contract at Bagram, to accept bribes from AZ Corporation, an Afghan-owned
company, in exchange for lucrative contracts and BPAs for line-haul services,
including transporting supplies for reconstruction projects. Two brothers—Assad
and Tahir Ramin—owned AZ Corporation. Finch coordinated with the Ramin
brothers to have $50,000 wired to the bank account of a t-shirt and souvenir shop
that Canteen owned in Honolulu, Hawaii. Shortly after the Ramin brothers wired
the money to the shop, Finch drafted a memorandum recommending that AZ
Corporation be awarded a large line-haul BPA. Three days later, AZ Corporation
won the BPA.
   Finch has admitted to receiving approximately $150,000 in bribe payments
over six months for himself and others as part of this collusion with the Ramin
brothers. Canteen has admitted to collecting $30,000 to $70,000. Records indicate
that DoD paid AZ Corporation more than $20 million for line-haul services facili-
tated by Canteen and Finch during this period.

U.S. Army Warrant Officer Indicted for Bribery
A SIGAR investigation, conducted in cooperation with the International Contract
Corruption Task Force (ICCTF), resulted in an indictment on August 4, 2011, of
a U.S. Army Special Forces warrant officer for soliciting $60,000 in bribes for
his assistance in finalizing a $500,000 DoD reconstruction contract. The trial
is scheduled to begin later this year in the U.S. District Court in Alexandria,
Virginia. Two interpreters involved in this case—one a U.S. citizen and the other
an Afghan national—have been terminated from their positions.

DoD Employee Charged With Bribery
On August 24, 2011, the FBI arrested Desi Wade, a DoD employee who served
as chief of Fire and Emergency Services with USFOR-A, for soliciting nearly
$100,000 in kickbacks from a DoD contractor. The arrest followed an ICCTF
investigation led by DCIS and supported by SIGAR and the FBI in Afghanistan
and the United States. Wade, who has been charged with bribery, was required to
post a $20,000 unsecured bond and surrender his passport and military identifica-
tion as a condition for his release pending trial. The case is being prosecuted by
the U.S. Attorney’s Office for the Northern District of Georgia.
   In July 2011, the ICCTF opened an investigation of Wade after an employee                 A DoD employee is arrested on August 24
                                                                                             by the FBI on a charge of bribery for solicit-
of a DoD contractor reported to DCIS that Wade had requested a kickback on a                 ing more than $100,000 in kickbacks from
DoD contract. According to the contractor’s employee, Wade wanted the DoD                    a DoD contractor. SIGAR supported the
contractor to hire his “brother-in-law” as a no-show employee for the equivalent             investigation that led to the arrest.
of 5% of the value of the contract—a total of $125,000. The bribe money would

                                                                      Continued on page 24




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011                21
                                 QUARTERLY HIGHLIGHT




SUSPENSION AND                                                lead agency for suspension and debarment referrals.
                                                              SIGAR makes referrals on the basis of completed
DEBARMENT PROGRAM                                             investigations and provides all of the documentary
                                                              evidence necessary for an agency to take action.
This quarter, SIGAR made 18 referrals for the suspen-
sion and debarment of individuals and companies               SIGAR’S ENHANCED PROGRAM
working on U.S.-funded reconstruction programs. These         In June 2011, SIGAR enhanced its suspension and
referrals resulted in 6 suspensions and 12 proposals          debarment program to combat procurement fraud and
for debarment.                                                corruption in Afghanistan’s unique contracting environ-
   Through recommendations for suspensions and                ment. The U.S. government’s Afghan First policy, which
debarments, SIGAR seeks to improve contractor                 seeks to build Afghan capacity and foster economic
accountability and ensure that only responsible and reli-     development by awarding contracts to Afghan entities,
able companies receive U.S.-funded reconstruction con-        poses particular challenges to oversight because U.S.
tracts in Afghanistan. Since 2009, SIGAR has made 54          law enforcement agencies have no jurisdiction over
referrals for suspension or debarment of 47 individuals       Afghan citizens and Afghan-owned companies.
and 7 companies, as shown in Figure 1.1. The referrals           SIGAR’s suspension and debarment program
have resulted in 3 finalized debarments, 6 suspen-            addresses three serious challenges posed by the
sions, and 45 proposals for debarments by the Army            Afghan First policy and the contingency contracting
and the U.S. Agency for International Development, as         conditions in Afghanistan: the need to act quickly,
shown in Figure 1.2.                                          the lack of U.S. jurisdiction over foreign nationals
                                                              and non-U.S. companies, and the vetting challenges
                                                              inherent in the use of multiple tiers of subcontractors,
INTER-AGENCY COORDINATION
                                                              many of which are locally owned and operated.
Suspensions and debarments are actions taken by
U.S. agencies to exclude companies or individuals
                                                              FIGURE 1.1
from receiving federal contracts or assistance because
of misconduct. They are an important tool for ensur-          SIGAR SUSPENSION AND DEBARMENT PROGRAM:
ing that agencies award contracts only to responsible         REFERRALS, 2009–SEPTEMBER 30, 2011
entities. A suspension is a temporary exclusion pend-
ing the completion of an investigation or legal action.            60
Debarment, a two-step process, begins with a proposal                                                                   54
for debarment that excludes a contractor while a                   50
Suspension and Debarment Official (SDO) considers
the allegations made against the contractor. The debar-
                                                                   40
ment action is completed when the SDO makes a final                                                  36
decision to exclude a company or individual from receiv-                    30
                                                                   30
ing government contracts for a fixed term determined by
the SDO. All suspended and debarred companies are
                                                                   20
placed on the General Services Administration Excluded
Parties List. Agencies may not award contracts to com-
                                                                   10
panies and individuals on this list.
   Each agency has an SDO who is responsible for
                                                                     0
considering and acting on referrals. SIGAR actively                      As of                   As of                As of
works with agency SDOs in DoD, DoS, USAID, and                           Mar 20, 2011            Jun 30, 2011         Sep 30, 2011
other government departments to determine the
                                                              Source: SIGAR Investigations Directorate, 10/16/2011.




                                      22               SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                    QUARTERLY HIGHLIGHT




                                          SIGAR’s suspension and debarment program
                                         addresses three serious challenges posed by the
                                            Afghan First policy and the contingency
                                             contracting conditions in Afghanistan.


    Although the United States has no authority to                                         CASE STUDY: DEBARMENT OF NOOR
prosecute Afghan citizens for criminal activity related                                    AHMAD YOUSUFZAI CONSTRUCTION
to U.S.-funded contracts, U.S. implementing agen-
                                                                                           COMPANY AND ITS OWNER
cies do have the ability to suspend and debar any
                                                                                           The case of Noor Ahmad and his company illustrates
company or individual of any nationality from obtain-
                                                                                           how suspensions and debarments can be used
ing additional U.S.-funded contracts. Suspensions
                                                                                           effectively to prevent companies that have engaged
and debarments enable these agencies to quickly
                                                                                           in criminal activity from being awarded reconstruc-
address problems posed by contractors who have
                                                                                           tion contracts. This quarter, at the recommenda-
engaged in misconduct or performed poorly without
                                                                                           tion of SIGAR, the U.S. Army debarred Noor Ahmad
having to obtain the jurisdiction required to initiate
                                                                                           Yousufzai Construction Company and its owner, Noor
civil or criminal proceedings in the U.S. courts. U.S.
                                                                                           Ahmad. Noor had been arrested on June 13, 2011, by
agencies can also effectively use suspensions and
                                                                                           Afghan National Police officers for attempting to bribe
debarments to prevent the award of additional con-
                                                                                           a U.S. government official. The arrest followed an
tracts to contractors who have engaged in illicit activ-
                                                                                           investigation by the International Contract Corruption
ity (such as smuggling) or who have links to criminal
                                                                                           Task Force that determined that Noor had offered a
and insurgent networks.
                                                                                           $400,000 cash payment to a contracting officer at
    A senior counsel for investigations heads SIGAR’s
                                                                                           the U.S. Army Corps of Engineers.
suspension and debarment program, which is sup-
                                                                                              As an Afghan national, Noor is under the juris-
ported by investigators, auditors, and analysts focused
                                                                                           diction of the Afghan government, even though his
on issues related to reconstruction. This gives SIGAR
                                                                                           actions were intended to influence the award of a
the unique ability to develop the evidentiary material
                                                                                           U.S. government contract. If SIGAR had not referred
needed to support suspension and debarment cases.
                                                                                           Noor for debarment, no record of Noor’s attempted
FIGURE 1.2
                                                                                           bribery would be readily available to the contract-
                                                                                           ing community. Instead, the allegations against him
SIGAR SUSPENSION AND DEBARMENT PROGRAM:                                                    would have been addressed by the local criminal
RESULTS, 2009–SEPTEMBER 30, 2011                                                           courts, leaving him and his company potentially free
                                                                                           to continue to pursue U.S. government contracts. By
                                Total: 54 (individuals: 47; companies: 7)
                                                                                           making its referral, SIGAR acted to ensure that Noor
Proposals for                                                                              and his company are excluded from receiving future
                                                                                  45
  Debarment                                                                                U.S. contracts.
                                                                                              Noor and his company were added to the General
Suspensions                 6
                                                                                           Services Administration’s Excluded Parties List on
    Finalized                                                                              August 31, 2011. Because U.S. government agencies
                    3
 Debarments                                                                                may not contract with companies and individuals on
                        5       10     15     20    25     30     35        40   45        this list, Noor will not have another opportunity to try
                                                                                           to improperly influence contracting personnel.
Source: SIGAR Investigations Directorate, 10/16/2011.




             REPORT TO THE UNITED STATES CONGRESS                       I    OCTOBER 30, 2011             23
                                                              SIGAR OVERSIGHT




                                                              be paid directly to Wade. In exchange, Wade promised to provide the DoD
                                                              contractor with confidential bid information on future DoD contracts. The DoD
                                                              contractor’s employee supported the investigation, and all of his meetings with
                                                              Wade were electronically monitored.
                                                                 During several electronically monitored meetings between the contractor’s
                                                              employee and Wade, Wade provided confidential bid information about ongoing
                                                              government contracts. Wade also claimed to have previously provided informa-
                                                              tion to another DoD contractor, indicating that this was not the first time he had
                                                              engaged in a kickback scheme. While in Afghanistan, Wade accepted an initial
                                                              bribe of $4,000 from the contractor’s employee.
                                                                 In August 2011, Wade traveled from Afghanistan to Atlanta to attend the Fire
                                                              Rescue International Conference. The contractor’s employee also traveled to
                                                              Atlanta and met with Wade on two occasions. Wade repeated both his request for
                                                              $125,000 and his promise to steer confidential bidding information to the contrac-
                                                              tor during the first meeting. After some negotiation, Wade and the contractor’s
                                                              employee agreed to a $95,000 kickback. During the second meeting, which was
                                                              also electronically monitored, a $95,000 bribe was paid to Wade in a hotel room.
                                                              Wade was arrested in the hotel hallway after the meeting and subsequently
                                                              cooperated with the FBI. During three hours of interviews, he admitted that he
                                                              had accepted the $4,000 payment in a meeting monitored by SIGAR and ICCTF
                                                              agents in Afghanistan. He also admitted that he had accepted the $95,000 pay-
                                                              ment in Atlanta.
 FIGURE 1.3
                                                              Afghan Court Convicts Afghan Citizen Charged With Bribery
SIGAR INVESTIGATIONS: NUMBER OF OPEN                          Following a joint operation by SIGAR, the ICCTF, and the Afghan Shafafiyat
INVESTIGATIONS, JULY 1–SEPTEMBER 30, 2011
                                                              (Transparency) Investigative Unit (ASIU) last quarter, an Afghan who had
                                                              attempted to bribe a USACE contract specialist was convicted in Afghan court
                      Total: 111                              and sentenced to three months in prison, according to an ASIU prosecutor. The
                                                              prosecutor told SIGAR that Mohammed Idress Qasimi was released in September
                                              Civil           2011, having served his sentence. For details on the investigation, see SIGAR’s
                                              Investigation
                                              2               July 2011 quarterly report.
             Contract Fraud
             68                 Public
                                Corruption/
                                                              Ongoing Cases
                                Bribery                       This quarter, SIGAR opened 31 investigations and closed 10, bringing the total
                                30                            number of ongoing cases to 111. Of the ongoing cases, about 61% involve con-
                                                              tract fraud and 27% involve corruption and bribery, as shown in Figure 1.3. The
Theft of Property                        Miscellaneous        remaining 12% involve theft of property and services, civil investigations, and
and Services         Assessment          Criminal Activity
4                    2                   5                    miscellaneous criminal activities. SIGAR closed investigations during this report-
                                                              ing period either because the cases lacked prosecutorial merit or the allegations
Source: SIGAR Investigations Directorate, 10/11/2011.         could not be substantiated.




                                                                24               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                           SIGAR OVERSIGHT




SIGAR Hotline and Complaints Management System
SIGAR received 38 Hotline complaints from July 1, 2011, to September 30,
2011. SIGAR has referred 14 of them for further investigation by its own agents,
referred 1 to another agency, is reviewing 10, and has closed 13. SIGAR investiga-
tors have 30 days to evaluate complaints and decide whether they merit further
review and referral. Since 2009, the SIGAR Hotline has received 672 complaints.

SIGAR BUDGET
Since the Congress established SIGAR in 2008, it has appropriated $71.6 mil-
lion to cover the organization’s operating expenses through FY 2011. For FY
2012, President Obama has asked the Congress for an additional $18.8 billion
for Afghanistan reconstruction. If that amount is approved, it will add almost
26% to the $72.2 billion appropriated since 2002 to rebuild Afghanistan. SIGAR
has requested $44.4 million for FY 2012 to enable the organization to hire and
support sufficient highly specialized professionals with expertise in audits, inves-
tigations, and information management to provide the oversight required for the
expanding U.S. investment into the reconstruction of Afghanistan.

SIGAR STAFF
SIGAR’s staff consists of 138 federal employees. Because of the significant
increase in reconstruction funding in FY 2011 and FY 2012, SIGAR plans to build
its staff to 180 full-time employees in FY 2012. SIGAR continues to refine its pro-
cesses to reduce recruitment time in filling critical positions, as well as improve
its support to SIGAR staff in Afghanistan.
    SIGAR has 33 positions for personnel at the U.S. Embassy Kabul, and 16 at
military bases outside Kabul. In August 2011, a new memorandum of under-
standing was signed to expand SIGAR’s presence to four additional locations
in Afghanistan. By the end of October 2011, SIGAR staff will be stationed in
several places across the country, including Kandahar, Bagram, Herat, Helmand,
and Salerno. SIGAR also employs three local nationals in its Kabul office—two
investigators and one person serving as translator and Hotline administrator. In
addition, SIGAR supports its work with staff assigned to short-term temporary
duty in Afghanistan. This quarter, SIGAR had 8 personnel on TDY to Afghanistan
for a total of 150 days.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           25
               Breaking the Fast
               A child receives a gift of an Afghan flag during a celebration
               of the end of Ramadan on August 31 in Helmand province.
               U.S. Marines partnered with ANA and ANP personnel to
               distribute flags and other gifts in support of the Eid holiday,
               which marks the end of the month-long fasting period. (U.S.
               Marines photo, Cpl Colby Brown)




26   SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
2   AFGHANISTAN
    OVERVIEW




        27
         AFGHANISTAN OVERVIEW




   “…for Afghanistan to become
  truly self-reliant, apart from the
 security transition, we will need a
comprehensive economic transition.
  This transition will take a much
 longer time than the transition of
    security and will require the
    continuation of the steadfast
    support of our international
     partners far beyond 2014.”
     —Afghanistan President Hamid Karzai




         Source: GIRoA, “Statement of H.E. Hamid Karzai, President of the Islamic Republic of Afghanistan, at the 66th Session of the
         UN General Assembly,” 9/23/2011.




             28                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




AFGHANISTAN OVERVIEW
The immediate focus of the U.S. reconstruction effort is on facilitating the transi-
tion of responsibility for Afghanistan’s security to the Afghan National Security
Forces (ANSF) in 2014. The success of the long-term U.S. strategy will depend
on (1) building Afghan National Army and Afghan National Police forces that can
provide security for the Afghan people and preventing al-Qaeda from gaining a
stronghold in Afghanistan, (2) achieving a political settlement, and (3) fostering
sustainable economic development. During this reporting period, Afghanistan
made progress toward achieving some transition goals but also experienced
serious setbacks, including the assassination of Burhanuddin Rabbani—a former
Afghan president and chairman of a government council seeking a political set-
tlement with insurgents. Key developments this quarter included the following:
• The North Atlantic Treaty Organization (NATO) hosted a meeting of the
   defense ministers of the 49 countries that contribute to the International
   Security Assistance Force (ISAF) to assess the transition process and
   develop plans to support Afghanistan after 2014.
• Assassinations of Afghan government officials undermined security gains
   and jeopardized the peace and reconciliation process.
• The International Monetary Fund (IMF) announced that it had reached a
   staff-level agreement with Afghan authorities to renew its credit program for
   three years.
• The United States, with the support of the Afghan government, promoted the
   New Silk Road initiative to help stabilize the Southwest Asia region by spur-
   ring economic growth throughout the region.
• The international community and the Afghan government prepared for two
   upcoming conferences that will help determine how the international com-
   munity will support Afghanistan during and after the transition.

SECURITY
More than half of the nearly $73 billion that the Congress has provided for the
reconstruction of Afghanistan since 2002 has been used to build Afghanistan’s
security forces. Since 2005, the Congress has appropriated nearly $39.5 billion
through the Afghan Security Forces Fund (ASFF) to train, equip, house, and sus-
tain the ANSF. President Obama has asked for an additional $12.8 billion for the
ASFF for FY 2012 to support this effort, which the United States views as critical
to stabilizing Afghanistan and denying al-Qaeda sanctuary.



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           29
AFGHANISTAN OVERVIEW




   In mid-October, the NATO Training Mission - Afghanistan (NTM-A) reported
that the ANSF was achieving its recruitment goals. The ANSF totaled more than
305,600—the growth target for October 31, 2011, according to NTM-A officials.1
This number included 170,500 personnel in the Afghan National Army (ANA),
and 135,000 in the Afghan National Police (ANP). Last quarter, the Afghan
government and the international community agreed to increase the combined
strength of the Afghan security forces to 352,000 by November 2012. SIGAR has
serious concerns about the sustainability of a force this size. SIGAR understands
that the international community and the Afghan government are discussing scal-
ing this number back because of their concerns about cost and sustainability.
   SIGAR has completed 10 audits of contracts and programs to provide infra-
structure, sustain forces, and assess ANSF capabilities. SIGAR’s audits of
infrastructure projects—including two this quarter of the Kabul Military Training
Center and the Afghan National Security University—have repeatedly found
problems related to costs, schedule delays, and sustainability. (For a summary of
the findings of these audits, see Section 1.)
   To be self-sustaining, the ANSF must be able to operate and maintain facilities
and equipment, manage budgets, account for funds, and provide supplies—such
as food and fuel. Recent assessments found that few ANSF units had achieved the
highest performance ratings. SIGAR will be conducting audits to assess a range of
capabilities that are vital to successfully transitioning responsibility for security to
the ANSF. (For more on ANSF assessments, see “Security” in Section 3.)




KEY EVENTS, OCTOBER 2001–OCTOBER 2011

                 FY 2002                                                   FY 2003
                 Congress appropriates $1.06 billion for reconstruction.   Congress appropriates $1.01 billion for reconstruction
                 Appropriations to ESF and INCLE begin.                    (cumulative total: $2.08 billion).
                 Troops in country: U.S.—5,200; coalition—4,700            Troops in country: U.S.—10,400; coalition—5,000



tttttttttttttttttttttttttttt
 10/2001: Operation Enduring                                                                                  8/2003:
 Freedom begins.                                                                                              First ISAF mission is
                                                                                                              conducted by NATO.
            12/2001: Bonn Agreement establishes
            the Afghan Interim Authority, chaired by
            Hamid Karzai.
            ISAF is established by UN Security Council.

                 1/2002: Tokyo Conference is
                 held; U.S. pledges $297 million.

                          3/2002: UNAMA is established.

                                              6/2002: Afghan Transitional
                                              Administration headed by Hamid Karzai
                                              is set up by emergency Loya Jirga.
Note: Numbers affected by rounding.




    30                        SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                               AFGHANISTAN OVERVIEW




         Transition Faces Challenges
         Last quarter, the ANSF assumed responsibility for security in seven areas in
         which about 25% of the population lives. The Afghan government was scheduled
         to identify additional areas for transition in October; however, when this report
         went to press, the government had not announced where the next transition
         would take place.
             According to U.S. officials, the transition is on schedule, and the overall
         security situation has improved. Nevertheless, the Taliban’s ability to launch
         dramatic attacks (the September attack on the NATO headquarters and the
         U.S. Embassy Kabul, for example) and the increase in assassinations of Afghan
         government officials raise serious concerns. Secretary of Defense Leon Panetta
         told the Congress that the Taliban has shifted away from attacks on coalition
         forces to more high-profile attacks and assassinations. “While overall violence in
         Afghanistan is trending down substantially in areas where we concentrated the
         surge,” said the Secretary, “we must be more effective in stopping these attacks
         and limiting the ability of insurgents to create perceptions of decreasing secu-
         rity.”2 He also noted that Afghan and coalition forces still face a tough campaign
         in eastern Afghanistan, where the topography, cultural geography, and safe
         havens across the Pakistan border give the insurgents advantages that they have
         lost in other parts of the country.3
             U.S. officials, Afghan government leaders, and international organizations
         have re-emphasized this quarter that development, governance, and the rule




         KEY EVENTS, OCTOBER 2001–OCTOBER 2011 (Continued)

         FY 2004                                                      FY 2005                                                  FY 2006
         Congress appropriates $2.60 billion for reconstruction       Congress appropriates $4.85 billion for reconstruction   Congress appropriates $3.48 billion for reconstruction
         (cumulative total: $4.68 billion). Appropriations to         (cumulative total: $9.53 billion). ASFF established.     (cumulative total: $13.01 billion).
         CERP and DoD CN funds begin.                                 Troops in country: U.S.—19,100; coalition—10,500         Troops in country: U.S.—20,400; coalition—18,000
         Troops in country: U.S.—15,200; coalition—8,000


 t
ttttttttttttttttttttttttttttttttttttttttttt
         1/2004: Loya Jirga                                                              5/2005: Lt. Gen. Karl W. Eikenberry       2/2006: 1st London Conference produces
         approves Constitution.                                                          becomes Commander of Combined             Afghanistan Compact (five-year plan).
                                                                                         Forces Command - Afghanistan.             Work begins on the ANDS.

                                                    10/2004: First national                                 9/2005: First parliamentary and                                   10/2006: NATO
                                                    presidential election is held.                          provincial council elections in                                   assumes security
                                                    Hamid Karzai is inaugurated for                         more than 30 years are held.                                      responsibility
                                                    a five-year term.                                                                                                         for entire nation.

                                                                  12/2004: Afghanistan becomes
                                                                  the Islamic Republic of Afghanistan.
                                                                                                                                                                     Continued on next page...




                     REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2011                        31
                                                                  AFGHANISTAN OVERVIEW




                                                                  of law are as important to ensuring a sustainable transition as building the
                                                                  Afghan security forces. As the Secretary-General of the United Nations noted
                                                                  in his quarterly report to the Security Council, “Much will depend on success in
                                                                  strengthening institutions, particularly at the sub-national level; on creating jobs
                                                                  and economic opportunities; and on access to the delivery of basic justice.”4
                                                                     There is growing recognition that development, governance, and the rule of
                                                                  law cannot be fully achieved by 2014 and that the transition process as currently
                                                                  envisioned is not easily sustainable because no one has fully assessed the opera-
                                                                  tional and support costs of reconstruction programs. Consequently, the Afghan
                                                                  government will need long-term international assistance.
                                                                     In his address to the UN General Assembly, President Hamid Karzai under-
                                                                  scored this point: “Transition is not just limited to security. Indeed, while
                                                                  transition is both desirable and inevitable, the economic effect of the withdrawal
                                                                  of foreign forces from Afghanistan needs to be managed carefully. In other
                                                                  words, for Afghanistan to become truly self-reliant, apart from the security
                                                                  transition, we will need a comprehensive economic transition.”5 He added that
                                                                  the economic transition will take a much longer time than the security transi-
                                                                  tion and require continuing support from international partners beyond 2014.6
                                                                  In addition, as Secretary Panetta told Congress, “We must not underestimate the
                                                                  difficult task the Afghans still face in developing governance that can meet the
                                                                  minimum needs of the Afghan people and help them take and sustain control of
                                                                  their country.”7
                                                                     This quarter, the United States and its coalition partners, working together
                                                                  with the Afghan government, began examining ways to better fuel economic


      KEY EVENTS, OCTOBER 2001–OCTOBER 2011 (Continued)

      FY 2007                                                   FY 2008                                                  FY 2009
      Congress appropriates $10.03 billion for reconstruction   Congress appropriates $6.19 billion for reconstruction   Congress appropriates $10.37 billion for reconstruction
      (cumulative total: $23.04 billion).                       (cumulative total: $29.23 billion).                      (cumulative total: $39.70 billion).
      Troops in country: U.S.—23,700; coalition—26,043          Troops in country: U.S.—30,100; coalition—29,810         Troops in country: U.S.—33,000; coalition—36,230



tt tttttttttttttttttttttttttttttttttttttttt
      1/2007: ISAF troops: 35,460                                   2/2008: ISAF troops: 43,250                          1/2009: ISAF troops: 55,100
      from 37 nations (14,000 U.S.)                                 from 40 nations (15,000 U.S.)                        from 41 nations (23,220 U.S.)

                                                                              4/2008: President Karzai formally                   3/2009: President Obama
                                                                              approves the ANDS (five-year plan).                 commits 17,000 more troops.

                                                                                        6/2008: Paris Donors Conference                4/2009: Karl Eikenberry
                                                                                        is held; donors pledge more than               becomes U.S. Ambassador.
                                                                                        $20 billion.
                                                                                        Gen. David D. McKieman becomes                           6/2009: Gen. Stanley McChrystal
                                                                                        ISAF Commander.                                          becomes Commander of ISAF and
                                                                                                                                                 USFOR-A.
                                                                                                           10/2008: ISAF Commander,
                                                                                                           Gen. McKieman named
                                                                                                           Commander of newly formed
                                                                                                           USFOR-A.




                                                                      32                      SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                AFGHANISTAN OVERVIEW




          growth and strengthen Afghan governing capacity. The United States has pro-                                                “Let there be no mistake:
          posed the New Silk Road, an initiative to spur regional cooperation and boost
          the economies of Afghanistan and its neighboring states. Through a series of
                                                                                                                                    transition is not departure.
          military, regional, and international conferences, the international community is                                          We will not take our leave
          working to build a consensus on how it will support Afghanistan through 2014                                              when the Afghans take the
          and beyond.                                                                                                                lead. NATO nations have
                                                                                                                                    agreed to an enduring part-
          NATO Hosts Meeting of ISAF Defense Ministers                                                                                nership with the Afghan
          In early October, NATO hosted a two-day meeting of the defense ministers from
          the 49 countries that contribute to ISAF to assess the transition process. The                                                  people, and we
          participants determined that the transition was on track and pledged support for                                               will live up to it.”
          Afghanistan after 2014. This gathering served as a prelude to the NATO Summit,                                               —Anders Fogh Rasmussen, NATO
          which is scheduled to take place in Chicago in May 2012. NATO Secretary-                                                                  Secretary-General
          General Anders Fogh Rasmussen told the participants, “The Afghan forces are
          becoming more capable every day. They have faced dangers and threats head-on                                              Source: NATO, Secretary-General Fogh Rasmussen, Press
          with courage, skill and determination.”8 He said NATO nations would decide at                                             Conference following the NATO Meeting of Ministers of
                                                                                                                                    Defense, 10/6/2011.
          the Chicago Summit how to continue to support the Afghan security forces after
          the transition.

          Private Security Contractors
          During this reporting period, ISAF and the U.S. Embassy Kabul conducted a
          six-month evaluation of the ability of the new Afghan Public Protection Force
          (APPF) to provide security services for development and humanitarian projects.



          KEY EVENTS, OCTOBER 2001–OCTOBER 2011 (Continued)

          FY 2010                                                   FY 2011
          Congress appropriates $16.59 billion for reconstruction   Congress appropriates $16.47 billion for reconstruction
          (cumulative total: $56.22 billion).                       (cumulative total: $72.67 billion).
          Troops in country: U.S.—87,000; coalition—41,389          Troops in country: U.S.—110,325; coalition—42,457



tttttttttttttttttttttttttttt
          1/2010: 2nd London Conference                                                     6/2011: ISAF troops: 132,381
          produces agreement to begin                                                       from 48 nations (90,000 U.S.)
          transition to Afghan responsibility
                                                                                            President Obama announces
          for security.
                                                                                            reduction of U.S. troops by
                                                                                            10,000 in 2011 and by 33,000
              2/2010: ISAF troops: 85,795
                                                                                            by the end of summer 2012.
              from 43 nations (47,085 U.S.)

                                        7/2010: Kabul Conference produces                                      10/2011: Coalition forces
                                        agreement on GIRoA Prioritization                                      begin 11th year in Afghanistan.
                                        and Implementation Plan.
                                        Gen. David Petraeus becomes
                                        Commander of ISAF and USFOR-A.

      12/2009: President Obama commits                         11/2010: Lisbon Summit produces
      30,000 more troops (the “surge”).                        agreement on withdrawal of
                                                               international combat forces by
                                                               2014 and progressive transition of
                                                               security responsibility to the ANSF.


                      REPORT TO THE UNITED STATES CONGRESS                 I   OCTOBER 30, 2011                        33
                                           AFGHANISTAN OVERVIEW




                                           SIGAR understands that the assessment has not been finalized. The APPF is
                                           scheduled to replace some private security contractors (PSCs) in six months.
                                              U.S. agencies, contractors, non-government organizations, and other entities
                                           implementing the reconstruction effort in Afghanistan all depend on PSCs to
                                           provide security for their personnel and infrastructure. In August 2010, President
                                           Hamid Karzai issued a decree that would have banned all PSCs by the end of
                                           that year. The decree was, in part, a response to the growing concerns about
                                           the activities of some PSCs. Negotiations between the Afghan government and
                                           the international community resulted in a “bridging strategy” that would give
                                           the Afghan government time to develop the APPF so it can assume the respon-
                                           sibilities of some PSCs. Under this strategy, the U.S. Embassy Kabul and ISAF
                                           could still employ PSCs for diplomatic and military missions and projects.
                                           However, PSCs providing security services for development and humanitarian
                                           projects must be replaced by the APPF by March 20, 2012. The Afghan Ministry
                                           of Interior, ISAF, and the U.S. Embassy Kabul agreed to conduct regular assess-
                                           ments of the APPF to determine whether it would be capable of providing the
                                           necessary security. SIGAR has ongoing and planned audits of private security
                                           contracts because of the importance of PSCs to the U.S. reconstruction mission.

                                           ECONOMIC DEVELOPMENT
                                           Two developments this quarter could help bolster international support for long-
                                           term economic development in Afghanistan—an IMF announcement that it had
                                           reached a staff-level agreement to renew its credit program for Afghanistan, and
                                           an initiative to build a regional transit and communications network to underpin
                                           economic growth.

                                           IMF To Renew Afghanistan’s Extended Credit Facility
SIGAR AUDIT                                On October 6, 2011, IMF and Afghan authorities reached an initial agreement
                                           on a three-year, $129 million program under an Extended Credit Facility (ECF),
In its audit of the ARTF, SIGAR found      which provides financial assistance to countries with protracted balance-of-
that the World Bank and the Afghan         payment problems. The IMF executive board is expected to give final approval of
government had established mecha-          the ECF arrangement in November. The Afghan National Assembly removed one
nisms to monitor and account for           of the chief obstacles to approval when the Lower House adopted a budget that
ARTF funds, but there was limited          included the first tranche of $51 million to recapitalize Kabul Bank. International
independent validation of ARTF funds       donors, especially the U.S. government, have insisted that no reconstruction
expended outside Kabul. Although Af-       funds be used to recapitalize Kabul Bank (the country’s largest private bank).
ghan ministries have generally improved       Once approved, the agreement paves the way for a resumption of international
their ability to manage and account for    donor contributions to the Afghanistan Reconstruction Trust Fund (ARTF), which
government finances, the Afghan gov-       supports Afghanistan’s operating budget and development programs. Unlike the
ernment faces challenges in developing     United States, many countries have regulations that prevent them from providing
and maintaining the civil service exper-   assistance to countries that do not have an agreement with the IMF.
tise needed to manage and account for         More than a year ago, the IMF suspended its Afghanistan program because
ARTF funds. For details, see SIGAR audit   of the massive fraud at Kabul Bank and insufficient oversight of the financial
11-14 at www.sigar.mil.                    system. IMF officials said that Afghan authorities had made progress in managing




                                             34               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                              AFGHANISTAN OVERVIEW




The New Silk Road initiative is discussed at a ministerial meeting on September 22 in New
York. Secretary of State Hillary Clinton and Afghan Foreign Minister Zalmai Rassoul (left) co-
chaired the meeting, which was hosted by German Foreign Minister Guido Westerwelle (right).
The initiative aims to build a regional commercial and transit network to enhance long-term
economic development in Afghanistan and throughout the region. (DoS photo)


the Kabul Bank crisis and had also taken measures to safeguard fiscal sustain-
ability. Under the agreement, the Afghan authorities will still have to demonstrate
that they are working hard to recover the estimated $900 million that the Kabul
Bank lost.

U.S. Proposes New Silk Road Initiative
During this reporting period, the United States offered a new vision for the
economic integration of the Southwest Asia region. On September 22, Secretary
of State Hillary Clinton and the foreign ministers of Germany and Afghanistan co-
chaired a meeting of foreign ministers and senior officials from 27 countries and
international organizations to discuss the New Silk Road. The initiative aims to
build a regional commercial and transit network to underpin long-term economic
development for Afghanistan and its neighbors. In a joint statement following
the ministerial meeting, the co-chairs said, “The creation of a New Silk Road
will help Afghanistan and its neighbors maximize the value of natural resources,
build human capacity, create jobs, generate revenue to pay for needed services,
and capitalize on the region’s economic potential.”9 The initiative springs from a
growing realization that the transition poses economic as well as security chal-
lenges. “As coalition combat forces leave Afghanistan, the support structure that
has grown up to supply them will shrink dramatically,” said Secretary Clinton,
“That will mean fewer jobs for Afghans and a loss of economic activity. So the
Afghan economy will need new sources of growth independent of foreign assis-
tance connected to the military mission.”10



          REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2011                35
AFGHANISTAN OVERVIEW




   U.S. policy makers have long recognized the inextricable connection between
Afghanistan and Pakistan. One objective of the initiative is to encourage Pakistan
to become more engaged in regional development. At the ministerial meeting
on the New Silk Road, Secretary Clinton said that Afghanistan’s economic and
political future was linked to that of its neighbors: “For Afghans to enjoy sustain-
able prosperity, they will have to work alongside all of their neighbors to shape
a more integrated economic future for the region that will create jobs and will
undercut the appeal of extremism.”11

GOVERNANCE
The U.S. reconstruction strategy in Afghanistan emphasizes building Afghan gov-
erning capacity at all levels to provide for essential services, implement the rule
of law, and encourage peace and reconciliation. In addition to funding contracts
for projects and programs to train administrators, support institutional reforms,
develop agriculture, and increase access to health care, education, and the
justice system, the United States has expanded a civilian-led effort to work with
Afghan officials at the national, provincial, and district levels. Since 2009, the U.S.
government has nearly tripled the number of civilians deployed to Afghanistan.
   This quarter, SIGAR completed two audits that assessed aspects of the U.S.
effort to build Afghan governing capacity. The first, which SIGAR conducted
jointly with the Department of State Office of Inspector General, found that since
2009 the United States has spent nearly $2 billion to deploy about 720 additional
civilian personnel and to provide facilities and services that benefit both base
and uplift personnel. This audit concluded that the uplift faces serious challenges
because of budget uncertainty and a lack of clarity about the ultimate size of the
U.S. civilian presence needed in Afghanistan going forward. A second audit of
U.S. capacity-building efforts at the Afghan Ministry of Agriculture, Irrigation,
and Livestock found that the U.S. government does not have the ability to evalu-
ate whether the U.S. strategy to develop the ministry is working and whether
U.S. resources are properly aligned to achieve the Ministry’s capacity-building
objectives. SIGAR recommended that the U.S. government take a number of
steps to better assess capacity-building efforts, including establishing baselines
and targets. (For a summary of these audits, see Section 1.)

Assassinations Undermine Peace and Reconciliation Efforts
On September 20, a man posing as a Taliban peace envoy detonated a bomb
hidden in his turban, killing himself and former President Rabbani, who was the
internationally respected Chairman of the High Peace Council. President Karzai
created the council to find a political solution to the conflict in Afghanistan. The
assassination was a major blow to the nascent reconciliation efforts under way
with the Taliban and has left the peace process in disarray.
   The assassination of the former president was the latest in a series of high-
profile killings. Insurgents have been increasingly targeting senior government
officials, influential local and religious leaders, and members of the security




  36                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           AFGHANISTAN OVERVIEW




forces.12 Insurgents killed at least 183 individuals in July and August alone,
according to the Secretary-General of the United Nations.13 Among those killed
were three senior figures in Kandahar province: the mayor of Kandahar City, the
leader of the province’s Ulema Shura (Council of Islamic Scholars), and the head
of the Provincial Council. The latter, Ahmad Wali Karzai, was President Karzai’s
half-brother. In his quarterly report, the UN Secretary-General noted that news
of these assassinations “reverberated across the country, raising concerns for
the political stability of the south, given the influence exerted by those killed and
their ties to the government in Kabul.”14
   The number of political assassinations in Kandahar has escalated from an
estimated average of 1 per month in 2009 to 10 per month in 2011.15 These
assassinations not only undermine efforts to achieve a political settlement in
Afghanistan, they make it much more difficult to build a stable government
capable of responding to the needs of its citizens.

LOOKING FORWARD
Afghanistan stands at a critical crossroads as the United States and its coalition
partners prepare to reduce their military presence and transition more respon-
sibility for security, governance, and economic development to the Afghan
government. Next quarter, the international community will hold two key confer-
ences to discuss Afghanistan’s future.
   In November, Turkey will host a meeting in Istanbul of regional leaders to
address security, political concerns, economic issues, and the New Silk Road
initiative. A key objective of the meeting is for Afghanistan’s neighbors to commit
to supporting an independent and stable Afghanistan.
   In December, delegates from 90 nations and international organizations will
convene in Bonn, Germany, to assess the transition process and determine how
the international community will support Afghanistan after 2014. This meeting
comes 10 years after the 2001 Bonn Conference that created the Afghan Interim
Authority following the overthrow of the Taliban. The 2001 Bonn Agreement
established a political framework and a timeline for setting up a new govern-
ment. The 2010 Bonn Conference will bring the international community
together to discuss continued international support of Afghanistan through the
transition and beyond.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011            37
               School Supplies
               Children at a school in Kabul receive pens, paper, and other
               school supplies donated by a U.S. charitable organiza-
               tion on August 20. Since October 2010, the Marines have
               distributed more than 12,000 pounds of donated school
               supplies to help educate Afghan students. (U.S. Marines
               photo, Sgt Catherine Threat)




38   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
3   RECONSTRUCTION
    UPDATE




        39
          RECONSTRUCTION UPDATE




   “…Afghanistan’s political future
  is linked to its economic future…
lasting stability and security go hand
 in hand with economic opportunity.
   People need a realistic hope for
    a better life, a job and a chance
       to provide for their family.”
                                        —U.S. Secretary of State
                                        Hillary Rodham Clinton




          Source: U.S. Secretary of State Hillary Rodham Clinton, “Remarks at the New Silk Road Ministerial Meeting,” 9/22/2011.




              40                         SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                       RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents a holistic view of reconstruction efforts in Afghanistan during
this reporting period. Updates on accomplishments, challenges, and local initia-
tives provide context for the oversight that is needed in reconstruction efforts.
Sidebars throughout the section identify SIGAR audits—both completed and
ongoing—related to those efforts; for those audits, cross-references direct the
reader to more information in Section 1 or on SIGAR’s website.
   Section 3 is divided into four subsections: Status of Funds, Security, Governance,
and Economic and Social Development. The Security, Governance, and Economic
and Social Development subsections mirror the three pillars reflected in the
Prioritization and Implementation Plan announced by the Government of the
Islamic Republic of Afghanistan (GIRoA) in 2010 and originally set forth in the 2008
Afghanistan National Development Strategy.

TOPICS
Section 3 discusses four broad topics: historical and current funding informa-
tion, security conditions, governance-related activities, and economic and social
development programs. The section also provides information on the progress of
efforts to reduce corruption and combat the narcotics trade in Afghanistan.
   The Status of Funds subsection contains a comprehensive discussion of
the monies appropriated, obligated, and disbursed for Afghanistan reconstruc-
tion. It includes specific information on major U.S. funds and international
contributions.
   The Security subsection details U.S. efforts to bolster the Afghan National
Security Forces and highlights developments affecting the security environment
in the country. This subsection focuses on programming to build the capacity
of the Afghan National Army and Afghan National Police. It reviews the status
of private security contractors. It also discusses the ongoing battle against the
narcotics trade in Afghanistan.
   The Governance subsection provides an overview of the GIRoA’s progress
toward achieving good governance. This subsection focuses on the continued
controversy surrounding the makeup of the Wolesi Jirga and on the status of rec-
onciliation and reintegration. It also reviews the level of GIRoA control in various
eastern and southern provinces. It discusses capacity-building efforts, rule of law
initiatives, and human rights development. This subsection also highlights U.S.
and GIRoA initiatives to combat corruption.



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011            41
RECONSTRUCTION UPDATE




   The Economic and Social Development subsection looks at reconstruction
activities by sector, ranging from agriculture and mining to energy. It provides a
snapshot of the state of the economy and updates on progress in regulating finan-
cial networks, achieving fiscal sustainability, and delivering essential services.

METHODOLOGY
Section 3 was compiled using information and data from open sources and U.S.
agencies. All data and information is attributed to the reporting organization in
endnotes to the text or notes to the tables and figures; because multiple organiza-
tions provide the data, numbers may conflict. Except for references to SIGAR
audits or investigations in the text or in sidebars, SIGAR has not verified this
data, and it does not reflect SIGAR opinions. For a complete discussion of SIGAR
audits and investigations this quarter, see Section 1.

DATA CALL
The data call is a series of questions directed to U.S. agencies about their contri-
butions and involvement in reconstruction programming, and the state of affairs
in Afghanistan. The U.S. agencies that participated in the data call for this quar-
terly report include the following:
 • U.S. Department of State
 • U.S. Department of Defense
 • U.S. Agency for International Development
 • U.S. Department of the Treasury
A preliminary draft of the report was provided to the responding agencies before
publication to allow these agencies to verify and clarify the content that they
provided for this section.

OPEN-SOURCE RESEARCH
Open-source research draws on the most current, publicly available data from
reputable sources. A representative list of sources used in this quarterly report
includes the following:
 • U.S. agencies represented in the data call
 • International Security Assistance Force
 • United Nations (and relevant branches)
 • International Monetary Fund
 • World Bank
 • GIRoA ministries and other Afghan government organizations
Most of the open-source research is included in the preliminary draft that is
distributed to agencies participating in the data call for review before this report
is published.




  42                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           RECONSTRUCTION
                                   GRAPHICS
                                          UPDATE
                                            KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.



BAR CHARTS                                                            UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                    Because this report details funding in both billions
dollar values ranging from millions to billions. To                   and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these                 guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                       billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                      in millions are depicted in green.
larger number.


     $500                         $200

     $450
                                  $150
     $400
                                  $100
     $350

                                   $50                                       Pie Chart in Billions           Pie Chart in Millions


       $0                           $0

            Bar chart with a             Bar chart without
             break in scale              a break in scale


CALENDAR YEARS                                                        FUNDING MARKERS
The Afghan government follows the solar Hejri                         Funding markers identify individual funds discussed
calendar, which began in 622 A.D. SIGAR converts                      in the text. The agency responsible for managing the
these years to the Gregorian calendar. The current                    fund is listed in the tan box below the fund name.
Afghan solar year is 1390; it began on March 21,
2011, and will end on March 20, 2012.

                                                                                                     ESF
    2011                            2012
     ttttttttt
                                                                                                     USAID
            1390                             1391




         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2011                43
TITLE OF THE SECTION




 44    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                  STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities in
Afghanistan. As of September 30, 2011, the United States had appropriated
approximately $72.91 billion for relief and reconstruction in Afghanistan since
FY 2002. This total has been allocated approximately as follows:
• $40.97 billion for security
• $19.28 billion for governance and development
• $5.27 billion for counter-narcotics efforts
• $2.23 billion for humanitarian aid
• $5.15 billion for oversight and operations
Figure 3.1 shows the major U.S. funds that contribute to these efforts.




FIGURE 3.1                                                                                                                  ASFF: Afghanistan Security Forces Fund

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)                                                       CERP: Commander’s Emergency
                                                                                                                            Response Program
                                                                                                                            AIF: Afghanistan Infrastructure Fund
                                        FUNDING SOURCES (TOTAL: $72.91)
                                                                                                                            TFBSO: Task Force for Business and
   ASFF         CERP         AIF        TFBSO       DoD CN                   ESF           INCLE             Other          Stability Operations
                                                                                                                            DoD CN: DoD Drug Interdiction and
  $39.45       $3.04        $0.40        $0.31       $1.89               $13.02            $3.25            $11.55
                                                                                                                            Counter-Drug Activities

                                                         AGENCIES
                                                                                                                            ESF: Economic Support Fund

                                                                                       Department of    Distributed to      INCLE: International Narcotics Control
               Department of Defense (DoD)                               USAID
                        $45.09                                           $13.02
                                                                                        State (DoS)    Multiple Agenciesa   and Law Enforcement
                                                                                           $3.25            $11.55
                                                                                                                            Other: Other Funding
Note: Numbers affected by rounding.
a. Multiple agencies include DoJ, DoS, DoD, USAID, Treasury, and USDA.
Sources: DoD, responses to SIGAR data call, 10/20/2011, 10/17/2011, 10/4/2011, 10/3/2011, 7/15/2011, 10/14/2009,
and 10/1/2009; DoS, responses to SIGAR data call, 10/14/2011, 10/13/2011, and 4/14/2011; Treasury, response to SIGAR
data call, 10/13/2011; OMB, response to SIGAR data call, 7/19/2011; USAID, responses to SIGAR data call, 10/3/2011,
10/15/2010, 1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call,
4/2009; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory
Statement."




             REPORT TO THE UNITED STATES CONGRESS                        I    OCTOBER 30, 2011                   45
                                                                    STATUS OF FUNDS




                                                                    U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
 ASFF    CERP   AIF   TFBSO DoDCN      ESF    INCLE                 As of September 30, 2011, cumulative appropriations for relief and reconstruc-
                                                                    tion in Afghanistan totaled approximately $72.91 billion. This total can be divided
                                                                    into five major categories of reconstruction funding: security, governance and
                DoD                  USAID DoS
                                                                    development, counter-narcotics, humanitarian, and oversight and operations. For
                                                                    complete information regarding U.S. appropriations, see Appendix B.
                                                                       Cumulative appropriations as of FY 2011 increased by nearly 29.6% over
The amount provided to the seven major
                                                                    cumulative appropriations through FY 2010, as shown in Figure 3.2. Efforts to
U.S. funds represents approximately 84.2%
(nearly $61.37 billion) of total reconstruc-                        build and train the Afghan National Security Forces (ANSF) have received the
tion assistance in Afghanistan since FY 2002.                       majority of reconstruction funding since FY 2002. Cumulative appropriations for
Of this amount, more than 83.8% (over                               security (more than $40.97 billion) account for nearly 56.2% of total U.S. recon-
$51.44 billion) has been obligated, and                             struction assistance.
nearly 71.2% (over $43.66 billion) has been                            Figure 3.3 on the facing page displays annual appropriations by funding cat-
disbursed. The following pages provide                              egory from FY 2002 to FY 2011. The bars show the dollar amounts appropriated,
additional details on these funds.                                  and the pie charts show the proportions of the total appropriated by category.


FIGURE 3.2


CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF SEPTEMBER 30, 2011 ($ BILLIONS)
  $75                                                                                                                                                                                 $72.91
  $70
  $65
  $60
                                                                                                                                                                     $56.26
  $55
  $50
  $45
                                                                                                                                                   $39.62
  $40
  $35
  $30                                                                                                                           $29.23

  $25                                                                                                        $23.03
  $20
  $15                                                                                     $13.01
  $10                                                                   $9.52
                                                      $4.68
    $5                              $2.08
                $1.06
    $0
                2002                2003              2004              2005               2006               2007               2008               2009             2010             2011


                         Security            Governance/Development                Counter-Narcotics             Humanitarian             Oversight and Operations            Total
Notes: Numbers affected by rounding. Updated data resulted in minor differences in appropriation amounts from figures reported last quarter.
Sources: DoD, responses to SIGAR data call, 10/20/2011, 10/17/2011, 10/4/2011, 10/3/2011, 7/15/2011, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 10/14/2011,
10/13/2011, and 4/14/2011; Treasury, response to SIGAR data call, 10/13/2011; OMB, response to SIGAR data call, 7/19/2011; USAID, responses to SIGAR data call, 10/3/2011, 10/15/2010,
1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
12/19/2009; FY 2010 Defense Explanatory Statement.




                                                                        46                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                     STATUS OF FUNDS




These figures reflect amounts as reported by the respective agencies and
amounts appropriated in legislation.
   Appropriations for FY 2011 and FY 2010 were each nearly $16.65 billion,
with FY 2011 appropriations only $1.64 million lower than FY 2010 appropria-
tions. Although appropriations for security increased more than 26.7% over FY
2010, appropriations for most funding categories decreased, as shown in Figure
3.3. Appropriations for governance and development decreased by more than
30.8%—from $4.56 billion in FY 2010 to $3.16 billion in FY 2011.




FIGURE 3.3


APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND PERCENTAGE                                      ($ BILLIONS)



        $17                                                                                                                                                              $16.65      $16.65
        $16
        $15
        $14
        $13
        $12
        $11                                                                                                                                              $10.39
                                                                                                                 $10.03
        $10
         $9
         $8
         $7                                                                                                                          $6.19
         $6
                                                                              $4.85
         $5
         $4                                                                                     $3.48
         $3                                               $2.60
         $2
                    $1.06              $1.01
         $1
         $0
                      2002              2003              2004                2005              2006              2007               2008                 2009           2010        2011


Percentage




                          Security             Governance/Development                 Counter-Narcotics           Humanitarian                Oversight and Operations       Total

Note: Numbers affected by rounding. Updated data resulted in minor differences in appropriation amounts from figures reported last quarter.
Sources: DoD, responses to SIGAR data call, 10/20/2011, 10/17/2011, 10/4/2011, 10/3/2011, 7/15/2011, 10/14/2009, and 10/1/2009; DoS, responses to SIGAR data call, 10/14/2011,
10/13/2011, and 4/14/2011; Treasury, response to SIGAR data call, 10/13/2011; OMB, response to SIGAR data call, 7/19/2011; USAID, responses to SIGAR data call, 10/3/2011, 10/15/2010,
1/15/2010, and 10/9/2009; DoJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
12/19/2009; FY 2010 Defense Explanatory Statement.




              REPORT TO THE UNITED STATES CONGRESS                        I   OCTOBER 30, 2011                               47
                                                       STATUS OF FUNDS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to provide
                                                       the ANSF with equipment, supplies, services, and training, as well as facility
                                                       and infrastructure repair, renovation, and construction.16 The primary organiza-
              DoD                                      tion responsible for building the ANSF is the North Atlantic Treaty Organization
                                                       (NATO) Training Mission - Afghanistan/Combined Security Transition Command -
                                                       Afghanistan.17
ASFF FUNDS TERMINOLOGY
                                                          DoD reported that the Full-Year Continuing Appropriations Act of 2011
DoD reported ASFF funds as available,                  provided nearly $11.62 billion for the ASFF, bringing the total cumulative appro-
obligated, or disbursed.                               priations for this fund to more than $39.45 billion.18 Of this amount, nearly
Available: Total monies available for                  $33.34 billion has been obligated, of which more than $29.65 billion has been
commitments                                            disbursed.19 Figure 3.4 displays the amounts made available for the ASFF by fiscal
Obligations: Commitments to pay monies                 year.
Disbursements: Monies that have been                      DoD reported that cumulative obligations as of September 30, 2011, increased
expended                                               by more than $2.13 billion over cumulative obligations as of June 30, 2011.
Source: DoD, response to SIGAR data call, 4/13/2010.
                                                       Cumulative disbursements as of September 30, 2011, increased by more than
                                                       $2.07 billion over cumulative disbursements as of June 30, 2011.20 Figure 3.5
                                                       provides a cumulative comparison of amounts made available, obligated, and
                                                       disbursed for the ASFF.


                                                       FIGURE 3.4                                                FIGURE 3.5

                                                       ASFF AVAILABLE FUNDS BY FISCAL YEAR                       ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                              ($ BILLIONS)



                                                       $12.0                                                     $40.0                  Available                Available
                                                                                                                                        $39.45                   $39.45

                                                       $10.0
                                                                                                                 $35.0
                                                                                                                                                                 Obligated
                                                        $8.0                                                                                                     $33.34
                                                                                                                                        Obligated
                                                                                                                 $30.0                  $31.21
                                                                                                                                                                 Disbursed
                                                        $6.0                                                                            Disbursed                $29.65
                                                                                                                                        $27.58
                                                                                                                 $25.0
                                                        $4.0


                                                        $2.0                                                     $20.0



                                                          $0                                                          $0
                                                                2005 06         07     08     09     10     11             As of Jun 30, 2011          As of Sep 30, 2011

                                                       Note: Numbers affected by rounding.                       Note: Numbers affected by rounding.
                                                       Sources: DoD, response to SIGAR data call, 10/17/2011;    Sources: DoD, response to SIGAR data call, 10/17/2011;
                                                       P.L. 112-10, 4/15/2011.                                   P.L. 112-10, 4/15/2011.




                                                           48                        SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                          STATUS OF FUNDS




ASFF Budget Activities
DoD allocates funds to three budget activity groups within the ASFF:                                                  Budget Activity Groups: categories within
• Defense Forces (Afghan National Army, ANA)                                                                          each appropriation or fund account that
• Interior Forces (Afghan National Police, ANP)                                                                       identify the purposes, projects, or types
• Related Activities (primarily Detainee Operations)                                                                  of activities financed by the appropriation
                                                                                                                      or fund
   Funds for each budget activity group are further allocated to four sub-activity
groups: Infrastructure, Equipment and Transportation, Training and Operations,                                        Sub-Activity Groups: accounting groups
and Sustainment.21                                                                                                    that break down the command’s disburse-
   As of September 30, 2011, DoD had disbursed more than $29.65 billion for                                           ments into functional areas
ANSF initiatives. Of this amount, more than $19.02 billion was disbursed for the
ANA, and almost $10.48 billion was disbursed for the ANP; the remaining nearly
                                                                                                                    Sources: DoD, “Manual 7110.1-M Department of Defense
$0.16 billion was directed to related activities.22                                                                 Budget Guidance Manual,” accessed 9/28/2009;
                                                                                                                    Depar tment of the Navy, “Medical Facility Manager
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                       Handbook,” p. 5, accessed 10/2/2009.
ANA—more than $8.80 billion—supported Equipment and Transportation. Of the
funds disbursed for the ANP, the largest portion—nearly $3.47 billion—also sup-
ported Equipment and Transportation, as shown in Figure 3.7.23




FIGURE 3.6                                                FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                            ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group,                                    By Sub-Activity Group,
FY 2005–September 30, 2011 ($ BILLIONS)                   FY 2005–September 30, 2011 ($ BILLIONS)


                   Total: $19.02                                             Total: $10.48



                   Equipment and                                            Equipment and
                   Transportation                                           Transportation
                   $8.80                                                    $3.47

          Infrastructure                                            Infrastructure                   Training and
          $2.68                            Training and             $1.60                            Operations
                                           Operations                                                $2.13
                   Sustainment                                               Sustainment
                   $5.73                   $1.80                             $3.27



Note: Numbers affected by rounding.                       Note: Numbers affected by rounding.
Source: DoD, response to SIGAR data call, 10/17/2011.     Source: DoD, response to SIGAR data call, 10/17/2011.




             REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2011                          49
                                                        STATUS OF FUNDS




                                                        COMMANDER’S EMERGENCY RESPONSE PROGRAM
        CERP                                            The Commander’s Emergency Response Program (CERP) enables U.S.
                                                        commanders in Afghanistan to respond to urgent humanitarian relief and recon-
                                                        struction requirements in their areas of responsibility by supporting programs
               DoD
                                                        that will immediately assist the local population. Funding under this program is
                                                        intended for small projects that are estimated to cost less than $500,000 each.24
                                                        Projects with cost estimates exceeding $1.00 million are permitted, but they
CERP FUNDS TERMINOLOGY
                                                        require approval from the Commander of U.S. Central Command; projects over
OMB reported CERP funds as appropriated.                $5.00 million require approval from the Deputy Secretary of Defense.25
Appropriations: Total monies available for                 As of September 30, 2011, DoD reported that the total cumulative funding
commitments                                             for CERP amounted to nearly $3.04 billion.26 DoD reported that of this amount,
DoD reported CERP funds as appropriated,                nearly $2.20 billion had been obligated, of which almost $1.86 billion has been
obligated, or disbursed.                                disbursed.27 Figure 3.8 shows CERP appropriations by fiscal year.
Appropriations: Total monies available for                 DoD reported that cumulative obligations as of September 30, 2011, increased
commitments                                             by nearly $114.94 million over cumulative obligations as of June 30, 2011.
Obligations: Commitments to pay monies                  Cumulative disbursements as of September 30, 2011, increased by more than
Disbursements: Monies that have been                    $120.17 million over cumulative disbursements as of June 30, 2011.28 Figure 3.9
expended                                                provides a cumulative comparison of amounts appropriated, obligated, and dis-
                                                        bursed for CERP projects.
Sources: OMB, response to SIGAR data call, 4/19/2010;
DoD, response to SIGAR data call, 4/14/2010.




                                                        FIGURE 3.8                                                     FIGURE 3.9


                                                        CERP APPROPRIATIONS BY FISCAL YEAR                            CERP FUNDS, CUMULATIVE COMPARISON
                                                        ($ MILLIONS)                                                  ($ BILLIONS)



                                                        $1,000                                                        $3.0                Appropriated                Appropriated
                                                                                                                                          $3.04                       $3.04

                                                                                                                      $2.5
                                                         $800
                                                                                                                                                                      Obligated
                                                                                                                                          Obligated                   $2.20
                                                                                                                      $2.0
                                                                                                                                          $2.08
                                                         $600                                                                                                          Disbursed
                                                                                                                                          Disbursed                    $1.86
                                                                                                                      $1.5                $1.74
                                                         $400
                                                                                                                      $1.0

                                                         $200
                                                                                                                      $0.5


                                                            $0                                                         $0
                                                                 2004 05      06    07    08    09    10        11           As of Jun 30, 2011          As of Sep 30, 2011

                                                        Notes: Numbers affected by rounding. Data may include         Notes: Numbers affected by rounding. Data may include
                                                        inter-agency transfers.                                       inter-agency transfers.
                                                        Sources: DoD, response to SIGAR data call, 10/20/2011; OMB,   Sources: DoD, responses to SIGAR data call, 10/20/2011 and
                                                        response to SIGAR data call, 7/19/2011; P.L. 112-10,          7/15/2011; OMB, response to SIGAR data call, 7/19/2011; P.L.
                                                        4/15/2011.                                                    112-10, 4/15/2011.




                                                            50                         SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                               STATUS OF FUNDS




AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                  AIF

the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-scale
infrastructure projects that support the U.S. civilian-military effort. Thirty days                        DoD
before obligating or expending funds on an AIF project, the Secretary of Defense
is required to notify the Congress with details of the proposed project, including
a plan for its sustainment and a description of how it supports the counter-                AIF FUNDS TERMINOLOGY
insurgency strategy in Afghanistan.29
                                                                                            DoD reported AIF funds as appropriated,
    The Department of Defense and Full-Year Continuing Appropriations Act of 2011
                                                                                            obligated, or disbursed.
appropriated $400.00 million for the AIF. DoD reported that as of September 30,
                                                                                            Appropriations: Total monies available for
2011, approximately $215.80 million of this amount had been obligated, of which             commitments
approximately $3.08 million had been disbursed.30 Figure 3.10 shows amounts                 Obligations: Commitments to pay monies
appropriated, obligated, and disbursed for AIF projects.                                    Disbursements: Monies that have been
                                                                                            expended

                                                                                            Source: DoD, response to SIGAR data call, 4/13/2010.




FIGURE 3.10


AIF FUNDS APPROPRIATED, OBLIGATED,
AND DISBURSED ($ MILLIONS)

$400                 Appropriated
                     $400.00


$300


                     Obligated
$200                 $215.80




$100

                     Disbursed
  $0                 $3.08
        As of Sep 30, 2011

 Notes: Numbers affected by rounding. Data may include
 inter-agency transfers.
 Sources: DoD, response to SIGAR data call, 10/20/2011; OMB,
 response to SIGAR data call, 7/19/2011; P.L. 112-10,
 4/15/2011.




            REPORT TO THE UNITED STATES CONGRESS                I   OCTOBER 30, 2011   51
                                                       STATUS OF FUNDS




                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                    TFBSO                              The Task Force for Business and Stability Operations (TFBSO) was established
                                                       in June 2006 and operated for several years in Iraq. In 2010, the TFBSO began
                                                       operations in Afghanistan aimed at stabilizing the country and countering
              DoD                                      economically motivated violence by decreasing unemployment and creating
                                                       economic opportunities for the people of Afghanistan. TFBSO projects include
TFBSO FUNDS TERMINOLOGY                                activities that facilitate private investment, industrial development, banking and
                                                       financial system development, agricultural diversification and revitalization, and
DoD reported TFBSO funds as appropriated,              energy development.31
obligated, or disbursed.                                  The Ike Skelton National Defense Authorization Act for FY 2011 provided
Appropriations: Total monies available for             the TFBSO the authority to spend up to $150.00 million on projects directly
commitments                                            benefitting Afghanistan. In addition, the TFBSO may receive funds from the
Obligations: Commitments to pay monies
                                                       Operations and Maintenance, Army account for sustainment of U.S. assets, civil-
Disbursements: Monies that have been
                                                       ian pay, travel, information technology, personnel security, and other operational
expended
                                                       expenses.32
Source: DoD, response to SIGAR data call, 4/13/2010.      As of September 30, 2011, DoD reported that the total cumulative funding
                                                       for the TFBSO amounted to nearly $313.50 million. Of this amount, more than
                                                       $291.07 million had been obligated, and more than $113.69 million had been dis-
                                                       bursed.33 Figure 3.11 shows the TFBSO appropriations by fiscal year, and Figure
                                                       3.12 shows amounts appropriated, obligated, and disbursed for TFBSO projects.


                                                       FIGURE 3.11                                                  FIGURE 3.12


                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                          TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                 ($ MILLIONS)



                                                        $250                                                        $350
                                                                                                                                         Appropriated                  Appropriated
                                                                                                                    $300                 $311.10                       $313.50
                                                        $200                                                                                                           Obligated
                                                                                                                    $250                                               $291.07

                                                        $150                                                                             Obligated
                                                                                                                    $200                 $210.21

                                                        $100                                                        $150
                                                                                                                                                                       Disbursed
                                                                                                                    $100                 Disbursed                     $113.69
                                                          $50                                                                            $90.76
                                                                                                                     $50

                                                           $0                                                         $0
                                                                2009                 2010                 2011               As of Jun 30, 2011          As of Sep 30, 2011

                                                       Notes: Numbers affected by rounding. Data may include         Notes: Data may include inter-agency transfers. Numbers affected
                                                       inter-agency transfers.                                       by rounding.
                                                       Sources: DoD, response to SIGAR data call, 10/3/2011; OMB,    Sources: DoD, response to SIGAR data call, 10/3/2011 and
                                                       response to SIGAR data call, 7/19/2011; P.L. 112-10,          8/8/2011; OMB, response to SIGAR data call, 7/19/2011; P.L.
                                                       4/15/2011.                                                    112-10, 4/15/2011.




                                                           52                         SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                         STATUS OF FUNDS




DoD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DoD’s Drug Interdiction and Counter-Drug Activities fund (DoD CN) supports                                                                      DoD CN
efforts to stabilize Afghanistan by combating the drug trade and related activi-
ties. DoD uses the DoD CN to provide assistance to the counter-narcotics effort
by supporting military operations against drug traffickers; expanding Afghan                                                          DoD
interdiction operations; and building the capacity of Afghan law enforcement
bodies—including the Afghan Border Police—with specialized training, equip-                                             DoD CN FUNDS TERMINOLOGY
ment, and facilities.34
   Figure 3.13 shows DoD CN appropriations by fiscal year. DoD reported                                                 DoD reported DoD CN funds as appropriated,
that cumulative appropriations, obligations, and disbursements as of September                                          obligated, or disbursed.
30, 2011, increased by nearly $44.12 million over cumulative appropriations,                                            Appropriations: Total monies available for
obligations, and disbursements as of June 15, 2011.35 Figure 3.14 provides a                                            commitments
                                                                                                                        Obligations: Commitments to pay monies
cumulative comparison of amounts appropriated, obligated, and disbursed for
                                                                                                                        Disbursements: Monies that have been
DoD CN projects.
                                                                                                                        expended

                                                                                                                        Source: DoD, response to SIGAR data call, 4/13/2010.




FIGURE 3.13                                             FIGURE 3.14


DOD CN APPROPRIATIONS BY                                DOD CN FUNDS,
FISCAL YEAR ($ MILLIONS)                                CUMULATIVE COMPARISON ($ BILLIONS)

$400                                                    $1.90                                            Appropriated
                                                                               Appropriated              $1.89
                                                        $1.85                  $1.85                     Obligated
$350
                                                                               Obligated                 $1.89
                                                        $1.80
                                                                               $1.85                     Disbursed
$300                                                                                                     $1.89
                                                        $1.75                  Disbursed
                                                                               $1.85
$250                                                    $1.70

$200                                                    $1.65

                                                        $1.60
$150
                                                        $1.55
$100
                                                        $1.50
 $50

   $0                                                     $0
        2004 05 06 07 08 09 10 11                                   As of Jun 15, 2011        As of Sep 30, 2011

Notes: Numbers affected by rounding. Data may include   Notes: Numbers affected by rounding. Data may include
inter-agency transfers.                                 inter-agency transfers.
Source: DoD, response to SIGAR data call, 10/4/2011.    Source: DoD, response to SIGAR data call, 10/4/2011.




             REPORT TO THE UNITED STATES CONGRESS               I   OCTOBER 30, 2011                            53
                                                        STATUS OF FUNDS




                                                        ECONOMIC SUPPORT FUND
                                    ESF                 Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                        countries meet short- and long-term political, economic, and security needs. ESF
                                                        programs support counter-terrorism; bolster national economies; and assist in
                                   USAID                the development of effective, accessible, independent legal systems for a more
                                                        transparent and accountable government.36
ESF FUNDS TERMINOLOGY                                      As of September 30, 2011, USAID reported that the total cumulative funding
                                                        for ESF amounted to nearly $13.02 billion. Of this amount, almost $10.67 billion
USAID reported ESF funds as appropriated,               had been obligated, of which more than $8.18 billion had been disbursed.37 Figure
obligated, or disbursed.                                3.15 shows ESF appropriations by fiscal year.
Appropriations: Total monies available                     USAID reported that cumulative obligations as of September 30, 2011,
for commitments                                         increased by more than $1.10 billion over cumulative obligations as of June 30,
Obligations: Commitments to pay monies                  2011. Cumulative disbursements as of September 30, 2011, increased by more
Disbursements: Monies that have been                    than $413.97 million over cumulative disbursements as of June 30, 2011.38 Figure
expended
                                                        3.16 provides a cumulative comparison of the amounts appropriated, obligated,
Sources: OMB, response to SIGAR data call, 4/19/2010;   and disbursed for ESF programs.
USAID, response to SIGAR data call, 4/15/2010.




                                                        FIGURE 3.15                                               FIGURE 3.16


                                                        ESF APPROPRIATIONS BY FISCAL YEAR                         ESF FUNDS, CUMULATIVE COMPARISON
                                                        ($ BILLIONS)                                              ($ BILLIONS)



                                                                                                                  $13.0                 Appropriated                   Appropriated
                                                        $3.5
                                                                                                                                        $13.02                         $13.02

                                                        $3.0                                                      $12.0


                                                                                                                  $11.0
                                                        $2.5                                                                                                           Obligated
                                                                                                                                                                       $10.67
                                                                                                                  $10.0
                                                        $2.0
                                                                                                                                        Obligated
                                                                                                                                        $9.57
                                                                                                                   $9.0
                                                        $1.5
                                                                                                                                                                       Disbursed
                                                                                                                   $8.0                 Disbursed                      $8.18
                                                        $1.0                                                                            $7.77
                                                                                                                   $7.0
                                                        $0.5


                                                          $0                                                         $0
                                                               2002 03 04 05 06 07 08 09 10 11                             As of Jun 30, 2011             As of Sep 30, 2011

                                                        Notes: Data may include inter-agency transfers. Numbers    Notes: Data may include inter-agency transfers. Numbers affected
                                                        affected by rounding.                                      by rounding.
                                                        Sources: USAID, response to SIGAR data call, 10/3/2011;    Sources: USAID, responses to SIGAR data call, 10/3/2011 and
                                                        OMB, response to SIGAR data call, 7/19/2011.               7/13/2011; OMB, response to SIGAR data call, 7/19/2011.




                                                            54                         SPECIAL INSPECTOR GENERAL            I    AFGHANISTAN RECONSTRUCTION
                                                           STATUS OF FUNDS




INTERNATIONAL NARCOTICS CONTROL AND
                                                                                                                                                                        INCLE
LAW ENFORCEMENT
The U.S. Bureau of International Narcotics and Law Enforcement Affairs (INL)
manages an account for advancing rule of law and combating narcotics produc-                                                                                             DoS
tion and trafficking—the International Narcotics Control and Law Enforcement
(INCLE) account. INCLE supports several INL program groups, including police,
counter-narcotics, and rule of law and justice.39 INL reported that P.L. 112-10 pro-                                         INL FUNDS TERMINOLOGY
vided $400.00 million for INCLE initiatives, bringing the total cumulative funding                                           INL reported INCLE and other INL funds as
for INCLE to over $3.25 billion. Figure 3.17 displays INCLE allotments by fiscal                                             allotted, obligated, or liquidated.
year. Of this amount, more than $2.84 billion has been obligated, of which over                                              Allotments: Total monies available
$1.96 billion has been liquidated.40                                                                                         for commitments
   INL reported that cumulative obligations as of September 30, 2011, increased                                              Obligations: Commitments to pay monies
by $283.54 million over cumulative obligations as of June 30, 2011. Cumulative                                               Liquidations: Monies that have been expended
liquidations as of September 30, 2011, increased by nearly $113.74 million over
cumulative liquidations as of June 30, 2011.41 Figure 3.18 provides a cumulative                                             Source: DoS, response to SIGAR data call, 4/9/2010.

comparison of amounts allotted, obligated, and liquidated for INCLE.




FIGURE 3.17                                             FIGURE 3.18


INCLE ALLOTMENTS BY FISCAL YEAR                         INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                            ($ BILLIONS)



$700                                                    $3.5
                                                                                 Allotted                       Allotted
$600                                                                             $3.25                          $3.25
                                                        $3.0
                                                                                                                Obligated
$500                                                                                                            $2.84
                                                                                 Obligated
                                                        $2.5                     $2.56
$400


$300                                                    $2.0                                                    Liquidated
                                                                                 Liquidated                     $1.96
                                                                                 $1.85
$200
                                                        $1.5
$100


  $0                                                      $0
       2002 03 04 05 06 07 08 09 10 11                              As of Jun 30, 2011          As of Sep 30, 2011

Notes: Numbers affected by rounding. Data may include   Notes: Numbers affected by rounding. Data may include interagency
interagency transfers.                                  transfers.
Source: DoS, response to SIGAR data call, 10/13/2011.   Source: DoS, response to SIGAR data call, 10/13/2011.




               REPORT TO THE UNITED STATES CONGRESS             I   OCTOBER 30, 2011                              55
                                                       STATUS OF FUNDS




                                                       INTERNATIONAL RECONSTRUCTION FUNDING
    SIGAR AUDIT                                        FOR AFGHANISTAN
                                                       In addition to assistance provided by the United States, the international commu-
    In its audit of the ARTF, SIGAR focused            nity provides a significant amount of funding to support Afghanistan relief and
    on the use and accountability of U.S.              reconstruction efforts. As noted in previous SIGAR quarterly reports, most of the
    contributions. For more information, see           international funding provided is administered through trust funds. Contributions
    SIGAR Audit 11-14 at www.sigar.mil.                provided through trust funds are pooled and then distributed for reconstruction
                                                       activities. The two main trust funds are the Afghanistan Reconstruction Trust
                                                       Fund (ARTF) and the Law and Order Trust Fund for Afghanistan (LOTFA).42

                                                       Contributions to the Afghanistan Reconstruction Trust Fund
                                                       The largest share of international contributions to the Afghan operational and
FIGURE 3.19
                                                       development budgets comes through the ARTF. From 2002 to September 22,
ARTF CONTRIBUTIONS PAID IN BY                          2011, the World Bank reported that 32 donors had pledged more than $5.06
DONORS SINCE SY 1381,                                  billion, of which almost $4.30 billion had been paid in.43 The United States and
AS OF SEPTEMBER 22, 2011 (PERCENT)                     the United Kingdom are the two biggest donors to the ARTF, together contribut-
                                                       ing nearly 43% of total ARTF funding, as shown in Figure 3.19. According to the
                Total Paid In: $4.3 billion
                                                       World Bank, donors have pledged $822.92 million to the ARTF for the current
                                                       Afghan fiscal year—solar year 1390—which runs from March 21 to March 20.44
                     United States                     Figure 3.20 on the facing page shows the 10 largest ARTF donors for SY 1390.
                     23%                                  Contributions are divided into two funding channels—the Recurrent Cost
                                  United
                                  Kingdom              (RC) Window and the Investment Window.45 As of September 22, 2011, according
               Others             20%                  to the World Bank, nearly $2.30 billion of ARTF funds had been disbursed to the
               29%
                                 Canada                Afghan government through the RC Window to assist with recurrent costs such
                                 12%                   as salaries of civil servants.46 The RC Window supports the operating costs of the
                                                       Afghan government because the government’s domestic revenues continue to be
      Netherlands                     EC/EU            insufficient to support its recurring costs. To ensure that the RC Window receives
      8%                              8%               sufficient funding, donors to the ARTF may not “preference” (earmark) more
                                                       than half of their annual contributions for desired projects.47
Notes: Numbers affected by rounding. SY 1381 =
3/21/2002–3/20/2003. “Other” includes 27 donors.          The Investment Window supports the costs of development programs. As of
Source: World Bank, “ARTF: Administrator’s Report on
Financial Status as of September 22, 2011,” p. 4.
                                                       September 22, 2011, according to the World Bank, more than $1.86 billion had
                                                       been committed for projects funded through the Investment Window, of which
                                                       over $1.38 billion had been disbursed.48 The World Bank reported 20 active
                                                       projects with a combined commitment value of $857.55 million, of which approx-
                                                       imately $379.16 million had been disbursed.49

                                                       Contributions to the Law and Order Trust Fund for Afghanistan
                                                       The United Nations Development Programme administers the LOTFA to pay
                                                       ANP salaries and build the capacity of the Ministry of Interior.50 Since 2002,
                                                       donors had pledged more than $1.99 billion to the LOTFA, of which nearly
                                                       $1.88 billion had been paid in as of June 30, 2011, according to the most recent
                                                       data available.51




                                                         56               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                      STATUS OF FUNDS




FIGURE 3.20


ARTF CONTRIBUTIONS FOR SY 1390 BY DONOR, AS OF SEPTEMBER 22, 2011 ($ MILLIONS)

                                                 Total Commitments: $823       Total Paid In: $58


   United States        0                                                                                  400
        Germany         0                    81
 United Kingdom         0                   77
           EC/EU        0             56
          Norway        0            49
     Netherlands        0       34
          Sweden        0      29
          Canada        24 24
            Japan       20 20
          Finland           10/10
           Others       3/7          4/44

                    0                            100                  200                     300        400


                                                            Paid In         Commitments
Notes: Numbers affected by rounding. SY = solar year. SY 1390 runs from 3/21/2011 to 3/20/2012.
Source: World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2011,” p. 1.




   The LOTFA’s sixth support phase started on January 1, 2011, and will run
through March 31, 2013. In Phase VI, the LOTFA has transferred nearly $248.65
million to the Afghan government to cover ANP salaries, more than $8.03 million
for Central Prisons Department staff remunerations, and an additional $4.62 mil-
lion for capacity development and other LOTFA initiatives for the first calendar
half of 2011.52 As of June 30, 2011, donors had committed nearly $598.00 million
to the LOTFA for Phase VI. Of that amount, the United States had committed
nearly $256.72 million, and Japan had committed $240.00 million. Their com-
bined commitments make up more than 83% of LOTFA Phase VI commitments
as of June 30, 2011.53 As of June 30, 2011, the United States had contributed more
than $695.10 million to the LOTFA since the fund’s inception and committed an
additional $108.00 million through Phase VI.54




             REPORT TO THE UNITED STATES CONGRESS                      I    OCTOBER 30, 2011             57
TITLE OF THE SECTION




 58    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




SECURITY
As of September 30, 2011, the U.S. Congress had appropriated nearly $41.0 billion
to support the Afghan National Security Forces (ANSF), as shown in Appendix B.
These funds are used to build, equip, train, and sustain the ANSF, which consists
of the Afghan National Army (ANA) and the Afghan National Police (ANP). Most
of these funds ($39.5 billion) were appropriated through the Afghanistan Security
Forces Fund (ASFF) and provided through the Combined Security Transition
Command - Afghanistan (CSTC-A). Of the $39.5 billion appropriated through the
ASFF, approximately $33.3 billion had been obligated and $29.7 billion disbursed
as of September 30, 2011.55
    This section discusses assessments of the ANSF and the ministries of Defense
and Interior; an overview of the use of U.S. funds to build, equip, train, and
sustain the ANSF; and an update on efforts to combat the cultivation and trade of
illicit narcotics in Afghanistan.

KEY EVENTS
On October 12, 2011, the UN Security Council extended the mission of the
International Security Assistance Force (ISAF) for one year. In addition, the
Security Council expressed concern about the security situation in Afghanistan,
in particular “the ongoing violent and terrorist activities by the Taliban, al-Qaeda,
other illegal armed groups, and criminals, including those involved in the narcot-
ics trade.”56

ANSF ASSESSMENT
This quarter, the ANA fielded one additional unit, bringing the total to 161,
according to the U.S. Central Command (CENTCOM). CENTCOM noted that
more of the units were becoming operationally effective. This assessment was
based on an August 2011 Commander’s Unit Assessment Tool (CUAT) report,
which stated that most units had achieved an operational rating of “effective
with partners” or higher, as shown in Figure 3.21 on the following page. The
ratings run from “established” through “developing” and “effective” to “indepen-
dent,” as described on the next page. CENTCOM noted that the ANA’s top-rated
kandak (battalion)—the 2nd Kandak, 2nd Brigade, 205th Corps, which was
assessed as “independent” in March 2011—will continue to rely on coalition
forces for support.57




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011            59
SECURITY




FIGURE 3.21

ANA UNITS BY ASSESSMENT RATING, AS OF AUGUST 4, 2011



Independent with
         Advisors
   Total Units: 1
                                                                                                       111th Division
                                                                                                       201st Corps
                                                                                                       203rd Corps
    Effective with
         Advisors                                                                                      205th Corps
  Total Units: 56                                                                                      207th Corps
                                                                                                       209th Corps
                                                                                                       215th Corps
                                                                                                       Commando
    Effective with
         Partners                                                                                      HSSB
  Total Units: 58




 Developing with
        Partners
 Total Units: 29




     Established
   Total Units: 1




    Not Assessed
  Total Units: 16



                                 3              6              9               12             15

Notes: Rating categories are explained on page 61. HSSB = Headquarters Security and Support Brigade.
Source: CENTCOM, response to SIGAR data call, 10/4/2011.


   Within the three main ANP components—the Afghan Uniform Police (AUP),
the Afghan Border Police (ABP), and the Afghan National Civil Order Police
(ANCOP)—no units have received the “independent” rating, according to
CENTCOM. However, since last quarter, one additional ANCOP unit was rated
“effective with advisors” (the second-highest rating). In the other ANP compo-
nents, several units were not assessed during the cycle, making it difficult to
compare the ratings with those reported last quarter.58
   ISAF has used the CUAT to rate the ANSF since April 2010, when it phased
out the original assessment tool, the Capability Milestone (CM) rating system.
(The CM rating system is still used to assess ministerial readiness.) According to
CENTCOM, the CUAT uses five ratings to assess the readiness of ANA and ANP
units:59



    60                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




• Independent with Advisors: The unit is able to plan and execute its
  missions, maintain command and control of subordinates, call on and coordi-
  nate quick reaction forces and medical evacuations, exploit intelligence, and
  operate within a wider intelligence system.
• Effective with Advisors: The unit conducts effective planning, synchro-
  nizing, directing, and reporting of operations and status. Coalition forces
  provide only limited, occasional guidance to unit personnel and may provide
  enablers as needed. Coalition forces augment support only on occasion.
• Effective with Partners: The unit requires routine mentoring for planning,
  synchronizing, directing, and reporting of operations and status; coordinat-
  ing and communicating with other units; and maintaining effective readiness
  reports. Enablers provide support to the unit; however, coalition forces may
  provide enablers to augment that support.
• Developing with Partners: The unit requires partnering and assistance for
  planning, synchronizing, directing, and reporting of operations and status;
  coordinating and communicating with other units; and maintaining effective
  readiness reports. Some enablers are present and effective, providing some
  of the support. Coalition forces provide enablers and most of the support.
• Established: The unit is beginning to organize but is barely capable of plan-
  ning, synchronizing, directing, or reporting operations and status, even with
  the presence and assistance of a partner unit. The unit is barely able to coor-
  dinate and communicate with other units. Most of the unit’s enablers are not
  present or are barely effective. Those enablers provide little or no support to
  the unit. Coalition forces provide most of the support.

MINISTRY OF DEFENSE AND MINISTRY OF INTERIOR
ASSESSMENTS
Assessments of the Ministry of Defense (MoD) and the Ministry of Interior (MoI)
this quarter showed some limited progress. To rate the operational capability
of the these ministries, the North Atlantic Treaty Organization (NATO) Training
Mission - Afghanistan (NTM-A) uses the CM rating system. This system assesses
staff sections (such as the offices headed by assistant or deputy ministers) and
cross-functional areas (such as general staff offices) using six ratings:60
• CM-1A: capable of autonomous operations
• CM-1B: capable of executing functions with coalition oversight only
• CM-2A: capable of executing functions with minimal coalition assistance
• CM-2B: can accomplish its mission but requires some coalition assistance
• CM-3: cannot accomplish its mission without significant coalition assistance
• CM-4: exists but cannot accomplish its mission
   At the MoD, more than 20% of staff sections and cross-functional areas (9 of
44) had reached a rating of CM-2A as of this quarter, as shown in Figure 3.22 on
the following page. Four staff sections improved, 40 staff sections and cross-
functional areas were stable, and no staff sections regressed this quarter. NTM-A




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         61
                                                          SECURITY




                                                          FIGURE 3.22

                                                          CAPABILITY MILESTONE RATINGS OF MoD AND MoI


                                                                                                                0
                                                          CM-1A: capable of autonomous operations       CM-1A
                                                                                                                0

                                                          CM-1B: capable of executing functions with            0
                                                          coalition oversight only                      CM-1B
                                                                                                                     1

                                                          CM-2A: capable of executing functions with                                               9
                                                          minimal coalition assistance
                                                                                                        CM-2A
                                                                                                                            3

                                                          CM-2B: can accomplish its mission but                                                                                20
                                                                                                        CM-2B
                                                          requires some coalition assistance                                                       9

                                                          CM-3: cannot accomplish its mission without                                                  10
                                                                                                        CM-3
                                                          significant coalition assistance                                                             10

                                                          CM-4: exists but cannot accomplish its                                        5
                                                                                                        CM-4
                                                          mission                                                               4
                                                                                                                                    5               10                   15   20
                                                                                                                    MoD Staff Sections and         MoI Staff Sectionsb
                                                                                                                    Cross-Functional Areasa
                                                          a. As of 7/2/2011.
                                                          b. As of 9/4/2011.
                                                          Source: CENTCOM, response to SIGAR data call, 10/3/2011.


                                                          noted that eight staff sections are projected to transition to CM-1B over the next
                                                          two quarters.61
                                                             At the MoI, nearly 15% of staff sections had achieved a rating of CM-2A or
                                                          higher. One staff section (Strategic Planning) reached that level this quarter. The
                                                          others were Public Affairs (rated CM-1B), Policy Development (CM-2A), and
                                                          Security Operations and Planning (CM-2A). Most staff sections were rated CM-3
                                                          (10 sections) or CM-2B (9 sections), as shown in Figure 3.22. Four were rated
                                                          CM-4—the lowest rating. According to NTM-A, they included the staff sections
                                                          that manage the Afghan Public Protection Force (APPF) and the Afghan Local
                                                          Police (ALP).62

                                                          SECURITY GOALS
  Joint Coordination and Monitoring                       In August 2011, the force strength of the ANSF was 305,198 (169,076 in the ANA;
  Board: the coordination body between                    136,122 in the ANP).63 In June 2011, the Joint Coordination and Monitoring Board
  the Government of the Islamic Republic of               (JCMB) approved an increase of the ANSF strength to 352,000—195,000 in the
  Afghanistan and the international commu-                ANA and 157,000 in the ANP.64 Table 3.1 shows the progress in achieving strength
  nity; established in 2008.                              goals since last quarter.


Source: CRS, “United Nations Assistance Mission in        SECURITY HIGHLIGHTS
Afghanistan: Background and Policy Issues,” 12/27/2010,
accessed 4/11/2011.
                                                          ISAF statistics showed that the number of attacks by insurgents in the summer
                                                          of 2011 was lower than the number in the preceding summer. From June through
                                                          August 2011, these attacks were down 17% over the same period in 2010.65



                                                              62                         SPECIAL INSPECTOR GENERAL                  I       AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




TABLE 3.1


STRATEGIC PRIORITIES FOR SECURITY
                                                                                                            Change Since
Priority                              Current Target                         Status                          Last Quarter
Afghan National Army                  171,600 troops by 10/2011              169,076 troops                           +1,039
                                      195,000 troops by 11/2012              (as of 8/2011)
Afghan National Police                134,000 personnel by 10/2011           136,122 personnel                        +5,500
                                      157,000 personnel by 11/2012           (as of 8/2011)
Note: Numbers affected by rounding.
Sources: DoD, responses to SIGAR data call, 7/19/2011 and 10/3/2011; ISAF-IJC, ANP PERSTAT, 6/2011 and 8/2011; CRS,
“Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 9/22/2011, pp. 32–33.




   According to ISAF, 85% of civilian casualties during the first eight months of
2011 were caused by insurgents. ISAF also noted that IED activity—which it
defines as executed attacks and attempted or potential attacks—was 25% higher
in June through August 2011 compared with the same period in 2010; insurgent-
initiated direct fire attacks decreased by 30%. Civilian casualties caused by ISAF
had increased by 20% over the same period in 2010.66
   The average monthly number of all security incidents from January to August
2011, according to the UN Secretary-General, was up 39% over the same eight-
month period in 2010.67 However, the data provided in the UN report differs
in category and coverage from the data reported by ISAF. ISAF includes only
attacks initiated by insurgent elements; the UN includes all incidents. For
example, the UN includes a range of events—cache finds, arrests, assassinations,
intimidation, and others—that ISAF does not include.68
   The number of suicide attacks reported by the UN Secretary-General in July
2011 was lower than the number reported in April; however, the monthly average
was unchanged from the same period in 2010.69 This quarter, complex suicide
attacks in urban centers included the following:70
 • an attack aimed at the provincial government in Uruzgan on July 28
 • an attack on the British Council building in Kabul on August 19
 • an attack on NATO headquarters and the U.S. Embassy Kabul on
    September 13
The UN Secretary-General noted that the focus of these attacks had shifted from
southern Afghanistan to central Afghanistan.71

AFGHAN NATIONAL ARMY
As of September 30, 2011, the United States had appropriated approximately
$24.2 billion, obligated $21.3 billion, and disbursed $19.0 billion of ASFF funds to
build and sustain the ANA.72

ANA Strength
On August 25, 2011, the ANA’s strength was 169,076—an increase of 1,039 since
last quarter—according to CENTCOM. Of those personnel, 110,369 were present
for duty; 29,431 were in training or awaiting assignment to authorized positions;



            REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2011                         63
SECURITY




and 29,276 were either on leave or temporary duty, sick, or absent without leave
(AWOL).73 (As noted in previous SIGAR quarterly reports, troops who are assigned
are not necessarily counted as present for duty.) The JCMB set goals for the ANA to
reach 171,600 personnel by October 2011 and 195,000 personnel by November 2012.74

ANA Sustainment
As of September 30, 2011, the United States had appropriated approximately
$7.8 billion, obligated $6.5 billion, and disbursed $5.7 billion of ASFF funds
to sustain the ANA.75 These funds are used to provide logistical items (such
as fuel), maintenance services, clothing, individual equipment, ammunition,
and military salary payments and incentive programs.76 The Department of
Defense (DoD) has requested more than $3.3 billion from the ASFF to sustain
the ANA in FY 2012.77

ANA Salary Payments
From 2008 through September 30, 2011, the United States had spent approxi-
mately $1.13 billion on ANA salaries, according to CENTCOM. This includes
approximately $402.2 million for ANA salaries in FY 2011.78
  Payment of salaries begins when the ANA submits validated invoices or pay-
ment requests to the Ministry of Finance (MoF). The MoF holds all funds and
pays ANA personnel, mainly through electronic funds transfer. U.S. funds for
ANA salaries are transferred to the MoF from the DoD Defense Finance and
Accounting Service (DFAS) by electronic funds transfer. As of September 30,
2011, approximately 3% of ANA soldiers still received their salaries in cash pay-
ments; however, the cash payroll is limited to new recruits in basic training who
do not have bank accounts. To reduce the risk of fraud and make the payment
process more efficient, the United States is preparing to launch a computerized
payroll system.79
  ANA soldiers earn pay based on a set pay scale and incentives—including
combat pay, explosives ordnance disposal pay, and Special Forces pay. The
United States funds 72% of ANA salaries that can include incentive pay and funds
47% of those that do not include incentive pay.80
TABLE 3.2


ANA EQUIPMENT FIELDED
                                                              Q2 2011a                                Q3 2011a
                                                   Number         Cost ($ Millions)         Number          Cost ($ Millions)
Weapons                                               1,513                    10.8           4,515                       5.6
Vehicles                                                726                  199.4              942                      36.8
Communications equipment                              2,708                    10.1           2,432                      13.0
Totals                                              4,847                   220.2            7,889                      55.5
Notes: Numbers affected by rounding; some equipment acquired through cross-leveling and some through the ASFF in pseudo-FMS
purchases.
a. Quarters are for calendar year, not fiscal.
Source: CENTCOM, responses to SIGAR data call, 7/1/2011 and 10/3/2011.




   64                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                                                      SECURITY




New training aircraft arrive at Shindand Air Base in Herat province on September 18, 2011.
This quarter, the Afghan Air Force acquired six new Cessna 182 Turbos, which will be used in
upcoming flight training. (U.S. Air Force photo, SSgt Matthew Smith)


ANA Equipment and Transportation
As of September 30, 2011, the United States had appropriated approximately
$9.0 billion, obligated $8.8 billion, and disbursed $8.8 billion of ASFF funds for
ANA equipment and transportation.81 These funds purchase vehicles, aircraft,
and weapons:82
• vehicles: armored personnel carriers; high-mobility, multi-purpose wheeled                     Cross-leveling: the process of diverting
   vehicles (HMMWVs); tractors, etc.                                                             materiel from one military element to
                                                                                                 meet the higher priority needs of another.
• aircraft: helicopters, fixed-wing aircraft, etc.
                                                                                                 Cross-leveling plans include specific reim-
• weapons: M16A2 rifles, M240B machine guns
                                                                                                 bursement procedures.
• communications equipment: radios
   As of September 30, 2011, the United States had spent approximately $7.5 billion              Pseudo-FMS: an adaptation of the Foreign
to equip the ANA, according to CENTCOM.83 DoD has requested nearly $1.7 billion                  Military Sales (FMS) program, DoD’s
in ASFF for ANA equipment and transportation in FY 2012.84                                       government-to-government method for
   This quarter, according to CENTCOM, the ANA fielded 4,515 weapons (valued                     selling U.S. defense equipment, services,
at $5.6 million), 942 vehicles ($36.8 million), and 2,432 pieces of communications               and training. Unlike traditional FMS, DoD
                                                                                                 primarily uses ASFF funds to purchase
equipment ($13.0 million).85 More than 66% of ANA equipment costs this quarter
                                                                                                 weapons to train and equip the ANSF. Like
were for vehicles, as shown in Table 3.2. As of September 30, 2011, the Afghan
                                                                                                 traditional FMS, pseudo-FMS procurements
Air Force inventory consisted of 61 aircraft:86
                                                                                                 are overseen by the Defense Security
 • 33 Mi-17s (transport helicopters)                                                             Cooperation Agency.
 • 9 Mi-35s (attack helicopters)
 • 13 C-27s (cargo planes)
 • 6 CT-182T (four-person trainers)                                                            Sources: DoD, “Dictionary of Military Terms,” accessed
                                                                                               7/12/2010. GAO, “Afghanistan Weapons Accountability,”
Most of the equipment fielded by the ANA was acquired through cross-leveling or                GAO-09-267, accessed 10/14/2010; DSCA, “Foreign Military
                                                                                               Sales,” accessed 10/16/2010.
was funded by the United States through the ASFF in pseudo-FMS purchases.87



         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2011                65
                                          SECURITY




                                          ANA Infrastructure
                                          As of September 30, 2011, the United States had appropriated approximately
SIGAR AUDIT                               $5.3 billion, obligated $4.1 billion, and disbursed $2.7 billion of ASFF funds for
This quarter, SIGAR released two audits   ANA infrastructure.88 These funds support these key activities:89
of task orders to support construction     • building new or expanded facilities for training, Afghan Air Force, and force
of the Kabul Military Training Center         protection uses; as well as garrisons and storage depots
(valued at $140 million) and for the       • converting coalition force installations for ANA use
Afghan National Security University       DoD has requested more than $1.3 billion in ASFF funds for ANA infrastructure
($170 million). These audits found that   in FY 2012.90
both projects cost more and took longer      This quarter, 21 ANA infrastructure projects were awarded (valued at $607.9 mil-
to complete than planned. For more        lion), 111 were ongoing ($2,134.7 million), and 3 were completed ($58.1 million),
information on these audits, see          according to CENTCOM. Of the newly awarded projects, those with the highest
Section 1, pages 9 and 12.                cost were ANA garrisons in Helmand (approximately $90.4 million) and Nimroz
                                          ($78.0 million) for the 215th Corps, and a Combat Arms School in Kandahar
                                          ($76.8 million). The two garrisons are scheduled for completion in February 2013,
                                          and the Combat Arms School is scheduled for completion in January 2012.91

                                          ANA Training and Operations
                                          As of September 30, 2011, the United States had appropriated approximately
                                          $2.1 billion, obligated $1.8 billion, and disbursed $1.8 billion in ASFF funds for
                                          ANA operations and training.92 These funds were used to provide ANA and
                                          MoD personnel with training and train-the-trainer programs. Training subjects
                                          included leadership development, medicine, communications, intelligence, and
                                          air operations.93


                                          FIGURE 3.23

                                          ANA TRAINING GRADUATES BY PROGRAM

                                              Total Graduates: 26,186                                                                 Other Training Programs: 4,959


                                                                             NCO                                          Literacy                967
                                                                             Development
                                                                             3,822                         Up-Armored HMMWV                     827
                                              Basic                          Other Training
                                              Warrior                                                                     Artillery         507
                                                                             Programs
                                              Training                       4,959
                                              14,095                                                                 Engineering          273
                                                                             Infantry Specialty
                                                                             Training                                     Signals         222
                                                                             1,934
                                                                                                                           Othera                              2,163
                                                                             Officer
                                                                             Development
                                                                             1,376                                                    0         1,100        2,200


                                          Notes: Graduates as of 9/30/2011. HMMWV = high-mobility, multi-purpose wheeled vehicle.
                                          a. Includes training on topics not specifically targeted to NCOs or officers.
                                          Source: CENTCOM, response to SIGAR data call, 10/3/2011.




                                              66                       SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                  SECURITY




   This quarter, 26,186 ANA personnel—about the same number as last quarter—
graduated from training courses funded by the ASFF, according to CENTCOM.94
Of that number, 3,822 graduated from training and development courses for non-
commissioned officers, and 1,376 graduated from courses for officers, as shown
in Figure 3.23.

ANA Literacy
According to CENTCOM, 44% of the ANA’s non-officer personnel had achieved a
literacy rating of grade 1 or higher from October 2009 to October 2011. This per-
centage is based on the number of personnel who had passed the grade 1 literacy
test while serving in the ANA since October 2009; attrition was also considered.
According to DoD, level 1 represents only a very elementary grasp of literacy
(numbers, letters, and some simple words). NTM-A’s goal is for all ANA personnel
to achieve a grade 3 rating by 2014. NTM-A has had a literacy training program
for the ANA in place since 2009; as of September 30, 2011, some level of literacy
training had been completed by 57,406 ANA personnel, 5,796 of whom reached
the targeted grade 3 level. This quarter, 58,754 ANA personnel were enrolled in
2,339 literacy classes throughout Afghanistan.95
    To provide literacy training to both the ANA and the ANP, the United States
funds three contracts—one awarded to a U.S. company and two to Afghan com-
panies, according to CENTCOM. Together, the three contracts, which include a
base year and four one-year options, are capped at $200 million. The contracts
began in August 2010, and the first one-year options were exercised in August
2011. If all options are exercised, these contracts will end on July 31, 2015.96
    According to CENTCOM, three contractors are providing 1,695 literacy train-
ers to the ANA:97
 • OT Training Solutions (a U.S. company) is providing 742 trainers.
 • Insight Group (an Afghan company) is providing 275 trainers.
 • The Higher Education Institute of Karwan (an Afghan company) is providing
    678 trainers.

Women in the ANA
As of September 30, 2011, approximately 320 women were serving in the
ANA—215 officers, including 3 general officers, and 105 noncommissioned
officers—according to CENTCOM. Approximately 75% of women officers were
assigned to medical roles; 50% of women enlisted personnel were assigned
to logistics roles. Women officers were also employed in intelligence, human
resources, signals, finance, personnel, religious and cultural affairs, and aviation.98
   According to CENTCOM, the near-term recruiting target is based on devel-
oping suitable training facilities for women rather than on setting personnel
requirements. NTM-A has engaged ANA leaders to set a goal of sending 60
women to Officer Candidate School, 60 women to the National Military Academy
of Afghanistan, and 75 women to a fast-track Noncommissioned Officers Course
from December 2011 through March 2012.99 In addition, NTM-A is funding a
$1.4 million recruiting campaign to reach women throughout the country.100



         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011             67
                                                             SECURITY




                                                             U.S. Support for the Ministry of Defense
  Defense Institution Reform Initiative:                     As of September 30, 2011, NTM-A had 304 advisors and mentors assigned to the
  A DoD initiative, begun in FY 2010, that                   MoD:101
  aims to help partner nations develop ac-                   • 171 U.S. military personnel
  countable, professional, and transparent                   • 113 U.S. civilians (22 DoD personnel and 91 contractors)
  defense establishments that can manage,                    • 17 coalition military personnel
  sustain, and employ their forces and the                   • 3 coalition civilians
  capabilities developed through U.S. secu-
  rity cooperation programs.                                    According to CENTCOM, NTM-A is developing a Master Ministerial Plan to
                                                             strengthen five areas within the MoD:102
                                                             • executive leadership and strategy
Source: DSCA, “Fiscal Year 2012 Budget Estimates,” 2/2011,
p. 429.
                                                             • support to operations
                                                             • personnel management
                                                             • national level logistics
                                                             • resource management
                                                             The plan is broadly based on the Defense Institution Reform Initiative’s global tool
                                                             to build the institutional capacity of partner nations, according to CENTCOM.103

                                                             AFGHAN NATIONAL POLICE
                                                             As of September 30, 2011, the United States had appropriated approximately
                                                             $13.4 billion, obligated $11.9 billion, and disbursed $10.5 billion of ASFF funds
                                                             to build and sustain the ANP.104 The ANP is responsible for maintaining internal
                                                             security and enforcing the rule of law.105

                                                             ANP Strength
                                                             This quarter, the total strength of the ANP was 136,122, according to the ISAF
                                                             Joint Command (IJC).106 Of that number, 79,432 were assigned to the AUP; 20,852
                                                             were assigned to the ABP; and 12,673 were assigned to the ANCOP, as shown in
                                                             Table 3.3. This quarter, the JCMB set a new goal for the ANP: to reach 157,000
                                                             personnel by November 2012.107
                                                             TABLE 3.3


                                                             ANP FORCE STRENGTH, AUGUST 2011
                                                                                                                         Authorized                     Assigned to                  Not Assigned to
                                                                                                                           (Tashkil)                Tashkil Positions               Tashkil Positions
                                                             ANP (Total Strength: 136,122)                                 144,431a                           129,971                            6,151c
                                                             Breakdown By ANP Component
                                                             AUP                                                            80,275                             79,432                                 —
                                                             ABP                                                            23,086                             20,852                                 —
                                                             ANCOP                                                          13,678                             12,673                                 —
                                                             Other Units                                                    27,392b                            17,014b                                —
                                                             Notes: AUP = Afghan Uniform Police. ABP = Afghan Border Police. ANCOP = Afghan National Civil Order Police. — = not available.
                                                             a. Includes authorized AUP, ABP, and ANCOP personnel in addition to authorized personnel for MoI headquarters, anti-crime, training,
                                                             counter-narcotics, traffic, medical, intelligence, and fire units.
                                                             b. Includes personnel assigned to MoI headquarters, anti-crime, training, counter-narcotics, traffic, medical, intelligence, and fire units;
                                                             numbers based on difference between authorized and assigned totals for the ANP and for each ANP component.
                                                             c. Students enrolled in initial entry training programs.
                                                             Source: ISAF-IJC, ANP PERSTAT, 8/2011.




                                                                68                            SPECIAL INSPECTOR GENERAL                    I   AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




ANP Sustainment
As of September 30, 2011, the United States had appropriated approximately
$4.0 billion, obligated $3.6 billion, and disbursed $3.3 billion of ASFF funds to
sustain the ANP.108 These funds are used to provide logistical items (such as fuel),
maintenance services, clothing, individual equipment, ammunition, and person-
nel salaries.109 DoD has requested more than $1.9 billion in ASFF funds to sustain
the ANP in FY 2012.110

ANP Salary Payments
According to CENTCOM, the United States pays 39% of ANP salaries. From 2008
through September 30, 2011, the United States had spent approximately                                                       Tashkil: Afghan government document that
$518.8 million on ANP salaries, according to CENTCOM.111                                                                    establishes a ministry’s staffing levels. The
   U.S. funds for ANP salaries come from the ASFF (through its ANP sustain-                                                 word means “organization” in Dari.
ment program), and most are paid through the United Nations Development
Programme’s Law and Order Trust Fund for Afghanistan (LOTFA). For FY 2012,
                                                                                                                          Source: SIGAR, Audit 5–11, “Actions Needed to Mitigate
DoD has requested nearly $220 million for ANP salaries through LOTFA.112                                                  Inconsistencies in and Lack of Safeguards over U.S. Salary
                                                                                                                          Support to Afghan Government Employees and Technical
LOTFA funds are used to pay ANP personnel in tashkil (authorized) positions;                                              Advisors,” 10/29/2011, p. 13.
ALP salaries and a pay incentive for ANCOP personnel are paid with funds from
the ASFF that do not go through the LOTFA.113

ANP Equipment and Transportation
As of September 30, 2011, the United States had appropriated approximately
$3.7 billion, obligated $3.5 billion, and disbursed $3.5 billion of ASFF funds for
equipment and transportation for the ANP.114 These funds are used to provide the                                              SIGAR AUDIT
ANP (including the ALP and APPF) with vehicles, weapons, and equipment:115
                                                                                                                              In an ongoing audit, SIGAR is focusing
• vehicles: light trucks, HMMWVs, fire trucks, etc.
                                                                                                                              on the overall ability of CSTC-A and
• weapons: assault rifles, grenade launchers, machine guns, etc.
                                                                                                                              the ANSF to account for and ensure
• equipment: medical, communications, and office equipment
                                                                                                                              the maintenance of tens of thousands
   This quarter, the ANP fielded 4,720 weapons (valued at $4.7 million), 408 vehicles                                         of vehicles provided to the ANSF by
($47.5 million), and 2,358 pieces of communications equipment ($10.1 million).116                                             the United States, mostly through the
More than 76% of ANP equipment costs were for vehicles, as shown in Table 3.4.                                                Foreign Military Sales (FMS) program.
                                                                                                                              For more information, see Section 1,
                                                                                                                              page 16.
TABLE 3.4

ANP EQUIPMENT FIELDED
                                                          Q2 2011a                              Q3 2011a
                                                 Number         Cost ($ Millions)        Number       Cost ($ Millions)
Weapons                                           11,050                     12.2         4,720                    4.7
Vehicles                                              1,514                  92.5           408                   47.5
Communications equipment                              1,746                   3.6         2,358                   10.1
Total                                           14,310                   108.3            7,486                  62.2
Note: Numbers affected by rounding.
a. Quarters are for calendar year, not fiscal year.
Source: CENTCOM, responses to SIGAR data call, 7/1/2011 and 10/3/2011.




              REPORT TO THE UNITED STATES CONGRESS                       I   OCTOBER 30, 2011                  69
SECURITY




Most of the equipment fielded by the ANP was acquired through cross-leveling or
was funded by the United States through the ASFF in pseudo-FMS purchases.
   As of September 30, 2011, the United States had spent more than $3.2 billion
to equip the ANP, according to CENTCOM.117 For FY 2012, DoD has requested
more than $1.5 billion in ASFF funds for ANP equipment and transportation.118

ANP Infrastructure
As of September 30, 2011, the United States had appropriated approximately
$3.1 billion, obligated $2.6 billion, and disbursed $1.6 billion of ASFF funds for
ANP infrastructure.119 These funds support the building of new or expanded
police headquarters and facilities, including border stations, ANCOP facilities,
fire stations, and MoI administrative buildings.120 DoD has requested more than
$1.1 billion in ASFF for ANP infrastructure in FY 2012.121
    This quarter, 55 ANP infrastructure projects were awarded (valued at $219.5
million), 168 were ongoing ($1,013.5 million), 16 were completed ($66.2 million),
and 2 were terminated ($2.5 million), according to CENTCOM. The largest of the
newly awarded projects was an $18.5 million ANCOP patrol station in Kandahar,
which is scheduled to be completed in August 2012.122

ANP Training and Operations
As of September 30, 2011, the United States had appropriated approximately
$2.7 billion, obligated $2.2 billion, and disbursed $2.1 billion of ASFF funds for
ANP training and operations.123 These funds support generalized, logistical, com-
munications, intelligence, literacy, and other specialized training for ANP, MoI,
and fire department personnel, criminal investigators, and the APPF. DoD has
requested more than $1.1 billion in ASFF funds for ANP training and operations in
FY 2012.124

Training Status
This quarter, 8,911 ANP personnel graduated from 27 training programs,
according to CENTCOM. Of that number, 3,923 graduated from AUP courses,
3,525 graduated from ANCOP courses, and 782 graduated from ABP courses;
the others completed APPF training (208) or other specialized training pro-
grams (473).125
   During this reporting period, DynCorp International (DynCorp) and Xe
Services provided contracted training and mentoring services to the ANP along-
side U.S. and coalition partners, according to CENTCOM. DynCorp provided
trainers, mentors, and support services at several ANP training sites. The current
DynCorp contract runs from April 2011 through April 2013 and includes a one-
year option. Xe Services provided mentors for the ABP; however, that contract
ended on September 30, 2011. CENTCOM noted that there are no plans to write a
new contract because there are enough U.S. and coalition trainers to meet train-
ing requirements.126




  70               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




   Since August 2009, DoD has funded and directed U.S. efforts to train the
ANP, having gradually assumed this responsibility from the Department of State
(DoS). From 2003 through 2006, DoS had the primary responsibility for funding
and managing ANP training efforts and awarded multiple task orders to DynCorp
under the civilian police contract. In 2006, DoD assumed responsibility for fund-
ing the ANP training program through reimbursable agreements with DoS, which
continued to manage and oversee the program. From November 2006 through
December 2010, DoD transferred approximately $1.26 billion to the DoS Bureau
of International Narcotics and Law Enforcement Affairs (INL) for training and
mentoring of the ANP and the MoI.127

Training Support Oversight
This quarter, the DoD Office of Inspector General and the DoS Office of Inspector
General released three joint audit reports that addressed requirements in the
FY 2011 National Defense Authorization Act and focused on the ANP training
program.128
   One of the audits found that DoS had not appropriately obligated or returned
to DoD approximately $172.4 million of DoD funds that had been provided for
ANP training. In addition, the report noted that a DoS employee had approved
contractor invoices of approximately $2.07 million that had not been authorized
or were for services that had not been provided. The report identified a total
potential monetary benefit of approximately $124.62 million in ASFF funds,
which, when recovered, could be used for valid ANP training requirements.129
   The second audit looked at plans to transition the administration of ANP and
MoI training program contracts from DoS to DoD. In December 2010, the U.S.
Army Contracting Command awarded DynCorp a contract to provide MoI and
ANP training, mentoring services, and support. This contract replaced two DoS
and two DoD task orders for ANP and MoI training and support. According to
the audit report, DoD and DoS officials had not developed a comprehensive plan
or memorandum of agreement for the transition of responsibility. In addition, at
the time of transition, the incoming contractor did not have all of the required
personnel in place, which placed the ANP and MoI training mission at risk.130
   The third audit found that INL officials had improperly obligated an estimated
$76.65 million of ASFF appropriations that DoD had provided to DoS in support
of the ANP training program. These monies were not obligated for ANP training:
they were obligated for two INL rule-of-law programs ($75.60 million) and an INL
counter-narcotics program ($1.05 million). The report noted that if the $75.60 mil-
lion is returned to DoD, those funds could be used to support ANP training.131

ANP Literacy
According to CENTCOM, 56% of ANP non-officer personnel had achieved a
literacy rating of grade 1, as of September 30, 2011. This percentage is based
on the number of personnel who had passed the grade 1 literacy test while
serving in the ANP since October 2009; attrition was also considered. NTM-A’s




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011          71
SECURITY




goal is for all ANP personnel to be literate by 2014; however, CENTCOM noted
that the ANP commander for training programs revised the date, pushing it to
2016. NTM-A has had a literacy training program for the ANP in place since
2009. As of September 30, 2011, some literacy training had been completed by
72,937 ANP personnel, 9,004 of whom had completed grade 3 level training.
This quarter, 29,073 ANP personnel enrolled in 1,619 literacy classes throughout
Afghanistan.132
   As noted earlier, the United States funds three contracts—one awarded to a
U.S. company and two to Afghan companies—to provide literacy training to the
ANA and the ANP, according to CENTCOM. Together, the three contracts, which
include a base year and four one-year options, are capped at $200 million. The
contracts began in August 2010, and the first one-year options were exercised
in August 2011. If all options are exercised, these contracts will end on July 31,
2015.133 According to CENTCOM, the contractors are providing 1,486 literacy
trainers to the ANP:134
 • OT Training Solutions (a U.S. company) is providing 401 trainers.
 • Insight Group (Afghan) is providing 491 trainers.
 • The Higher Education Institute of Karwan (Afghan) is providing 594 trainers.

Women in the ANP
According to CENTCOM, 1,204 women were serving in the ANP as of August 22,
2011—192 officers (up from 183 last quarter) and 1,012 enlisted personnel (up
from 929). The goal for the ANP is to recruit 5,000 women by 2014. The MoI’s
Gender and Human Rights Directorate is led by a woman who is also a brigadier
general in the ANP. CENTCOM noted that NTM-A/CSTC-A and other interna-
tional partners have provided advisors to support the directorate’s efforts to
address gender issues.135

U.S. Support for the Ministry of Interior
As of September 30, 2011, NTM-A had spent more than $367.3 million on the
development of the MoI, according to CENTCOM. CENTCOM noted that 211
mentors and advisors were assigned to the MoI as of September 30, 2011. Of that
number, 42 were civilian police advisors, 46 were military advisors, and 123 were
contractors.136
   NTM-A has budgeted an additional $396.3 million for future MoI development
as part of a larger $1,189 million, two-year contract with a one-year option with
DynCorp. The contract covers three mission areas, providing137
• advisors to MoI staff, in conjunction with coalition forces
• training and base support services at ANP regional training centers
• support to IJC police mentor teams
   In the effort to advise and mentor the MoI, NTM-A provides expert support
to the MoI to develop the skills, systems, and education needed to effectively




  72               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




run the ministry’s various sections. The ANP training and base support section
provides mentors and trainers at ANP training locations across Afghanistan and
provides basic support and security at some locations. The trainers and men-
tors work alongside coalition forces and Afghan partners to develop the Afghan
training cadre and command at the regional training centers. The IJC portion
of the contract provides law enforcement experts who embed with military
units assigned to ANP elements. These mentors augment the military units
with subject matter expertise to instill basic police skills in the fielded police
force.138 Both NTM-A and IJC oversee the contract and are responsible for ensur-
ing that the contract meets mission requirements. The DoD Defense Contract
Management Agency also tracks those requirements to ensure that the contract
is in compliance.139

ANP Local Initiatives
The ALP is the MoI’s community watch program. It enables communities to
protect themselves in areas that lack a significant ISAF or ANSF presence.140
Although called “police,” ALP members do not have arrest authority and are not
included in the total ANP force strength, according to DoD.141 However, U.S.
funding through the ASFF is used to pay for U.S. efforts to build, equip, train, and
sustain the ALP.142
   As of September 28, 2011, the ALP had 8,384 personnel, according to
CENTCOM. The staffing goal is to have 30,000 members by 2014. To cover ALP
salaries, CSTC-A had obligated $30.75 million of ASFF funds, as of September 30,
2011.143 ALP members are paid through one of two channels:144
 • Through the MoI pay process, in which ASFF funds are electronically trans-
   ferred to the MoI and distributed at ALP sites.
 • Through the Combined Forces Special Operations Component Command -
   Afghanistan and NTM-A/CSTC-A in cash payments, disbursed by U.S. forces.
   In September 2011, the international non-governmental organization (NGO)
Human Rights Watch released a report on human rights abuses connected to
local militias and the ALP. The organization reported that in provinces where it
had conducted investigations, there were “numerous complaints” about “crimi-
nal or insurgent elements being absorbed into the ALP.”145 Alleged human rights
abuses by ALP members included illegal raids, as well as beatings, kidnappings,        Afghan Local Police personnel line up for
rapes, and killings.146 In addition, the organization noted that ALP members often     inspection in Uruzgan province. The Ministry
                                                                                       of Interior created the ALP to provide
have connections to government officials and local strongmen who can protect
                                                                                       security in communities that lack an ISAF or
them from being held accountable.147                                                   ANSF presence. U.S. reconstruction funds
   USFOR-A is conducting an investigation to determine whether the allegations         are used to build, equip, train, and sustain
in the Human Rights Watch report are credible. The Combined Force Special              the ALP. (Photo by Lt. Col. Damone Garner)
Operations Component Command - Afghanistan observed that several witnesses
in the report were anonymous and may be insurgents who oppose the ALP. It
also noted that some locations in which ALP abuses were reported were not
locations where the ALP operates.148




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           73
SECURITY




PRIVATE SECURITY CONTRACTORS AND THE AFGHAN
PUBLIC PROTECTION FORCE
This quarter, 15,305 private security contractor (PSC) personnel were working
for DoD in Afghanistan, according to CENTCOM—nearly 20% fewer than last
quarter.149 The number of Afghan PSC personnel fell by nearly 26%, as shown
in Table 3.5.
   By March 2012, the lead on private security is scheduled to pass from PSCs to
the APPF, under the bridging strategy announced by the Afghan government in
March 2011. According to the strategy, PSCs that the MoI has licensed to oper-
ate may continue to perform security services for diplomatic and ISAF missions
and projects; however, PSCs that perform security services for development and
humanitarian projects must be replaced by the APPF.150
   According to DoD, President Karzai has agreed to allow some PSCs to
exceed new limits on personnel if they are willing to recruit, train, and equip
guards for the APPF.151 In addition, NTM-A and the U.S. Agency for International
Development support the bridging strategy by assisting the APPF in building the
capacity it needs to meet the security needs of ISAF and the international com-
munity.152 This quarter, 208 Afghans graduated from the APPF training program,
according to CENTCOM.153

U.S. FORCES
According to USFOR-A, 107,068 U.S. forces were serving in the country as of
September 30, 2011:154
• 76,821 to ISAF
• 3,122 to NTM-A/CSTC-A
• 16,715 to USFOR-A
• 10,410 to other assignments (unspecified)


TABLE 3.5


PSC PERSONNEL WORKING FOR DoD IN AFGHANISTAN
                                         As of 4/6/2011            As of 7/7/2011                     3-Month Difference
U.S. citizens                                          250                       693                                  +443
Third-country nationals                                732                    1,282                                   +550
Afghan nationals                                    17,989                   13,330                                 -4,659
Total                                             18,971                    15,305                                 -3,666
Sources: CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,”
4/6/2011, accessed 10/13/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq,
and Afghanistan,” 7/7/2011, accessed 10/13/2011.




    74                        SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                               SECURITY




REMOVING UNEXPLODED ORDNANCE
From 2002 through September 30, 2011, DoS had provided more than $212.6 mil-
lion in funding for the Non-Proliferation, Anti-Terrorism, Demining, and Related
programs in Afghanistan, according to the DoS Political-Military Affairs’ Office of
Weapons Removal and Abatement (PM/WRA).155 DoS directly funds five Afghan
NGOs, five international NGOs, and one U.S. company (DynCorp) to carry out
sustained clearance operations and remove and mitigate abandoned and at-risk
weapons. In addition, DoS assists the ANSF with the destruction of its excess,
unserviceable, and at-risk weapons and ordnance. It also provides technical assis-
tance for maintaining the physical security and managing the stockpile of ANSF
weapons and ordnance. The PM/WRA noted that USFOR-A and CSTC-A personnel
train and monitor the ANSF in the removal of mines and other explosive remnants
of war through the Counter–Improvised Explosive Device Program and the ANA
Engineer School in Mazar-e Sharif.156
   From July 1, 2010, to June 30, 2011, DoS-funded implementing partners had
cleared 33.0 million square meters of contaminated land, according to the PM/
WRA. That leaves an estimated 612.0 million square meters to clear, as shown
in Table 3.6.157

COUNTER-NARCOTICS
From 2002 to September 30, 2011, the United States had appropriated $5.3 billion
for counter-narcotics initiatives in Afghanistan. Most of these funds were appro-
priated through two sources: the DoS International Narcotics Control and Law
Enforcement (INCLE) account ($3.3 billion), and the DoD Drug Interdiction and
Counter-Drug Activities (DoD CN) fund ($1.9 billion).




TABLE 3.6


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, JULY 1, 2010–JUNE 30, 2011
                                       AT/AP                    UXO                      SAA                  Fragments      Minefields   Estimated Contaminated
Date Range                          Destroyed              Destroyed                Destroyed                    Cleared   Cleared (m2)       Area Remaining (m2)
7/1–9/30/2010                           3,922                270,793               1,196,158                  1,710,708      9,108,108              650,662,000
10/1–12/31/2010                         2,219                100,866               1,204,036                  3,549,023      5,704,116              641,000,000
1/1–3/31/2011                           2,171                 55,005                   80,156                 5,899,573     11,405,068              627,000,000
4/1–6/30/2011                           4,043                 68,542                 481,877                  6,259,343      6,799,279              612,000,000
Total                                12,355                495,206               2,962,227                  17,418,647     33,016,571             612,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition.
Source: DoS, PM/WRA, response to SIGAR data call, 10/11/2011.




            REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2011                          75
SECURITY




   DoD CN funds are used for many purposes. As of September 30, 2011, accord-
ing to DoD, the largest amounts were for the following activities and initiatives:158
 • Air mobility outside the continental United States ($502.7 million): provides
   equipment, infrastructure, operations and maintenance, and training support
   for counter-narcotics missions in Afghanistan.
 • Intelligence and technology ($394.5 million): provides analytical, equipment,
   and operations and maintenance support for the joint U.S./U.K. Inter-agency
   Operations Coordination Center, the Combined Joint Inter-agency Task
   Forces Shafafiyat and Nexus, and the Judicial Wire Intercept Program.
 • Counter-narcotics training for the ABP ($208.7 million): supports tactical
   training, mentors, and advisors for the ABP and the Customs Police.
 • Training for the Counter-Narcotics Police of Afghanistan (CNPA) ($159.1 mil-
   lion): supports trainers, mentors, and advisors, and provides equipment,
   infrastructure, and operations and maintenance support for the CNPA and its
   specialized units.
 • Other program support ($124.3 million): supports analysts and trainers,
   transportation, and operations and maintenance for various programs to sup-
   port counter-narcotics programs in Afghanistan.
 • Air mobility within the continental United States ($111.5 million): provides
   equipment, infrastructure, and operations and maintenance support to
   U.S.-based English language and flight training for MoI aviation personnel
   assigned to the ministry’s Air Interdiction Unit—a counter-narcotics unit that
   supports the ANP.

Counter-Narcotics Highlights
In October 2011, the UN Office on Drugs and Crime (UNODC) released its annual
Afghanistan Opium Survey. In it, the UNODC estimated that 131,000 hectares
were under opium poppy cultivation in 2011—a 7% increase in area over 2010.
Most of that cultivation (95%) occurred in nine provinces in the south and west,
including the most insecure provinces. The number of poppy-free provinces
decreased from 20 in 2010 to 17 in 2011, as the situation regressed in one eastern
and two northern provinces. Opium production for the year was estimated at
5,800 metric tons—a 61% increase in quantity over 2010, when opium yields were
reduced by plant diseases.159
   From June 14 through September 28, 2011, GIRoA and U.S. forces conducted
176 interdiction operations that resulted in arrests and seizures of contraband,
according to DoD. As in previous quarters, most interdiction activities were
conducted in the south and southwest, where most of the opiates are grown,
processed, and smuggled out of Afghanistan. The ANSF conducted fewer interdic-
tion operations in the east and north than it did last quarter. All operations were
focused on countering the insurgency-narcotics-corruption nexus—a term that




  76                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                      SECURITY




describes a symbiotic relationship that provides funding for insurgents, resources
and protection for the illicit narcotics industry, and opportunities for corruption
that, in turn, benefit both insurgents and the illicit narcotics industry.160
   On July 23, 2011, U.S. and Afghan officials formally opened a regional counter-
narcotics law enforcement center in Herat, according to the U.S. Army Corps
of Engineers. The new center, which cost nearly $11 million to build, will be
used by the CNPA. Its housing, dining, training, and administrative facilities can
accommodate up to 150 Afghan forces and 20 coalition mentors.161
   On August 10, 2011, the MoI’s Air Interdiction Unit completed its first inte-
grated counter-narcotics operation with coalition air crews, according to NTM-A.
The operation resulted in the destruction of an illegal drug lab and one ton of
narcotics. The unit, which is mentored by the U.S. Army and the U.K. Royal Air
Force, has 20 Mi-17 helicopters.162
   During the 2011 eradication season, the Afghan government cleared 3,810
hectares of opium-producing fields through the Governor-Led Eradication pro-
gram, according to INL, which supports the program. The UNODC verified these
results by satellite.163 In addition, ISAF noted that a district governor in Kandahar
made progress in countering marijuana production by destroying fields and pro-
viding farmers with seeds for wheat as an alternative crop.164




A large drug lab is destroyed by ANSF and coalition forces in Helmand province during a major
counter-narcotics operation this quarter. The combined forces fought insurgents throughout the
day and seized more than five tons of chemicals used to process heroin. (ISAF photo)




         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2011               77
SECURITY




Interdiction Operations
In 2011, as of September 28, the ANSF had partnered with ISAF to conduct 432
narcotics interdiction operations, according to DoD. These operations included
partnered patrols and cordon-and-search, detention, and over-watch operations;
they resulted in 540 arrests and led to the seizure of the following narcotics
contraband:165
• 123,271 kg of hashish
• 59,661 kg of opium
• 15,809 kg of morphine
• 7,107 kg of heroin
• 97,665 kg of narcotics-related chemicals
   This quarter, U.S. forces continued to provide transportation, intelligence,
airlift, and quick reaction support for interdiction operations, and the U.S. Drug
Enforcement Administration (DEA) continued to mentor specialized Afghan
counter-narcotics units, DoD noted. In addition, the U.S. intelligence community
continued to provide targeting and analytical support to Afghan law enforce-
ment and military personnel at the strategic, operational, and tactical levels. The
Combined Joint Interagency Task Forces Shafafiyat and Nexus, in coordination
with the Inter-agency Operations Coordination Center, also provided support to
Afghan law enforcement and military personnel. All operations were coordinated
with and received support from U.S. and coalition forces commanders on the
ground.166
   On September 26, 2011, Afghan and coalition forces made the largest-ever
narcotics seizure by combined forces. According to ISAF, the combined force
uncovered three narcotics laboratories in Helmand containing drugs worth an
estimated $350 million: approximately 1,815 gallons of morphine solution,
220 pounds of heroin, and 176 pounds of opium. The combined force also seized
26,543 pounds of chemicals and the equipment used to produce the drugs.167

Counter-Narcotics Police of Afghanistan
The CNPA is a special force under the control of the MoI.168 According to INL, its
total force strength is approximately 2,570 personnel:169
• 538 serving in several specialized units
• 1,267 serving in Provincial CNPA units that fall under the control of provin-
   cial governors and provincial or district police chiefs
• approximately 765 assigned to the CNPA headquarters in Kabul.
INL supports increasing the authorized strength of the CNPA by 617 personnel to
reach a force strength of 3,187.170
   According to DoD, 8 ISAF personnel, 6 NTM-A personnel, and 75 contractors
are mentoring the CNPA. The nations involved include the United States, United




  78               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                 SECURITY




Kingdom, Canada, Jordan, and Australia. In FY 2011, several DoD programs have
supported the CNPA, including the following:171
• National Interdiction Unit (NIU)/CNPA Training program: provides support
   for the Tactical Operations Center, Counter-narcotics Training Academy,
   MoI Advisor Program, Counter-narcotics Polygraph Program, and Special
   Investigative Unit. These programs provide mentoring of key CNPA leaders,
   meet ongoing training requirements, and provide operational support to NIU
   teams. (FY 2011 funding: $47.2 million)
• NIU/CNPA Equipment program: supports the purchase of equipment needed
   for CNPA units and provincial forces. (FY 2011 funding: $6.0 million)
• NIU/CNPA Facilities program: constructs new CNPA facilities and maintains
   existing CNPA buildings throughout Afghanistan. (FY 2011 funding:
   $32.9 million)
• NIU/CNPA Air Mobility (OCONUS) program: provides support for the train-
   ing and mentoring of the MoI’s Air Interdiction Unit. Funding is also used to
   equip, operate, and maintain 20 helicopters; provide U.S. contractor instruc-
   tor pilots and maintenance support; and provide parts and equipment.
   (FY 2011 funding: $126.1 million)
• NIU/CNPA Air Mobility (CONUS) program: provides training in specialty and
   management skills for Air Interdiction Unit members in DoD professional
   development schools in the United States. (FY 2011 funding: $14.3 million)
   The DEA also provides mentoring—conducted by a DEA special agent and 20
contractor trainers—for the 538 members of the CNPA’s specialized units, INL
noted. INL provides a contract mentoring staff of six: two assigned to each of the
Regional Law Enforcement Centers in Herat and Kunduz, and two in Kabul. INL
also provides a contract logistics mentor to the CNPA headquarters in Kabul to
support operations and maintenance.172
   Since spring 2011, when the Provincial CNPA units met their strength
goals, the DEA has been placing more emphasis on training them, according
to INL.173 INL noted that CENTCOM provides most of the mentoring of the
Provincial CNPA that is conducted at the CNPA headquarters. (A contingent of
the Provincial CNPA is assigned to permanent duty at the Counter-Narcotics
Training Academy in Kabul.) UNODC personnel provide periodic training on
technical subjects.174
   The Provincial CNPA units under the control of the governors are not
assigned mentors, except in Helmand where they are mentored by the U.K.
Provincial Reconstruction Team, according to INL. INL is pursuing options
for providing mentoring, based on successes reported by the U.K. Provincial
Reconstruction Team.175




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         79
TITLE OF THE SECTION




 80    SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




GOVERNANCE
As of September 30, 2011, the United States had provided nearly $19.3 billion to
support governance and development in Afghanistan, as shown in Appendix B.
This quarter, U.S.-funded programs continued to address persistent problems
related to corruption, public administration capacity building, local governance,
rule of law, and foreign affairs.
   Efforts to enhance government in Afghanistan were undermined this quar-
ter by targeted assassinations of government officials and peace negotiators,
an inability to prosecute corruption cases, and internal political tensions.
However, some progress was made in reintegration, capacity building, and gov-
ernmental control of insecure provinces. This section provides details on these
developments as well as updates on the progress of U.S. programs that focus
on governance.

KEY EVENTS
Political tensions between the branches of the Afghan government continued
this quarter. Although President Hamid Karzai announced a resolution to the
continuing dispute over the 2010 elections, it did not quell internal disputes on
the matter within the government.
   In addition, the personal security of government officials remained a concern.
Several assassinations of high-profile government officials threatened to derail
the peace process and create instability in key government posts.

Special Tribunal and Wolesi Jirga Controversies
This quarter, the year-long fallout continued from the 2010 elections for the
Wolesi Jirga, the lower house of the National Assembly. According to the United
Nations (UN) Secretary-General, the dispute over the results and their final
arbiter was a “source and symptom” of the tensions between the branches of the
Government of the Islamic Republic of Afghanistan (GIRoA).176
   On August 10, 2011, President Karzai decreed that the Special Tribunal he
appointed in December 2010 to review complaints of election fraud did not have
the power to decide the makeup of the Wolesi Jirga. That left the Independent
Election Commission (IEC) as the sole arbiter to resolve the impasse over
results for 62 of the 249 seats, according to a North Atlantic Treaty Organization
(NATO) publication.177 On August 21, 2011, the IEC announced that nine sit-
ting members would be removed from office and replaced with nine candidates



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         81
                                                                GOVERNANCE




                                                                whose election wins had previously been disqualified.178 Although in previous
                                                                quarters the Department of State (DoS) had noted its concern about the legality
                                                                and actions of the Tribunal, it stated this quarter that Karzai’s decree appeared
                                                                to be consistent with the Afghan Constitution and upheld the electoral institu-
   “The face of the peace                                       tion’s independence.179 The United Nations Assistance Mission in Afghanistan
     initiative has been                                        (UNAMA) approved of Karzai’s decision.180
  attacked. This is another                                        After the IEC’s announcement of its decision on the disputed seats, members
                                                                of the Wolesi Jirga’s “Rule of Law” coalition of about 60 legislators boycotted the
 outrageous indicator that,                                     Lower House and prevented the formation of a quorum to conduct legislative
 regardless of what Taliban                                     business. As of September 30, 2011, support for the boycott was waning, but the
   leadership outside the                                       Wolesi Jirga still lacked the 125 members needed for a quorum.181
    country say, they do
       not want peace,                                          Rabbani Assassination
                                                                On September 20, 2011, the chairman of the High Peace Council, former Afghan
       but rather war.”
                                                                President Burhanuddin Rabbani, was killed by an insurgent who had feigned
                        —Gen. John R. Allen,                    interest in conducting reconciliation talks. The head of the Joint Secretariat of the
                        Commander of ISAF                       Afghanistan Peace and Reintegration Program (APRP) was also wounded in the
                                                                attack.182 Immediately after the attack, the U.S. Ambassador noted that the murder
Source: ISAF, “NATO and ISAF Leadership Join President Karzai
in Condemning Murder of High Peace Council Chairman,”
                                                                of a statesman who sought peace raised very serious questions about whether the
9/20/2011.                                                      Taliban and their supporters have any real interest in reconciliation.183

                                                                UN Sanctions List
                                                                On July 15, 2011, the UN Security Council removed 14 people from the Taliban-
                                                                only sanctions list that it created in June 2011. According to the U.K. Foreign and
                                                                Commonwealth Office, 5 of the 14 are working with the High Peace Council to
                                                                move the reconciliation process forward. The Office noted that the removal of
                                                                those names was a clear signal of the international community’s support for rec-
                                                                onciliation and the participation of Afghans who are prepared to work for peace.
                                                                The UN also added the Pakistani group Tehrik-e Taliban to the al-Qaeda–only
                                                                sanctions list created last quarter.184

The High Peace Council’s $2.8 million                           RECONCILIATION AND REINTEGRATION
budget is funded through the Reintegration                      Reconciliation and reintegration of former insurgents remained a focus of U.S.
Finance Mechanism, a joint instrument
                                                                and GIRoA efforts this quarter. This section provides an update on the main
by which the GIRoA and donor countries
                                                                actors and programs involved in these efforts and provides details about issues
disburse funds to provincial administrators.
The ISAF Force Reintegration Cell provides
                                                                reintegrees face.
support to the Council. As of September
30, 2011, the United States had also                            High Peace Council Actions
provided $670,000 through the Afghanistan                       This quarter, before the assassination of Rabbani, the High Peace Council contin-
Reintegration Program for the Council’s                         ued its efforts to heighten national and international awareness of the APRP. In
security and its outreach efforts.                              Afghanistan, the Council held meetings with national and local government officials,
                                                                members of the National Assembly, university professors and academics, and the
Sources: DoS, response to SIGAR data call, 10/6/2011; ISAF,
“ISAF Reintegration Guide,” 11/22/2010.                         Ministry of Women’s Affairs. Council members travelled to Paktika and Paktiya




                                                                  82                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




to inaugurate the two provinces’ Peace Councils. They also traveled to Germany,
Indonesia, and India to engage those nations in the reconciliation and reintegration
process. In addition, the Council participated in a joint commission on peace that
was held in Pakistan. According to DoS, the Council’s efforts have contributed to an
acceleration in the pace of former insurgents seeking to reintegrate.185

Afghanistan Peace and Reintegration Program Progress
This quarter, the Afghanistan Peace and Reintegration Program continued to                Afghanistan Peace and Reintegration
show more progress in promoting reintegration than its creators originally                Program: the Afghan government’s main
expected, according to DoS, but issues remained. As of September 30, 2011,                program for promoting and managing
more than 2,400 men had joined the APRP in 20 provinces, according to the ISAF            the actual reintegration of insurgents. It
Force Reintegration Cell.186 The program, which began in September 2010, had              provides a way for Taliban members and
originally aimed for about 1,000 reintegrees and eight active provincial structures       other anti-government elements to re-
in its first year.187 Although media reports have questioned overall reintegration        nounce violence, reintegrate, and become
                                                                                          productive members of Afghan society. The
figures, the U.S. government has high confidence that the numbers are accu-
                                                                                          program also attempts to link peace with
rate, according to DoS. Both the APRP Joint Secretariat and the ISAF Force
                                                                                          development opportunities to enhance
Reintegration Cell monitor the number of reintegrees, which has been increasing           the attractiveness of the program. It is ad-
every quarter since the program’s inception, as shown in Figure 3.24.188                  ministered through a Joint Secretariat, an
   Overall, reintegration continues to lag in the south and east: about two-thirds        inter-agency body that has representation
of reintegrees have come from the north and west.189 However, DoS noted that              from ISAF.
reintegration is accelerating in the eastern provinces of Laghman, Nangarhar, and
Logar. DoS also noted increasing levels of interest in the program in southern
Afghanistan, particularly in Uruzgan.190 It stated that overall, as of September 30,    Source: UNDP, “UNDP Support to Afghanistan Peace and
                                                                                        Reintegration Program,” 5/2011.
2011, the APRP was on track and meeting its goals.191
   Although the Afghan government continues to face challenges in implement-
ing reintegration in Kandahar, there are initiatives aimed at overcoming them. A
                                                                                        FIGURE 3.24
lack of staff capacity at the Provincial Joint Secretariat and an insufficient under-
standing of the financial process have slowed reintegration, according to DoS.192       REINTEGREES UNDER THE APRP,
To address these issues, GIRoA officials from southern Afghanistan gathered             DECEMBER 2010–SEPTEMBER 2011
in Kandahar for an APRP conference on September 12–13, 2011. Discussions
centered on synchronizing reintegration, security, and development efforts to           2,500
accelerate the reintegration process in the south.193
   Reintegration events in the violence-ridden southern provinces have received less    2,000
publicity because of intimidation and security threats. The ISAF Force Reintegration
Cell estimated that in central Helmand 200 to 300 insurgents had reintegrated, as       1,500
of this quarter.194 As security gains in Helmand solidify, the provincial governor is
attempting to capitalize on them by promoting reintegration.195                         1,000
   This quarter, connections were established between national reintegration
bodies and their Helmand counterparts, and the central government began                   500
training the Helmand Joint Secretariat in the reintegration process, according
to DoS.196 The first demobilization of former insurgents in Helmand took place
                                                                                            0
in August 2011, according to the ISAF Force Reintegration Cell, which noted                     Dec 2010 Mar 2011             Jun 2011 Sep 2011
that patience in the effort is important, because forcing the pace could greatly
                                                                                        Note: Numbers affected by rounding.
reduce confidence in the process.197 DoS stated that the provincial government
                                                                                        Sources: DoS, responses to SIGAR data call, 10/6/2011,
                                                                                        7/1/2011, 4/15/2011, and 1/12/2011.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           83
                                                            GOVERNANCE




                                                            continues to rely on the U.S. Afghanistan Reintegration Program (ARP), but fund-
  Afghanistan Reintegration Program: a                      ing through Afghan channels had begun to be received and spent locally.198
  DoS program that supports the APRP by
  assisting in the reintegration of detainees               Capacity Development for Reintegration
  into their communities and by providing                   This quarter, the Afghan government continued to put in place the organiza-
  secure housing for ex-combatants.                         tion, policies, and procedures needed for reintegration to be successful. Five
                                                            Provincial Joint Secretariat Teams were created, according to DoS, bringing
                                                            the total to 25.199 DoS noted that the disbursement of reintegration funds at the
Source: DoD, “Overview – FY 2012 Defense Budget,” 2/2011,
p. 46.                                                      provincial level continues to need improvement, particularly in establishing pro-
                                                            vincial accounts and training the Provincial Joint Secretariat Teams in their use.
                                                            Nevertheless, funding is available to many provinces, and no funding shortfalls
                                                            have affected reintegration operations.200
                                                               As of September 30, 2011, reintegration funding accounts were in place in all
                                                            but the four provinces that lack banking facilities; pay agents serviced those four
                                                            provinces, according to DoS. Local governments in 22 provinces had received fund-
                                                            ing for their reintegration operating budgets. DoS stated that all provinces that have
                                                            banking facilities should have reintegration operating budgets by the end of 2011. In
                                                            addition, the APRP Joint Secretariat is in the process of adding additional accounts
                                                            so that the program’s four funding streams—float account, transitional assistance,
                                                            small grants, and operational funds—can be tracked and reconciled more easily.201

                                                            Reintegrees
                                                            Those insurgents who have reintegrated into Afghan society, most of whom are
                                                            not key members of the insurgency, have concerns about their security from
                                                            retaliation and their future participation in the Afghan economy and society.

                                                            Background and Motivation of Reintegrees
The United States and 10 other countries                    According to the ISAF Force Reintegration Cell, the overwhelming majority of
have pledged more than $230 million to                      reintegrees have been low-level fighters, including some who have reintegrated
the APRP. As of September 30, 2011, about                   informally without going through the APRP.202 This quarter, however, the pace of
$150 million of those funds had been dis-                   reintegration for insurgents at higher levels quickened.203 According to DoS, ide-
bursed to the Afghan government through                     ology motivates only a fraction of insurgents—most fight because of legitimate
three financial “windows” for distributing                  grievances that can be addressed.204 The ISAF Force Reintegration Cell noted
funds for reintegration.
                                                            though that this quarter ISAF and the APRP began exploring negotiations with
Source: DoS, response to SIGAR data call, 10/6/2011.        some of the most radical elements of the Taliban.205

                                                            Safety of Reintegrees Post-Reintegration
                                                            The level of security in a community is one of the biggest factors affecting the
                                                            pace of reintegration, according to the ISAF Force Reintegration Cell. Because
                                                            the Taliban sees reintegration as a significant threat, it has targeted individuals
                                                            involved in the APRP. Before agreeing to reintegrate, potential reintegrees look
                                                            for assurances about their security and about protection from harassment and
                                                            retribution. Despite violence directed toward APRP participants, intimidation
                                                            has not caused participating communities to turn back toward the insurgency,




                                                              84                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




according to the ISAF Force Reintegration Cell.206 DoS noted that many provincial
leaders have created safe houses or obtained the support of local security forces
to provide protection to reintegrees. And although violence against reintegrees
remains an issue, insurgents had carried out only one complex attack on rein-
tegrees since the APRP’s inception, as of October 2011, according to DoS. The
APRP has increasingly taken part in ensuring that provincial government security
bodies and ISAF forces work in concert to provide security for reintegrees.207
   In addition to wanting protection from the Taliban, reintegrees need assur-
ances that they will not be arrested by coalition forces. The ISAF Force
Reintegration Cell noted that it was using multiple registration processes to
remove reintegrees from military lists of insurgent targets.208

Economic Opportunities for Reintegrees
Transition assistance is becoming available to reintegrees in the APRP, according
to DoS. As of September 30, 2011, about 350 reintegrees had enrolled in com-
munity recovery—the third phase of reintegration. DoS expected that number to
increase as more provinces initiate small grants programs and ministerial rein-
tegration project plans are carried out. Vocational training and other community
recovery programs were also gradually beginning.209

NATIONAL AND SUB-NATIONAL GOVERNANCE
This quarter, insurgents continued their campaign of targeted assassinations. In
July and August 2011, insurgents killed 182 high-ranking government officials,
influential local and religious leaders, and members of security forces, accord-
ing to the UN Secretary-General. Included in these casualties were the head of
the Kandahar Provincial Council—President Karzai’s half-brother, Ahmad Wali
Karzai; a senior advisor to President Karzai; the head of the Kandahar Ulema
Shura (Council of Islamic Scholars); and the mayor of Kandahar City. The vic-
tims’ power and close ties to Kabul raised concerns about political stability in the
south, according to the UN Secretary-General.210
   The full effect of these assassinations on governance is not clear. According to
DoS, Karzai’s half-brother was the acknowledged power broker in Kandahar; how-
ever, his death had not resulted in any noticeable change in the political status quo,
as of September 30, 2011. Kandahar’s governor said that he feels isolated as a result
of his political allies’ assassinations, but he remained in office despite widespread
predictions that he would resign. DoS noted that the districts in Kandahar with
effective governors have continued to perform well.211 The assassinations provoked
fear in some civil servants and officials that prompted some to resign; however,
others became more determined to carry out their duties, according to DoS.212

Wolesi Jirga
This quarter, although the continued political tensions about the Wolesi Jirga
seats curtailed much of the business of the National Assembly, three bills were
passed: the Law on Forests, the Afghan National Army Personnel Affairs Law,




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011            85
GOVERNANCE




and the Extradition Law. The National Assembly also exercised its oversight
function this quarter. According to the UN Secretary-General, the Wolesi Jirga
summoned various ministers to discuss cross-border incidents in Kunar. It also
summoned the Minister of Foreign Affairs and the National Security Advisor
to provide updates on the Afghan government’s strategic partnership discus-
sions with the United States. The Meshrano Jirga (Upper House of the National
Assembly) also questioned senior officials, including members of the National
Disaster Management Authority, about provisions for flood and drought victims,
and the Minister of Interior about the security situation. As of September 21, 2011,
the executive branch had not announced any nominees for open senior appoint-
ments, including cabinet ministers and Supreme Court justices. Legislators
protested the inaction, according to the UN Secretary-General.213

USAID’s Foreign Affairs Institutional Reform Program
The U.S. Agency for International Development’s (USAID) Foreign Affairs
Institutional Reform (FAIR) program is intended to improve the capacity of the
Ministry of Foreign Affairs (MoFA) to formulate and administer foreign affairs
policy. According to USAID, the program should completely expend its $4 million
of funding by October 31, 2011.214 The agency identified a number of ways that
FAIR has helped improve the MoFA’s institutional capacity:215
• A three-year master plan was created for the MoFA.
• A five-year training strategy was developed for the MoFA’s Institute of
    Diplomacy.
• Curricula, training modules, and materials were produced for the MoFA’s
    language teachers to support English-language training for MoFA diplomats.
• A foreign service orientation program was developed for newly hired
    diplomats.
• Training in research and policy analysis was provided to the staff of the
    MoFA’s Center for Strategic Studies.
• Training on financial management procurement, inventory, and other
    management subjects was given to officers in the MoFA’s Administrative
    Department.
• Information technology improvements were made to the MoFA’s network
    infrastructure, equipment, and training.
   Delays in staffing and insufficient personnel experience are the greatest chal-
lenges to the implementation of the FAIR program, according to USAID. For
example, the program’s Chief of Party and the coordinator of one of its main
components had no prior experience in managing USAID-funded projects. In
addition, due diligence procedures to ensure that the program met contractual
standards delayed USAID approvals of information technology activities.216

Provincial and District Governance
The level of governmental control and effectiveness continued to fluctuate in
southern and eastern Afghanistan this quarter. The government has typically had



  86                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




more success establishing control in urban regions than in more remote areas
and regions bordering Pakistan. The United States and its coalition partners
continued to support local governance through Provincial Reconstruction Teams
(PRTs) and District Support Teams (DSTs).

Helmand Province
Government representation in Helmand continued to improve this quarter. As
of August 31, 2011, district governors had been installed in 12 of Helmand’s 14
districts, according to the U.K. Foreign and Commonwealth Office. In the pro-
vincial capital, Lashkar Gah, 26 line ministries were represented. In August 2011,
two new district development plans were created, for Sangin and Musa Qala.
In addition, all of the key central districts had functioning councils, including
six district community councils, an interim municipal council in Lashkar Gah,
and an interim district council in Sangin. Also in August, the U.K. Foreign and
Commonwealth Office stated that it intends to establish community councils in
Nowzad and Khan-e-Shin in 2011 or 2012.217 It noted that the safety of Afghan
government officials remained a challenge. In August 2011, two district commu-
nity council members in Gereshk and Nawa and a prosecutor in Gereshk were
assassinated.218

                                                                                      FIGURE 3.25
Eastern Afghanistan
Governmental control in eastern Afghanistan (Figure 3.25) remained steady since       PROVINCES IN EASTERN AFGHANISTAN
last quarter. In Paktika, the Afghan government continued to maintain moder-
ate control, according to DoS. In some districts there had been improvements
in security, access to education, health care, and road quality; however, remote
districts had very limited interaction with the central government. In many dis-
tricts, insurgent shadow governments continued to compete effectively with the
national government for authority by providing their own justice systems.219
   Among other efforts, the Paktika PRT partners with local governmental offi-
cials to improve their capacity in processes such as the delivery of medical and
educational services. This quarter, DoS noted that the PRT continued to focus
much of its efforts on preparing Afghan officials to assume responsibility for
delivering services and securing support for projects from the central govern-
                                                                                                                        NANGARHAR
ment. In doing so, the PRT aids Paktika officials in developing priorities, writing
proposals, and advocating for funding from Kabul.220
   In Khowst, the Afghan government controls Khowst City and nearby built-up                             PAKTIYA

areas—mostly along the Gardez–Khowst–Ghulam Khan road corridor, and the                                            KHOWST
outlying district of Jaji Maidan. Control is more limited in the rural districts of
Spera, Musa Khel, Qalandar, Bak, and Sabari, according to DoS.221 This quar-
ter, the Khowst PRT and DST met frequently with GIRoA officials to advise on
and coordinate a number of issues and U.S.-funded activities, and to engage in                 PAKTIKA

numerous construction projects in response to GIRoA needs in the province.222
   In Nangarhar, the government continued to exert moderate control of dis-
tricts along the central highway from the Khyber Pass through Jalalabad and on
to Kabul. Although crime remained a significant problem, government service



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011          87
                                                       GOVERNANCE




                                                       delivery and community confidence in the national government had grown notice-
                                                       ably in the four districts that receive funds through the District Delivery Program
                                                       (DDP)—Beshud, Roday, Surkh Rod, and Shinwar—according to DoS.223 The PRT
                                                       has been mentoring provincial line directors on how best to create a five-year
                                                       provincial development plan that accounts for project costs and operations and
                                                       maintenance funds, according to DoS.224 However, in the southeastern Shinwari
                                                       tribal region of Achin, Nazyan, and Dur Baba, instability and crime increased
                                                       greatly over the past year; the continuing destabilizing effects of a large-scale
                                                       tribal dispute caused much of the region’s problems. DoS noted that governmental
                                                       control remained tenuous in the mountainous regions bordering Pakistan.225
                                                          In Paktiya, the Afghan government continued to have its greatest influence
                                                       in and around the population centers. Its presence and capacity were notice-
                                                       ably lower in Paktiya’s more rural and remote areas, according to DoS, which
                                                       noted that it expected the expansion of the APRP and the DDP into key dis-
                                                       tricts to expand government influence and improve local support.226 The PRT’s
                                                       work in strengthening capacity at the provincial and district levels—through
                                                       the Provincial Budgeting Pilot Program, the APRP, and the DDP—should also
                                                       strengthen the government’s presence and effectiveness.227

                                                       PRTs and DSTs
                                                       Early in 2011, President Karzai said that PRTs must be dismantled as the Afghan
                                                       government takes over responsibility for the country in the transition process.228
                                                       As of September 30, 2011, DoS was reviewing the composition of the U.S. civilian

FIGURE 3.26

PROVINCES WHERE U.S.–LED PRTs OPERATE                                            PROVINCES WHERE COALITION–LED PRTs OPERATE

                                                                                  Italy   Spain   Norway   Lithuania   Turkey    Sweden   Hungary Germany          Germany




                                                              United States                                                                                                  Coalition Partners




                                                                                                                                  United Netherlands New      Turkey    Czech
                                                                                                                                 Kingdom            Zealand            Republic



Source: DoS, response to SIGAR data call, 10/6/2011.                              Source: DoS, response to SIGAR data call, 10/6/2011.




                                                         88                   SPECIAL INSPECTOR GENERAL                   I     AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




presence, and no decision had been made on the disposition of PRTs. The review
was conducted to ensure that the U.S. presence reflects the U.S. goals and mis-
sion and aligns with the two nations’ strategic partnership. U.S.-led PRTs operate
in 12 provinces, most of them in the east and south of the country, as shown in
Figure 3.26; 12 coalition partners lead the other 14 PRTs. DoS noted that PRTs
and DSTs focus primarily on building government capacity.229

Public Administration Development
As of September 18, 2011, 60% of civil servant positions were filled in the 14           FIGURE 3.27

most insecure provinces, according to USAID. Southern and eastern provinces              PROPORTION OF CIVIL SERVICE
faced the most difficulties in staffing, as shown in Figure 3.27. This is an improve-    POSITIONS VACANT, SELECTED
ment from April 2011, when 50% of positions were filled. Lack of security and            PROVINCES (PERCENT)
candidates’ lack of experience and education continued to pose challenges in
filling local positions. To overcome these challenges, USAID supports local and
regional recruiters in running job fairs. Training is taking place at provincial-level
offices so that new civil servants can be trained promptly in their job roles. In
addition, qualification standards are being amended to ensure that more Afghans
are able to apply to civil service positions.230
    According to USAID, the implementation by the United States and the Afghan
government of the Insecure Provinces Recruitment Strategy helped fill 1,565                                                                     No data
                                                                                                                                                16–25
tashkil positions from April 1 to September 30, 2011—more than expected. The                                                                    26–35
strategy is intended to boost Afghan government service delivery. Gains were                                                                    36–45
                                                                                                                                                46–61
concentrated in provinces that held job fairs.231
     USAID noted that the Afghan government was beginning to implement pay
and grading reforms that address the relatively low salaries for some skilled posi-      Notes: Numbers affected by rounding. Data reflects the
                                                                                         percentage of tashkil positions filled by either civil service or
tions. The Civil Service Commission was becoming more responsive to issues               contracted employees in the ministries of Education,
                                                                                         Agriculture, Interior, Public Health, Finance, and Communication
associated with the timeliness of salary payments. In addition, to encourage the         and Information Technology, as well as the Independent
promotion and retention of women, the commission was planning to establish a             Directorate of Local Governance. Contracted employees in the
                                                                                         Ministry of Education in Paktika and Ghazni were excluded as
professional development center for female civil servants.232                            statistical outliers. USAID provided statistics for only the 14
                                                                                         most insecure provinces.
                                                                                         Source: USAID, response to SIGAR data call, 10/8/2011.
Afghanistan Civil Service Support Program
As of September 30, 2011, USAID’s Afghanistan Civil Service Support (ACSS)
program had obligated $229 million, $219 million of which had been disbursed.
The program contract was scheduled to end on October 31, 2011, but a no-cost
extension was being negotiated.233
   The ACSS continued to face a number of challenges this quarter, including
security, difficulty recruiting women, and a lack of adequate infrastructure in
some provinces.234 USAID noted that despite these challenges, the ACSS had
aided in a number of successes:235
• The Ministry of Communications, Information, and Technology, and the
   Ministry of Agriculture, Irrigation, and Livestock have instituted performance
   appraisal systems.




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011             89
                                                              GOVERNANCE




The ACSS program is designed to re-                           • The Ministry of Mines, the Ministry of Transportation, and the High Office
form and train the civil service. The                           of Oversight for Anti-Corruption (HOOAC) can input and manage electronic
program works through the Independent                           employee records.
Administrative Reform and Civil Service                       • Job fairs in Kandahar, Uruzgan, Zabul, Ghazni, and Paktika recruited 1,100
Commission to improve the capacity of civil                     new civil servants.
servants to modernize, institutionalize, and
harmonize common administrative systems                          USAID also noted that the ACSS had helped institute merit-based hiring for
across ministries, and to create a system                     some government positions, which has led to a more transparent and open
for civil service training.                                   approach to hiring. Since August 2010, every provincial governor and deputy
                                                              governor has been hired through a merit-based system, according to USAID. In
Source: USAID, response to SIGAR data call, 10/3/2011.
|G031-D Afghan Municipalities Program for Urban Populations   addition, interviews for all key senior civil service appointments are recorded
and Kabul City Initiative
                                                              digitally, enabling oversight bodies to independently assess the transparency of
                                                              the appointments process. Furthermore, the appointments boards’ meetings are
                                                              open to the human rights community, academicians, and national legislators.236

                                                              Afghan Municipalities Program for Urban Populations
                                                              and Kabul City Initiative
                                                              USAID provides technical assistance and capacity building to help municipalities
                                                              improve their management capacity; service delivery; and capacity to enable,
                                                              support, and sustain economic growth through two programs: the Afghan
                                                              Municipalities Program for Urban Populations (RAMP UP) and the Kabul City
                                                              Initiative (KCI). As of September 15, 2011, USAID had expended more than
                                                              $82.4 million through the Economic Support Fund for RAMP UP. As of
                                                              September 30, USAID had expended more than $12.2 million for the KCI; it
                                                              expected to expend an additional $2 million by October 31, 2011.237
                                                                  RAMP UP and KCI activities address a variety of public works and services:
                                                              park renovation and building of irrigation systems for parks and medians;
                                                              installation of public latrines; trash removal, solid waste collection, and landfill
                                                              expansion; street asphalting and procurement of traffic signs; basic census and
                                                              public perception surveys; and communication and outreach to the public.238
                                                                  RAMP UP has completed plans to improve municipal management in most of the
                                                              cities where it operates, according to USAID. Municipal officials and citizens have
                                                              been involved in planning and implementing program projects. USAID noted that
                                                              several municipalities have functioning accounting systems and citizen forums that
                                                              meet regularly. In addition, tax collection has increased substantially.239
                                                                  USAID noted that the KCI faces a number of challenges:240
                                                               • Reduced funding for governance programs: KCI funds were reduced by more
                                                                  than 60% this quarter. According to USAID, funding constraints have led
                                                                  Afghan municipal counterparts and USAID’s implementing partners to lose
                                                                  confidence in USAID’s municipal programs.
                                                               • Acquisition and contracting delays: Cumbersome USAID Office of
                                                                  Acquisition and Assistance procedures and significant delays resulting from
                                                                  counter-terrorism vetting of vendors and contracts caused some bid offers to
                                                                  expire before approval.
                                                               • Security: The security situation in Kabul hampers program operations.




                                                                90                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




    To gain direct funding or in-kind services, the KCI has attempted to forge more
partnerships with other agencies, donors, and groups. USAID noted that the KCI
is also seeking more cross-functional departmental cooperation with other USAID
agencies in the Kabul mission to maximize output and service delivery where
resources are scarce. This quarter, USAID had discussions with Afghan officials
about the reduced funding and the consequent need to prioritize projects.241

Performance-Based Governors’ Fund
As of September 30, 2011, the Performance-Based Governors’ Fund had a con-
tract end-date of October 31, 2011. However, because the congressional hold on
FY 2011 funds has been lifted, the program is expected to receive approval to
continue, pending the USAID Administrator’s approval.242 The fund is intended
to increase the ability of governors to manage key functions of their offices and
extend community outreach programs.243

JUDICIAL REFORM AND RULE OF LAW
In July 2011, the draft plan for the Afghan National Priority Program on law and
justice was released. When final, the program is expected to become the reform
strategy for the justice sector for the next three years, according to the UN
Secretary-General, who noted that it will place considerable emphasis on extend-
ing the reach of the formal justice system. The Afghan government has improved
its abilities to provide legal aid, hold public trials, and use evidence to reach
convictions; however, the Secretary-General noted that issues such as security
continue to hamper the justice system.244

Supreme Court
The Supreme Court continued to operate at a base level in performing its core
duties in the judiciary, according to DoS. DoS noted that a computerized case
management system (CMS) was being implemented across judicial agencies
this quarter. The existing paper system, which is being maintained during the
transition, shows that the justice system is functioning: the courts continue to
hear cases and hand down decisions. As of October 4, 2011, the courts alone had
submitted 517 CMS forms to track ongoing cases.245
   Despite these challenges, activities and mentoring provided through the
U.S.-funded Justice Sector Support Program (JSSP) have begun to enable DoS
to better measure the court’s functionality. DoS noted that a computerized case
management system (CMS) was being implemented across judicial agencies
this quarter. The existing paper system, which is being maintained during the
transition, shows that the justice system is functioning: the courts continue to
hear cases and hand down decisions. As of October 4, 2011, the courts alone had
submitted 517 CMS forms to track ongoing cases.246




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011          91
GOVERNANCE




U.S. Justice Sector Support Program
The new CMS was developed by the JSSP with the Afghan government and the
Corrections System Support Program (CSSP) of the U.S. Bureau of International
Narcotics and Law Enforcement Affairs (INL). It is intended to strengthen
criminal case information-sharing between justice sector institutions and greatly
increase the speed at which information can be accessed.247
    As of September 30, 2011, various judicial agencies—including the courts—
had filed 3,694 CMS paper forms.248 According to INL, the JSSP will work with its
GIRoA counterparts to establish 19 CMS offices in 7 key ministries and agencies
in Kabul. In the interim, the Afghan government continued to process paper CMS
forms for criminal case records.249
   In addition to the implementation of the CMS, the JSSP supports training pro-
vided through the Focused District Development–Law program, which addresses
district-level corruption issues. This quarter, 169 Afghan police, prosecutors,
judges, and defense attorneys across the country graduated from the training.250
The JSSP continued to provide training to Afghan judicial professionals on a
variety of topics: 251
 • the Afghan law’s stance on the discretionary crime of running away
 • the Eliminating Violence Against Women (EVAW) law
 • forced marriage
 • sources and interpretation of criminal law
 • implementation of the juvenile code
   As of September 21, 2011, the JSSP staff roster was 83% filled, according to
INL. Its 287 employees included American, third-country national, and Afghan
legal advisors.252

U.S. Support for Rule of Law
This quarter, DoS and the MoFA signed partnership agreements that allocated
$268 million for joint programs for rule of law, counter-narcotics, and law
enforcement. The funds are intended to advance governance by improving judi-
cial capacity and enhancing the rule of law, according to DoS. They are intended
to improve security by curtailing the narcotics trade, the profits of which are
often used to finance terrorist and criminal activities. U.S. funds will complement
Afghan government funding to support and expand collaborative programs.253
   DoS noted that cooperation between the United States and the Afghan gov-
ernment had resulted in the placement of female police mentors in 30 family
response units in 10 provinces, as of September 2011. These units offer a safe
place for women and families to report crimes and obtain mediation services.254
   In other developments, the U.S. Embassy Kabul noted that the CSSP and the
Central Prison Directorate had provided training for more than 90% of Afghan
prison personnel and alleviated overcrowding in 13 provincial prisons, as of
September 2011.255




  92               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




Rule of Law and Stabilization Programs
USAID’s Rule of Law and Stabilization Formal program (RLS-F), which is in an
option year, will end in June 2012. As of September 30, 2011, USAID had obli-
gated more than $23.6 million for the RLS-F; it expected that the program will
cost nearly $33.8 million.256
    USAID’s Rule of Law and Stabilization Informal program (RLS-I) officially          USAID’s Rule of Law and Stabilization
ended in September 2011. The program had an estimated cost of more than                program has two components—formal and
$14.48 million. This quarter, USAID awarded a follow-on program to run from            informal. The goals of the formal program
September 2011 to July 2012; its estimated cost is $11 million. USAID noted that       are to build the capacity of the judiciary,
the follow-on program will expand the program from 15 to 27 districts.257              institute a court management unit, build
                                                                                       the capacity of faculties at law schools
    As a result of ongoing instability in Afghanistan, the formal justice system has
                                                                                       and Sharia schools, and increase public
gradually deteriorated, according to USAID; however, the centuries-old informal
                                                                                       awareness of the formal justice system. The
system has remained an important avenue for justice. There are no widespread
                                                                                       informal program trains village elders in
standards for informal justice: the elders who manage the informal process have        dispute resolution, Afghan law, and Sharia
little or no formal law training or interaction with the state or formal sector.258    law. The informal program also works to
    To bridge the gap between the informal and formal systems, the agency              strengthen links between the formal and
sponsored 245 events for more than 10,000 participants from October 2010 to            informal justice systems.
July 2011. Events included workshops with university professors of Afghan and
                                                                                       Source: USAID, response to SIGAR data call, 7/4/2011.
Islamic law, discussion groups, and networking meetings of groups of elders to
encourage partnerships in dispute resolution.259 USAID noted that a survey of
elders in Arghandab district in Kandahar showed that these events have contrib-
uted to building trust between the government and communities. Respondents
said that a stronger relationship between the formal and informal justice systems
had developed in the six-month period from February to July 2011. According to
the agency, elders have gained a better understanding of the law and are more
willing to send civil cases to the courts. In return, courts have been sending more
dispute cases to the elders.260
    Afghan universities are still challenged by limited teaching capacity, poor
infrastructure, lack of security, and constrained financial resources. However,
according to USAID, the country’s law schools made achievements in 2011 that
will improve the legal education of professors and students and increase the
caliber of legal services.261 To assist in legal education, USAID works to make
legal education more practical and effective.262 Among other efforts, the agency
pointed to the publication of legal textbooks and journals that will be resources
for professors and law students, and the launch of legal clinics that will give
students practical training.263 RLS-F’s support to the Supreme Court has resulted
in a significant increase in the number of judges—especially women judges—
enrolled in the Court’s two-year in-service training program.264

Access to the Legal System
This quarter, a $200,000 justice center was opened in Nawa district in Helmand,
according to a U.S. Marines Corps publication. The center has a courtroom with
viewing space, a consultation room, and office space for judges, lawyers, and
mediators. Before the center opened, trials were held in temporary facilities that
did not allow citizens to witness court proceedings.265



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           93
                                                              GOVERNANCE




                                                              Prison and Detention Center Operations
In early 2006, INL started the Corrections                    Overcrowding continues to strain Afghanistan’s prison system. As of September
System Support Program (CSSP). The                            25, 2011, provincial prisons held more than double their capacity (203.6%). The
CSSP partners with the Central Prisons                        19,664 male detainees and prisoners were incarcerated in prisons that were
Directorate in the MoJ to build a more                        operating at 211.7% of capacity. In contrast, female prisons were not quite full:
safe, secure, and humane prison system                        562 detainees and prisoners were incarcerated in prisons that were operating at
that meets international standards and
                                                              87.2% of capacity. The overcrowding of prisons had increased since December
Afghan cultural requirements. In 2010, INL
                                                              2010, when prisons were operating at 190.8% of capacity. The International
expanded the CSSP to work with the MoI on
its district detention centers and the MoJ’s                  Committee of the Red Cross sets the minimum acceptable prison space per
Juvenile Rehabilitation Directorate. The five                 person at 3.4 square meters.266
main components of the CSSP are building                         Last quarter’s prison break in Saraposa prompted the Afghan government to
capacity at the Directorate’s headquarters,                   begin to move the Central Prison Directorate from the Ministry of Justice (MoJ)
conducting basic and advanced nationwide                      to the Ministry of Interior (MoI). As of September 30, 2011, the Afghan govern-
training, managing infrastructure programs,                   ment was still working to amend the necessary laws to move the Directorate
advising provincial prison leaders on secure                  from the MoJ to the MoI.267 The UN Secretary-General warned that the transfer
and humane corrections practices, and                         could detract from gains in the prison administration sector and that appropri-
providing mentoring and support at the                        ate structural safeguards need to be put in place within the MoI to prevent an
Counter-Narcotics Justice Center.                             increase in human rights abuses in prisons.268
Source: DoS, “INL Afghanistan: Key Program Areas,” accessed
                                                                 DoS identified a number of challenges in the juvenile corrections system: crum-
10/6/2011.                                                    bling infrastructure, underfunding, insufficient staffing, minimal education and
                                                              vocational programming, overcrowding, intermingling of pre-trial and convicted
                                                              juveniles, and severely limited recreational space. Nearly 900 juvenile offenders
                                                              have been incarcerated in Juvenile Rehabilitation Centers, and 32 of the 34 cen-
                                                              ters are in rented structures that were not intended to house juvenile offenders.269
                                                                 To address the challenges, the Corrections System Support Program (CSSP)
                                                              works within the juvenile corrections system. CSSP personnel mentor the
                                                              leadership of the Juvenile Rehabilitation Directorate, which oversees juvenile
                                                              corrections facilities, on improving management practices and implementing
                                                              standard operating procedures.270

                                                              ANTI-CORRUPTION
                                                              Corruption remains a challenge to reconstruction efforts. This quarter, a DoS
                                                              analysis of corruption that covered contractor vetting, support to anti-corruption
                                                              law enforcement, development of anti-corruption policies and institutions,
                                                              and outreach programs to civil society found that corruption is at its height in
                                                              Afghanistan. DoS noted that during the transition to Afghan control, the United
                                                              States should remain vigilant in its attention to the problem.271
                                                                 In August 2011, the joint international and Afghan Monitoring and Evaluation
                                                              Committee (MEC) met with President Karzai, key ministers, members of the
                                                              media, and representatives from civil society groups. The MEC is developing rec-
                                                              ommendations on needed anti-corruption reforms, according to the U.K. Foreign
                                                              and Commonwealth Office.272 DoS noted that the MEC’s technical secretariat had
                                                              gotten off to a slow start. The MEC’s first report is due in November 2011.273




                                                                94                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                        GOVERNANCE




Improving Transparency and Accountability
As of October 6, 2011, the Afghan Civil Service Code was still being revised.
DoS noted that it is unclear how the code will affect the vetting of senior-level
officials. The Civil Service Commission had put in place procedures for merit-
based and transparent recruitment for most senior civil servants; however, the
Director-General of the Independent Directorate of Local Governance recently
halted these procedures because he viewed them as slow and lacking sufficient
standards for recruits in the most dangerous provinces. According to DoS, some
saw the move as political and the U.S. Embassy Kabul planned to review the mat-
ter with the Afghan government.274

Progress in Prosecutions
The Afghan government has made little progress in prosecuting high-level offi-
cials because it lacks the political will to do so, according to DoS. It noted that
the Attorney General still has not demonstrated a serious commitment to fighting
corruption or bringing senior officials to justice.275 In addition, DoS stated that
the Department of Justice (DoJ) was unaware of any prosecutions of high-level
officials this quarter.276

Anti-Corruption Unit
The Anti-Corruption Unit (ACU) continued to face many impediments to its abil-                    “Corruption is a
ity to combat corruption, according to DoS, which stated that the government
                                                                                              tremendous challenge
has stifled the ACU’s prosecutions of high-level officials. This quarter, DoJ and
the JSSP suspended their training of ACU personnel because of the unit’s perva-            in Afghanistan. Corruption
sive culture of corruption.277 DoS noted that DoJ mentors will continue to visit            significantly undermines
the ACU to evaluate whether it is becoming more committed to combat corrup-                    our nation’s conduct
tion, which would enable training efforts to resume.278 DoS also noted that DoJ               of counter-insurgency
lacks confidence that ACU prosecutors are capable of correctly investigating or
prosecuting complex or large-scale financial crimes.279
                                                                                               operations in theater.
   According to DoS, it is clear that those who challenge well-connected Afghans               Deterring corruption
likely risk professional penalties. This quarter, two ACU prosecutors were                    involves an integrated
punished and given unwanted transfers for pursuing charges against the former                  effort at all levels....”
governor of Kapisa, and the case was closed without any charges. The ACU’s
investigation into the Kabul Bank crisis had yet to result in formal charges of any                                —Brigadier General
high-level officials.280                                                                                           Stephen J. Townsend
   By contrast, the ACU’s investigation and prosecution of low-level governmental
                                                                                           Source: Brigadier General Stephen J. Townsend, Written
officials appear to occur without barriers. DoS noted that DoJ believes that this          Testimony before the Committee for Oversight and Government
                                                                                           Reform’s Subcommittee on National Security and Foreign
apparent willingness to prosecute is a result of the lack of power and ability of lower-   Affairs, 9/15/2011.
level officials to disrupt the progress of cases. In its Kabul Bank investigations, the
ACU appears to be concentrating on low-level employees and bank regulators.281




         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2011            95
                                            GOVERNANCE




                                            Major Crimes Task Force
                                            Throughout July and August 2011, the Major Crimes Task Force (MCTF) had
                                            38 to 48 anti-corruption cases open for investigation at any one time. However,
SIGAR AUDIT                                 according to DoS, the MCTF’s investigations are often stifled at the ACU, and
                                            completed investigations frequently do not result in charges.282
In an audit of the MCTF released last
                                               The MCTF has high standards of conduct, achievement, and capacity,
quarter, SIGAR identified funding and
                                            according to DoS. Investigators build cases effectively by using sophisticated
reimbursement issues that U.S. imple-
                                            techniques such as wiretapping, cell phone exploitation, and global positioning
menting agencies need to address.
                                            system tracking. Investigators take pride in their work and appear to resist brib-
For more information, see SIGAR Audit
                                            ery and other undue influence.283
11-12, “U.S. Agencies Have Provided
                                               A number of U.S. agencies support the MCTF through training, mentor-
Training and Support to Afghanistan’s
                                            ship, and operations and maintenance assistance, including INL, U.S. Central
Major Crimes Task Force, but Reporting
                                            Command (CENTCOM), the Federal Bureau of Investigation, and the U.S. Army
and Reimbursement Issues Need to be
                                            Criminal Investigation Division. DoS noted that the MCTF is gaining some inde-
Addressed” at www. sigar.mil.
                                            pendence from foreign mentors: in July 2011, FBI-trained Afghan investigators
                                            began teaching the basic investigations course that new investigators take.284

                                            High Office of Oversight for Anti-Corruption
                                            The HOOAC remains a low-capacity operation, according to DoS, which stated
                                            that the office has failed to take advantage of the technical assistance provided
SIGAR AUDIT                                 to it. DoS stated that the U.S. Embassy Kabul has not witnessed any impact by
                                            the HOOAC on anti-corruption efforts.285
In its 2009 audit of the HOOAC, SIGAR
                                               The new director general of the HOOAC had previously chaired a special
found that the office suffered from a
                                            commission established by President Karzai to investigate the corruption at
limited operational capacity and lacked
                                            Kabul Bank, according to DoS. Although the commission’s report revealed that
the independence required to meet
                                            politically connected figures received even more fraudulent loans than previ-
international standards for an oversight
                                            ously believed, it also absolved two key players in the schemes from any criminal
institution. For more information, see
                                            liability: the half-brother of President Karzai and the brother of Afghanistan’s first
SIGAR Audit 10-2, “Afghanistan’s High
                                            vice president.286
Office of Oversight Needs Significantly
                                               Although the HOOAC’s new leadership said last quarter that it would de-
Strengthened Authority, Independence,
                                            emphasize its asset verification program, DoS noted that asset verification has
and Donor Support to become an
                                            become a larger focus of the HOOAC. With the support of USAID, the HOOAC
Effective Anti-Corruption Institution” at
                                            has met with a number of ministries and agencies to improve compliance with
www.sigar.mil.
                                            asset verification standards for civil servants. Furthermore, the director general
                                            told the U.S. Embassy Kabul that simplifying processes and procedures is one of
                                            his top priorities.287
                                               A one-year extension of USAID’s technical assistance to the HOOAC is
                                            planned, according to DoS. The first year of assistance was not expected to
                                            exceed $4 million, and the extension will be for a smaller amount. DoS noted that
                                            the assistance will shift its focus from supporting the HOOAC to creating demand
                                            from Afghan society for transparency and accountability in the government.288




                                              96                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




U.S. Anti-Corruption Program Assistance
On September 15, 2011, the director of the Department of Defense’s (DoD’s)
Pakistan-Afghanistan Coordination Cell told the Congress that DoD, CENTCOM,
and U.S. Forces - Afghanistan (USFOR-A) have greatly increased their under-
standing of the corruption problem and the unintended consequences that funds
used for contracting can have on counter-insurgency efforts. He noted that some        The Combined Joint Inter-agency Task
Afghans believe that instead of benefiting the Afghan people, reconstruction           Force Shafafiyat works with the Afghan
money is supporting “power brokers and malign actors.”289                              government to initiate mentorship and
   The director identified progress made by a number of task forces created to         training with the High Office of Oversight for
                                                                                       Anti-Corruption, the Office of the National
deal with corruption:290
                                                                                       Security Council, the Ministry of Finance,
• The Combined Joint Inter-agency Task Force Shafafiyat (“Transparency”) has
                                                                                       the Ministry of Commerce and Industries,
   assisted in mapping criminal patronage networks. The Office of the Secretary of     and the Ministry of Interior. Training
   Defense noted that the task force has helped increase the Afghan government’s       focuses on developing capacity for criminal
   focus on addressing accountability and criminal influence in government,            investigations, prosecutions, and regula-
   narcotics trafficking, and government self-regulation. The task force assisted in   tions designed to prevent corruption and
   restructuring a $2.16 billion trucking contract, implementing anti-theft tech-      prosecute those who perpetuate it.
   nologies and rewarding companies for positive performance.
                                                                                       Source: OSD, response to SIGAR data call, 10/11/2011.
• Task Force Spotlight, incorporated under USFOR-A’s Armed Contractor
   Oversight Directorate, has aided in tracking and enforcing procedures
   regarding private security companies.
• Task Force 2010, which coordinates U.S. responses to corruption, has used
   the intelligence and law enforcement communities, as well as auditors, and
   forensic financial analysts to help ISAF, USFOR-A, and regional command-
   ers better understand contractors so contracting dollars do not empower the
   wrong people or undermine U.S. efforts.

HUMAN RIGHTS
Reports released this quarter demonstrated the continued difficulty that many
Afghan citizens face in safeguarding their human rights. This section provides
updated information on specific human rights issues in Afghanistan related to
detainees and prisoners, gender equity, children’s rights, and displaced persons.

Detainees and Prisoners
As this quarterly report went to press, UNAMA released a report alleging wide-
spread torture at detention facilities run by the Afghan National Police and the
National Directorate of Security. It cited the use of abusive interrogation prac-
tices to obtain confessions from individuals detained on suspicion of committing
crimes against the government.291

Gender Equity
This quarter, violence directed at women remained widespread, according to
the UN Secretary-General, as aggressors continued to act with impunity. GIRoA
authorities often failed to investigate and arrest violators of the EVAW law. The




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           97
                                                      GOVERNANCE




                                                      authorities have continued to arrest women and girls who attempt to flee forced
                                                      marriages or family abuse, charging them with the crime of “intent to commit
                                                      adultery.” The UN Secretary-General noted, though, that Afghan judicial authori-
  EVAW law: a 2009 law that provides a legal          ties are becoming increasingly aware of the EVAW law. From September 2010
  framework for the criminal investigation,           to September 2011, prosecutors in 28 provinces registered complaints under the
  prosecution, and conviction of 22 offenses          law, although fewer than one-quarter of those cases reached the courts.292
  against women, including harassment,                   In addition, the caseload at the Violence Against Women (VAW) Unit in Kabul
  physical assault, forced and underage               has increased steadily in 2011, from 77 in the first quarter to more than 200 cases in
  marriage, and deprivation of property or
                                                      the third quarter. The unit, established in March 2010 by the Office of the Attorney
  inheritance.
                                                      General, prosecutes crimes under the EVAW law. As of October 14, 2011, the VAW
                                                      Unit had initiated 596 cases that led to 5 convictions, according to DoS.293
Source: DoS, response to SIGAR data call, 7/1/2011.      INL supports training and capacity building for the VAW Units. In response to
                                                      rising demand, the Office of the Attorney General increased the staff of the Kabul
                                                      VAW Unit from 11 to 18 prosecutors and opened a new VAW Unit, with INL fund-
                                                      ing, in Balkh province in September 2011.294

                                                      Women’s Shelters
                                                      On September 5, 2011, the Council of Ministers passed a regulation on women’s
                                                      shelters that had been heavily revised from the original draft submitted in
                                                      February 2011. This version was a significant improvement, according to DoS.
                                                      As noted in previous SIGAR quarterly reports, the original draft contained
                                                      several controversial elements, including its restrictions on women’s access to
                                                      shelters and its allowance of government intervention in shelter operations. As
                                                      of September 30, 2011, the revised regulation was awaiting President Karzai’s
                                                      signature. In 2011, INL funded 6 of 14 women’s shelters in Afghanistan.295

                                                      Children’s Rights
                                                      This quarter, UNAMA research documented that anti-government elements
                                                      have recruited children to carry out suicide attacks, plant improvised explosive
                                                      devices, and smuggle weapons and uniforms. UNAMA also found that the Afghan
                                                      National Security Forces had recruited underage boys, sometimes with sexual
                                                      exploitation as a motivating factor. On July 6, 2011, the Minister of Interior issued
                                                      a decree that reaffirmed the Afghan government’s commitment to preventing
                                                      sexual exploitation, underage recruitment, and the killing and maiming of chil-
                                                      dren by Afghan National Security Forces personnel. The UN Secretary-General
                                                      noted that the decree contained an action plan, which he urged the government
                                                      to implement without further delay.296

                                                      Displaced Persons
                                                      Afghanistan is a source, transit, and destination country for men, women, and
                                                      children subjected to forced labor and sex trafficking, according to a DoS report
                                                      released in June 2011. The MoI said that there is more internal than transnational
                                                      trafficking, although DoS noted that the poor capacity in the Afghan government
                                                      makes it impossible to measure the scale of trafficking.297




                                                        98                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




   According to the report, adult male victims are subjected to forced labor in
agriculture and construction in Iran, Pakistan, Greece, and other Gulf countries,
but the report noted that most of the victims are children. Boys are more at risk
for forced labor, prostitution, and drug smuggling than girls. Children sent by
parents to brokers to gain employment can end up as forced labor, particularly
in Pakistani carpet factories. Some families have sold children into prostitution.
And forced begging is a growing problem as criminal networks organize profes-
sional begging rings.298
   The DoS report noted Afghan government and UN claims that the Taliban use
young teenagers (age 12 to 16) as suicide bombers. These children are sometimes
tricked or forced into carrying out missions; they may be heavily indoctrinated
or unaware that they are carrying explosives. In addition, some child soldiers in
insurgent groups are sexually exploited. Boys are sometimes promised enroll-
ment in Islamic schools in Pakistan and Iran only to be trafficked to paramilitary
training camps for extremist groups.299
   According to DoS, the Afghan government does not completely comply with
the minimum international standards aimed at the elimination of trafficking.
Furthermore, it has not been prosecuting or convicting traffickers under the
Afghan trafficking law, enacted in 2008. To the contrary, DoS cited reports that
the government has imprisoned victims of trafficking for adultery or prostitution.
DoS noted that the Afghan government appears to “seriously underestimate the
significance of human trafficking within the country.”300
   DoS recommended a number of steps the Afghan government should take to
reduce trafficking, including the following:301
 • Increase enforcement of the 2008 anti-trafficking law.
 • Prevent the punishment of victims of trafficking for acts committed as a
    direct result of that trafficking.
 • Ensure that all children who have been victimized by sex and labor traffick-
    ing receive protective services.
 • Strengthen the capacity of the MoI’s anti-trafficking/smuggling unit.
 • Support initiatives to prevent trafficking, such as a public awareness cam-
    paign to warn at-risk populations of the dangers of trafficking.

   This quarter, the Afghanistan Independent Human Rights Commission also
released a report on trafficking, drawing on interviews with more than 450
victims and nearly 1,900 members of the general public in 20 provinces. The
Commission found that early and forced marriages are major factors in traffick-
ing. About 81% of trafficking victims were married before age 18, 50% of them
before age 15, and some as young as 2. Poverty and unemployment are key driv-
ers: 58% of victims’ families had no income, and only 10% had monthly incomes
greater than Af 7,000 (about $150). Victims are typically enslaved through decep-
tion and fraud (35% of cases) or coercion and force (31%). They are then forced
into a variety of predicaments, including narcotics sales, begging, prostitution,
unwanted military service, and suicide operations.302




        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         99
TITLE OF THE SECTION




100     SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 ECONOMIC AND SOCIAL DEVELOPMENT
 As of September 30, 2011, the U.S. government had provided nearly $19.3 billion
 to support governance and economic development in Afghanistan, as shown in
 Appendix B. As the first withdrawal of U.S. troops approached, concerns per-
 sisted about the impact of a reduced U.S. presence on economic growth and
 development. As SIGAR has noted, economic growth is highly dependent upon
 military and reconstruction spending by donors.
    This quarter, the international community took a number of steps to address
 concerns about future growth and development. The U.S. Secretary of State
 co-chaired a ministerial meeting at the United Nations (UN) to discuss the
 creation of a “New Silk Road” in Central Asia to strengthen economic growth
 in Afghanistan and the region. The World Bank hosted a donor meeting in
 Washington, D.C., to discuss the economic impact of the transition to full Afghan
 leadership. Looking ahead, the U.S. Department of State (DoS) noted that 85
 foreign ministers and the leaders of 15 international organizations are scheduled
 to meet in December at the second Bonn Conference to discuss the transition,
 greater regional economic cooperation, and other issues.303
    U.S. implementing agencies have already begun adjusting their programs to
 take into account the economic impact of the transition. For example, a top offi-
 cial at the U.S. Agency for International Development (USAID) noted this quarter
 that the agency is committed to delivering more funding directly to the Afghan
 government to maximize the amount of money flowing into the local economy.
 The official reiterated U.S. policy that the international community will be
 supporting development work in Afghanistan for years beyond 2014 and charac-
 terized investment in infrastructure and energy as critical to ensuring sustainable
 economic growth.304
    This section provides updates on key economic, social, and infrastructure
 developments this quarter:
  • A staff-level agreement between the International Monetary Fund (IMF) and
     the Afghan government paved the way for a $129 million Extended Credit
     Facility (ECF) arrangement for Afghanistan, and with it a resumption of
     international donor contributions to the Afghanistan Reconstruction Trust
     Fund (ARTF).
  • Government revenues increased steadily, but remained well below public
     expenditures.




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         101
                                                                  ECONOMIC AND SOCIAL DEVELOPMENT




                                                                   • Full implementation of the Afghanistan-Pakistan Transit Trade Agreement
                                                                     was delayed again, although many technical issues were resolved.
                                                                   • USAID announced billions in funding to expand Afghanistan’s electricity-
                                                                     generating capacity.
                                                                   • Afghanistan made progress in eradicating polio.
                                                                   • Mobile phone banking grew, while commercial banking struggled.
                                                                   • The expansion of the mobile telecommunications network to the 3G stan-
FIGURE 3.28
                                                                     dard remained on track.

GDP BY SECTOR (PERCENT)                                            ECONOMIC INDICATORS
                                                                   According to IMF estimates released this quarter, the value of all goods and
                                                                   services produced in Afghanistan in 2010—the gross domestic product (GDP)—
                                                                   was $15.5 billion.305 U.S. funds appropriated annually for reconstruction generally
                                                                   approach or exceed this figure. For example, the United States provided $16.59
               Services         Agriculture
               43.7%            31.4%                              billion for Afghanistan reconstruction in FY 2010, as noted in SIGAR’s July 2011
                                                                   quarterly report.306
                               Industry
                                                                      Afghanistan’s economy is largely based on agriculture and services, as shown
                               21.4%                               in Figure 3.28. The most recent official data shows that the services sector con-
                                                                   tinues to surpass agriculture as the largest licit component of GDP.307
          Taxes on
           Imports
             3.5%                                                  Revenue Collection
                                                                   The Afghan government has continued to improve its ability to collect revenue.
Notes: Data excludes opium production. Numbers affected
by rounding.                                                       A report from the U.S. Government Accountability Office (GAO) this quarter
Source: Afghanistan Central Statistics Organization,               showed that revenue collection has grown at an average annual rate of about
“Sectoral Contribution as % of GDP,” accessed 10/5/2011.
                                                                   30% since 2006.308 However, the actual revenue collected still falls far short of
                                                                   the amounts needed to fund the government’s on-budget public expenditures, as
                                                                   shown in Table 3.7.

                                                                   Inflation
                                                                   According to the most recent official data, overall annual consumer price infla-
                                                                   tion in Afghanistan was an estimated 22% (April 2010 to April 2011).309 Because
                                                                   of poor cereal harvests this year, the annual price inflation for bread was even
                                                                   higher—estimated at 26.7%. Higher bread prices were driven by rising prices for


TABLE 3.7


 ON-BUDGET PUBLIC EXPENDITURES AND REVENUE COLLECTED, 3/21/2006–3/20/2011 ($ BILLIONS)
                                                      3/21/2006–                      3/21/2007–                       3/21/2008–                      3/21/2009–      3/21/2010–
                                                      3/20/2007                       3/20/2008                        3/20/2009                       3/20/2010       3/20/2011
 On-budget public expenditures                                   1.6                             1.9                             2.3                           2.8           3.2
 Domestic revenue collected                                      0.6                             0.7                             0.9                           1.3           1.7
 Notes: Numbers affected by rounding. Data is for Afghan solar years 1385–1389; the Afghan solar year begins on March 21 and ends on the following March 20.
 Source: GAO, Report 11-948R, “Afghanistan’s Donor Dependence,” 9/20/2011, pp. 9, 17; Treasury, response to SIGAR vetting, 10/15/2011.




                                                                       102                        SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 wheat and wheat flour.310 The World Food Program reported that the prices of
 wheat, wheat flour, and cooking oil in the major cities of Afghanistan were higher
 in August 2011 than in August 2010. The price of wheat increased by 32.4%;
 wheat flour, by 18.5%; and cooking oil, by 48%.311

 DIRECT ASSISTANCE
 The Afghan government controls only a small portion of the reconstruction
 funds spent in the country. All external budget expenditures are financed entirely
 by international donors, according to the GAO. For 2006/2007–2010/2011, for
 example, the GAO estimated that $42.8 billion of expenditures (79%) were not
 part of the national budget or under the government’s fiscal control.312 The GAO
 noted that the United States is the largest contributor to all reconstruction, pro-
 viding an estimated 62% of all funds for public expenditures from 2006/2007 to
 2010/2011.313
     As previously noted by SIGAR, this imbalance has long been a point of conten-
 tion between the Afghan government and international donors. International
 donors—including the United States—have reaffirmed their commitment to
 channel more reconstruction assistance through the Afghan government if prog-
 ress is made in fighting corruption, building public management systems, and
 improving budget execution.314
     In addition to its overall reconstruction contributions, the United States is also
 the largest contributor to the ARTF, as reported in SIGAR’s audit of the fund.315
 This quarter, the ARTF announced a new initiative to help build the financial
 management capacity of the Afghan government—a $60 million grant for the
 Second Public Financial Management Reform Project. The goal of this project
 is to increase international confidence in the financial management systems
 of the Afghan government, so that donors will channel a greater percentage
 of their assistance directly to the government. The project aims to build the
 financial management and procurement skills of civil servants (in Kabul and the
 provinces) to increase the number who can carry out functions that contractors
 have been performing. According to the World Bank, the grant will help extend
 the coverage of Afghan government audits to 75% of the government’s budget
 operations.316
     As SIGAR noted in its July 2011 quarterly report, USAID is providing $90
 million in direct assistance to the Afghan government to support eight projects
 prioritized by the government.317 As of September 30, 2011, USAID had disbursed
 $15.8 million of this commitment to the Ministry of Public Health for the Partner
 Contracts for Health program.318

 Assessing Afghan Ministries
 Strengthening the financial management capacity of Afghan ministries is an
 important prerequisite to the U.S. government delivering more assistance directly
 through those ministries. Last quarter, an independent consulting firm chosen by
 international donors began to assess the public financial management capacity of




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011            103
                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                            individual ministries.319 As of October 4, 2011, assessments had been completed
                                            of the ministries of Finance, Mines, Public Health, and Education, according to
                                            the U.S. Department of the Treasury (Treasury).320
                                               As of September 30, 2011, the assessment of the Ministry of Finance (MoF)
                                            was the only one available for public review. Among its conclusions:321
                                             • Tools and methodology to organize the budget exist within the MoF and
                                                are relatively well designed. However, because the manuals are written in
                                                English, they are clear to international consultants and donors but not to all
                                                Afghan civil servants.
                                             • Little progress has been made in transferring knowledge of these tools and
                                                methodology to those MoF civil servants who do not speak English.
                                             • Internal controls are in place across the MoF and are functioning, but they
                                                are not documented. The controls provide no audit trail; therefore, the MoF
                                                does not have the ability to evaluate the performance of its departments or
                                                processes.
                                               Treasury noted that after international donors reviewed the preliminary
                                            assessment of the Ministry of Mines, they decided to send it back for further
                                            work to get a clearer picture of how the ministry reports and records mining rev-
                                            enue. This assessment is a priority because the mining sector has the potential to
                                            significantly bolster Afghan government revenues, according to Treasury.322

                                            BANKING
                                            Since the near collapse of Kabul Bank in September 2010, progress in resolving
                                            the situation has been slow. The Afghan government has struggled to investigate
SIGAR AUDIT                                 those responsible, recover bank assets, and address the concerns of interna-
                                            tional donors about weaknesses in the commercial banking sector. Nevertheless,
In its audit of U.S. efforts to improve
                                            enough progress has been made that this quarter the IMF mission to Afghanistan
the capacity of the Afghan govern-
                                            announced it had reached a staff-level agreement with the Afghan government on
ment to regulate the financial sector,
                                            a three-year, $129 million ECF arrangement.323
SIGAR identified the challenges facing
                                               In the announcement, the IMF noted that Kabul Bank had been put into
anti-corruption efforts. For details, see
                                            receivership, the central bank (DAB) was increasing its efforts to enforce bank-
SIGAR Audit 11-13, “Limited Inter-
                                            ing regulations, and the Afghan government had committed to introducing a
agency Coordination and Insufficient
                                            value-added tax in 2014 to help increase revenues. The IMF also noted that
Controls over U.S. Funds in Afghanistan
                                            although the Afghan government had taken some of the steps required for a new
Hamper U.S. Efforts To Develop the
                                            ECF, a number of actions still needed to be completed. On October 15, 2011,
Afghan Financial Sector and Safeguard
                                            the Afghan National Assembly removed one of the chief obstacles to approval
U.S. Cash” (available at www.sigar.mil).
                                            when the Lower House approved a budget that included the first tranche of
                                            funds—$51 million—to recapitalize Kabul Bank. International donors, especially
                                            the U. S. government, have insisted that no reconstruction funds be used to
                                            recapitalize Kabul Bank.324 If the staff-level recommendation is approved by the
                                            IMF Executive Board at its November 2011 meeting, donor countries that have
                                            withheld contributions to the ARTF could resume their assistance programs in
                                            Afghanistan.325




                                             104                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     According to Treasury, the lack of an ECF caused the withholding of $100 mil-
 lion that was scheduled to be disbursed under the ARTF Recurrent Cost Window.
 This money has been set aside and will be disbursed to pay civil servant salaries
 after an ECF arrangement is in place. Treasury noted that the government can
 meet its salary and operating expenses until January 2012 without any disburse-
 ments from the Recurrent Cost Window.326
     In another key development this quarter, forensic audits of the Kabul and Azizi
 banks began. According to Treasury, the audit firm has been able to access the
 data it needs to conduct the audits.327
     As part of its response to the Kabul Bank crisis, the World Bank agreed to
 fund prudential audits of 10 Afghan commercial banks. This quarter, the Bank                                          Prudential audits: examinations of a
 announced a $19 million grant to fund these audits; the grant will also be used to                                    bank’s policies and procedures to assess
 help build capacity at DAB to regulate the commercial banking sector. A key goal                                      credit, liquidity, and operational risks.
 is to reduce reliance on cash transactions by promoting financial transactions
 that use electronic cards or mobile phones.328
                                                                                                                     Source: FDIC, “Laws, Regulations, Related Acts,” 7500-FRB
                                                                                                                     Regulations, Part 206.3 (prudential standards), accessed
 MOBILE MONEY                                                                                                        4/6/2011.

 “Mobile money” is the use of cell phones to store currency and pay for goods and
 services electronically, using short message service (SMS). It enables consumers,
 vendors, and financial institutions to transfer money—as currency or as mobile
 minutes—easily and with low transaction costs.329 It can be an anti-corruption
 tool because it reduces the need to move large amounts of cash.
     For several years, mobile money has been experiencing rapid growth in
 developing countries, according to a publication from the North Atlantic Treaty
 Organization (NATO).330 A key driver is the phenomenal growth of mobile phone
 coverage worldwide, as developing countries bypass the high cost of connecting
 homes to land lines in favor of the lower cost of installing mobile phone networks.
 Subscriptions in developing countries jumped from 250 million in 2000 to nearly 4
 billion in 2010. Market share jumped accordingly, as shown in Figure 3.29.

 FIGURE 3.29

 GROWTH IN SHARE OF MOBILE PHONE MARKET, 2000−2010 (PERCENT)


 2000                       35                                                     65


 2005                                  55                                                     45


 2010                                            74                                                      26

         0                       20                   40                   60                      80          100
              Developing Countries       Developed Countries

 Source: ITU, World Telecommunication/ITC Indicators Database, “Mobile Telephony,” accessed 10/7/2011.




             REPORT TO THE UNITED STATES CONGRESS                     I   OCTOBER 30, 2011                    105
                                 ECONOMIC AND SOCIAL DEVELOPMENT




                                     Afghanistan mirrors this worldwide trend: as of June 2011, the country had
                                  72,070 landline telephone subscribers and nearly 17 million cell phone subscrib-
                                  ers, according to the Ministry of Communications and Information Technology.331
                                  For an update on the latest plans to improve Afghanistan’s cellular communica-
                                  tions network, see “Communications” later in this section.
                                     USAID is piloting programs to use mobile money to pay the salaries of Afghan
                                  security force personnel and civil servants. The goals are to reduce the preva-
                                  lence of corrupt middlemen, reach civil servants in remote areas, and reduce
                                  the violence associated with cash disbursements.332 Although fewer than 5% of
                                  Afghans have bank accounts, more than 63% are mobile phone subscribers. As of
                                  August 2011, more than 500 Afghan National Police were receiving their salaries
                                  through the M-Paisa mobile money platform provided by Roshan M-Paisa, an
                                  Afghan telecommunications service. This quarter, USAID announced grants to
                                  three Afghan mobile phone operators totaling $2.1 million to increase access
                                  to mobile money services. The grants are part of a $5 million Mobile Money
                                  Innovation Grant Fund, the goal of which is to increase Afghans’ access to mod-
                                  ern financial services, as described in Table 3.8.333
                                     There are many challenges, however, to creating sustainable mobile money
                                  initiatives. The Task Force for Business and Stability Operations (TFBSO) noted
                                  that fewer than 10% of all mobile money initiatives worldwide have been able
                                  to operate without continued donor funds or subsidies. The major reason is
                                  that many initiatives do not achieve the economies of scale necessary to drive
                                  costs and fees down to a price acceptable to consumers. The root cause of this
                                  failure, according to TFBSO, is usually related to mobile banking services that
                                  are not interoperable, meaning payments cannot be made across telecommu-
                                  nications companies. This constraint limits the ability of a customer to spend
                                  mobile money with vendors who do not share the same mobile phone provider.
                                  For that reason, the TFBSO noted, the most successful mobile money initiatives
                                  tend to occur in countries in which one company has gained the lion’s share
                                  of the telecommunications market, or in bank-driven mobile money solutions
                                  that can handle interoperability. The TFBSO stated that mobile money grants


TABLE 3.8


 PROJECTS FUNDED BY USAID’S MOBILE MONEY INNOVATION GRANT FUND
                                       Share of
                                       Telecommunications
Afghan Mobile Phone Provider           Market (%)                   Service To Be Provided
Etisalat                               24.3                         Partner with DABS, the national power utility, to allow customers to use mobile money
                                                                    to pay electricity bills.
MTN                                    24.5                         Partner with the Ministry of Education to use mobile money to process teacher salaries
                                                                    in rural areas.
Roshan M-Paisa                         28.5                         Partner with microfinance institutions to use mobile money to improve loan repayment.
Sources: USAID, press release, “USAID Administrator Recognizes Progress and Encourages the Expansion of Mobile Money in Afghanistan,” 8/24/2011; ITU/ICT Statistics
Newslog, “Afghanistan Planning to Award 3G Licenses,” 7/26/2011, accessed 9/24/2011.




                                     106                         SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 are more likely to be sustainable in Afghanistan if they have the following
 characteristics:334
 • Encourage timely and realistic financial transfers (interoperability) between
    mobile banking services. In Afghanistan, interoperability could only be
    handled through an electronic funds transfer switch.
 • Address both parts of the mobile money equation: supply (delivering salary
    payments) and demand (paying bills or making purchases with mobile money).
 • Keep transaction costs and fees affordable.

 EMPLOYMENT
 As noted in a number of SIGAR’s quarterly reports, it is not possible to defini-
 tively measure progress toward the U.S. goal of increasing employment in the
 agriculture sector or any other sector because of the lack of available data.
 Nevertheless, USAID has estimated the number of jobs created this quarter
 through its cash-for-work programs, which provide short-term employment for
 vulnerable Afghan families, as shown in Table 3.9.

 TRADE
 This quarter, the U.S. Secretary of State co-chaired a meeting of foreign ministers
 and senior officials from 27 countries and international organizations to discuss
                                                                                                                                Silk Road: the ancient network of overland
 the “New Silk Road” initiative. According to DoS, the New Silk Road would                                                      trade routes connecting China with the
 be an international economic and transit network linking Central Asia with                                                     Mediterranean. Afghanistan was part of the
 Afghanistan. The goal would be to spur economic growth by encouraging foreign                                                  southern portion of this route and histori-
 investment in Afghanistan, connecting the country to new markets abroad, and                                                   cally served as a hub for the shipment of
 weakening the insurgency by providing alternative livelihoods for Afghans.335                                                  goods across Central Asia.
    According to data provided by USAID, Afghanistan’s main exports are agricul-
 tural or livestock-related—such as fruits, vegetables, nuts, resins, carpets, cotton,
                                                                                                                            Sources: USAID, press release, “Silk Production Revived Near
 skins, and leather.336 One of the goals of the New Silk Road initiative is to help                                         Ancient Silk Road,” 10/1/2006; GIRoA, “Afghanistan National
                                                                                                                            Development Strategy, 1387–1391,” 2008, p. 143.
 promote private-sector investment in Afghanistan’s underdeveloped mining and
 natural resources sectors to provide sources of higher-value exports.337



 TABLE 3.9


  USAID CASH-FOR-WORK PROGRAMS: SHORT-TERM JOBS CREATED IN Q4 2011
  Program                                   Number of Jobs   Types of Jobs                                                       Compensation
  Community Development                     2,407            Skilled and unskilled manual labor                                  $13 per day for skilled labor; $6.50 per day for
  Program–Kabul                                                                                                                  unskilled labor
  Community Development                     40,370           Skill and unskilled labor; household labor producing carpets,       $5 per day
  Program–North                                              clothing, and cloth; health trainers; welding; furniture making;
                                                             carpet weaving
  Community Development Program–            4,164            3,900 jobs for unskilled labor and 264 jobs for supervisors,        Average $7.50 per day
  South, East, and West                                      masons, and steel workers
  Afghan Stabilization Initiative           10,733           Unskilled labor, foremen, supervisors, trainees, and masons         $6.30 per day for unskilled labor
  Source: USAID, response to SIGAR data call, 10/3/2011.




              REPORT TO THE UNITED STATES CONGRESS           I   OCTOBER 30, 2011                          107
                                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                                               This quarter, the challenges to strengthening regional trade were illustrated
                                                            by continued delays in full implementation of the Afghanistan-Pakistan Transit
                                                            Trade Agreement. As previously noted by SIGAR, this agreement was scheduled
                                                            to go into effect 30 days after it was ratified on January 11, 2011. Implementation
                                                            continued to be held up, however, by disagreements over financial guarantees,
                                                            insurance, and customs duties for cargo. According to DoS, as of October 6,
                                                            2011, neither country had yet agreed to a new date for full implementation.338
                                                            Nevertheless, DoS noted that the two countries had resolved a number of out-
  Sensitive goods: a term used in trade                     standing technical issues that were holding up implementation:339
  negotiations to describe domestically                      • Insurance guarantees will be permanently waived for exported goods origi-
  produced goods that are so economically                      nating in Afghanistan and Pakistan.
  and politically important to a country that                • The bank guarantee required for each truck entering Pakistan and
  its competitive advantage would be threat-                   Afghanistan will be reduced from 25% to 10%.
  ened if protections against similar imports                • Insurance premiums for sensitive goods will not exceed 1% of total customs
  were reduced.                                                duties, taxes, and fees (premiums for food items will be lower).
                                                             • Collateral for insurance should be 10% of custom duties, taxes, and fees for
                                                               sensitive goods, with further reductions for non-sensitive goods.
Source: DoS, “The Language of Trade,” accessed 10/8/2011.
                                                               The importance of an agreement that allows Afghan goods to transit more
                                                            freely through Pakistan and on to India was underscored by recent trade sta-
                                                            tistics. According to data provided by USAID, Pakistan and India were the two
                                                            main destinations for Afghanistan’s exports for 2010/2011 and for the first quarter
                                                            of 2011/2012. Together, these two countries absorbed nearly 58% of Afghanistan’s
                                                            total exports: Pakistan absorbed about 38.8%; India, about 19%. Despite a very
                                                            short common border, Afghan trade with China has also been increasing: during
                                                            these same years, China was the third-largest destination for Afghan exports,
                                                            absorbing 7.9%.340

                                                            AGRICULTURE
                                                            The Ministry of Agriculture, Irrigation, and Livestock (MAIL) has officially
                                                            estimated the 2011 wheat harvest at 3.26 million tons, according to the Food and
                                                            Agriculture Organization (FAO). That is 28% lower than in 2010 and 36% lower
                                                            than the record production of 2009. The MAIL has also estimated overall produc-
                                                            tion of cereal crops (wheat, rice, barley, and others) at 4.55 million tons in 2011.
                                                            This number is 23% lower than in 2010 and about 15% lower than the average of
                                                            the preceding five years. The reduced harvests are primarily due to the lack of
                                                            rain during early seed-germinating months and warmer-than-normal tempera-
                                                            tures later in the planting season.341
                                                               As a result, Afghanistan must import more wheat and food aid this year to
                                                            meet domestic consumption needs. Imports of wheat and rice are estimated at
                                                            1.68 million tons for 2011/2012. According to the FAO, the Afghan government
                                                            had already imported 1.025 million tons of cereals and received 102,000 tons of
                                                            food aid by the end of June 2011.342
                                                               By contrast, production of fruits and vegetables was expected to increase for
                                                            the second consecutive year. The FAO also noted a significant increase in the




                                                             108                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 area planted with fruit trees.343 According to a NATO publication, the Afghanistan
 Chamber of Commerce and Industries reported strong fruit exports this year—               Value chains: sets of interlinked activities
 30,000 tons as of August 2011. Increasing the cultivation of high-value fruits and        that add value by converting inputs (raw
 creating stronger value chains to market them are goals of the U.S. develop-              materials) into outputs (finished goods),
 ment strategy in Afghanistan. For example, USAID has launched an initiative               which add to a company’s net profits and
 to give farmers access to global agricultural prices on their cell phones, so they        help create competitive advantage.
 can increase their competitive advantage and obtain higher prices for their
 produce.344
                                                                                         Source: Businessdictionary.com, accessed 10/6/2011.
    Toward this end, the TFBSO is strengthening the country’s top agricultural
 export by value—raisins—by building a new processing facility in the south. It is
 also helping establish Afghan-U.S. business partnerships to bring Afghan raisins
 to the U.S. market.345
    From 2002 to 2010, the United States invested $1.4 billion in Afghanistan’s
 agricultural development, including $77 million to build the capacity of the MAIL
 to better serve farmers and promote agricultural business development.346 This
 quarter, SIGAR released an audit of these capacity-building efforts and made
 recommendations to strengthen the MAIL program. For details, see Section 1,
 page 7.
    This quarter, USAID announced the opening of a state-of-the-art food testing
 lab in Jalalabad—the second of its kind in Afghanistan. The lab gives Afghans a
 modern facility to test the quality of food exported and imported at the Torkham
 border, increasing the efficiency of trade with Pakistan. According to USAID, the
 new lab can provide test results within 24 hours, which helps to prevent spoil-
 age from unnecessary delays. This improvement is key to boosting agricultural
 trade because Afghanistan has a 50% food spoilage rate, according to a senior
 USAID official.347
    Increasing income from agriculture is a key goal of the U.S. development
 strategy in Afghanistan. As noted earlier, one way to achieve this is to strengthen
 value chains by developing the capacity to convert raw materials produced in
 Afghanistan into higher-value goods. To address this need, this quarter USAID
 announced the opening of Afghanistan’s first cashmere de-hairing facility, which
 has the capacity to process more than 400 kilograms of raw cashmere each day.
 According to USAID, this facility could significantly increase the incomes of
 Afghan cashmere producers and traders. Afghanistan exports primarily raw cash-
 mere, which sold for $35 per kilogram as of July 31, 2011. Processed cashmere is
 sold in foreign markets for as much as $120 per kilogram.348
                                                                                         Afghan workers handle raw cashmere in
 ESSENTIAL SERVICES                                                                      Herat (top). Raw cashmere sells for $35/
 This quarter, several new developments in energy and mining underscored the             kilogram. The first cashmere-processing
                                                                                         plant opened in Herat this quarter (bot-
 shift in the U.S. strategy from short-term stability projects to longer-term projects
                                                                                         tom). Processed cashmere sells for $120/
 that have the potential to attract private-sector investment in Afghanistan. Also       kilogram. Developing the capacity of Afghan
 of note, the telecommunications sector continued its strong growth, led by the          farmers to market finished products instead
 private sector; commercial aviation expanded in response to the opportunities           of raw materials is a major step in develop-
 provided by reconstruction; and Afghanistan made progress in eradicating polio.         ing a sustainable Afghan economy.
                                                                                         (USAID photo, Ryan Fong)




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           109
                                                       ECONOMIC AND SOCIAL DEVELOPMENT




                                                       Commercial Aviation
                                                       In November 2010, as noted previously by SIGAR, safety concerns caused
                                                       the European Commission to ban all Afghan commercial airlines from land-
                                                       ing in European Union countries.349 According to the most recent European
                                                       Commission legal notice (April 2011), Afghan carriers remain on the list of
                                                       banned carriers.350
                                                          Despite this restriction, Afghan civil aviation has continued to develop,
                                                       partly in response to the opportunities offered by reconstruction spending. For
                                                       example, a new Afghan cargo airline—East Horizon Airlines—announced this
                                                       quarter that it will soon begin operations. It will specialize in transporting by air
                                                       the goods and equipment needed for reconstruction, as an alternative to the dif-
                                                       ficult and dangerous transport by road. According to the company, East Horizon
                                                       Airlines is 100% Afghan-owned and the first Afghan commercial carrier to be
                                                       certified under the new Afghan Civil Aviation Regulations.351
                                                          As of September 30, 2011, USAID had provided $6 million in on-budget
                                                       assistance to the MoF and the Ministry of Transportation and Civil Aviation to
                                                       upgrade the regional airports at Maimana and Faizabad. Construction continues
                                                       at both sites, according to USAID.352
                                                          The Ministry of Transport and Civil Aviation is moving to capture more non-
                                                       tax revenue related to commercial aviation, according to Treasury. The ministry
                                                       has announced that, beginning November 15, 2011, aviation user fees will be col-
                                                       lected electronically rather than in cash collected by airport managers.353

                                                       Energy
From 1959 to the 1980s, 144 wells were                 In a significant development this quarter, the U.S. government—along with
drilled in the three Sheberghan gas fields.            private-sector and nonprofit partners—signed an agreement with the Afghan
The 70 that were completed have produced               government to invest $600 million to develop the Sheberghan natural gas fields
about 64 billion cubic meters of natural               and build an adjacent 200-MW power plant. In addition to building and operating
gas. Estimates place the amount of ad-                 the gas-fired power plant and developing natural gas reserves to fuel it, the proj-
ditional natural gas in the reservoirs of the          ect will also construct transmission facilities to connect the plant to the North
completed wells at 34 billion cubic meters.
                                                       East Power System. According to the Overseas Private Investment Corporation
Source: USAID, “The Sheberghan Gas Field Development   (OPIC), the project will provide low-cost electricity for a significant portion of
Project,” accessed 10/8/2011.
                                                       Afghanistan’s industrial northern region.354 The project has three partners:355
                                                        • OPIC will finance up to 75% ($225 million) of the power plant costs and will
                                                           provide political risk insurance to eligible investors.
                                                        • USAID will finance the rehabilitation of two existing wells in the gas fields
                                                           and the drilling of additional wells to prove gas reserves for the proposed
                                                           plant, and will partially fund gas-processing infrastructure.
                                                        • The Aga Khan Fund for Economic Development will partner with a U.S. inde-
                                                           pendent power producer to develop the project.
                                                       OPIC characterized this consortium as an example of the public-private partner-
                                                       ships envisioned by the New Silk Road initiative.356
                                                           Also this quarter, USAID officially transferred to the Afghan government what
                                                       it characterized as a state-of-the-art National Load Control Center at the Tarakhil




                                                        110                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 diesel-fueled power plant. According to USAID, this center will control the entire
 North East Power System and ensure a supply of reliable, affordable energy to
 more than 600,000 residential, commercial, and industrial users.357 At the transfer   SIGAR AUDIT
 ceremony, the United States committed to fund a four-year, on-budget energy
                                                                                       In its audits of U.S. efforts to improve
 program. This $1 billion USAID initiative—the Power Transmission Expansion
                                                                                       Afghan power systems, SIGAR has
 and Connectivity Program—is intended to modernize Afghanistan’s energy
                                                                                       identified the challenges to sustaining
 generation, transmission, and distribution infrastructures. It reflects two new
                                                                                       many of these projects. For details, see
 U.S. reconstruction priorities, according to USAID. The first is to deliver more
                                                                                       SIGAR Audit 10-6, “Contract Delays Led
 funding directly to the Afghan government by channeling assistance through the
                                                                                       to Cost Overruns for the Kabul Power
 national budget, coupled with rigorous capacity development activities to help
                                                                                       Plant and Sustainability Remains a Key
 the national utility and ministries properly manage these funds. The second is to
                                                                                       Challenge”; SIGAR Audit 10-4, “Afghani-
 shift development efforts away from short-term stabilization projects to longer-
                                                                                       stan Energy Supply Has Increased but
 term, sustainable projects—like the Sheberghan natural gas project.358
                                                                                       An Updated Master Plan Is Needed and
    In another energy development, USAID noted that efforts to rehabilitate the
                                                                                       Delays and Sustainability”; and SIGAR
 Kajaki Dam moved forward this quarter, despite security concerns. For example,
                                                                                       Inspection 09-1, “Inspection of Im-
 the deadline to submit bids for the Kajaki substation grading was September 7,
                                                                                       provements to the Khowst City Electrical
 2011. No bids were received because of contractor concerns that security condi-
                                                                                       Power System: Safety and Sustainability
 tions on Route 611 (from Durai to Kajaki) would impede work. The solicitation
                                                                                       Issues Were Not Adequately Addressed”
 is being modified to address this issue, according to USAID. Bids for substation
                                                                                       (available at www.sigar.mil).
 structures and equipment were due on October 10, 2011, while specifications for
 the substation construction are being developed. According to USAID, the princi-
 pal contractor for this project recently completed an inventory of the equipment
 and parts needed to install the long-delayed second turbine unit. Results of this
 inventory were positive, according to USAID, and confirmed that a majority of
 the expected parts and equipment are accounted for and in good condition.359
    This quarter, Chinese state-owned companies continued to make inroads
 into Afghanistan’s natural resource sector. The China National Petroleum Corp.
 won a bid to develop the country’s first oil field. According to media reports,
 the company promised to build a refinery in Afghanistan as part of its winning
 bid.360 As SIGAR has noted in previous quarterly reports, a Chinese state-owned
 consortium of companies has been working to develop the Aynak copper deposit
 since 2009.

 Mining
 To attract private-sector investment, the U.S. Geological Survey (USGS) released
 new reports this quarter that included extensive digital data for 24 mineral areas
 of interest in the country. The most prominent were the large copper and cobalt
 deposits near Kabul, the iron-rich areas in central Afghanistan, the copper and
 gold resources in southern Afghanistan, and the deposits of rare-earth elements
 in Helmand province.361 Field work to study and assess the deposits was con-
 ducted from October 2009 to September 2011 by geologists from the USGS and
 the Task Force for Business and Stability Operations, in cooperation with the
 Afghanistan Geological Survey.362




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         111
ECONOMIC AND SOCIAL DEVELOPMENT




   According to the USGS, the reports relied on hyperspectral analysis, an imag-
ing tool often used in mineral exploration to find new deposits.363 The reports
contain geochemical analyses of rock samples, satellite and airborne remote-
sensing data, airborne geophysical information, and information gleaned from
other analysis techniques.364 The USGS noted that these reports can help inter-
ested parties assess the potential for near-term mining.365 For example, road
access, a common feature in most of the areas, makes them low-risk in terms
of access.366 The reports were designed to be used by the Ministry of Mines to
strengthen the bidding process and the procedures for commercial development
of these deposits.367

Education
Although gains have been made in improving access to education for Afghan chil-
dren, many challenges remain. In July 2011, the World Bank identified more than
14,000 educational institutions in Afghanistan that reach 8 million students. It
noted that enrollment of girls had grown to more than 2.5 million in 2010. Yet the
demand for schools has continued to grow by approximately 700,000 students
annually, and almost half of the school-age population remained out of school.368
   Also in July, the World Bank announced a grant from the ARTF for $50 million
to increase access to education, especially for Afghan girls. The grant, which will
be administered by the Ministry of Education, aims to achieve four goals:369
• Improve learning environments in an additional 2,413 schools.
• Rehabilitate and construct more than 764 school buildings.
• Improve the professional skills of 100,000 teachers, focusing on female
    teachers.
• Provide scholarships for 3,500 female students in teacher training colleges.
   This grant is part of the Education Quality Improvement Program, which is
funded by international donors. According to the World Bank, USAID contrib-
uted more than $22 million to implement the program in 11 provinces.370

Health Services
This quarter, the World Health Organization (WHO) announced that Afghanistan
was “on the brink” of eradicating polio. According to UN reports, Afghan gov-
ernment data shows that 85% of the population now lives in polio-free areas
but that the virus still exists in 13 districts—primarily in high-conflict zones in
the south.371 As of September 2011, according to the UN Assistance Mission in
Afghanistan, 23 cases of polio had been reported for the year—in Kandahar,
Helmand, Farah, and Parwan provinces.372
   The WHO National Surveillance Cell also stated that thousands of Afghan
children were missed in the May and June 2011 polio immunization drives
because anti-government elements refused to allow the campaign to carry
out immunizations.373 This resistance is not a new development: in 2009, three
workers were killed while monitoring the UN polio campaign in the Spin Boldak
district of Kandahar.374



 112               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    On September 17–19, 2011, with the support of the WHO and UNICEF (the
 United Nations Children’s Fund), the Afghan government conducted another
 national immunization campaign. Approximately 55,000 volunteers went from
 house to house administering oral polio vaccine to 7.8 million children. An addi-
 tional campaign was scheduled for the end of October 2011.375
    As of September 30, 2011, USAID had provided $4.4 million to the Ministry of
 Public Health to conduct a comprehensive survey of maternal and child health
 in Afghanistan.376 USAID reported this quarter that when the survey results are
 finalized, they will show progress on several key indicators. It intends to release
 the report by the end of November 2011.377

 Communications
 This quarter, the Afghan Telecommunication Regulatory Authority announced             Private sector–led growth: In Afghanistan,
 plans to upgrade the nation’s telecommunications network to 3G, which will            as in other developing countries, the
 allow operators to offer a wider range of advanced services, including mobile         private sector is key to expanding access
 money, while improving network clarity. The 3G network will also facilitate           to telecommunications technology. A 2010
 smartphone capabilities, such as high data speed, enhanced audio and video            study showed that mobile phone access is
                                                                                       significantly lower in developing countries
 streaming, video conferencing, and high-speed Web and TV broadcast through
                                                                                       where telecommunications is a government-
 the Internet. The closing date for submitting bids for a nationwide license to
                                                                                       run monopoly.
 provide 3G broadband mobile services was October 17, 2011.378
    The TFBSO continued to support the Afghan technology sector by creating            Source: Britni Must, Kathleen Ludewig, and John Erickson,
                                                                                       “Mobile Money: Cell Phone Banking in Developing Countries,”
 the Herat Information Technology Incubator Program. It also set up meetings for       PolicyMatters Journal, Spring 2010, p. 20, accessed
                                                                                       9/18/2011.
 four Afghan IT startups in Silicon Valley and in U.S. cities, and led a reciprocal
 tour of major U.S. technology companies to Afghanistan to explore investment
 opportunities. As a result of that tour, Google and YouTube executives opened
 their first office in Afghanistan.379




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011          113
                Village Elders Hold a Shura
                Defying insurgent threats, prominent elders in the village
                of Chineh held a shura to elect four representatives to the
                Shah Joy district council. The effect of security on gover-
                nance was a major topic of discussion; elders expressed
                their desire to stand together and expel insurgents from the
                district. (ISAF photo)




114   SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
4   OTHER AGENCY
    OVERSIGHT




        115
           OTHER AGENCY OVERSIGHT




   “Really important words. Vertically
aligned visually, centered horizontally.
    Really important words. Vertically
aligned visually, centered horizontally.
    Really important words. Vertically
aligned visually, centered horizontally.
    Really important words. Vertically
aligned visually, centered horizontally.”
                                                        —Person of Interest




           Source: Trusted source Trusted source Trusted source Trusted source Trusted source Trusted source Trusted source Trusted source Trusted
           source Trusted source Trusted source Trusted source




              116                         SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                         OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State and the
Secretary of Defense fully informed about problems relating to the administra-
tion of reconstruction programs and to submit a report on SIGAR’s oversight
work and on the status of the U.S. reconstruction effort to Congress no later than
30 days after the end of each fiscal quarter. Each quarter, SIGAR requests updates
from other agencies on completed and ongoing oversight activities. This section
contains these updates. The descriptions appear as they were submitted, with
these changes for consistency with other sections of this report: acronyms and
abbreviations in place of full names; standardized capitalization, hyphenation,
punctuation, and spellings; and third-person instead of first-person construction.
   These agencies are performing oversight activities in Afghanistan and provid-
ing summaries of the results to SIGAR:
 • Department of Defense Office of Inspector General (DoD OIG)
 • Department of State Office of Inspector General (DoS OIG)
 • Government Accountability Office (GAO)
 • U.S. Army Audit Agency (USAAA)
 • U.S. Agency for International Development Office of Inspector General
   (USAID OIG)

COMPLETED OVERSIGHT ACTIVITIES
Table 4.1 lists the 17 oversight projects related to reconstruction that the partici-
pating agencies reported were completed this quarter.

TABLE 4.1


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2011
Agency           Report Number   Date Issued   Project Title
DoD OIG          D-2011-113      9/30/2011     Improved Pricing and Oversight Needed for the Afghan Air Force Pilot and English-Language Training Task Order
DoD OIG/         D-2011-102      8/25/2011     Afghan National Police Training Program Would Benefit from Better Compliance with the Economy Act and
DoS OIG          AUD/CG-11-44                  Reimbursable Agreements
DoD OIG          D-2011-100      8/16/2011     DoD Bi-Directional Flow Agreements and Adequate Tracking Mechanisms on the Northern Distribution Network
DoD OIG/         D-2011-095      8/15/2011     Afghan National Police Training Program: Lessons Learned During the Transition of Contract Administration
DoS OIG          AUD/CG-11-42
DoD OIG          D-2011-087      7/20/2011     Procurement of High-Mobility, Multipurpose, Wheeled Vehicles and Troop Enclosures for the Afghan National Security
                                               Forces




            REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011                     117
                                                                OTHER AGENCY OVERSIGHT




TABLE 4.1 (CONTINUED)


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2011
Agency              Report Number          Date Issued             Project Title
DoD OIG/            D-2011-080             7/7/2011                DoD and DoS Need Better Procedures To Monitor and Expend DoD Funds for the Afghan National Police
DoS OIG             AUD/CG-11-30                                   Training Program
DoS OIG-MERO        MERO-I-11-12           8/31/2011               DynCorp Operations and Maintenance Support at Camp Falcon in Kabul, Afghanistan
DoS OIG-MERO        MERO-I-11-11           8/31/2011               Limited-Scope Review of Planning for the Civilian Uplift at Embassy Kabul
DoS OIG-MERO        MERO-I-11-10           7/2011                  The Bureau of Population, Refugees, and Migration’s Reintegration Assistance Program for Refugees Returning to
                                                                   Afghanistan, Performance Evaluation
GAO                 GAO-11-907             9/20/2011               Afghanistan Governance: Performance-Data Gaps Hinder Overall Assessment of U.S. Efforts To Build Financial
                                                                   Management Capacity
GAO                 GAO-11-948R            9/20/2011               Afghanistan’s Donor Dependence
GAO                 GAO-11-886             9/16/2011               Iraq and Afghanistan: DoD, State, and USAID Cannot Fully Account for Contracts, Assistance Instruments, and
                                                                   Associated Personnel
GAO                 GAO-11-760             8/2/2011                Iraq and Afghanistan: Actions Needed To Improve the Ability of Army Brigades To Support the Advising Mission
GAO                 GAO-11-715             7/29/2011               DoD Task Force for Business and Stability Operations: Actions Needed To Establish Project Management Guidelines
                                                                   To Enhance Information Sharing
GAO                 GAO-11-710             7/20/2011               Afghanistan: Actions Needed To Improve Accountability of U.S. Assistance to Afghanistan Government
USAID OIG           F-306-11-004-P         9/29/2011               Audit of USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public Health in Support of the
                                                                   Partnership Contracts for Health Program
USAID OIG           F-306-11-005-S         8/31/2011               Review of USAID/Afghanistan’s Afghan Civilian Assistance Program
Sources: DoD OIG, response to SIGAR data call, 9/29/2011; DoS OIG response to SIGAR data call, 9/27/2011; GAO, response to SIGAR data call, 9/27/2011;
USAID OIG, response to SIGAR data call, 9//30/2011.




                                                                U.S. Department of Defense Office of Inspector General
                                                                During this quarter, DoD OIG issued six reports related to Afghanistan recon-
                                                                struction. Three of these reports were issued jointly with DoS OIG.

                                                                Improved Pricing and Oversight Needed for the Afghan Air Force
                                                                Pilot and English-Language Training Task Order
                                                                (Report No. D-2011-113, Issued September 30, 2011)
                                                                The U.S. Army Program Executive Office for Simulation, Training, and
                                                                Instrumentation (PEO STRI) did not obtain fair and reasonable prices on the
                                                                firm-fixed-price task order. This occurred because PEO STRI contracting person-
                                                                nel did not verify that the contractor used personnel from the negotiated labor
                                                                categories to perform the task order. As a result, the Army will pay approxi-
                                                                mately $431,638 in inflated labor costs using Afghan Security Forces funds.
                                                                    PEO STRI officials did not develop complete oversight processes or suf-
                                                                ficiently document procedures for the task order. This occurred because PEO
                                                                STRI officials did not consider including metrics and specific oversight proce-
                                                                dures in the quality assurance surveillance plan because the subcontractor was
                                                                providing a commercial service and they felt sufficient oversight was in place. As
                                                                a result, Army officials have limited assurance that effective contract oversight
                                                                will continue on the task order.




                                                                   118                        SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Afghan National Police Training Program Would Benefit from
Better Compliance with the Economy Act and Reimbursable
Agreements (joint audit)
(Report No. D-2011-102 [DoS AUD/CG-11-44], Issued August 25, 2011)
DoS Bureau of International Narcotics and Law Enforcement Affairs (INL)
officials improperly obligated an estimated $76.65 million of Afghanistan Security
Forces Fund appropriations that DoD provided to support the Afghan National
Police (ANP) training program. Specifically, INL officials obligated an estimated
$75.60 million of funds for two INL rule-of-law programs and one INL counter-
narcotics program and $1.05 million of funds for personal services contracts,
contrary to either Economy Act or reimbursable agreement limitations. This
occurred because DoD did not appropriately monitor INL obligations, and INL
did not have adequate procedures to ensure it obligated funds in accordance
with the Economy Act and reimbursable agreements. As a result, DoD and DoS
might have violated the Antideficiency Act. In addition, the ANP training program
did not receive an estimated $75.60 million of DoD financial support. DoD could
realize a benefit if the funds were returned and put to better use supporting the
ANP training program.

DoD Bi-Directional Flow Agreements and Adequate Tracking
Mechanisms on the Northern Distribution Network
(Report No. D-2011-100, Issued August 16, 2011)
The report results are classified.

Afghan National Police Training Program: Lessons Learned During
the Transition of Contract Administration (joint audit)
(Report No. D-2011-095 [DoS AUD/CG-11-42], Issued August 15, 2011)
DoD and DoS officials did not develop a comprehensive plan or develop a
memorandum of agreement to guide, monitor, and assign transition responsibili-
ties. Instead, officials relied on independently developed contractor plans, some
of which were not feasible and did not address inherently governmental tasks.
This occurred because DoD and DoS lacked guidance for planning a transition of
contract administration responsibilities from one agency to another, which con-
tributed to contractor schedule delays. In addition, DoD officials reported that
the incoming contractor did not have 428 of the 728 required personnel in place
within the 120-day transition period, which placed the overall mission at risk by
not providing the mentoring essential for developing the Afghan government and
police force.
   Further, at the end of the 120-day transition period, DoD did not have the
personnel in place to effectively oversee the new DoD contract. This occurred
because DoD did not establish a program support office until 19 days before the
contract was awarded and did not formalize an agreement for managing over-
sight personnel, communication, and information-sharing between commands.
Until oversight personnel are in place, DoD will be unable to adequately monitor



         REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011     119
OTHER AGENCY OVERSIGHT




whether the contractor is performing its contractual obligations and achieving
the goals of the program.
   DoD OIG commended DoD for taking some corrective action in response
to a memorandum that DoD OIG issued during the audit. The corrective action
included developing strategies for hiring and contractor oversight and proce-
dures for approving purchase requests and vouchers. DoD also increased the
number of oversight personnel for the new DoD contract.

Procurement of High-Mobility, Multipurpose, Wheeled Vehicles and
Troop Enclosures for the Afghan National Security Forces
(Report No. D-2011-087, Issued July 20, 2011)
The audit was announced, in part, due to a concern of the Afghanistan Deputy
Commander for Programs, North Atlantic Treaty Organization Training Mission
- Afghanistan (NTM-A)/Combined Security Transition Command - Afghanistan
(CSTC-A). He expressed to DoD OIG that the procurement of M1152 high-mobil-
ity, multipurpose, wheeled vehicles (HMMWVs) with troop enclosures would
not meet required delivery dates for the ANSF. M1152 HMMWVs are armored
vehicles that can be fitted with an armored troop enclosure kit. NTM-A/CSTC-A
officials stated that the troop enclosure equips the vehicle with an armored
compartment to protect ANSF troops and to support troop movement during
operations and battle. In conducting the review of HMMWVs with troop enclo-
sure deliveries, DoD OIG determined that the Army took appropriate steps to
accelerate the delivery of HMMWVs with troop enclosures to the satisfaction of
NTM-A/CSTC-A officials. As of May 31, 2011, the contractor met or exceeded the
delivery schedules for HMMWVs and troop enclosures procured from contract
WS6HZV-I 0-C-040S.

DoD and DoS Need Better Procedures To Monitor and Expend DoD
Funds for the Afghan National Police Training Program (joint audit)
(Report No. D-2011-080 [DoS AUD/CG-11-30], Issued July 7, 2011)
DoS officials did not appropriately obligate or return to DoD approximately
$172.40 million of approximately $1.26 billion of DoD funds provided for the
ANP training program. This occurred because DoS lacked adequate procedures
for obligating, monitoring, and de-obligating DoD funds for the ANP training
program. Moreover, DoD officials did not validate whether INL officials obligated
funds in accordance with the reimbursable agreements. In addition, the DoS
contracting officer’s representative approved contractor invoices for payment for
approximately $2.07 million that either were not authorized or were for services
not provided. This occurred because DoS officials did not always perform a
detailed review of invoices before payment and relied on a post-payment review
of invoices to identify overpayments and obtain refunds from the contractor. As
a result, DoD OIG identified total potential monetary benefits of approximately
$124.62 million. When recovered, these funds could be used for valid ANP
training program requirements or other DoD requirements. In addition, if not




  120                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




corrected, incorrect obligations of approximately $74.91 million could result in
potential Antideficiency Act violations. DoD and DoS needed to take action on
11 of the 23 recommendations made in the 2010 joint audit report. Of those 11
recommendations, DoD OIG replaced 7 with new recommendations. The other 4
remain open or were reissued.

U.S. Department of State Office of Inspector General–Middle East
Regional Office
During this quarter, DoS OIG issued six reports related to Afghanistan
reconstruction. Three of these reports were issued jointly with DoD OIG.
For summaries of the joint reports, see the subsection for DoD OIG under
“Completed Oversight Activities.”

DynCorp Operations and Maintenance Support at Camp Falcon
in Kabul, Afghanistan
(Report No. MERO-I-11-12, Issued August 31, 2011)
In general, DynCorp adequately operated and maintained Camp Falcon sys-
tems and appropriately controlled and inventoried U.S. government−furnished
property. However, DoS OIG found weaknesses in DynCorp’s invoicing for
food service, fuel operations, and the static guard force. In addition, the two
in-country contracting officer’s representatives (ICORs) had difficulty fulfilling
their contract oversight responsibilities. INL approved DynCorp invoices that
included overcharges totaling $157,000 for meals provided by DynCorp’s subcon-
tractor from November 2009 through January 2010. DynCorp relied on the fuel
vendor’s measurement of the diesel fuel pumped into the fuel tanks, so it could
not verify the camp was receiving the correct amount of fuel. Also, DynCorp did
not maintain fuel consumption records, which could potentially lead to fraud.
The static guard force provided security for the camp’s tenants, but DynCorp had
not complied with task order requirements to verify the guards’ English-language
proficiency or to limit the guards’ work hours. Because they were responsible for
14 programs, the two INL ICORs had difficulty fulfilling their oversight respon-
sibilities, including maintaining contract files. DoS OIG made recommendations
related to fuel operations and the guard force, and also recommended seeking
reimbursement for meal overcharges and reviewing past food service invoices
for further overcharges.

Limited-Scope Review of Planning for the Civilian Uplift
at Embassy Kabul
(Report No. MERO-I-11-11, Issued August 31, 2011)
DoS, including the U.S. Embassy Kabul, led the inter-agency effort and ade-
quately assessed the staffing positions needed to address the administration’s
goals and handle the civilian uplift in Afghanistan. The rapid influx of personnel,
coupled with the Embassy’s decisions not to deny staffing requests because of a
lack of office facilities and housing, initially resulted in insufficient working and



         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011           121
OTHER AGENCY OVERSIGHT




living space at both the Embassy and the regional posts in Mazar-e Sharif and
Herat, which negatively impacted staff productivity and morale. Additional tem-
porary housing delivered in 2010 and 2011 alleviated the situation, and ongoing
construction of permanent housing and office space should provide an addi-
tional 613 beds and 1,219 desks by 2015. At the time of DoS OIG’s review, staff
at Mazar-e Sharif and Herat reported insufficient numbers of vehicles to conduct
work in self-drive zones, as well as a need for additional interpreters. Because
the Embassy took action to address these issues during the review, the report did
not contain recommendations.

The Bureau of Population, Refugees, and Migration’s Reintegration
Assistance Program for Refugees Returning to Afghanistan,
Performance Evaluation
(Report No. MERO-I-11-10, July 2011)
DoS, through its implementing partners, the United Nations High Commissioner
for Refugees (UNHCR) and non-governmental organizations (NGOs), was
generally effective in providing reintegration services to returning Afghan
refugees. The Bureau of Population, Refugees, and Migration (PRM) also filled
gaps in assistance through grants. However, DoS OIG found challenges within
the Afghan government to developing long-term solutions for returning refu-
gees. In addition, the government’s land allocation scheme was mismanaged
and largely ineffectual in providing returnees with land capable of sustaining
a basic livelihood. The UNHCR had withdrawn its support of the program and
was instead directly assisting returnees, as was the PRM through its grants
program. Although there were mechanisms to monitor the delivery of assistance
to returning refugees, the unstable security environment restricted access to
approximately half of the country. Thus, the PRM and the UNHCR often relied
on third parties, such as Provincial Reconstruction Teams, to assess and report
on returnee assistance. However, these teams were inconsistently conducting
assessments and reporting information back to the PRM and the UNHCR.

Government Accountability Office
During the last quarter, the GAO issued six reports related to Afghanistan
reconstruction.

Afghanistan Governance: Performance-Data Gaps Hinder Overall
Assessment of U.S. Efforts To Build Financial Management
Capacity
(Report No. GAO-11-907, Issued September 20, 2011)
USAID, Treasury, and DoD support Afghanistan’s Public Financial Management
Roadmap (Roadmap) goals through various activities such as (1) USAID projects
that provide technical assistance and training to Afghan civil servants,
(2) Treasury advisers’ assistance to the Ministry of Finance (MoF), and (3) DoD’s
Combined Security Transition Command-Afghanistan (CSTC-A) that provides



  122               SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                     OTHER AGENCY OVERSIGHT




support to the Ministries of Defense (MoD) and Interior (MoI). GAO found that
these efforts are aligned with the Roadmap goals. However, the overall extent
to which U.S. efforts have improved the public financial management capacity
of the Afghan government cannot be fully determined because (1) U.S. agen-
cies have reported mixed results, and (2) weaknesses in USAID’s performance
management frameworks prevent reliable assessments of its results. USAID’s
evaluations of its two public financial management projects indicate that some
activities were successfully completed, while others were terminated because
these activities were not deemed useful. Additionally, CSTC-A assessed that
while MoD has made progress since 2008, MoI still needs significant interna-
tional support. Regarding deficiencies in USAID’s performance management
framework, both the USAID Mission performance management plan and
project-specific plans lack performance targets as required for each indicator
related to public financial management. Moreover, baselines for public financial
management capacity of civilian ministries have not yet been established. GAO
recommends that the USAID Administrator take steps to (1) establish perfor-
mance targets in its Mission Performance Management Plan (PMP); (2) ensure
implementing partners’ PMPs include baselines and approved targets; and
(3) ensure implementing partners routinely report performance data. USAID
concurred with GAO recommendations and is taking steps to address them.

Afghanistan’s Donor Dependence
(Report No. GAO-11-948R, Issued September 20, 2011)
The United States has allocated over $72 billion to secure, stabilize, and rebuild
Afghanistan since 2002, and the President requested over $18 billion for these
purposes for fiscal year 2012. GAO has on numerous occasions raised doubts
about the Government of the Islamic Republic of Afghanistan’s (GIRoA) ability
to fund its public expenditures—funds spent to provide public services to the
Afghan population, such as security, infrastructure projects, and government sal-
aries. For example, in 2005, GAO reported that Afghanistan had limited resources
and recommended that the Secretaries of State and Defense develop plans for
funding the Afghan National Security Forces (ANSF). In 2008, the Congress also
mandated that DoD provide a long-term plan for sustaining the ANSF, including
future funding requirements. GAO has also raised concerns about Afghanistan’s
inability to fund planned government expenditures without foreign assistance
and raised questions about the sustainability of U.S.-funded efforts to build
and enhance Afghanistan’s road, agriculture, and water infrastructures. In this
report, GAO found that (1) Afghanistan’s estimated total public expenditures
more than doubled from solar year (SY) 2006 to 2010, growing from $5.5 billion
to $14.3 billion, an increase of 160%. (2) The United States and other donors
funded about 90% of Afghanistan’s estimated total public expenditures from
SY 2006 to 2010. Over this period, the United States provided 62% of estimated
total public expenditures, while other donors provided 28%. The United States
funded an estimated 90% of Afghanistan’s total security expenditures during this
time period. (3) The domestic revenues of GIRoA grew by an average annual rate



        REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011        123
OTHER AGENCY OVERSIGHT




of 30% from SY 2006 to 2010, increasing from an estimated total of $0.62 billion to
$1.66 billion. However, domestic revenues funded only about 9% of Afghanistan’s
estimated total public expenditures from SY 2006 to 2010.

Iraq and Afghanistan: DoD, State, and USAID Cannot Fully Account
for Contracts, Assistance Instruments, and Associated Personnel
(Report No. GAO-11-886, Issued September 16, 2011)
DoD, DoS, and USAID designated SPOT as their system in 2010 for tracking
statutorily required information on contracts, assistance instruments, and associ-
ated personnel in Iraq and Afghanistan. However, GAO found that regardless
of the data source used, the agencies’ data had significant limitations, many of
which were not fully disclosed. For example, while the agencies collectively
reported $22.7 billion in fiscal year 2010 obligations, GAO found that they under-
reported the value of Iraq and Afghanistan contracts and assistance instruments
by at least $4 billion, the majority of which was for DoD contracts. Agency
officials cited instances of using SPOT to help identify contractors that should be
billed for the use of government services, including medical treatment and dining
facilities. DoS and DoD officials also identified instances of using SPOT to help
inform operational planning, such as preparing for the drawdown of U.S. forces
in Iraq. However, officials from the three agencies indicated that shortcomings
in data and reporting capabilities have limited their use of SPOT and, in some
cases, led them to rely on other data systems to help manage and oversee con-
tracts and assistance instruments. Also, while SPOT has the capability to record
when personnel have been killed or wounded, such information has not been
regularly updated. It is unclear when SPOT will serve as a reliable source of data
to meet statutory requirements and be used by the agencies for management,
oversight, and coordination. In 2009, GAO recommended that DoD, DoS, and
USAID develop a plan for addressing SPOT’s limitations. The agencies disagreed,
citing ongoing coordination as sufficient. GAO continues to believe such a plan is
needed and is not making new recommendations.

Iraq and Afghanistan: Actions Needed To Improve the Ability of
Army Brigades To Support the Advising Mission
(Report No. GAO-11-760, Issued August 2, 2011)
The Army has deployed augmented brigade combat teams (BCTs) in response
to theater commanders’ requests, but units have faced some challenges because
commanders did not always set clear priorities between the advising mission and
other missions or define specific requirements for how the BCTs should sup-
port the advising mission. The use of augmented BCTs has decreased the total
number of advisor personnel required for the advising mission but increased
requirements for field grade officers, already in short supply. According to Army
officials, as a result of these shortages, the Army has faced challenges meet-
ing the requirement to provide field-grade advisors at least 45 days prior to the
brigades’ mission-rehearsal exercise. In many cases, advisors did not join the




  124               SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




brigades until after the exercise, hindering their integration into the BCTs and
complicating efforts to establish support and command structures. The GAO
recommends that theater commands assess and refine, as appropriate, advisor
requirements and define advisor support and command structures. The GAO also
recommends that the Army provide certain advisor personnel to brigades earlier
in pre-deployment training. DoD concurred with the recommendations.

DoD Task Force for Business and Stability Operations: Actions
Needed To Establish Project Management Guidelines To Enhance
Information Sharing
(Report No. GAO-11-715, Issued July 29, 2011)
As of June 2011, DoD, DoS, and USAID officials were discussing options for
transitioning Task Force activities and preparing a response to the fiscal year
2011 National Defense Authorization Act requirements. Based on interviews with
senior officials and a review of available data, the GAO identified five factors to
consider in planning for any transition of Task Force activities to USAID, which
generally relate to how these agencies conduct their respective activities. First,
although both the Task Force and USAID work to promote economic develop-
ment, they generally take different approaches. Second, as part of DoD, Task
Force employees are not subject to the same movement restrictions as USAID
employees and have greater flexibility to visit project sites and access to military
assets. Third, funding and staffing plans would need to be developed. Fourth,
while both agencies facilitate private sector investment, the nature and focus
of their interactions with investors differ. Last, the timing of a transition and
impact on U.S. objectives will need to be considered. While DoD and the Task
Force have provided high-level direction for Task Force activities, the Task
Force has not developed written project management guidance to be used by its
personnel in managing Task Force projects. The GAO recommends that the Task
Force develop written project management guidance and that DoD, DoS, and
USAID develop an approach to integrate the Task Force into information-sharing
mechanisms. DoD partially concurred with the first recommendation. The three
agencies generally concurred with the second.

Afghanistan: Actions Needed To Improve Accountability of
U.S. Assistance to Afghanistan Government
(Report No. GAO-11-710, Issued July 20, 2011)
USAID and DoD have taken steps to help ensure the accountability of their
bilateral direct assistance to Afghan ministries, but USAID has not required
risk assessments in all cases before awarding these funds. DoD personnel in
Afghanistan assess the risk of providing funds to two security ministries through
quarterly reviews of each ministry’s capacity. USAID and DoD generally rely on
the World Bank and the United Nations Development Programme (UNDP) to
ensure accountability over U.S. direct assistance provided multilaterally through
the Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order Trust




         REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011         125
OTHER AGENCY OVERSIGHT




Fund for Afghanistan (LOTFA), but USAID has not consistently complied with
its risk assessment policies in awarding funds to the ARTF. During the GAO’s
review, DoD established procedures in June 2011 requiring that it assess risks
before contributing funds to the LOTFA. The World Bank and UNDP use ARTF
and LOTFA monitoring agents to help ensure that ministries use contributions
as intended. However, security conditions and weaknesses in Afghan ministries
pose challenges to their oversight. The GAO recommended that USAID (1) estab-
lish and implement policy requiring risk assessments in all cases before awarding
bilateral direct assistance funds, (2) take additional steps to help ensure it
implements controls for bilateral direct assistance, and (3) ensure adherence to
its risk assessment policies for ARTF. In commenting on the first recommenda-
tion, USAID stated that its existing policies call for some form of risk assessment
for all awards and that it has taken new steps to ensure risk assessment. GAO
retained its recommendation because existing USAID policies do not require
pre-award risk assessments in all cases. USAID concurred with the GAO’s other
recommendations.

U.S. Army Audit Agency
The U.S. Army Audit Agency reported completing no new audits related to
Afghanistan reconstruction this quarter.

U.S. Agency for International Development Office
of Inspector General
During the last quarter, USAID OIG issued two reports related to Afghanistan
reconstruction.

Review of USAID/Afghanistan’s Afghan Civilian
Assistance Program
(Report No. F-306-11-005-S, Issued August 31, 2011)
USAID OIG conducted this review to follow up on indications of waste and fraud
reported in a final program evaluation commissioned by USAID/Afghanistan. The
final report includes the following issues:
 • International Organization for Migration (IOM) warehouses in Kabul and
    Lashkar Gah were badly infested with rodents. There were inadequate
    warehouse procedures in place to control inventory, and food was stored in
    unhygienic conditions.
 • Commodities were improperly stored outside of warehouses, where they
    were easily damaged by weather.
 • Only 44% of the beneficiaries selected for assistance have received assis-
    tance, and IOM has only “closed out” (verified and accounted for) 28% of the
    grants to beneficiaries since the program began.
 • According to an NGO hired by IOM to review its shelter program, the ben-
    eficiaries of grants totaling $1.4 million in Helmand province could not be
    found. The NGO considered this to be evidence of fraud.



  126                SPECIAL INSPECTOR GENERAL   I    AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




• IOM purchased used vehicles valued at $3.4 million without authorization
  from USAID.
• A USAID field program officer discovered a fraud scheme involving embez-
  zlement of about $180,000 in USAID funds. Instead of returning the funds to
  USAID, the responsible IOM individuals returned the funds to a local shura,
  which reportedly distributed it to villagers. According to the USAID field
  program officer, some of these villagers did not qualify for assistance under
  the Afghan Civilian Assistance Porgram.
The report included seven recommendations to address these issues.

Audit of USAID/Afghanistan’s On-Budget Funding Assistance
to the Ministry of Public Health in Support of the Partnership
Contracts for Health Program
(Report No. F-306-11-004-P, Issued September 29, 2011)
USAID OIG conducted this audit to determine whether the Ministry of Public
Health (MoPH), with USAID/Afghanistan’s assistance, was implementing stan-
dardized packages of health services that contribute to meeting Afghanistan’s
national health objectives.
   Auditors found evidence that the Partnership Contracts for Health (PCH)
program has contributed to meeting Afghanistan’s national health objectives.
However, measurement of the magnitude of USAID’s contribution to the national
objectives could be made only indirectly using proxy indicators because no
current demographic information or health statistics were available to measure
health outcomes directly.
   Although the PCH program has made significant accomplishments, such as
increasing access to health facilities, certain elements of the program could be
strengthened in order to ensure continued success. The final report includes the
following issues:
 • Quality problems observed in health facilities. Auditors found varying qual-
    ity problems at all 11 health facilities visited. For example, old equipment
    needed repair, drugs and medical supplies were in short supply, doctors and
    staff were overwhelmed with serving a population up to twice the capacity
    of their facilities, facilities were crowded, buildings needed repair or reno-
    vation, staff lacked training, and controls over patient records and activity
    reports were weak.
 • Accurate data needed to measure program progress and outcomes. Audit
    testing of the activity reports revealed several instances where supporting
    documentation was lacking, as well as reporting of incorrect information.
 • Building capacity within the ministry was delayed. To date, no functions have
    been transferred from PCH program consultants to permanent MoPH staff.
 • Absence of a cost-effectiveness analysis on donor-supported health care
    activities. The mission has not completed an analysis to compare the cost-
    effectiveness of health care delivery by the major donors.




         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2011      127
                                      OTHER AGENCY OVERSIGHT




                                      • A cumbersome process delayed payments. The Afghan government’s pay-
                                        ment process (cash advance and liquidation) across MoPH and the Ministry
                                        of Finance was a continuously changing, cumbersome ordeal, requiring lay-
                                        ers of redundant review and up to 34 signatures per request.
                                      • Program management needs to be tightened. The mission lacked a formal
                                        mission order outlining duties and responsibilities among offices.
                                      • Program lacked an approved performance management plan. The PCH pro-
                                        gram did not yet have an approved performance management plan, almost
                                        three years after the implementation letter was countersigned.
                                      • “Afghan Info” performance information is not accurate or complete. Audit
                                        testing revealed discrepancies with performance information reported for 9
                                        of the 10 indicators reported in Afghan Info.
                                      The report included 13 recommendations to address these issues.

                                      ONGOING OVERSIGHT ACTIVITIES
                                      As of September 30, 2011, the participating agencies reported 32 ongoing over-
                                      sight activities related to reconstruction in Afghanistan. The activities reported
                                      are listed in Table 4.2 and described in the following sections by agency.

                                      Department of Defense Office of Inspector General
                                      DoD continues to face many challenges in executing its Overseas Contingency
                                      Operations (OCO). DoD OIG has identified priorities based on those challenges
                                      and high risks and has responded by expanding its coverage of OCO operations
                                      and its presence in Southwest Asia. Matching DoD’s current Southwest Asia
                                      operational tempo and focus, the DoD OIG primary oversight focus is operations
                                      in Afghanistan while maintaining the necessary oversight in Iraq and its remain-
                                      ing operations.
                                         The DoD OIG–led Southwest Asia Joint Planning Group coordinates and
                                      deconflicts federal and DoD OCO−related oversight activities.
                                         DoD OIG’s ongoing Operation Enduring Freedom (OEF)–related oversight
                                      addresses the safety of personnel with regard to construction efforts, force
                                      protection programs for U.S. personnel, accountability of property, improper
                                      payments, contract administration, distribution and reconciliation of funds for
                                      the Afghan National Army (ANA) payroll, oversight of the contract for training


TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2011
Agency        Project Number          Date Initiated   Project Title
DoD OIG       D2011-D000AS-0271.000   8/12/2011        Afghan National Police Mentoring/Training and Logistics Support Contract
DoD OIG       D2011-D000AT-0246.000   7/12/2011        Adequacy of Controls Over Small-Arms Contracts for the Afghan National Security Forces
DoD OIG       D2011-D000JA-0240.000   6/15/2011        Management of Pharmaceuticals Within the Afghan National Security Forces Health System
DoD OIG       D2011-D00SPO-0234.000   5/20/2011        Assessment of U.S. and Coalition Plans to Train, Equip, and Field the Afghan Air Force




                                         128              SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                               OTHER AGENCY OVERSIGHT




TABLE 4.2 (CONTINUED)


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF SEPTEMBER 30, 2011
Agency                   Project Number                         Date Initiated              Project Title
DoD OIG                  D2011-D000AT-0222.000                  4/29/2011                   Development of Individual Equipment Requirements for the Afghan National Army
DoD OIG                  D2011-D000AT-0221.000                  4/26/2011                   Accountability for Night-Vision Devices Procured for the Afghan National Security Forces
DoD OIG                  D2011-D000FD-0121.000                  3/30/2011                   Fees and Surcharges on Intragovernmental Orders Funded by Afghanistan Security Forces
                                                                                            Fund Appropriations
DoD OIG                  D2011-D00SPO-0172.000                  2/14/2011                   Development of Afghan National Army Logistics Capability
DoD OIG                  D2011-D000JO-0137.000                  1/18/2011                   Facilities Management Training Provided Under the National Operations and Maintenance
                                                                                            Contracts in Afghanistan
DoD OIG                  D2011-D000FR-0089.000                  11/30/2010                  Internal Controls Over Distribution and Reconciliation of Funds for the Afghanistan National
                                                                                            Army Payroll
DoD OIG                  D2011-D000JB-0068.000                  11/17/2010                  Requirements Development Process for Military Construction Projects in Afghanistan
DoD OIG                  D2011-D000AS-0030.000                  10/1/2010                   Management and Oversight for DoD Acquisition and Support of Non-Standard
                                                                                            Rotary-Wing Aircraft
DoD OIG                  D2010-D000FL-0276.000                  9/2/2010                    Controls Over the Reporting and Propriety of Commander’s Emergency Response Program
                                                                                            Payments in Afghanistan
DoD OIG                  D2010-D000JO-0229.000                  6/14/2010                   Construction of the Detention Facility in Parwan, Afghanistan
DoD OIG                  D2009-D00SPO-0115.000                  12/17/2008                  U.S. and Coalition Efforts To Develop the Medical Sustainment Capability of the Afghan
                                                                                            National Security Forces
DoS OIG-MERO             11-MERO-3013                           1/2011                      Performance Evaluation of the Bureau of International Narcotics and Law Enforcement Affairs’
                                                                                            Justice Sector Support Program for the Attorney General’s Anti-Corruption Unit in Afghanistan
GAO                      320860                                 Not Provided                Use of U.S. Government Personnel or Contractors To Train the Afghan National Police
GAO                      320856                                 9/2011                      Afghanistan Security Transition
GAO                      351613                                 7/2011                      Fuel Use in Afghanistan
GAO                      320850                                 7/2011                      Cost To Sustain ANSF
GAO                      120976                                 3/31/2011                   Department of State Contracting for Conflict Countries
GAO                      351603                                 3/1/2011                    Intelligence, Surveillance, and Reconnaissance (ISR) Collection and Tasking Management
GAO                      320851                                 2/20/2011                   U.S. and International Programs To Screen and Conduct Afghan Security Personnel
                                                                                            and Recruits
GAO                      351616                                 2/20/2011                   DoD Oversight of Private Security Contractors in Afghanistan
GAO                      320766                                 5/3/2010                    U.S. Civilian Presence in Afghanistan
GAO                      351492                                 4/30/2010                   Afghanistan Logistics Support
USAAA                    A-2011-ALL-0342.000                    2Q/FY11                     Commander’s Emergency Response Program−Afghanistan
USAID OIG                FF100411                               9/18/2011                   Audit of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North, East, and
                                                                                            West Program
USAID OIG                FF101611                               7/21/2011                   Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project
USAID OIG                FF101711                               6/19/2011                   Review of Responses to Internal Audit Findings of the Local Governance and Community
                                                                                            Development (LGCD) Program
USAID OIG                FF100711                               6/15/2011                   Audit of Internal Controls over the Separate Maintenance Allowance at USAID/Afghanistan
USAID OIG                FF100511                               3/5/2011                    Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative – Southern Region
Sources: DoD OIG, response to SIGAR data call, 9/29/2011; DoS OIG, response to SIGAR data call, 9/27/2011; GAO, response to SIGAR data call, 9/27/2011; USAAA, response to SIGAR data call,
9/23/2011; USAID OIG, response to SIGAR data call, 9/30/2011.




            REPORT TO THE UNITED STATES CONGRESS                      I   OCTOBER 30, 2011                           129
OTHER AGENCY OVERSIGHT




the Afghan police, logistical distribution within Afghanistan, health care, armor-
ing capabilities, and acquisition planning and controls over funding for the
Afghan National Security Forces (ANSF).
   For the fourth quarter of FY 2011, DoD OIG had 34 ongoing oversight activi-
ties. Of those 34 ongoing projects, 15 relate to reconstruction in Afghanistan and
are incorporated in this quarterly report.

Afghan National Police Mentoring/Training and Logistics
Support Contract
(Project No. D2011-D000AS-0271.000, Initiated August 12, 2011)
The audit will be the first in a series of audits on the ANP Mentoring/Training
and Logistics Support contract. The DoD OIG overall objective for the series
of audits is to determine whether DoD officials are using appropriate contract-
ing processes to satisfy mission requirements and are conducting appropriate
oversight of the contract in accordance with federal and DoD policies. For this
audit, DoD OIG will determine whether the Army is appropriately administering
the ANP Mentoring/Training and Logistics Support contract in accordance with
federal and DoD guidance. DoD OIG began this project during the fourth quarter
of FY 2011.

Adequacy of Controls Over Small-Arms Contracts for the
Afghan National Security Forces
(Project No. D2011-D000AT-0246.000, Initiated July 12, 2011)
DoD OIG is evaluating the contract award, pricing, and quality assurance pro-
visions for small arms, to include accessories and spare parts, acquired using
Afghanistan Security Forces Funds. Specifically, DoD OIG will determine
whether the contract processes were in accordance with applicable acquisition
regulations. DoD OIG began this project during the fourth quarter of FY 2011.

Management of Pharmaceuticals Within the Afghan National
Security Forces Health System
(Project No. D2011-D000JA-0240.000, Initiated July 15, 2011)
DoD OIG is determining the effectiveness of pharmaceutical distribution within
the Afghanistan National Security Forces health care system. Specifically, DoD
OIG will evaluate the procurement, delivery, and inventory control processes for
pharmaceuticals at ANSF medical facilities and depots.

Assessment of U.S. and Coalition Plans To Train, Equip, and Field
the Afghan Air Force
(Project No. D2011-D00SP0-0234.000, Initiated May 20, 2011)
DoD OIG is determining whether U.S. government and coalition forces goals,
objectives, plans, and guidance to train, equip, and field a viable and sustainable
Afghan Air Force are prepared, issued, operative, and relevant.




  130                SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Development of Individual Equipment Requirements for the
Afghan National Army
(Project No. D2011-D000AT-0222.000, Initiated April 29, 2011)
DoD OIG is determining whether the development process for ANA individual
equipment requirements was adequate. Specifically, DoD OIG will determine the
adequacy of the acquisition, sustainment, and training requirements established
for individual equipment items for the ANA.

Accountability for Night-Vision Devices Procured for the
Afghan National Security Forces
(Project No. D2011-D000AT-0221.000, Initiated April 26, 2011)
DoD OIG is evaluating the accountability for night-vision devices and associated
spare parts procured for the ANSF.

Fees and Surcharges on Intragovernmental Orders Funded by
Afghanistan Security Forces Fund Appropriations
(Project No. D2011-D000FD-0121.000, Initiated March 30, 2011)
DoD OIG is determining what fees and surcharges DoD Components charge on
intragovernmental orders funded by Afghanistan Security Forces Fund appro-
priations. DoD OIG will also evaluate whether the cost data exists to support
those charges.

Development of Afghan National Army Logistics Capability
(Project No. D2011-D00SPO-0172.000, Initiated February 14, 2011)
DoD OIG is determining whether planning and operational implementation of
efforts by U.S./coalition forces to train, advise, and assist in the development
of an enduring logistics sustainability capability for the ANA is effective. This
includes evaluating output/outcome in ANA logistical and operational organiza-
tions resulting from U.S./coalition involvement in developing Ministry of Defense
(MoD)/ANA logistics support processes. In addition, DoD OIG will determine
whether plans, training, preparation, and designated missions of International
Security Assistance Force (ISAF)/U.S. Forces – Afghanistan (USFOR-A), NTM-A/
CSTC-A, and ISAF Joint Command to train, advise, and assist in the develop-
ment of an enduring logistics sustainability capability for the ANA are integrated
across all levels of U.S./coalition commands/staffs, as well as with the MoD, and
address ANA operational needs.

Facilities Management Training Provided Under the National
Operations and Maintenance Contracts in Afghanistan
(Project No. D2011-D000JO-0137.000, Initiated January 18, 2011)
DoD OIG is determining whether the vocational training provided under the
National Operations and Maintenance contracts is effective in developing the
infrastructure maintenance capabilities of the ANSF.




         REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011     131
OTHER AGENCY OVERSIGHT




Internal Controls Over Distribution and Reconciliation of Funds
for the Afghanistan National Army Payroll
(Project No. D2011-D000FR-0089.000, Initiated November 30, 2010)
DoD OIG is determining whether adequate controls are in place to ensure that
NTM-A/CSTC-A is distributing DoD funds accurately and timely to the Afghan
ministries for the ANA payroll. In addition, DoD OIG is determining whether
NTM-A/CSTC-A has implemented an adequate mentoring process to assist
Afghan ministries in providing accurate payments to ANA personnel.

Requirements Development Process for Military Construction
Projects in Afghanistan
(Project No. D2011-D000JB-0068.000, Initiated November 17, 2010)
DoD OIG is evaluating the requirements development process for military con-
struction projects in Afghanistan. Specifically, DoD OIG is determining whether
the requirements development process results in statements of work that clearly
define required results, has measurable outcomes, and meets DoD needs.

Management and Oversight for DoD Acquisition and Support of
Non-Standard Rotary-Wing Aircraft
(Project No. D2011-D000AS-0030.000, Initiated October 1, 2010)
DoD OIG is determining whether DoD officials properly and effectively managed
the acquisition and support of non-standard rotary-wing aircraft, such as the
Russian Mi-17 aircraft, to include those acquired using the Afghanistan Security
Forces Fund or any DoD-related requirements. Multiple projects may be initiated
under this objective.

Controls Over the Reporting and Propriety of Commander’s
Emergency Response Program Payments in Afghanistan
(Project No. D2010-D000FL-0276.000, Initiated September 2, 2010)
DoD OIG is determining whether the internal controls over Commander’s
Emergency Response Program (CERP) payments made to support operations
in Afghanistan are adequate. Specifically, DoD OIG will review the controls to
ensure payments are proper and that complete, accurate, and meaningful data
is reported to those decision-makers responsible for managing the CERP. This
audit is the second in a series of audits addressing the internal controls over the
CERP payments made to support operations in Afghanistan.

Construction of the Detention Facility in Parwan, Afghanistan
(Project No. D2010-D000JO-0229.000, Initiated June 14, 2010)
DoD OIG is determining whether the U.S. Army Corps of Engineers (USACE)
and USFOR-A procured construction services and administered the construc-
tion contract for the Detention Facility in Parwan, Afghanistan, in accordance
with the Federal Acquisition Regulation and other applicable laws and




  132                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




regulations. Specifically, DoD OIG will determine whether the U.S. Army Corps
of Engineers (USACE) properly monitored contractor performance during con-
struction of the Detention Facility in Parwan and whether USACE has taken or
should take recourse against the contractor because of potential latent defects,
negligence, or fraud.

U.S. and Coalition Efforts To Develop the Medical Sustainment
Capability of the Afghan National Security Forces
(Project No. D2009-D00SPO-0115.000, Initiated December, 17, 2008)
DoD OIG is determining whether U.S. government, coalition, and Afghan MoD
and MoI goals, objectives, plans, and guidance to develop and sustain the current
and projected ANSF health care system are issued and operative.

Department of State Office of Inspector General–
Middle East Regional Office
Performance Evaluation of the Bureau of International Narcotics
and Law Enforcement Affairs’ Justice Sector Support Program for
the Attorney General’s Anti-Corruption Unit in Afghanistan
(Project No. 11-MERO-3013, Initiated January 2011)
OIG is evaluating the Justice Sector Support Program (JSSP), which facilitates
justice sector reform through assistance to the Attorney General’s Anti-
Corruption Unit. The objectives of the evaluation are to determine (1) to what
extent DoS’s anti-corruption mentoring and JSSP assistance have achieved their
objectives and the impediments, (2) the amount of funding DoS has obligated
and expended, (3) how DoS ensures that costs are properly allocated and sup-
ported, and (4) the effectiveness of the U.S. Embassy Kabul in managing and
overseeing the JSSP.

Government Accountability Office
Use of U.S. Government Personnel or Contractors To Train the
Afghan National Police
(Project No. 320866)
This review will examine (1) what are the roles and responsibilities of contrac-
tors and U.S. government personnel, and how are the responsibilities divided
between the two groups? (2) what are the advantages and disadvantages of using
contractors or U.S. government personnel?

Afghanistan Security Transition
(Project No. 320856, Initiated September 2011)
This review will examine (1) what progress has been made in achieving the
conditions to transition security responsibility to the Afghan National Security



         REPORT TO THE UNITED STATES CONGRESS    I   OCTOBER 30, 2011       133
OTHER AGENCY OVERSIGHT




Forces (ANSF) and security ministries? (2) To what extent does the transition
rely on U.S. military support? (3) To what extent are the transition and draw-
down of U.S. troops in Afghanistan reflected in DoD’s budget requests, including
for FY 2012? (4) What are the U.S. plans and estimated resources needed to
sustain the ANSF?

Fuel Use in Afghanistan
(Project No. 351613, Initiated July 2011)
This review will examine (1) to what extent has DoD established a viable
approach to provide visibility and accountability for fuel demand management in
Afghanistan? (2) What initiatives does DoD have under way to promote fuel effi-
ciency across services in Afghanistan, and what are the related challenges? (3) To
what extent are these efforts being coordinated across services? (4) To what extent
does DoD currently measure or have plans in place to measure the results of its
energy-efficiency efforts in Afghanistan?

Cost To Sustain ANSF
(Project No. 320850, Initiated July 2011)
This review will examine (1) to what extent do U.S. and donor contributions
fund total expenditures in Afghanistan? (2) To what extent do budget projections
provide a complete and reliable forecast of Afghanistan’s fiscal sustainability,
including domestic revenues and total costs?

Department of State Contracting for Conflict Countries
(Project No. 120976, Initiated March 31, 2011)
This review will focus on assessing (1) the organizational alignment of DoS’s
acquisition functions with its missions and needs; (2) DoS’s acquisition work-
force, in terms of both number of personnel and their expertise; (3) DoS’s use
and management of contracts awarded and/or administered on its behalf by
other federal departments or agencies; (4) the statutory and regulatory authori-
ties available for use in conflict environments; and (5) the efforts planned or
underway to enhance the capacity of DoS’s acquisition workforce and reform its
acquisition practices and processes.

Intelligence, Surveillance, and Reconnaissance (ISR) Collection
and Tasking Management
(Project No. 351603, Initiated March 1, 2011)
This review will focus on (1) assessing the data and data sources used by DoD,
DoS, and USAID to produce a joint report regarding contracts with performance
in Iraq or Afghanistan, associated personnel, and related matters; (2) reviewing
how DoD, DoS, and USAID are using the data and data sources used to develop
the joint report in managing, overseeing, and coordinating contracting in the
two countries; and (3) assessing the plans the departments and agency have




  134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




for strengthening or improving their common databases for tracking statutorily
required information on contracts and associated personnel.

U.S. and International Programs To Screen and Conduct
Afghan Security Personnel and Recruits
(Project No. 320851, Initiated February 20, 2011)
This review will examine (1) to what extent recruits and other ANA/ANP person-
nel are vetted or screened by the U.S. government for ties to criminal, terrorist,
or insurgent forces; (2) what challenges to these efforts exist, if any, and how
have U.S. agencies addressed these challenges; (3) to what extent DoD and DoS
have modified screening procedures in response to attacks; and (4) what, if any,
safeguards are in place to protect U.S. personnel training or working with ANA/
ANP forces.

DoD Oversight of Private Security Contractors in Afghanistan
(Project No. 351616, Initiated February 20, 2011)
GAO intends to examine to what extent (1) DoD has a process to determine
if the use of private security contractors (PSCs) in Afghanistan to meet spe-
cific missions is appropriate; (2) DoD has a process to ensure that PSCs in
Afghanistan are selecting personnel with appropriate backgrounds, training, and
capabilities; (3) DoD has established a process to ensure that private security
prime contractors and subcontractors are performing their duties in Afghanistan;
and (4) DoD has begun to formulate plans to meet security requirements in
Afghanistan without the use of PSCs.

U.S. Civilian Presence in Afghanistan
(Project No. 320766, Initiated May 3, 2010)
This review will focus on the extent to which and the processes through which
U.S. agencies are prioritizing and fulfilling staffing requirements for the civilian
surge in Afghanistan, and the steps U.S. agencies have taken to prepare their
personnel for deployment.

Afghanistan Logistics Support
(Project No. 351492, Initiated April 30, 2010)
This review will focus on (1) the extent to which DoD has provided the person-
nel, equipment, and supplies needed to support operations in Afghanistan in
accordance with DoD’s established plans and timeline; (2) the factors, if any,
that have impacted DoD’s ability to provide the personnel, equipment, and sup-
plies needed to support operations in Afghanistan, and how DoD has addressed
these factors; and (3) the extent to which DoD has established a clear chain of
command for the transportation of personnel, supplies, and equipment into and
around Afghanistan.




         REPORT TO THE UNITED STATES CONGRESS       I   OCTOBER 30, 2011       135
OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
Commander’s Emergency Response Program–Afghanistan
(Project No. A-2011-ALL-0342.000, Initiated 2Q/FY 2011)
This audit will determine (1) whether the established project review and
approval processes for the Commander’s Emergency Response Program (CERP)
in Afghanistan promote selection of projects in compliance with its stated goals
of providing immediate benefit to the Afghan people and (2) whether the process
for generating CERP funding requirements was fully supported by the approved
project list.

U.S. Agency for International Development Office
of Inspector General
Audit of USAID/Afghanistan’s Incentives Driving Economic
Alternatives for the North, East, and West Program
(Project No. FF100411, Initiated September 18, 2011)
Objective: To determine whether USAID/Afghanistan’s Incentives Driving
Economic Alternatives for the North, East, and West Program is achieving its
main goals of increasing licit and commercially viable agricultural-based alter-
natives for rural Afghans and significantly reducing and ultimately eradicating
opium poppy production and sales.

Audit of USAID/Afghanistan’s Skills Training for Afghan Youth Project
(Project No. FF101611, Initiated July 21, 2011)
Objective: To determine if USAID/Afghanistan’s Skills Training for Afghan Youth
Project is accomplishing its main goals of providing technical, vocational, and
functional skills for productive work, basic education equivalency and life skills,
and youth outreach and networking activities.

Review of Responses to Internal Audit Findings on the Local
Governance and Community Development (LGCD) Program
(Project No. FF101711, Initiated June 19, 2011)
Objective: To determine if selected costs charged to USAID are reasonable,
allowable, and allocable.

Audit of Internal Controls over the Separate Maintenance
Allowance at USAID/Afghanistan
(Project No. FF100711, Initiated June 15, 2011)
Objective: To determine whether USAID/Afghanistan has adopted appropriate
internal controls to prevent improper use of the separate maintenance allow-
ance benefit.




  136                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                      OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative–
Southern Region
(Project No. FF100511, Initiated March 5, 2011)
Objective: To determine if the Afghanistan Stabilization Initiative for the
southern region is achieving its main goal of building confidence between com-
munities and the Afghan government.

ONGOING INVESTIGATIONS
U.S. Department of Defense Office of Inspector General
The Defense Criminal Investigative Service (DCIS) continues to conduct sig-
nificant fraud and corruption investigations in Afghanistan and Southwest Asia.
Currently, six DCIS agents are assigned to the International Contract Corruption
Task Force (ICCTF) in three locations: Kabul, Bagram, and Kandahar Airfields.
DoD OIG expects to increase the number of ICCTF-assigned agents to seven
within the next several weeks. DCIS continues to assign one special agent to
Task Force 2010. DCIS and SIGAR are in partnership with seven other agen-
cies to conduct major fraud and corruption investigations that affect DoD and
Afghanistan reconstruction programs. In addition to these forward-deployed spe-
cial agents, 105 DCIS agents based in the United States and Europe are currently
conducting investigations related to fraud and corruption in Southwest Asia.
   As of September 29, 2011, DCIS had 111 open OCO investigations involving
Afghanistan. Of the open investigations, 18 are joint with SIGAR. As of September
29, 2011, DCIS had closed 77 OCO investigations involving Afghanistan.




         REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011    137
      The Official Seal of SIGAR
      The Official Seal of SIGAR represents the coordination of efforts
      between the United States and Afghanistan to provide accountability
      and oversight of reconstruction activities. The phrase along the top
      side of the seal’s center is in Dari and means “SIGAR.” The phrase
      along the bottom side of the seal’s center is in Pashtu and has the
      same meaning.




138   SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       139
APPENDICES




APPENDIX A
CROSS-REFERENCE OF REPORT TO STATUTORY
REQUIREMENTS
This appendix cross-references the pages of this report to the quarterly report-
ing and related requirements under SIGAR’s enabling legislation, the National
Defense Authorization Act for Fiscal Year 2008, P.L. No. 110-181, § 1229 (Table
A.1), and to the semiannual reporting requirements prescribed for inspectors
general more generally under the Inspector General Act of 1978, as amended
(5 U.S.C. App. 3) (Table A.2).

TABLE A.1


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                   Section
Supervision
Section 1229(e)(1)      The Inspector General shall report directly       Report to the Secretary of     All sections
                        to, and be under the general supervision          State and the Secretary of
                        of, the Secretary of State and the Secretary      Defense
                        of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN                          Review appropriated/           All sections
                        RECONSTRUCTION.—                                  available funds
                        It shall be the duty of the Inspector General
                        to conduct, supervise, and coordinate             Review programs,
                        audits and investigations of the treatment,       operations, contracts using
                        handling, and expenditure of amounts              appropriated/
                        appropriated or otherwise made available          available funds
                        for the reconstruction of Afghanistan, and
                        of the programs, operations, and contracts
                        carried out utilizing such funds, including
                        subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obliga-       Review obligations and         SIGAR
                        tion and expenditure of such funds                expenditures of appropri-      Oversight
                                                                          ated/available funds
                                                                                                         Funding
Section 1229(f)(1)(B)   The monitoring and review of reconstruction       Review reconstruction          SIGAR
                        activities funded by such funds                   activities funded by appro-    Oversight
                                                                          priations and donations
Section 1229(f)(1)(C)   The monitoring and review of contracts            Review contracts using         Note 1
                        funded by such funds                              appropriated and available
                                                                          funds
Section 1229(f)(1)(D) The monitoring and review of the transfer           Review internal and external   Appendix B
                      of such funds and associated information            transfers of appropriated/
                      between and among departments, agen-                available funds
                      cies, and entities of the United States, and
                      private and nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of          Maintain audit records         SIGAR
                        such funds to facilitate future audits and                                       Oversight
                        investigations of the use of such fund[s]                                        Appendix C
                                                                                                         Appendix D




  140                      SPECIAL INSPECTOR GENERAL              I     AFGHANISTAN RECONSTRUCTION
                                                                               APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                          SIGAR Action                  Section
Section 1229(f)(1)(F)   The monitoring and review of the effective-      Monitoring and review         Audits
                        ness of United States coordination with          as described
                        the Governments of Afghanistan and
                        other donor countries in the implementa-
                        tion of the Afghanistan Compact and the
                        Afghanistan National Development Strategy
Section 1229(f)(1)(G) The investigation of overpayments such as          Conduct and reporting of      Investigations
                      duplicate payments or duplicate billing and        investigations as described
                      any potential unethical or illegal actions of
                      Federal employees, contractors, or affiliated
                      entities, and the referral of such reports, as
                      necessary, to the Department of Justice to
                      ensure further investigations, prosecutions,
                      recovery of further funds, or other remedies.
Section 1229(f)(2)      OTHER DUTIES RELATED TO OVERSIGHT.—              Establish, maintain, and      All sections
                        The Inspector General shall establish,           oversee systems, proce-
                        maintain, and oversee such systems,              dures, and controls
                        procedures, and controls as the Inspector
                        General considers appropriate to discharge
                        the duties under paragraph (1)
Section 1229(f)(3)      DUTIES AND RESPONSIBILITIES UNDER                Duties as specified in        All sections
                        INSPECTOR GENERAL ACT OF 1978.—                  Inspector General Act
                        In addition,. . .the Inspector General shall
                        also have the duties and responsibilities
                        of inspectors general under the Inspector
                        General Act of 1978
Section 1229(f)(4)      COORDINATION OF EFFORTS.—                        Coordination with the         Other Agency
                        The Inspector General shall coordinate with,     inspectors general of         Oversight
                        and receive the cooperation of, each of the      DoD, DoS, and USAID
                        following: (A) the Inspector General of the
                        Department of Defense, (B) the Inspector
                        General of the Department of State, and (C)
                        the Inspector General of the United States
                        Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A) ASSISTANCE FROM FEDERAL AGENCIES.—                 Expect support as             All sections
                      Upon request of the Inspector General for          requested
                      information or assistance from any depart-
                      ment, agency, or other entity of the Federal
                      Government, the head of such entity shall,
                      insofar as is practicable and not in con-
                      travention of any existing law, furnish such
                      information or assistance to the Inspector
                      General, or an authorized designee




           REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2011                     141
APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(h)(5)(B) REPORTING OF REFUSED ASSISTANCE.—                   None reported                 N/A
                      Whenever information or assistance
                      requested by the Inspector General is,
                      in the judgment of the Inspector General,
                      unreasonably refused or not provided, the
                      Inspector General shall report the circum-
                      stances to the Secretary of State or the
                      Secretary of Defense, as appropriate, and to
                      the appropriate congressional committees
                      without delay.
Reports
Section 1229(i)(1)      QUARTERLY REPORTS.—                               Report – 30 days after        All sections
                        Not later than 30 days after the end of each      the end of each calendar      Appendix B
                        fiscal-year quarter, the Inspector General        quarter
                        shall submit to the appropriate committees
                        of Congress a report summarizing, for the         Summarize activities of the
                        period of that quarter and, to the extent         inspector general
                        possible, the period from the end of such
                        quarter to the time of the submission of          Detailed statement of all
                        the report, the activities during such period     obligations, expenditures,
                        of the Inspector General and the activities       and revenues
                        under programs and operations funded
                        with amounts appropriated or otherwise
                        made available for the reconstruction of
                        Afghanistan. Each report shall include,
                        for the period covered by such report,
                        a detailed statement of all obligations,
                        expenditures, and revenues associated with
                        reconstruction and rehabilitation activities in
                        Afghanistan, including the following –
Section 1229(i)(1)(A)   Obligations and expenditures of appropri-         Obligations and expen-        Appendix B
                        ated/donated funds                                ditures of appropriated/
                                                                          donated funds
Section 1229(i)(1)(B)   A project-by-project and program-                 Project-by-project and        Funding
                        by-program accounting of the costs                program-by-program
                        incurred to date for the reconstruction of        accounting of costs. List     Note 1
                        Afghanistan, together with the estimate of        unexpended funds for each
                        the Department of Defense, the Department         project or program
                        of State, and the United States Agency for
                        International Development, as applicable,
                        of the costs to complete each project and
                        each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting            Revenues, obligations, and    Funding
                        of funds provided by foreign nations or           expenditures of donor funds
                        international organizations to programs
                        and projects funded by any department or
                        agency of the United States Government,
                        and any obligations or expenditures of
                        such revenues




  142                      SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                                                APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER
P.L. NO. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                           SIGAR Action                  Section
Section 1229(i)(1)(D)   Revenues attributable to or consisting of for-    Revenues, obligations, and    Funding
                        eign assets seized or frozen that contribute      expenditures of funds from
                        to programs and projects funded by any U.S.       seized or frozen assets
                        government department or agency, and any
                        obligations or expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities        Operating expenses of         Funding
                        receiving amounts appropriated or otherwise       agencies or any organiza-
                        made available for the reconstruction of          tion receiving appropriated   Appendix B
                        Afghanistan                                       funds
Section 1229(i)(1)(F)   In the case of any contract, grant,               Describe contract details     Note 1
                        agreement, or other funding mechanism
                        described in paragraph (2)* —
                        (i) The amount of the contract or other fund-
                        ing mechanism;
                        (ii) A brief discussion of the scope of the
                        contract or other funding mechanism;
                        (iii) A discussion of how the department or
                        agency of the United States Government
                        involved in the contract, grant, agreement,
                        or other funding mechanism identified and
                        solicited offers from potential contractors
                        to perform the contract, grant, agreement,
                        or other funding mechanism, together with
                        a list of the potential individuals or entities
                        that were issued solicitations for the offers;
                        and
                        (iv) The justification and approval
                        documents on which was based the
                        determination to use procedures other than
                        procedures that provide for full and open
                        competition
Section 1229(i)(3)      PUBLIC AVAILABILITY.—                             Publish report                www.sigar.mil
                        The Inspector General shall publish on a          as directed
                        publically-available Internet website each                                      Dari and
                        report under paragraph (1) of this subsec-                                      Pashtu
                        tion in English and other languages that the                                    translation in
                        Inspector General determines are widely                                         process
                        used and understood in Afghanistan
Section 1229(i)(4)      FORM.—                                            Publish report                All sections
                        Each report required under this subsection        as directed
                        shall be submitted in unclassified form,
                        but may include a classified annex if the
                        Inspector General considers it necessary




           REPORT TO THE UNITED STATES CONGRESS                    I   OCTOBER 30, 2011                       143
                                 APPENDICES




TABLE A.2


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section     IG Act Language                                      SIGAR Action                                         Section
Section 5(a)(1)    Description of significant problems, abuses, and     Extract pertinent information from SWA/JPG           Other Agency Oversight
                   deficiencies                                         member reports
                                                                        List problems, abuses, and deficiencies from         See Letters of Inquiry at
                                                                        SIGAR audit reports, investigations, and             www.sigar.mil
                                                                        inspections
Section 5(a)(2)    Description of recommendations for corrective        Extract pertinent information from SWA/JPG           Other Agency Oversight
                   action…with respect to significant problems,         member l reports
                   abuses, or deficiencies                                                                                   See Letters of Inquiry at
                                                                        List recommendations from SIGAR audit reports        www.sigar.mil
Section 5(a)(3)    Identification of each significant recommenda-       List all instances of incomplete corrective action   In process
                   tion described in previous semiannual reports on     from previous semiannual reports
                   which corrective action has not been completed
Section 5(a)(4)    A summary of matters referred to prosecutive         Extract pertinent information from SWA/JPG           Other Agency Oversight
                   authorities and the prosecutions and convictions     member reports
                   which have resulted
                                                                        List SIGAR Investigations that have been referred
Section 5(a)(5)    A summary of each report made to the [Secretary      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   of Defense] under section 6(b)(2) (instances         member reports
                   where information requested was refused or not
                   provided)                                            List instances in which information was refused
                                                                        SIGAR auditors, investigators, or inspectors
Section 5(a)(6)    A listing, subdivided according to subject mat-      Extract pertinent information from SWA/JPG           Other Agency Oversight
                   ter, of each audit report, inspection report and     member reports
                   evaluation report issued...showing dollar value
                   of questioned costs and recommendations that         List SIGAR reports
                   funds be put to better use
Section 5(a)(7)    A summary of each particularly significant report    Extract pertinent information from SWA/JPG          Other Agency Oversight
                                                                        member reports                                      A full list of significant
                                                                                                                            reports can be found at
                                                                        Provide a synopsis of the significant SIGAR reports www.sigar.mil
Section 5(a)(8)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports and the total dollar value of ques-    member reports                                       members
                   tioned costs
                                                                        Develop statistical tables showing dollar value      In process
                                                                        of questioned cost from SIGAR reports
Section 5(a)(9)    Statistical tables showing the total number of       Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   audit reports, inspection reports, and evaluation    member reports                                       members
                   reports and the dollar value of recommendations
                   that funds be put to better use by management        Develop statistical tables showing dollar value      In process
                                                                        of funds put to better use by management from
                                                                        SIGAR reports
Section 5(a)(10)   A summary of each audit report, inspection report,   Extract pertinent information from SWA/JPG           See reports of SWA/JPG
                   and evaluation report issued before the com-         member reports                                       members
                   mencement of the reporting period for which no
                   management decision has been made by the end         Provide a synopsis of SIGAR audit reports in         None
                   of reporting period, an explanation of the reasons   which recommendations by SIGAR are still open
                   such management decision has not been made,
                   and a statement concerning the desired timetable
                   for achieving a management decision




                                    144                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                             APPENDICES




TABLE A.2 (CONTINUED)


CROSS-REFERENCE TO SEMIANNUAL REPORTING REQUIREMENTS UNDER
SECTION 5 OF THE IG ACT OF 1978, AS AMENDED (5 U.S.C. APP. 3) (“IG ACT”)
IG Act Section                IG Act Language                                               SIGAR Action                                              Section
Section 5(a)(11)              A description and explanation of the reasons for              Extract pertinent information from SWA/JPG                See reports of SWA/JPG
                              any significant revised management decision                   member reports                                            members

                                                                                            Explain SIGAR audit reports in which significant          None
                                                                                            revisions have been made to management
                                                                                            decisions
Section 5(a)(12)              Information concerning any significant manage-                Extract pertinent information from SWA/JPG                See reports of SWA/JPG
                              ment decision with which the Inspector General is             member reports                                            members
                              in disagreement
                                                                                            Explain SIGAR audit reports in which SIGAR                No disputed decisions
                                                                                            disagreed with management decision                        during the reporting period
Section 5(a)(13)              Information described under [Section 804(b)] of               Extract pertinent information from SWA/JPG                See reports of SWA/JPG
                              the Federal Financial Management Improvement                  member reports                                            members
                              Act of 1996 (instances and reasons when an
                              agency has not met target dates established in a              Provide information where management has not              No disputed
                              remediation plan)                                             met targets from a remediation plan                       decisions during the report-
                                                                                                                                                      ing period
Section 5(a)(14)(A)           An Appendix containing the results of any peer                SIGAR has posted in full the results of, and              Posted in full at
                              review conducted by another Office of Inspector               reports from, SIGAR’s most recent peer reviews            www.sigar.mil
                              General during the reporting period; or                       (completed during July 2010, prior to the current
                                                                                            reporting period), on its Web site
Section 5(a)(14)(B)           If no peer review was conducted within that report- 15 July 2010                                                        Posted in full at
                              ing period, a statement identifying the date of the                                                                     www.sigar.mil
                              last peer review conducted by another Office of
                              Inspector General
Section 5(a)(15)              A list of any outstanding recommendations from                None – all peer review recommendations                    Recommendations and
                              any peer review conducted by another Office of                effectively addressed, and remedial measures              related materials posted in
                              Inspector General that have not been fully imple-             implemented, by 30 September 2010                         full at www.sigar.mil
                              ment, including a statement describing the status
                              of the implementation and why implementation is
                              not complete
Section 5(a)(16)              Any peer reviews conducted by SIGAR of another                Not applicable (SIGAR did not conduct, or                 SIGAR Oversight
                              IG Office during the reporting period, including a            participate in the conduct, of a peer review of
                              list of any outstanding recommendations made                  another Office of Inspector General during the
                              from any previous peer review . . . that remain               reporting period)
                              outstanding or have not been fully implemented


Note 1: Although this data is normally made available on SIGAR’s Web site (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being reviewed,
analyzed, and organized for all future SIGAR purposes.
* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—
“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use of
amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes:
To build or rebuild physical infrastructure of Afghanistan.
To establish or reestablish a political or societal institution of Afghanistan.
To provide products or services to the people of Afghanistan.”




               REPORT TO THE UNITED STATES CONGRESS                               I   OCTOBER 30, 2011                        145
                                                           APPENDICES



                                                           APPENDIX B
                                                           U.S. GOVERNMENT APPROPRIATED FUNDS ($ MILLIONS)
                                                           Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                           per year, as of September 30, 2011.

                                                           TABLE B.1


                                                            U.S. FUNDING SOURCES                                                      AGENCY            TOTAL
                                                            SECURITY
                                                              Afghanistan Security Forces Fund (ASFF)                                 DoD             39,452.62
                                                              Train & Equip (DoD)                                                     DoD                440.00
                                                              Foreign Military Financing (FMF)                                        DoS              1,059.14
                                                              International Military Education & Training (IMET)                      DoS                  9.80
                                                              NDAA Section 1207 Transfer                                              Other                9.90
                                                            Total—Security                                                                           40,971.46
                                                            GOVERNANCE & DEVELOPMENT
                                                              Commander’s Emergency Response Program (CERP)                           DoD              3,039.00
                                                              Afghanistan Infrastructure Fund (AIF)                                   DoD                400.00
                                                              Task Force for Business and Stability Operations (TFBSO)                DoD                313.50
                                                              Economic Support Fund (ESF)                                             USAID           13,016.67
                                                              Development Assistance (DA)                                             USAID              885.27
                                                              Afghanistan Freedom Support Act (AFSA)                                  DoD                550.00
                                                              Child Survival & Health (CSH + GHAI)                                    USAID              554.32
                                                              Commodity Credit Corp (CCC)                                             USAID               31.66
                                                              USAID (other)                                                           USAID               40.52
                                                              Non-Proliferation, Anti-Terrorism, De-mining & Related (NADR)           DoS                440.90
                                                              Provincial Reconstruction Team Advisors                                 USDA                 5.70
                                                              Treasury Technical Assistance                                           Treasury             3.55
                                                            Total—Governance & Development                                                           19,281.09
                                                            COUNTER-NARCOTICS
                                                              International Narcotics Control and Law Enforcement (INCLE)             DoS              3,254.24
                                                              Drug Interdiction and Counter-Drug Activities (DoD CN)                  DoD              1,892.03
                                                              Drug Enforcement Administration (DEA)                                   DoJ                127.37
                                                            Total—Counter-Narcotics                                                                   5,273.64
                                                            HUMANITARIAN
                                                              P.L. 480 Title I                                                        USDA                 5.00
                                                              P.L. 480 Title II                                                       USAID              716.71
                                                              Disaster Assistance (IDA)                                               USAID              438.24
                                                              Transition Initiatives (TI)                                             USAID               33.37
                                                              Migration & Refugee Assistance (MRA)                                    DoS                664.69
                                                              Voluntary Peacekeeping (PKO)                                            DoS                 69.33
                                                              Emergency Refugee & Migration Assistance (ERMA)                         DoS                 25.20
                                                              Food for Progress                                                       USDA               109.49
                                                              416(b) Food Aid                                                         USDA                95.18
Notes: Numbers affected by rounding.
                                                              Food for Education                                                      USDA                50.49
Sources: DoD, responses to SIGAR data call 10/17/2011,        Emerson Trust                                                           USDA                22.40
10/4/2011, 10/3/2011, 7/15/2011, 10/14/2009,                Total—Humanitarian                                                                        2,230.10
and 10/1/2009; DoS, responses to SIGAR data call,
10/14/2011, 10/13/2011, and 4/14/2011; Treasury,            INTERNATIONAL AFFAIRS OPERATIONS                                                               0.03
response to SIGAR data call, 10/13/2011; OMB, response
to SIGAR data call, 7/19/2011; USAID, responses to SIGAR
                                                             Oversight                                                                                   113.60
data call, 10/3/2011, 10/15/2010, 1/15/2010, and             Other                                                                                     5,039.30
10/9/2009; DoJ, response to SIGAR data call, 7/7/2009;
USDA, response to SIGAR data call, 4/2009; P.L. 112-10,     Total—International Affairs Operations                                                    5,152.90
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118,
12/19/2009; FY 2010 Defense Explanatory Statement.          TOTAL FUNDING                                                                            72,909.19




                                                             146                       SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                             APPENDICES




FY 2002        FY 2003      FY 2004      FY 2005          FY 2006        FY 2007      FY 2008     FY 2009      FY 2010      FY 2011

    0.00            0.00         0.00       995.00          1,908.13       7,406.40    2,750.00     5,606.94     9,166.87    11,619.28
    0.00            0.00       150.00       290.00              0.00           0.00        0.00         0.00         0.00         0.00
   57.26          191.00       414.08       396.80              0.00           0.00        0.00         0.00         0.00         0.00
    0.20            0.30         0.60         0.80              0.80           1.10        1.60         1.40         1.50         1.50
    0.00            0.00         0.00         0.00              0.00           0.00        9.90         0.00         0.00         0.00
  57.46          191.30       564.68     1,682.60          1,908.93       7,407.50    2,761.50     5,608.34     9,168.37    11,620.78

    0.00            0.00        40.00       136.00           215.00          209.00      488.33       550.67     1,000.00       400.00
    0.00            0.00         0.00         0.00             0.00            0.00        0.00         0.00         0.00       400.00
    0.00            0.00         0.00         0.00             0.00            0.00        0.00        15.00        59.26       239.24
  117.51          239.29       893.87     1,280.56           473.39        1,210.71    1,399.51     2,088.32     3,346.00     1,967.51
   18.30           42.54       153.14       169.56           184.79          166.81      149.43         0.40         0.30         0.00
    0.00          165.00       135.00       250.00             0.00            0.00        0.00         0.00         0.00         0.00
    7.52           49.68        33.40        38.00            41.45          100.77       63.07        58.23        92.30        69.90
    7.48            1.33         0.00         0.00             0.00            0.00       10.77         4.22         4.22         3.64
    0.00            0.50         5.00         0.00             0.00            0.00       22.32         3.55         2.90         6.25
   44.00           34.70        66.90        38.20            18.20           36.60       26.60        48.60        57.80        69.30
    0.00            0.00         0.00         0.00             0.00            0.00        0.00         5.70         0.00         0.00
    0.00            1.00         0.06         0.95             0.19            0.13        0.75         0.47         0.00         0.00
 194.81          534.04     1,327.37     1,913.27           933.02        1,724.02    2,160.78     2,775.16     4,562.78     3,155.84

   60.00           0.00        220.00       709.28           232.65         251.74      307.57       484.00       589.00        400.00
    0.00           0.00         71.80       224.54           108.05         290.97      192.81       235.06       392.27        376.53
    0.58           2.87          3.72        16.77            23.66          20.38       40.59        18.80         0.00          0.00
  60.58            2.87       295.52       950.59           364.36         563.09      540.97       737.86       981.27        776.53

    0.00            5.00         0.00         0.00             0.00           0.00        0.00         0.00         0.00          0.00
  159.50           46.10        49.20        56.60            60.00          60.00      177.00        65.41        27.40         15.50
  197.09           85.52        11.16         4.22             0.04           0.03       17.01        27.01        29.60         66.56
    8.07           11.69        11.22         1.60             0.00           0.00        0.00         0.20         0.42          0.17
  135.47           61.50        63.30        47.10            36.00          53.80       44.25        76.79        81.48         65.00
   23.93            9.90        20.00        15.50             0.00           0.00        0.00         0.00         0.00          0.00
   25.00            0.00         0.00         0.00             0.00           0.00        0.00         0.20         0.00          0.00
    0.00            4.96         9.08        30.10            23.24           9.47       20.55        12.09         0.00          0.00
   46.46           14.14        34.58         0.00             0.00           0.00        0.00         0.00         0.00          0.00
    0.00            9.27         6.12        10.02            25.08           0.00        0.00         0.00         0.00          0.00
    0.00            0.00         0.00         0.00             0.00           0.00       22.40         0.00         0.00          0.00
 595.52          248.08       204.66       165.14           144.36         123.30      281.21       181.70       138.90        147.23

    0.00            0.00         0.00         0.00             0.00           2.50       14.30         25.20        34.40        37.20
  155.60           35.30       207.60       136.10           131.90         207.80      434.40      1,060.70     1,761.70       908.20
 155.60           35.30       207.60       136.10           131.90         210.30      448.70      1,085.90     1,796.10       945.40
1,063.97        1,011.59     2,599.83    4,847.70          3,482.57      10,028.21    6,193.16    10,388.96    16,647.42    16,645.78




           REPORT TO THE UNITED STATES CONGRESS   I   OCTOBER 30, 2011                147
APPENDICES




APPENDIX C
SIGAR AUDITS
Completed Audits
SIGAR completed five audits during this reporting period, as listed in Table C.1.

TABLE C.1

 COMPLETED SIGAR AUDITS AS OF OCTOBER 30, 2011
Report Identifier      Report Title                                                                 Date Issued
 SIGAR Audit 12-3      Afghan National Security University Experienced Cost Growth and                 10/2011
                       Schedule Delays, and Contract Administration Needs Improvement
 SIGAR Audit 12-2      Better Planning and Oversight Could Have Reduced Construction Delays            10/2011
                       and Costs at the Kabul Military Training Center
 SIGAR Audit 12-1      Actions Needed To Better Assess and Coordinate Capacity-Building Efforts        10/2011
                       at the Ministry of Agriculture, Irrigation, and Livestock
 SIGAR Audit 11-17     The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 Billion, and           9/2011
                       State Should Continue To Strengthen Its Management and Oversight of the
                       Funds Transferred to Other Agencies
 SIGAR Audit 11-16S    Audit of a U.S. Agency’s Private Security Contract (no public release/for         8/2011
                       official use only)




New Audits
SIGAR initiated two new audits during this reporting period, as listed in Table C.2.

TABLE C.2

 NEW SIGAR AUDITS AS OF OCTOBER 30, 2011
Audit Identifier      Project Title                                                                Date Initiated
 SIGAR 051A           Costs of Private Security Contractors (PSCs) Utilized by USAID Contractors         9/2011
                      for Reconstruction in Afghanistan
 SIGAR 050A           Outcomes of DoS Public Diplomacy Grants in Support of Reconstruction in            8/2011
                      Afghanistan




  148                     SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                               APPENDICES




Ongoing Audits
SIGAR has nine audits in progress, as listed in Table C.3.
TABLE C.3

 SIGAR ONGOING AUDITS AS OF OCTOBER 30, 2011
Audit Identifier   Project Title                                                                   Date Initiated
 SIGAR 049A        USACE Operations and Maintenance Contracts with ITT Corporation for ANSF              7/2011
                   Facilities
 SIGAR 048A        Reliability of Funding and Contract Data Maintained by C-JTSCC on Prime               7/2011
                   Vendors for Major Reconstruction Contracts in Afghanistan
 SIGAR 047A        USAID’s Contracts in Support of the Afghanistan Stabilization Initiative              5/2011
 SIGAR 046A        USAID’s Cooperative Agreement in Support of an Agriculture Program                    5/2011
 SIGAR 045A        Private Security Services Contract                                                    4/2011
 SIGAR 044A        USAID’s Financial Audit Coverage of Costs Incurred Under Contracts,                   3/2011
                   Cooperative Agreements, and Grants for Afghanistan Reconstruction
 SIGAR 043A        Implementation of the Afghan First Initiative for Contracting                         2/2011
 SIGAR 041A        USAID Contracts for Local Governance and Community Development Projects               1/2011
 SIGAR 031A        Accountability of ANSF Vehicles                                                     11/2010




Forensic Audits
SIGAR continued work on three forensic audits during this reporting period, as
listed in Table C.4.
TABLE C.4

 SIGAR FORENSIC AUDITS AS OF OCTOBER 30, 2011
Audit Identifier   Project Title                                                                   Date Initiated
 SIGAR-027A        Forensic Review of DoS Transaction Data Related to Afghanistan Reconstruction         6/2010
 SIGAR-026A        Forensic Review of USAID Transaction Data Related to Afghanistan                      6/2010
                   Reconstruction
 SIGAR-022A        Forensic Review of DoD Transaction Data Related to Afghanistan Reconstruction         2/2010




            REPORT TO THE UNITED STATES CONGRESS                 I   OCTOBER 30, 2011                    149
                                                              APPENDICES




                                                              APPENDIX D
                                                              SIGAR INVESTIGATIONS AND HOTLINE
                                                              SIGAR Investigations
FIGURE D.1                                                    This quarter, SIGAR opened 31 new investigations and closed 10, bringing the
SIGAR INVESTIGATIONS: NUMBER OF OPEN                          total number of open investigations to 111. Most of these open investigations
INVESTIGATIONS, JULY 1–SEPTEMBER 30, 2011                     involve contract fraud, public corruption, and bribery, as shown in Figure D.1. Of
                                                              the 10 closed investigations, most were closed due to unsubstantiated claims or
                      Total: 111
                                                              for lack of prosecutive merit, as shown in Figure D.2.

                                                              FIGURE D.2
                                              Civil
                                              Investigation   SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, JULY 1−SEPTEMBER 30, 2011
                                              2
             Contract Fraud                                                                                                        Total: 10
             68                 Public
                                Corruption/
                                Bribery                                    Unsubstantiated                                                                                         7
                                30                              Lack of Prosecutorial Merit                            2
                                                               Suspension and Debarment 0
Theft of Property                        Miscellaneous
                                                                         Legal Action Taken                    1
and Services         Assessment          Criminal Activity
4                    2                   5                                                    0            1           2           3               4        5        6         7

Source: SIGAR Investigations Directorate, 10/11/2011.          Source: SIGAR Investigations Directorate, 10/11/2011.




                                                              SIGAR Hotline
FIGURE D.3                                                    Of the 38 Hotline complaints received this quarter, most were received by email
                                                              or telephone, as shown in Figure D.3. Of these complaints, most were closed,
SOURCE OF SIGAR HOTLINE COMPLAINTS,
JULY 1–SEPTEMBER 30, 2011                                     referred to SIGAR investigators, or under review, as shown in Figure D.4.

                                                              FIGURE D.4

                          Total: 38
                                                              STATUS OF SIGAR HOTLINE COMPLAINTS: JULY 1–SEPTEMBER 30, 2011
                                                                                                                               Total: 38

                           E-mail
                           35                                  Referred (In)                                                                                                  14
                                                                     Closed                                                                                              13
                                                              Under Review                                                                             10
                                                              Referred (Out)           1
                                                                                                    3                      6                   9                12                 15

                                                              Source: SIGAR Investigations Directorate, 10/11/2011.
                Walk-in                    Phone
                      1                    2

Source: SIGAR Investigations Directorate, 10/11/2011.




                                                                150                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                         APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION             DEFINITION
ABP                      Afghan Border Police
ACSS                     Afghanistan Civil Service Support
ACU                      Anti-Corruption Unit
ADT                      Agribusiness Development Team
AFCEE                    Air Force Center for Engineering and the Environment (U.S.)
ANA                      Afghan National Army
ANCOP                    Afghan National Civil Order Police
ANDS                     Afghanistan National Development Strategy
ANP                      Afghan National Police
ANSF                     Afghan National Security Forces
ANSU                     Afghan National Security University
APPF                     Afghan Public Protection Force
APRP                     Afghanistan Peace and Reintegration Program
ARP                      Afghanistan Reintegration Program (U.S.)
ARTF                     Afghanistan Reconstruction Trust Fund
ASFF                     Afghanistan Security Forces Fund
ASIU                     Afghan Shafafiyat Investigative Unit
AUP                      Afghan Uniform Police
AVIPA                    Afghanistan Vouchers for Increased Production in Agriculture
AWOL                     absent without leave
BCT                      brigade combat team
BPA                      blanket purchase agreement
C-JTSCC                  CENTCOM Joint Theater Support Contract Command
CENTCOM                  Central Command (U.S.)
CERP                     Commander’s Emergency Response Program
CIGIE                    Council of the Inspectors General on Integrity and Efficiency
CM                       Capability Milestone
CMS                      Case Management System
CNPA                     Counter-Narcotics Police - Afghanistan
CSSP                     Correctional System Support Program
CSTC-A                   Combined Security Transition Command - Afghanistan
CUAT                     Commander’s Unit Assessment Tool
DAB                      Da Afghanistan Bank
DAIL                     Directorate of Agriculture, Irrigation, and Livestock
DCIS                     Defense Criminal Investigative Service
DDP                      District Delivery Program
DEA                      Drug Enforcement Administration (U.S.)
DFAS                     Defense Finance and Accounting Service (U.S.)
DHS                      Department of Homeland Security (U.S.)
DoD                      Department of Defense (U.S.)




          REPORT TO THE UNITED STATES CONGRESS             I   OCTOBER 30, 2011          151
APPENDICES




ACRONYM OR
ABBREVIATION       DEFINITION
DoD CN             Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S)
DoD OIG            Department of Defense Office of Inspector General
DoJ                Department of Justice (U.S.)
DoS                Department of State (U.S.)
DoS OIG            DoS Office of Inspector General
DST                District Support Team
ECF                Extended Credit Facility
ESF                Economic Support Fund
EVAW               Elimination of Violence Against Women law
FAIR               Foreign Affairs Institutional Reform program (U.S.)
FAO                Food and Agriculture Organization (UN)
FBI                Federal Bureau of Investigation (U.S)
FMS                Foreign Military Sales
FY                 fiscal year
GAO                Government Accountability Office (U.S.)
GDP                gross domestic product
GIRoA              Government of the Islamic Republic of Afghanistan
HMMWV              high-mobility, multi-purpose, wheeled vehicle
HOOAC              High Office of Oversight for Anti-Corruption (Afghan)
ICCTF              International Contract Corruption Task Force
ICOR               in-country contracting officer’s representative
IEC                Independent Election Commission (Afghan)
IJC                International Security Assistance Force Joint Command
IMF                International Monetary Fund
INCLE              International Narcotics Control and Law Enforcement (U.S)
INL                Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IOM                International Organization for Migration
ISAF               International Security Assistance Force
ISR                Intelligence, Surveillance, and Reconnaissance
JCMB               Joint Coordination and Monitoring Board
JSSP               Justice Sector Support Program
KCI                Kabul City Initiative
KMTC               Kabul Military Training Center
LGCD               Local Governance and Community Development
LOTFA              Law and Order Trust Fund for Afghanistan
MAIL               Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCTF               Major Crimes Task Force (Afghan)
MEC                Monitoring and Evaluation Committee
MoD                Ministry of Defense (Afghan)
MoF                Ministry of Finance (Afghan)
MoFA               Ministry of Foreign Affairs (Afghan)
MoI                Ministry of Interior (Afghan)
MoJ                Ministry of Justice (Afghan)




  152          SPECIAL INSPECTOR GENERAL             I    AFGHANISTAN RECONSTRUCTION
                                                                        APPENDICES




ACRONYM OR
ABBREVIATION               DEFINITION
MoPH                       Ministry of Public Health (Afghan)
NATO                       North Atlantic Treaty Organization
NGO                        non-governmental organization
NIU                        National Interdiction Unit
NTM-A                      NATO Training Mission - Afghanistan
OCO                        Overseas Contingency Operations
OEF                        Operation Enduring Freedom
OPIC                       Overseas Private Investment Corporation
PCH                        Partnership Contracts for Health program
PEO STRI                   U.S. Army Program Executive Office for Simulation, Training, and
                           Instrumentation
PM/WRA                     Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement
                           (Afghan)
PMP                        Mission Performance Management Plan
PRM                        Bureau of Population, Refugees, and Migration
PRT                        Provincial Reconstruction Team
PSC                        private security contractor
RAMP UP                    Afghan Municipalities Program for Urban Populations
RC Window                  Recurrent Cost Window
RLS-F                      Rule of Law and Stabilization - Formal program
RLS-I                      Rule of Law and Stabilization - Informal program
SDO                        Suspension and Debarment Official
SIGAR                      Special Inspector General for Afghanistan Reconstruction
SMS                        short message service
SRAP                       Office of the Special Representative for Afghanistan and Pakistan
SY                         solar year
TFBSO                      Task Force for Business and Stability Operations
Treasury                   Department of the Treasury (U.S.)
UN                         United Nations
UNAMA                      UN Assistance Mission in Afghanistan
UNDP                       UN Development Programme
UNHCR                      UN High Commissioner for Refugees
UNICEF                     UN Children’s Fund
UNODC                      UN Office on Drugs and Crime
USAAA                      U.S. Army Audit Agency
USACE                      U.S. Army Corps of Engineers
USAID                      U.S. Agency for International Development
USAID OIG                  USAID Office of Inspector General
USDA                       U.S. Department of Agriculture
USFOR-A                    U.S. Forces - Afghanistan
USGS                       U.S. Geological Survey
VAW                        Violence Against Women Unit (Afghan)
WHO                        World Health Organization




            REPORT TO THE UNITED STATES CONGRESS            I   OCTOBER 30, 2011                      153
                                                     ENDNOTES




1.   NATO, “Press Briefing by Lt. Gen. William Caldwell, Commander of the NATO Training Mission Afghanistan,” 10/13/2011.
2.   DoD, “Leon Panetta, Secretary of Defense, Testimony Before the Senate Armed Services Committee,” 9/22/2011.
3.   DoD, “Leon Panetta, Secretary of Defense, Testimony Before the Senate Armed Services Committee,” 9/22/2011.
4.   UN Secretary-General, “The Situation in Afghanistan and /Its Implications for International Peace and Security,” 9/21/2011.
5.   GIRoA, “Statement of H.E. Hamid Karzai, President of the Islamic Republic of Afghanistan, at the 66th Session of the UN
     General Assembly,” 9/23/2011.
6.   GIRoA, “Statement of H.E. Hamid Karzai, President of the Islamic Republic of Afghanistan, at the 66th Session of the UN
     General Assembly,” 9/23/2011.
7.   GIRoA, “Statement of H.E. Hamid Karzai, President of the Islamic Republic of Afghanistan, at the 66th Session of the UN
     General Assembly,” 9/23/2011.
8.   NATO, Secretary-General Fogh Rasmussen, Press Conference following the NATO Meeting of Ministers of Defense, 10/6/2011.
9.   DoS, “Joint Statement of the Co-Chairs of the Ministerial Meeting on the New Silk Road,” 9/22/2011.
10. DoS, “Joint Statement of the Co-Chairs of the Ministerial Meeting on the New Silk Road,” 9/22/2011.
11. DoS, “Secretary of State Hillary Clinton, Remarks at the New Silk Road Ministerial Meeting,” 9/22/2011.
12. DoD, “Leon Panetta, Secretary of Defense, Testimony before the Senate Armed Services Committee,” 9/22/2011.
13. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011.
14. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011.
15. Brookings Institution, “Afghanistan Index,” 9/29/2011.
16. P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.
17. DoD, response to SIGAR vetting, 7/20/2009.
18. See Appendix B of this report.
19. DoD, response to SIGAR data call, 10/17/2011.
20. DoD, response to SIGAR data call, 10/17/2011 and 7/14/2011.
21. DoD OIG, “Distribution of Funds and the Validity of Obligations for the Management of the Afghanistan Security Forces Fund -
     Phase I,” 11/5/2007, p. 2.
22. DoD, response to SIGAR data call, 10/17/2011.
23. DoD, response to SIGAR data call, 10/17/2011.
24. DoD, Financial Management Regulation, “Commander’s Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.
25. DoD, response to SIGAR vetting, 4/21/2010.
26. See Appendix B of this report.
27. DoD, response to SIGAR data call, 10/20/2011.
28. DoD, responses to SIGAR data call, 10/20/2011 and 7/15/2011.
29. P.L. 111-383, 1/7/2011; U.S. Senate Committee on Armed Services, press release, “Senate Passes Ike Skelton National Defense
     Authorization Act for Fiscal Year 2011,” 12/22/2010.
30. DoD, response to SIGAR data call, 10/20/2011; P.L. 112-10, 4/15/2011.
31. TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response to SIGAR data call, 7/22/2011.
32. DoD, response to SIGAR vetting, 10/4/2011.
33. DoD, response to SIGAR vetting, 10/4/2011.
34. DoD, “Drug Interdiction and Counter-Drug Activities, Defense FY 2009 Supplemental Request Drug Interdiction and
     Counterdrug Activities,” accessed 4/13/2010.
35. DoD, responses to SIGAR data call, 10/4/2011 and 6/29/2011.




                                              154                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      ENDNOTES




36. OMB, response to SIGAR vetting, 7/16/2009.
37. USAID, response to SIGAR data call, 10/3/2011.
38. USAID, responses to SIGAR data call, 10/3/2011 and 7/13/2011.
39. DoS, response to SIGAR data call, 10/13/2009.
40. DoS, response to SIGAR data call, 10/13/2011.
41. DoS, responses to SIGAR data call, 10/13/2011 and 7/13/2011.
42. SIGAR, “Quarterly Report to the U.S. Congress,” 7/30/2010, p. 51.
43. World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2011,” p. 4.
44. World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2011,” p. 1.
45. World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.
46. World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2011,” p. 6.
47. World Bank, “Quarterly Country Update: Afghanistan,” 4/2011, p. 16.
48. World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2011,” p. 6.
49. World Bank, “ARTF: Administrator’s Report on Financial Status as of September 22, 2011,” p. 6.
50. EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7; UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2011,”
     7/27/2011, p. 2.
51. SIGAR analysis of UNDP’s quarterly and annual LOTFA reports, 10/20/2011.
52. UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2011,” 7/27/2011, pp. 4, 29.
53. UNDP, “LOTFA Phase VI Quarterly Progress Report Q2/2011,” 7/27/2011, p. 28. IGAR analysis of UNDP’s quarterly and annual
     LOTFA reports, 10/20/2011; UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2011,” p. 28, 7/27/2011.
55. DoD, response to SIGAR data call, 10/17/2011.
56. UN Security Council, “Resolution 2011,” 10/12/2011.
57. CENTCOM, response to SIGAR data call, 10/4/2011.
58. CENTCOM, response to SIGAR data call, 10/4/2011.
59. CENTCOM, response to SIGAR data call, 7/1/2011.
60. NTM-A, “MoD/GS Assessment ACG-AD Jan–Mar 2011,” p. 3.
61. CENTCOM, response to SIGAR data call, 10/3/2011.
62. CENTCOM, response to SIGAR data call, 10/3/2011.
63. CENTCOM, response to SIGAR data call, 10/3/2011; ISAF-IJC, ANP PERSTAT, 8/2011.
64. CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 9/22/2011, pp. 32–33.
65. ISAF, “ISAF Violence Statistics and Analysis Media Brief,” 9/29/2011, accessed 10/13/2011.
66. ISAF, “ISAF Violence Statistics and Analysis Media Brief,” 9/29/2011, accessed 10/13/2011; ISAF, “ISAF Violence Trends,”
     9/30/2011, pp. 5–7, accessed 10/17/2011.
67. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 1.
68. ISAF, “ISAF Violence Statistics and Analysis Media Brief,” 9/29/2011, accessed 10/13/2011.
69. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 1.
70. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 2.
71. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 2.
72. DoD, response to SIGAR data call, 10/17/2011
73. CENTCOM, response to SIGAR data call, 10/3/2011.
74. CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 9/22/2011, pp. 32–33.




       REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011             155
                                                     ENDNOTES




75. DoD, response to SIGAR data call, 10/17/2011.
76. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 36.
77. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 36.
78. CENTCOM, response to SIGAR data call, 10/3/2011.
79. CENTCOM, response to SIGAR data call, 10/3/2011.
80. CENTCOM, response to SIGAR data call, 10/3/2011.
81. DoD, response to SIGAR data call, 10/17/2011.
82. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 13.
83. CENTCOM, response to SIGAR data call, 10/3/2011.
84. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 13.
85. CENTCOM, response to SIGAR data call, 10/3/2011.
86. CENTCOM, response to SIGAR data call, 10/3/2011.
87. CENTCOM, response to SIGAR data call, 10/3/2011.
88. DoD, response to SIGAR data call, 10/17/2011.
89. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 5.
90. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 7.
91. CENTCOM, response to SIGAR data call, 10/3/2011.
92. DoD, response to SIGAR data call, 10/17/2011.
93. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, pp. 24, 26.
94. CENTCOM, response to SIGAR data call, 10/3/2011.
95. CENTCOM, response to SIGAR data call, 10/3/2011. DoD, “Report on Progress Toward Security and Stability in Afghanistan,”
     4/2011, p. 21.
96. CENTCOM, response to SIGAR data call, 10/3/2011.
97. CENTCOM, response to SIGAR data call, 10/3/2011.
98. CENTCOM, response to SIGAR data call, 10/3/2011.
99. CENTCOM, response to SIGAR data call, 10/3/2011.
100. CENTCOM, response to SIGAR data call, 10/3/2011.
101. CENTCOM, response to SIGAR data call, 10/3/2011.
102. CENTCOM, response to SIGAR data call, 10/3/2011.
103. CENTCOM, response to SIGAR data call, 10/3/2011.
104. DoD, response to SIGAR data call, 10/17/2011.
105. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 49.
106. ISAF-IJC, ANP PERSTAT, 9/18/2011.
107. CRS, “Afghanistan: Post-Taliban Governance, Security, and U.S. Policy,” 9/22/2011, pp. 32–33.
108. DoD, response to SIGAR data call, 10/17/2011.
109. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 72.
110. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 72.
111. CENTCOM, response to SIGAR data call, 10/3/2011.
112. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 77.
113. CENTCOM, response to SIGAR data call, 10/3/2011.
114. DoD, response to SIGAR data call, 10/17/2011.
115. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 55.



                                              156                SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                       ENDNOTES




116. CENTCOM, response to SIGAR data call, 10/3/2011.
117. CENTCOM, response to SIGAR data call, 10/3/2011.
118. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 55.
119. DoD, response to SIGAR data call, 10/17/2011.
120. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 50.
121. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 51.
122. CENTCOM, response to SIGAR data call, 10/3/2011.
123. DoD, response to SIGAR data call, 10/17/2011.
124. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 65.
125. CENTCOM, response to SIGAR data call, 10/3/2011.
126. CENTCOM, response to SIGAR data call, 10/3/2011.
127. DoD OIG and DoS OIG, “DoD and DoS Need Better Procedures To Monitor and Expend DoD Funds for the Afghan National
     Police Training Program,” D-2011-080, 7/7/2011, pp. 2–3.
128. DoD OIG and DoS OIG, “DoD and DoS Need Better Procedures To Monitor and Expend DoD Funds for the Afghan National
     Police Training Program,” D-2011-080, 7/7/2011, p. i.
129. DoD OIG and DoS OIG, “DoD and DoS Need Better Procedures To Monitor and Expend DoD Funds for the Afghan National
     Police Training Program,” D-2011-080, 7/7/2011, p. i.
130. DoD OIG and DoS OIG, “Afghan National Police Training Program: Lessons Learned During the Transition of Contract
     Administration,” D-2011-095, 8/15/2011, p. i, 4–6.
131. DoD OIG and DoS OIG, “Afghan National Police Training Program Would Benefit from Better Compliance with the Economy
     Act and Reimbursable Agreements,” 8/25/2011, D-2011-102, p. i.
132. CENTCOM, response to SIGAR data call, 10/3/2011.
133. CENTCOM, response to SIGAR data call, 10/3/2011.
134. CENTCOM, response to SIGAR data call, 10/3/2011.
135. CENTCOM, response to SIGAR data call, 10/3/2011.
136. CENTCOM, response to SIGAR data call, 10/3/2011.
137. CENTCOM, response to SIGAR data call, 10/3/2011.
138. CENTCOM, response to SIGAR data call, 10/3/2011.
139. CENTCOM, response to SIGAR data call, 10/3/2011.
140. OSD, response to SIGAR data call, 4/3/2011.
141. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 82.
142. DoD, “Department of Defense Budget Fiscal Year 2012,” 2/2011, p. 3.
143. CENTCOM, response to SIGAR data call, 10/3/2011.
144. CENTCOM, response to SIGAR data call, 10/3/2011.
145. Human Rights Watch, “Just Don’t Call It a Militia: Impunity, Militias, and the Afghan Local Police,” 9/2011, p. 6.
146. Human Rights Watch, “Just Don’t Call It a Militia: Impunity, Militias, and the Afghan Local Police,” 9/2011, p. 5.
147. Human Rights Watch, “Just Don’t Call It a Militia: Impunity, Militias, and the Afghan Local Police,” 9/2011, p. 5.
148. CENTCOM, response to SIGAR vetting, 10/17/2011.
149. CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility, Iraq, and Afghanistan,”
     4/6/2011, accessed 10/13/2011; CENTCOM, “Contractor Support of U.S. Operations in the USCENTCOM Area of Responsibility,
     Iraq, and Afghanistan,” 7/7/2011, accessed 10/13/2011.




       REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2011              157
                                                      ENDNOTES




150. SIGAR, “Quarterly Report to the United States Congress,” 4/30/2011, pp. 55–56.
151. DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2011, pp. 63–64.
152. DoD, “Report on Progress Toward Security and Stability in Afghanistan,” 4/2011, pp. 63–64.
153. CENTCOM, response to SIGAR data call, 10/3/2011.
154. CENTCOM, response to SIGAR data call, 10/3/2011.
155. DoS, PM/WRA, response to SIGAR data call, 10/11/2011.
156. DoS, PM/WRA, response to SIGAR data call, 10/11/2011.
157. DoS, PM/WRA, response to SIGAR data call, 10/11/2011.
158. OSD, responses to SIGAR data call, 4/1/2011 and 10/4/2011.
159. UNODC, “Afghanistan Opium Survey 2011: Summary Findings,” 10/2011, p. 2.
160. DoD, response to SIGAR data call, 10/11/2011; U.S. Army Command and General Staff College, School of Advanced Military
     Studies, “The Narcotics Insurgency Dilemma,” 5/2008, p. iii, 8.
161. USACE, “USACE Contributes to the Counter-narcotics Mission in Afghanistan,” 7/28/2011.
162. NTM-A, “Afghan Air Interdiction Unit Conducts First Integrated Counter Narcotics Operation,” 8/10/2011.
163. INL, response to SIGAR data call, 10/4/2011; INL, response to SIGAR vetting, 10/15/2011.
164. ISAF, “Provincial Governor Destroys Marijuana Fields, Enforces Government’s Rule of Law,” 9/9/2011.
165. DoD, response to SIGAR data call, 10/11/2011.
166. DoD, response to SIGAR data call, 10/11/2011.
167. ISAF, “Drug Find Is Largest in Partnership’s History,” 9/27/2011.
168. USACE, “USACE Contributes to the Counter-narcotics Mission in Afghanistan,” 7/28/2011.
169. INL, response to SIGAR data call, 10/4/2011.
170. INL, response to SIGAR data call, 10/4/2011.
171. DoD, response to SIGAR data call, 10/11/2011.
172. INL, response to SIGAR data call, 10/4/2011.
173. INL, response to SIGAR data call, 10/4/2011.
174. INL, response to SIGAR data call, 10/4/2011.
175. INL, response to SIGAR data call, 10/4/2011; INL, response to SIGAR vetting, 10/15/2011.
176. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 3.
177. CIMIC, “Afghanistan Weekly Review,” 8/16/2011, p. 2.
178. UNAMA, “With poll results now finalized, UN urges Afghan lawmakers to get to work,” 8/23/2011.
179. DoS, response to SIGAR data call, 10/6/2011.
180. UNAMA, “With poll results now finalized, UN urges Afghan lawmakers to get to work,” 8/23/2011.
181. DoS, response to SIGAR data call, 10/6/2011.
182. ISAF, “NATO and ISAF Leadership Join President Karzai in Condemning Murder of High Peace Council Chairman,” 9/20/2011;
     UNAMA, “UNAMA Condemns the Killing of Professor Rabbani,” 9/20/2011; White House, “Remarks by President Obama and
     President Karzai of Afghanistan before Bilateral Meeting,” 9/20/2011.
183. U.S. Embassy Kabul, Ambassador Ryan C. Crocker Statement Regarding the Assassination of Professor Rabbani, 9/22/2011.
184. U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report, July–August 2011,” 8/2011, p. 2.
185. DoS, response to SIGAR data call, 10/6/2011.
186. ISAF, “Press Briefing by Major General Phil Jones, Director, Force Reintegration Cell at ISAF,” 9/16/2011; DoS, response to
     SIGAR data call, 10/6/2011.; DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.




                                               158                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                      ENDNOTES




187. ISAF, “Press Briefing by Major General Phil Jones, Director, Force Reintegration Cell at ISAF,” 9/16/2011.
188. DoS, response to SIGAR data call, 10/6/2011.
189. ISAF, “Press Briefing by Major General Phil Jones, Director, Force Reintegration Cell at ISAF,” 9/16/2011; DoD, “DoD News
     Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.
190. DoS, response to SIGAR data call, 10/6/2011.
191. DoS, response to SIGAR data call, 10/6/2011.
192. DoS, response to SIGAR data call, 10/6/2011.
193. DoS, response to SIGAR data call, 10/6/2011.
194. DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.
195. DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.
196. DoS, response to SIGAR data call, 10/6/2011.
197. DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.
198. DoS, response to SIGAR data call, 10/6/2011.
199. DoS, response to SIGAR data call, 10/6/2011.
200. DoS, response to SIGAR data call, 10/6/2011.
201. DoS, response to SIGAR data call, 10/6/2011.
202. ISAF, “Press Briefing by Major General Phil Jones, Director, Force Reintegration Cell at ISAF,” 9/16/2011; DoD, “DoD News
     Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.
203. DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from Afghanistan,” 9/8/2011.
204. DoS, response to SIGAR data call, 10/6/2011.
205. DoS, response to SIGAR data call, 10/6/2011; DoD, “DoD News Briefing with Maj. Gen. Jones via Teleconference from
     Afghanistan,” 9/8/2011.
206. ISAF, “Press Briefing by Major General Phil Jones, Director, Force Reintegration Cell at ISAF,” 9/16/2011.
207. DoS, response to SIGAR data call, 10/6/2011.
208. ISAF, “Press Briefing by Major General Phil Jones, Director, Force Reintegration Cell at ISAF,” 9/16/2011.
209. DoS, response to SIGAR data call, 10/6/2011.
210. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 2.
211. DoS, response to SIGAR data call, 10/6/2011.
212. DoS, response to SIGAR data call, 10/6/2011.
213. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 3.
214. USAID, response to SIGAR data call, 10/3/2011.
215. USAID, response to SIGAR data call, 10/3/2011.
216. USAID, response to SIGAR data call, 10/3/2011.
217. U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report, July–August 2011,” 8/2011, pp. 3-4.
218. U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report, July–August 2011,” 8/2011, p. 3.
219. DoS, response to SIGAR data call, 10/6/2011.
220. DoS, response to SIGAR data call, 10/6/2011.
221. DoS, response to SIGAR data call, 10/6/2011.
222. DoS, response to SIGAR data call, 10/6/2011.
223. DoS, response to SIGAR data call, 10/6/2011.
224. DoS, response to SIGAR data call, 10/6/2011.




       REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011              159
                                                      ENDNOTES




225. DoS, response to SIGAR data call, 10/6/2011.
226. DoS, response to SIGAR data call, 10/6/2011.
227. DoS, response to SIGAR data call, 10/6/2011.
228. DoS, response to SIGAR data call, 4/13/2011.
229. DoS, response to SIGAR data call, 10/6/2011.
230. USAID, response to SIGAR data call, 10/3/2011.
231. USAID, response to SIGAR data call, 10/3/2011.
232. USAID, response to SIGAR data call, 10/3/2011.
233. USAID, response to SIGAR data call, 10/3/2011.
234. USAID, response to SIGAR data call, 10/3/2011. USAID, response to SIGAR data call, 10/3/2011.
236. USAID, response to SIGAR data call, 10/3/2011.
237. USAID, response to SIGAR data call, 10/3/2011.
238. USAID, response to SIGAR data call, 10/3/2011.
239. USAID, response to SIGAR data call, 10/3/2011.
240. USAID, response to SIGAR data call, 10/3/2011.
241. USAID, response to SIGAR data call, 10/3/2011.
242. USAID, response to SIGAR data call, 10/3/2011.
243. USAID, response to SIGAR data call, 7/4/2011.
244. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011,
     pp. 7–8.
245. DoS/INL, response to SIGAR data call, 10/4/2011.
246. DoS/INL, response to SIGAR data call, 10/4/2011.
247. DoS/INL, response to SIGAR data call, 10/4/2011.
248. DoS/INL, response to SIGAR data call, 10/4/2011.
249. DoS/INL, response to SIGAR data call, 10/4/2011.
250. DoS/INL, response to SIGAR data call, 10/4/2011; GAO, “Afghanistan Security: U.S. Programs to Further Reform Ministry of
     Interior and National Police Challenged by Lack of Military Personnel and Afghan Cooperation,” 3/9/2009.
251. DoS/INL, response to SIGAR data call, 10/4/2011.
252. DoS/INL, response to SIGAR data call, 10/4/2011.
253. U.S. Embassy Kabul, “U.S. Allocates $268 Million for Afghan Justice and Counternarcotics Programs,” 9/2011.
254. U.S. Embassy Kabul, “U.S. Allocates $268 Million for Afghan Justice and Counternarcotics Programs,” 9/2011.
255. U.S. Embassy Kabul, “U.S. Allocates $268 Million for Afghan Justice and Counternarcotics Programs,” 9/2011.
256. USAID, response to SIGAR data call, 10/3/2011.
257. USAID, response to SIGAR data call, 10/3/2011.
258. USAID, “Two Justice Systems Work Together,” 7/24/2011.
259. USAID, “Two Justice Systems Work Together,” 7/24/2011.
260. USAID, “Two Justice Systems Work Together,” 7/24/2011.
261. USAID, “Afghan Law Schools Improve Legal Education and Services,” 7/30/2011.
262. USAID, response to SIGAR data call, 10/3/2011.
263. USAID, “Afghan Law Schools Improve Legal Education and Services,” 7/30/2011.
264. USAID, response to SIGAR data call, 10/3/2011; USAID, response to SIGAR vetting, 10/17/2011.




                                              160                SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                                                      ENDNOTES




265. Defense Video & Imagery Distribution System, 2nd Marine Division, Cpl. Marco Mancha, “Nawa Celebrates Opening of New
     Justice Center,” 8/2/2011.
266. DoS/INL, response to SIGAR vetting, 10/14/2011; INL, response to SIGAR data call, 10/4/2011; INL, response to SIGAR data call,
     1/6/2011.
267. DoS/INL, response to SIGAR data call, 10/4/2011.
268. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011,
     pp. 7–8; DoS/INL, response to SIGAR vetting, 7/18/2011.
269. DoS/INL, response to SIGAR data call, 10/4/2011.
270. DoS/INL, response to SIGAR data call, 10/4/2011.
271. DoS, response to SIGAR data call, 10/6/2011.
272. U.K. Foreign and Commonwealth Office, “Afghanistan Monthly Progress Report, July–August 2011,” 8/2011, p. 3.
273. DoS, response to SIGAR data call, 10/6/2011.
274. DoS, response to SIGAR data call, 10/6/2011.
275. DoS, response to SIGAR data call, 10/6/2011.
276. DoS/INL, response to SIGAR data call, 10/4/2011.
277. DoS/INL, response to SIGAR data call, 10/4/2011; DoS, response to SIGAR data call, 10/6/2011.
278. DoS, response to SIGAR data call, 10/6/2011.
279. DoS/INL, response to SIGAR data call, 10/4/2011.
280. DoS/INL, response to SIGAR data call, 10/4/2011; DoS, response to SIGAR data call, 10/6/2011.
281. DoS/INL, response to SIGAR data call, 10/4/2011.
282. DoS/INL, response to SIGAR data call, 10/4/2011.
283. DoS/INL, response to SIGAR data call, 10/4/2011.
284. DoS/INL, response to SIGAR data call, 10/4/2011.
285. DoS, response to SIGAR data call, 10/6/2011.
286. DoS, response to SIGAR data call, 10/6/2011.
287. DoS, response to SIGAR data call, 10/6/2011.
288. DoS, response to SIGAR data call, 10/6/2011.
289. Brigadier General Stephen J. Townsend, Written Testimony before the Committee for Oversight and Government Reform’s
     Subcommittee on National Security and Foreign Affairs, 9/15/2011.
290. Brigadier General Stephen J. Townsend, Written Testimony before the Committee for Oversight and Government Reform’s
     Subcommittee on National Security and Foreign Affairs, 9/15/2011; OSD, response to SIGAR data call, 10/11/2011.
291. UNAMA, “Executive Summary, Detention Report,” 10/10/2011; Dos/INL, response to SIGAR vetting, 10/18/2011.
292. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 6.
293. DoS/INL, response to SIGAR vetting, 4/14/2011.
294. DoS/INL, response to SIGAR vetting, 4/14/2011.
295. DoS, response to SIGAR data call, 10/6/2011.
296. UN Secretary-General, “The Situation in Afghanistan and Its Implications for International Peace and Security,” 9/21/2011, p. 7.
297. DoS, “2011 Trafficking in Persons Report,” 6/27/2011, p. 62.
298. DoS, “2011 Trafficking in Persons Report,” 6/27/2011, p. 62.
299. DoS, “2011 Trafficking in Persons Report,” 6/27/2011, p. 62.
300. DoS, “2011 Trafficking in Persons Report,” 6/27/2011, p. 62.




       REPORT TO THE UNITED STATES CONGRESS     I   OCTOBER 30, 2011             161
                                                      ENDNOTES




301. DoS, “2011 Trafficking in Persons Report,” 6/27/2011, p. 62.
302. AIHRC, “Summary Report on Investigation of Causes and Factors of Trafficking in Women and Children,” July 2011.
303. DoS, “Joint Statement of the Co-Chairs of the Ministerial Meeting on the New Silk Road,” 9/22/2011; DoS, “New Silk Road
     Ministerial Fact Sheet,” 9/22/2011.
304. USAID, “How Afghanistan Is Rebuilding Itself,” 9/9/2011, accessed 9/15/2011.
305. IMF, “World Economic Outlook Database: September 2011,” accessed 9/23/2011.
306. SIGAR, “Quarterly Report to the Congress,” 7/30/2011, p. 45.
307. CIA, World Factbook, “South Asia: Afghanistan,” updated 8/23/2011, accessed 9/17/2011; World Bank, “Afghanistan Economic
     Update May 2011,” accessed 10/5/2011; Afghanistan Central Statistics Organization, “Sectoral Contribution as % of GDP,”
     accessed 10/5/2011.
308. GAO, Report 11-948R, “Afghanistan’s Donor Dependence,” 9/20/2011, p. 17.
309. WFP, “Afghanistan Market Price Bulletin,” 9/2011.
310. FAO/GIEWS, “Country Briefs: Afghanistan,” 8/12/2011.
311. WFP, “Afghanistan Market Price Bulletin,” 9/2011.
312. GAO, Report 11-948R, “Afghanistan’s Donor Dependence,” 9/20/2011, p. 3.
313. GAO, Report 11-948R, “Afghanistan’s Donor Dependence,” 9/20/2011, p. 3.
314. SIGAR, “Quarterly Report to the Congress,” 7/30/2010, pp. 3–4.
315. SIGAR, “Quarterly Report to the Congress,” 7/30/2011, p. 98.
316. GIRoA and World Bank, joint press release, “Afghanistan New ARTF Grant Aims to Drive More Donor Funding to National
     Budget Through Improved Public Financial Management System,” 8/9/2011.
317. SIGAR, “Quarterly Report to the Congress,” 7/30/2011, p. 98.
318. USAID, response to SIGAR data call, 10/6/2011.
319. Treasury, response to SIGAR data call, 6/29/2011.
320. Treasury, response to SIGAR data call, 10/4/2011.
321. Treasury, response to SIGAR data call, 10/4/2011.
322. Treasury, response to SIGAR data call, 10/4/2011.
323. IMF, press release, “Statement of an IMF Mission on Afghanistan,” 9/26/2010; IMF, “IMF Reaches Staff Level Agreement with
     the Islamic Republic of Afghanistan on a US$129 Million Extended Credit Facility Arrangement, and Concludes the 2011
     Article IV Consultations Staff Mission,” 10/6/2011.
324. UNAMA, “WJ Proceedings Summary October 2011.”
325. IMF, press release, “Statement of an IMF Mission on Afghanistan,” 9/26/2010; IMF, “IMF Reaches Staff Level Agreement with
     the Islamic Republic of Afghanistan on a US$129 Million Extended Credit Facility Arrangement, and Concludes the 2011
     Article IV Consultations Staff Mission,” 10/6/2011.
326. Treasury, response to SIGAR data call, 10/4/2011.
327. Treasury, response to SIGAR data call, 10/4/2011.
328. World Bank, press release, “Auditing Commercial Banks and Modernizing the National Payment System Are Core Focuses of
     $19 Million World Bank Grant,” 8/25/2011.
329. Britni Must, Kathleen Ludewig and John Erickson, “Mobile Money: Cell Phone Banking in Developing Countries,”
     PolicyMatters, Spring 2010, pp. 27–28.
330. CIMIC, “Mobile Phone–Based Banking: Status and Prospects in Afghanistan,” 9/2011, p. 1.
331. GIRoA, MCIT, “Telecom Statistics End of March 2011,” accessed 9/18/2011.




                                               162                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                         ENDNOTES




332. CIMIC, “Mobile Phone–Based Banking: Status and Prospects in Afghanistan,” 9/2011, pp. 2–3.
333. USAID, press release, “USAID Administrator Recognizes Progress and Encourages the Expansion of Mobile Money in
     Afghanistan,” 8/24/2011.
334. TFBSO, response to SIGAR data call, 10/19/2011.
335. DoS, “Remarks of U.S. Secretary of State Clinton at the New Silk Road Ministerial Meeting,” 9/22/2011.
336. USAID, response to SIGAR data call, 10/3/2011.
337. DoS, “Joint Statement of the Co-Chairs of the Ministerial Meeting on the New Silk Road,” 9/22/2011.
338. DoS, response to SIGAR data call, 10/6/2011.
339. DoS, response to SIGAR data call, 10/6/2011.
340. USAID, response to SIGAR data call, 10/3/2011.
341. FAO/GIEWS, “Country Briefs: Afghanistan,” 8/12/2011.
342. FAO/GIEWS, “Country Briefs: Afghanistan,” 8/12/2011.
343. FAO/GIEWS, “Country Briefs: Afghanistan,” 8/12/2011.
344. CIMIC, “Afghanistan Review,” Week 34, 8/23/2011, p. 1
345. TFSBO, “FY 2011 Projects in Afghanistan,” 1/7/2011; USDA, “GAIN Report 2011, Raisins,” 7/18/2011; SIGAR, Audit 11-18,
     “Actions Needed To Better Assess and Coordinate Capacity-Building Efforts at the Ministry of Agriculture, Irrigation, and
     Livestock,” 10/2011, p. iii.
347. USAID, press release, “New Food Testing Laboratory Will Reduce Customs Delays,” 9/18/2011; USAID, “How Afghanistan Is
     Rebuilding Itself,” 9/9/2011, accessed 9/15/2011.
348. USAID, press release, “Afghanistan’s First Cashmere Dehairing Facility Inaugurated,” 7/31/2011.
349. SIGAR, “Quarterly Report to the Congress,” 1/30/2011, p. 97.
350. EC, List of Airlines Banned within the EU, 4/21/2011.
351. East Horizon Airlines, “About Us,” accessed 9/24/2011.
352. USAID, response to SIGAR data call, 10/3/2011.
353. Treasury, response to SIGAR data call, 10/6/2011.
354. OPIC, press release, “OPIC, USAID and Afghan Government Partner to Develop Landmark Natural Gas Project,” 9/22/2011.
355. OPIC, press release, “OPIC, USAID and Afghan Government Partner to Develop Landmark Natural Gas Project,” 9/22/2011;
     USAID, response to SIGAR data call, 10/18/2011.
356. OPIC, press release, “OPIC, USAID and Afghan Government Partner to Develop Landmark Natural Gas Project,” 9/22/2011.
357. USAID, DoS, and GIRoA, joint press release, “U.S. Government Builds a State-of-the-Art Power Control Center in Kabul,”
     8/24/2011; DoS, Remarks of U.S. Secretary of State Clinton at the New Silk Road Ministerial Meeting, 9/22/2011.
358. USAID, DoS, and GIRoA, joint press release, “U.S. Government Builds a State-of-the-Art Power Control Center in Kabul,” 8/24/2011;
     DoS, “Remarks of U.S. Secretary of State Clinton at the New Silk Road Ministerial Meeting,” 9/22/2011; USAID, response to SIGAR
     data call, 10/ 18/ 2011.
359. USAID, response to SIGAR data call, 10/3/2011; USAID, response to SIGAR data call, 10/18/2011.
360. Bloomberg, “China Expands Lead in Afghan Commodities by Adding Oil to Copper Mine Plan,” 9/12/2011.
361. USGS, press release, “USGS Releases Results of Afghan Mineral Studies,” 9/29/2011.
362. USGS, Fact Sheet, “Summaries and Data Packages of Important Areas for Mineral Investment and Production Opportunities in
     Afghanistan,” September 2011; USGS, press release, “USGS Releases Results of Afghan Mineral Studies,” 9/29/2011.
363. USGS, press release, “USGS Releases Results of Afghan Mineral Studies,” 9/29/2011.
364. USGS, press release, “USGS Releases Results of Afghan Mineral Studies,” 9/29/2011.




       REPORT TO THE UNITED STATES CONGRESS      I   OCTOBER 30, 2011             163
                                                     ENDNOTES




365. USGS, Fact Sheet, “Summaries and Data Packages of Important Areas for Mineral Investment and Production opportunities in
     Afghanistan,” 9/2011.
366. USGS, Fact Sheet, “Summaries and Data Packages of Important Areas for Mineral Investment and Production opportunities in
     Afghanistan,” 9/2011.
367. USGS, Fact Sheet, “Summaries and Data Packages of Important Areas for Mineral Investment and Production opportunities in
     Afghanistan,” 9/2011.
368. World Bank, press release, “New ARTF Grant Aims at Further Improving Education Quality and Infrastructure,” 7/24/2011.
369. World Bank, press release, “New ARTF Grant Aims at Further Improving Education Quality and Infrastructure,” 7/24/2011.
370. World Bank, press release, “New ARTF Grant Aims at Further Improving Education Quality and Infrastructure,” 7/24/2011.
371. UN/IRIN, “Afghanistan: Stepping Up the Fight Against Polio,” 9/15/2011; Global Polio Eradication Initiative, “Infected
     Countries: Afghanistan,” accessed 9/13/2011.
372. UNAMA, “UN Urges Greater Humanitarian Access to Vaccinate Against Polio,” 9/17/2011.
373. UN/IRIN, “Afghanistan: Stepping Up the Fight Against Polio,” 9/15/2011.
374. UNAMA, “UN Urges Greater Humanitarian Access to Vaccinate Against Polio,” 9/17/2011.
375. UNAMA, “UN Urges Greater Humanitarian Access to Vaccinate Against Polio,” 9/17/2011; Global Polio Eradication Initiative,
     “October 12, 2011 Update,” accessed 10/15/2011.
376. SIGAR, “Quarterly Report to the Congress,” 1/30/2011, pp. 93–94.
377. DoS/USAID, response to SIGAR data call, 10/3/2011.
378. ATRA, “Invitation to Bid: 3G Broadband Mobile License for Afghanistan,” accessed 9/24/2011; ATRA, “What is a 3G Network?”
     accessed 9/24/2011.
379. TFSBO, “FY2011 Projects in Afghanistan,” 1/7/2011; USDA, “GAIN Report, 2011 Raisin Annual,” 7/18/2011; TFSBO, press
     release, “TFBSO Launches First-Ever IT Incubator in Afghanistan,” 5/24/2011.




                                              164                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
Cover Captions (clockwise from the left):
An Afghan police officer reads aloud from a
Pashtu-English dictionary as part of a literacy
program funded by U.S. reconstruction funds.
The goal of the Afghan National Police is for
all personnel to be literate by 2016.
(ISAF photo)

A medical team fixes a broken leg at the ANA
Regional Military Hospital at Camp Shaheen
in Balkh province. Members of Regional
Support Command–North and a Swedish
anesthesiologist provided operating room
support alongside Afghan medical personnel.
(U.S. Navy photo, Chief MC Michael Ard)

The governor of Kandahar stands in a
marijuana field on September 5 just before
it was destroyed. This quarter, interdiction
operations continued throughout the country,
including the largest-ever seizure of opium
and other narcotics by Afghan and coalition
forces on September 26 in Helmand
province. (ISAF photo)

Children cross a river on a newly constructed
bridge in Paktiya province on August 28.
Built by the Afghan government and the
Paktiya PRT, the 50-meter suspension bridge
gives neighboring villagers safe access to
                                                    An Afghan bread maker prepares to throw a slab of dough into an oven in Nawa,
the district center, clinic, religious school,
                                                  Helmand province. Bread makers work more than 10 hours a day to serve local police
and bazaar in Waze Zadran. (U.S. Air Force
                                                   precincts and patrol bases. They buy the flour from area farmers, who have greatly
photo, 1st Lt. Cammie Quinn)
                                                    benefited from the wheat seed distribution program run by the local government.
                                                                     (U.S. Marine Corps photo, Cpl Marco Mancha)
SIGAR
SPECIAL INSPECTOR GENERAL


                                                                                                         SIGAR                  Special Inspector General for   OCT 30




                                 SIGAR | QUARTERLY REPORT TO THE UNITED STATES CONGRESS | OCT 30, 2011
FOR AFGHANISTAN RECONSTRUCTION
                                                                                                                                Afghanistan Reconstruction       2011
400 Army Navy Drive
Arlington, VA 22202-4704




                                 4                                                                       QUARTERLY REPORT TO THE UNITED STATES CONGRESS
